<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2009</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2009 
_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION
                                ________

                         SUBCOMMITTEE ON DEFENSE

                 JOHN P. MURTHA, Pennsylvania, Chairman

 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 PETER J. VISCLOSKY, Indiana        DAVID L. HOBSON, Ohio
 JAMES P. MORAN, Virginia           RODNEY P. FRELINGHUYSEN, New Jersey
 MARCY KAPTUR, Ohio                 TODD TIAHRT, Kansas
 ROBERT E. ``BUD'' CRAMER, Jr.,     JACK KINGSTON, Georgia
   Alabama                          KAY GRANGER, Texas
 ALLEN BOYD, Florida
 STEVEN R. ROTHMAN, New Jersey
 SANFORD D. BISHOP, Jr., Georgia    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

 Paul Juola, Greg Lankler, Sarah Young, Paul Terry, Kris Mallard, Linda 
   Pagelsen, Adam Harris, Ann Reese, Tim Prince, Brooke Boyer, Matt 
Washington, B G Wright, Chris White, Celes Hughes, and Adrienne Ramsay, 
                  Staff Assistants
                  Sherry L. Young, Administrative Aide
                                ________
                                 PART 1
                                                                   Page
 Army Contracting Task Force......................................    1
 Government Accountability Office.................................   93
 Department of Defense Outsourcing................................  147
 F-15 Aircraft....................................................  215
 Force Health Protection--Post-Traumatic Stress Disorder and 
Traumatic Brain Injury............................................  255
                                ________

         Printed for the use of the Committee on Appropriations















         PART 1--DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2009





















                                                              
             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2009
_______________________________________________________________________
_______________________________________________________________________





                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION
                                ________
                         SUBCOMMITTEE ON DEFENSE

                 JOHN P. MURTHA, Pennsylvania, Chairman
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 PETER J. VISCLOSKY, Indiana        DAVID L. HOBSON, Ohio
 JAMES P. MORAN, Virginia           RODNEY P. FRELINGHUYSEN, New Jersey
 MARCY KAPTUR, Ohio                 TODD TIAHRT, Kansas
 ROBERT E. ``BUD'' CRAMER, Jr.,     JACK KINGSTON, Georgia
   Alabama                          KAY GRANGER, Texas
 ALLEN BOYD, Florida
 STEVEN R. ROTHMAN, New Jersey
 SANFORD D. BISHOP, Jr., Georgia    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
 Paul Juola, Greg Lankler, Sarah Young, Paul Terry, Kris Mallard, Linda 
   Pagelsen, Adam Harris, Ann Reese, Tim Prince, Brooke Boyer, Matt 
Washington, B G Wright, Chris White, Celes Hughes, and Adrienne Ramsay, 
                            Staff Assistants
                  Sherry L. Young, Administrative Aide
                                ________
                                 PART 1
                                                                   Page
 Army Contracting Task Force......................................    1
 Government Accountability Office.................................   93
 Department of Defense Outsourcing................................  147
 F-15 Aircraft....................................................  215
 Force Health Protection--Post-Traumatic Stress Disorder and 
Traumatic Brain Injury............................................  255
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 46-473                     WASHINGTON : 2009



















                       COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 JOHN P. MURTHA, Pennsylvania       JERRY LEWIS, California
 NORMAN D. DICKS, Washington        C. W. BILL YOUNG, Florida
 ALAN B. MOLLOHAN, West Virginia    RALPH REGULA, Ohio
 MARCY KAPTUR, Ohio                 HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana        FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York            JAMES T. WALSH, New York
 JOSE E. SERRANO, New York          DAVID L. HOBSON, Ohio
 ROSA L. DeLAURO, Connecticut       JOE KNOLLENBERG, Michigan
 JAMES P. MORAN, Virginia           JACK KINGSTON, Georgia
 JOHN W. OLVER, Massachusetts       RODNEY P. FRELINGHUYSEN, New Jersey
 ED PASTOR, Arizona                 TODD TIAHRT, Kansas
 DAVID E. PRICE, North Carolina     ZACH WAMP, Tennessee
 CHET EDWARDS, Texas                TOM LATHAM, Iowa
 ROBERT E. ``BUD'' CRAMER, Jr.,     ROBERT B. ADERHOLT, Alabama
   Alabama                          JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island   KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York       JOHN E. PETERSON, Pennsylvania
 LUCILLE ROYBAL-ALLARD, California  VIRGIL H. GOODE, Jr., Virginia
 SAM FARR, California               RAY LaHOOD, Illinois
 JESSE L. JACKSON, Jr., Illinois    DAVE WELDON, Florida
 CAROLYN C. KILPATRICK, Michigan    MICHAEL K. SIMPSON, Idaho
 ALLEN BOYD, Florida                JOHN ABNEY CULBERSON, Texas
 CHAKA FATTAH, Pennsylvania         MARK STEVEN KIRK, Illinois
 STEVEN R. ROTHMAN, New Jersey      ANDER CRENSHAW, Florida
 SANFORD D. BISHOP, Jr., Georgia    DENNIS R. REHBERG, Montana
 MARION BERRY, Arkansas             JOHN R. CARTER, Texas
 BARBARA LEE, California            RODNEY ALEXANDER, Louisiana
 TOM UDALL, New Mexico              KEN CALVERT, California
 ADAM SCHIFF, California            JO BONNER, Alabama
 MICHAEL HONDA, California
 BETTY McCOLLUM, Minnesota
 STEVE ISRAEL, New York
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, 
   Maryland
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida
 CIRO RODRIGUEZ, Texas              
                  Rob Nabors, Clerk and Staff Director

                                  (ii)














             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2009 

                              ----------                              

                                       Wednesday, January 23, 2008.

                      ARMY CONTRACTING TASK FORCE

                               WITNESSES

LIEUTENANT GENERAL N. ROSS THOMPSON, MILITARY DEPUTY TO THE ASSISTANT 
    SECRETARY OF THE ARMY, ACQUISITION, LOGISTICS AND TECHNOLOGY
DANIEL M. QUINN, CHIEF OF STAFF, U.S. ARMY CRIMINAL INVESTIGATION 
    COMMAND

                              Introduction

    Mr. Murtha. We will welcome the two gentlemen to the 
Committee. All of us in the Committee are concerned about the 
stories we have read, but also the reports we have had about 
the corruption in the sole source contracting that we have 
seen. So we will be very interested to hear if there has been 
an improvement. I know I talked to Secretary Gates about it. 
And he said to me that he had complete confidence in Secretary 
Geren. I think the same way. I think Secretary Geren really has 
tried to get it under control. But we need, since we control 
the money, we need to hear from you what the situation is and 
how you see improvements.
    Last year, at the request of Moran, we put in 500 GSA 
contracting officers to shift over from GSA to the Army. I 
don't know whatever happened to it in the bill itself, but we 
put it in the House side, and whether it got through the 
conference I don't remember. But at any rate, we knew it was a 
problem last year, we tried to address it. But we are 
interested to hear what you have to say about it. But welcome 
to the Committee, and we will hear from Mr. Young.
    Mr. Young. Mr. Chairman, I move that those portions of the 
hearing today which involve classified material be held in 
executive session because of the classification of the material 
to be discussed.
    Mr. Murtha. We will call the role. The question is on the 
motion. Those in favor say aye. Aye. Opposed, no. The ayes have 
it. The hearing is closed. Any comments, Mr. Young?

                          Remarks of Mr. Young

    Mr. Young. Mr. Chairman, I have no opening comments. What 
we are dealing with today is not a new problem. It didn't start 
with these gentlemen that are here today. And it may not end 
with these gentlemen here today. But I think it is important 
that we do review the issues thoroughly as we can. So I 
appreciate your scheduling this hearing this morning.
    Mr. Murtha. Welcome to the Committee, General Thompson. I 
want you to know that General Cody made sure he told me what 
confidence he has in you. Colonel McCaleb has the greatest 
confidence in you. So with that, we will be interested in 
hearing what you have to say.

                 Summary Statement of General Thompson

    General Thompson. Well, sir, thank you, Chairman Murtha and 
Congressman Young, distinguished members of the subcommittee.
    (Cell phone rings.)
    General Thompson. The good news is it was not mine, sir. 
Joining me today is Mr. Dan Quinn.
    Mr. Murtha. I will tell you a story. The first time I ever 
saw a telephone, a big telephone about this big, Cheney had 
one. And it was sitting when he was there, and the damn thing 
rang, and he did not know how to turn it on or off. It was 
about this big, if you remember the old telephones. Go ahead.
    General Thompson. Sir, with me today is Dan Quinn, who is 
the chief of staff for the Criminal Investigation Command in 
the Army. And he and I will try to address the questions that 
you have and the members of the Committee have.
    Mr. Murtha. You have to speak right into the microphone, 
because this room is not the best.
    General Thompson. Is that better, sir?
    Mr. Murtha. Yeah.
    General Thompson. Thanks for the opportunity to appear 
today before the Committee. And I am going to talk about the 
Army's comprehensive and ongoing efforts to ensure that 
policies and procedures are in place for all joint, 
expeditionary contracting operations, not just today, but in 
the future. I have a written statement that I respectfully 
request be made part of the record for today's hearing.
    Mr. Murtha. Without objection.

                 Summary Statement of General Thompson

    General Thompson. And my opening remarks this morning will 
be brief. But Mr. Chairman, before I start, I would like to 
thank the Committee, its members, and the Committee leadership 
for your unwavering support of the men and women in uniform. 
Mr. Chairman, as you know, the Secretary of the Army created a 
special commission on contracting led by Dr. Jacques Gansler to 
look at long-term strategic view of the Army's acquisition and 
contracting system to support expeditionary operations. In 
parallel with that effort, the Army Contracting Task Force, 
which I co-chaired with Ms. Kathryn Condon, who is the 
Executive Deputy for the Army Materiel Command, looked 
together, along with the Gansler Commission, to look at current 
contracting operations. And we took immediate actions where 
necessary. The Gansler Commission had 14 recommendations for 
improvement. And they were consistent with the Army Contracting 
Task Force's findings. And the Army is making steady progress 
in addressing the structural weaknesses and shortcomings 
identified.


                   gansler commission recommendations


    In a recent assessment, the Army has taken significant or 
partial action on 21 of the 27 Gansler Commission 
recommendations that are specific to the Army. Some of the 
Gansler Commission recommendations of the total of 40 were 
specific to OSD. And we are working together with OSD to 
address those as well. My written statement outlines the major 
actions taken to date, which include accelerating plans to set 
up the contracting structure recommended by the Commission, and 
increase the size of the contracting workforce. The Army has 
approved a two star-level Army Contracting Command organization 
under the Army Materiel Command, and there will be two 
subordinate commands, a one-star expeditionary contracting 
command and a restructured one-star level installation 
contracting organization.


                        army contracting command


    We have identified the individuals to lead those 
organizations. And in addition, we plan to grow our military 
contracting structure and our civilian contracting workforce in 
line with the Commission recommendations. As a result of the 
ongoing operations in Southwest Asia, the Army has increased 
its focus on contingency contracting. Up until a year ago, we 
did not have a defined structure to support expeditionary 
operations or to support a modular Army. We began about 3 years 
ago to identify the need for that structure and put all the 
processes and procedures in place to establish that structure. 
I will talk about that today during the hearing. We have got a 
contingency contracting structure that consists of Contracting 
Support Brigades. And these are very small brigades in number.
    The brigade headquarters is only 19 people. We have got 
contingency contracting battalions and four-person contingency 
contracting teams. And these are all military. We are beginning 
to fill with trained military contracting officers and 
noncommissioned officers the four brigades, six battalions, and 
121 teams that were previously established. In the last 4 
months, we have made the case inside the Army, and we are going 
to expand that structure by adding three more brigades, five 
battalions, and 51 additional teams. And we believe this will 
give us the military structure in order to meet the 
expeditionary contracting requirements.
    In the last year in Kuwait, the Army augmented the staff to 
make sure the commander there had the resources he needed to 
deal with the present workload. Part of that workload was the 
orderly transfer of existing and any future major contract 
actions to the Acquisition Center at Rock Island, Illinois, 
under the Army Materiel Command. At present, we have 
transferred from Kuwait contract actions valued at 
approximately $800 million. The Army has completed a 
comprehensive review of all of the Kuwait contract files from 
fiscal year 2003 to fiscal year 2006. And any actions that were 
found with potential fraud indicators that had not already been 
under investigation by the Criminal Investigation Command have 
been turned over to CID for further investigation.
    The Army conducted the audits and investigations into the 
oversight, the execution, and the management of contracting in 
the theater of operations. And these audits and investigations 
are ongoing today. The vast majority of our military and 
civilian contracting personnel who award and manage contracts 
perform well in extreme conditions, but the auditors and 
investigators did discover cases of potential fraud, and some 
of the worst cases originating in Kuwait. Mr. Chairman, 
upholding the highest ethical standards, while discharging our 
duties, is of paramount concern to the Acquisition Corps and to 
the Army.

                         CONTRACTING WORKFORCE

    Even though of we have confidence in the talent and 
professionalism of the contracting workforce, we must remain 
vigilant at all times. We are actively engaged with the 
Department of Defense efforts to eliminate all areas of 
vulnerability in contracting. A critically important issue is 
the size, structure, and training of the military and civilian 
contracting workforce. The acquisition workforce has declined 
significantly in the last decade. And the workload and the 
number of dollars associated with that workload have increased 
significantly. The Army has never fought an extended conflict 
that required such reliance on contractor support.
    We are addressing the need to expand, train, structure, and 
empower our contracting personnel to support the full range of 
military operations. We are developing a detailed contracting 
campaign plan to implement the necessary changes to 
contracting, incorporating improvements in doctrine, 
organization, training, leadership, and materiel. We are 
partnering with the Defense Acquisition University and State 
and local universities to incorporate the necessary contracting 
courses into their curriculum. In addition, 12 professional 
military education courses inside the Army have new or enhanced 
subject matter on expeditionary contracting, with additional 
courses under examination for insertion of expeditionary 
contracting-related material. The Army is putting plans in 
place to capture expeditionary contracting lessons learned by 
formally interviewing units and individuals as they return from 
theater, and incorporating these findings into doctrine, 
training guides, and user handbooks. Our goal is to bring more 
qualified, trained individuals into the workforce at an 
accelerated pace, and ultimately perform at the journeyman 
level in a shorter period of time. We are working closely with 
OSD, and are in discussions with the leaders of the contracting 
communities in the Navy, the Air Force, and the Defense 
Logistics Agency to look at areas of increased collaboration 
and workload distribution. Mr. Chairman, this concludes my 
opening remarks, and I look forward to your questions.
    [The statement of Lieutenant General N. Ross Thompson 
follows:]

[GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]

    Mr. Murtha. Mr. Quinn.
    Mr. Quinn. Mr. Chairman, I don't have any opening remarks. 
I would just like to say that it is a pleasure to be here 
today. I am prepared to answer any questions on the ongoing 
investigations to the best of my ability. And as mentioned in 
the opening remarks from General Thompson, this is a team 
effort on auditors, investigators, and in the contracting 
command. Thank you, Mr. Chairman.

                           CONTRACT OVERSIGHT

    Mr. Murtha. Let me ask you just a couple questions and then 
ask Mr. Young. Explain, we talked privately before the hearing 
started about the three different things that we are interested 
in, sole-source contracts, the corruption going on, the 
investigation itself, and you said there are three different 
things--oh, I know the arms. The arms problem we had with the 
small arms disappearing, whatever percentage it is. But explain 
what those three separate investigations are.

                         WEAPONS ACCOUNTABILITY

    General Thompson. Yes, sir. The Gansler Commission and the 
Army internal Contracting Task Force were looking primarily at 
issues related to the fraud and the investigations. There has 
been a lot of media interest and congressional interest lately 
in the weapons accountability. And that is an area that we did 
not look at that is being looked at separately by the DOD IG, 
General Kicklighter. And then there was the other issue----
    Mr. Murtha, Let me ask you, were you involved in that, Mr. 
Quinn, at all?
    Mr. Quinn. We assisted General Kicklighter and his folks 
running leads for him over in theater, but it was really under 
their auspices that they looked at the weapons side of that, 
sir.
    Mr. Murtha. How did you find out in the first place that 
weapons were missing?
    Mr. Quinn. Mr. Chairman, CID started seeing weapons coming 
up missing as there were reported thefts out of depots and 
warehouses over there. I think we initiated six or seven 
different cases that showed the weapons losses. The DOD IG then 
picked up through other channels that there were some weapons 
leaking across the borders outside of Iraq and into neighboring 
countries. So they opened the investigation to see where these 
weapons were coming from. We then assisted them in taking a 
look and seeing if any of these weapons that were showing up in 
foreign countries were also weapons that had been stolen from 
Army depots or depots set up over in theater. That effort is 
still ongoing. And we have still got agents working with DOD 
IG.
    Mr. Murtha. You have any idea what the percentage that were 
missing from the original numbers that were sent over there?
    Mr. Quinn. Mr. Chairman. I do not. The DOD IG may have a 
better handle on it because they are running it down the rabbit 
hole by serial number trying to get control over where they are 
at.

                           CONTRACT OVERSIGHT

    Mr. Murtha. Okay. Go ahead with the three areas.
    General Thompson. Sir, and the third major area is the 
issue of the private security contractors and the control of 
the private security contractors. And there has been a lot of 
work, collaborative work that has gone on between the 
Department of Defense and the Department of State to include a 
formal memorandum of agreement between those two government 
agencies. In December, enhanced procedures put in place by the 
Multinational Force Iraq to better get a handle on the private 
security contractors and their control. And again that is not 
an area that either the Gansler Commission or the Army looked 
at internally. That was done at the DOD level working directly 
with the State Department.

                         SOLE SOURCE CONTRACTS

    Mr. Murtha. Do we have any idea at this point how many 
contracts are sole source contracts?
    General Thompson. No, sir. I could take that for the 
record. I do know that, looking at the information from the 
Joint Contracting Command in Iraq that about 25 percent of the 
contracts that they let in 2007 were sole source contracts. And 
the procedures were followed, as we do typically when we go--
you know, the objective always is to do full and open 
competition. There are seven exceptions where you can use sole 
source contracts.
    Mr. Murtha. If you would get for the Committee the 
percentage and the amount of money that was involved.
    [The information follows:]

    The Department of Defense has not awarded any Sole Source 
Private Security Contracts. All contracts have been awarded 
using full and open competition.

    General Thompson. All right, sir.

                           EXAMPLES OF FRAUD

    Mr. Murtha. Mr. Young.
    Mr. Young. Mr. Quinn, I think you said there were some 80 
indictments so far in this investigation?
    Mr. Quinn. Congressman Young, no, we have got currently 87 
ongoing investigations that look at Kuwait, Iraq, Afghanistan 
that go into providing support to the soldiers over there in 
theater. So 87 ongoing investigations. That is out of 135 that 
we have initiated. The remainder we have closed. Indictments, I 
believe the number is 19 individuals have been indicted so far.
    Mr. Young. Can you give us a couple of examples of how the 
Army is being ripped off by these contractors? What type of 
fraud is being committed? How are they stealing? Give us a 
couple examples.
    Mr. Quinn. Congressman Young, it spans the gamut from what 
we have seen over there. We have seen bribes as low as $2,500 
being taken by individuals. We see double billing. We see 
product substitution, when we ask for product A and we get 
product B in. And we get the bid rigging of the contracts going 
over there because of bribery. The biggest thing that we have 
seen over there is on the bribery side of the house. It was 
just so much money, and a lot of it in cash, that bribery is 
probably the number one issue that we have looked at.
    Mr. Young. Who is bribing and who is getting bribed?
    Mr. Quinn. I mentioned, Congressman, that we had 19 
individuals so far that have been indicted or arrested. That is 
military and civilian. That number may grow as high as a 
hundred that we are looking at over there. We are looking at 
military officers, enlisted, we are looking at civilians, 
government employees that have accepted bribes. And then we are 
also looking at contractors themselves that are offering 
bribes. And not only to the contracting officials, but also to 
unit level representatives that are maybe escorting fuel trucks 
and have them look the other way as fuel is diverted. The 
actual contracting officials that we are looking at is probably 
only 20, 25 percent. The rest of them are other individuals 
over there in the force.

                            FRAUD PREVENTION

    Mr, Young. Well, General Thompson, what is the Army doing 
to try to prevent this? Any kind of quality control or--I am 
not suggesting that we put spies on every contractor to see who 
is doing what, but you know, what the problem is. What is the 
Army planning to do to correct this?
    General Thompson. Well, sir, I would say most of the 
investigations that are ongoing today were investigations that 
initiated from actions that were taken in the 2003 to 2006 time 
frame. So a lot of what is being cleaned up today are things 
that happened in the past. That does not excuse them in any 
way, shape or form, and I am not here to make excuses for any 
individual, because in my view, if you violate your ethics and 
take a bribe you should suffer all the consequences that come 
with that. In Kuwait in particular, when we saw the issues, the 
CID stood up a procurement fraud unit in Kuwait when they 
started to get evidence that there were issues there that came 
up from audits and from reports from individuals. And then they 
expanded and stood up a procurement fraud unit in Iraq. And 
those are permanent organizations.
    Mr. Quinn. Vice versa.
    General Thompson. Vice versa. Iraq first and then Kuwait. 
Systemically, the checks and balances were there. They were not 
always being followed. And I am talking particularly in Kuwait. 
We made sure that the checks and balances are now being 
followed. In Kuwait we put new leadership into Kuwait, with a 
colonel that was a certified contracting officer and was one of 
the best contracting officers we had in the Army. We augmented 
his staff. We gave him dedicated legal support. We sent 
augmentation over there to work through the more complex 
contract actions.
    Part of the help that is being done in Kuwait is this reach 
back support, taking the large dollar value contracts and 
moving them back to be dealt with at the Large Acquisitions 
Center at Rock Island. Chairman Murtha asked a question before 
the hearing started about, you know, does that work? And as 
long as the requirements are being met for the operational 
commander, if I can do the contract negotiation, the pricing, 
you know, the writing of that contract, and I can do that 
someplace other than in the theater, we will elect to do that. 
The key for us is making sure that the requirement is being met 
and then the contract execution, the management of the delivery 
of that service or product is being evaluated so the government 
gets what it contracted for.

                        CONTRACT ADMINISTRATION

    Mr. Young. The combat commanders, they are busy fighting a 
war, and they are busy planning the efforts, they are busy 
patrolling the situation. They are not the ones that are 
responsible for overseeing the conduct of these contractors, 
are they?
    General Thompson. The responsibility for making sure that 
the contract is overseen is the contracting officer. But the 
operational commander has responsibility as well. Once the 
contract is let, the administration of that contract is done 
either through a contracting official who has been, you know, 
trained to do that, but in most cases, it is the contracting 
officer's representative, who is the compliance officer who is 
in that unit.
    And so if you are contracting for the delivery of water or 
trash pickup, you have to have a delegated representative on 
the ground to make sure if you say the trash is getting picked 
up three times a day, they come and pick it up three times a 
day. And those are the eyes and ears forward. So the 
operational commander does have a direct responsibility in 
making sure that what he or she asks for is what is being 
delivered. And they are part of the process.
    So it is not--and this is one of the educational things in 
the Army that we are addressing, to change the understanding 
and the culture that when half of your combat service support 
is through contractors, you have to pay attention to that, and 
you have to be involved not just on setting the requirement, 
but also making sure that what you ask for is what you are 
getting, and you are getting it at a fair price.
    Mr. Young. Well, Mr. Chairman, I think we have a lot of 
work to do here. And the better job we do in helping the Army 
get some control over how this is all coming down, we make Mr. 
Quinn's job a lot easier. And that is what I want to do is make 
Mr. Quinn's job a lot easier so that he has less of a workload 
and less corrupt people to be dealing with. And thank you very 
much, sir.
    Mr. Murtha. General, was your father in the Army?
    General Thompson. Yes, sir. And as I talked to him last 
night, as I routinely do, he said to say hello to you today. 
And he said to thank you for your contribution.
    Mr. Murtha. He led a couple relief efforts which the staff 
reminds me we funded. So we are great admirers of him.
    You are in his tradition. You tell him I said hello.
    General Thompson. Sir, I will do that.
    Mr. Murtha. Mr. Dicks.

                          FRAUD INVESTIGATIONS

    Mr. Dicks. You talked about 87 investigations?
    Mr. Quinn. Yes, sir.
    Mr. Dicks. Where did they come from? How did you get those 
cases?
    Mr. Quinn. If I could go back a little bit, Army CID has 
got a thousand military agents that accompany the force 
wherever they go. We police the force when it comes to felony 
level investigations. So when the force is deployed over into 
Iraq, Afghanistan, Kuwait, we sent 120, 150 CID agents over 
with them, but they were all the military Special Agents.
    Mr. Dicks. What were the initials? Criminal Investigative 
Service?
    Mr. Quinn. Criminal Investigative Division is how we say 
it.
    Mr. Dicks. CID?
    Mr. Quinn. Yes, sir.
    Mr. Dicks. Okay.
    Mr. Quinn. So we have the got the thousand military that 
accompany the force. We sent 125, 130 over into Iraq, 
Afghanistan, Kuwait. They started picking up indicators that 
there was potentially fraud going on over there. We also got 
leads coming in from other Federal investigative agencies on 
money transfers coming into the country, illegal moneys being 
brought back in. And so in the summer of 2000----
    Mr. Dicks. Being brought into Iraq or being brought back 
into the States?
    Mr. Quinn. Into the States, Congressman, yes, sir. In the 
summer of 2005 then----
    Mr. Murtha. I think--would you go into a little more 
detail? As I remember, this came from somebody else to us. The 
fact these weapons and this stuff was missing and there was 
fraud. Do you remember that?
    Mr. Quinn. Mr. Chairman, yes. The bottom line is we get 
cases from a number of different sources coming in to us. There 
was a source that was a hotline complaint that went in through 
DOD IG over to Army, and then we picked up on that. That turned 
out to be a fraud case. But we have also had the military 
agents over there that were picking up indicators of fraud. In 
the summer of 2005--also in Army CID we have 100 special agents 
that are civilians, and all they do is look at procurement 
fraud for the Army. We sent them over on two assessment teams 
in the summer. They did pick up on indicators of fraud in Iraq.
    By December of 2005, we established a fraud office in Iraq. 
And then by the spring, summer of 2006, we saw increased 
indicators of fraud down in Kuwait. So we have since 
established an office in Kuwait. And we now have one in 
Afghanistan as well.
    Mr. Murtha. But didn't we find that the Turks were being 
killed by weapons that we brought in? Is not that part of it? 
Just somebody was being killed by weapons that we brought in.
    Mr. Quinn, Mr. Chairman, that is correct. There were press 
reports coming out of Turkey that some of the missing weapons 
had gone across the border and were showing up on the streets 
of Turkey, Istanbul. And that is what brought the DOD IG in to 
look at that side of it. Of course, we in the Army CID were 
looking more at the thefts out of warehouses on the Army CID 
side. So it came to us from a number of different sources. As I 
mentioned, we have in all opened 135 investigations. 87 of them 
are still open. 60 percent of those cases have been passed from 
theater back into the United States. In other words, we sit 
down with Department of Justice on these cases. Department of 
Justice then works with our agents, and we decide a venue on 
where the trial is going to take place, and the investigation 
is further investigated. And so then it is parceled out to our 
fraud offices in the states and U.S. Attorneys or Assistant 
U.S. Attorneys spread throughout the United States. We are 
working out in Bellingham, Washington, we have got some down in 
Atlanta, we have got them in Dallas. So we just kind of spread 
the workload out amongst all those U.S. Attorneys offices.
    Mr. Dicks. Is one of your sources the GAO, the General 
Accounting Office?
    Mr. Quinn. Yes, sir. GAO, Army Audit Agency. When we got 
into Kuwait and the Kuwaiti contracting office and saw where 
there were some issues down there, we immediately partnered 
with auditors to come in and start looking at the books. So we 
do work with GAO and we do work with Army Audit Agency, as well 
as other Federal investigative agencies, the DOD IG, FBI.
    Mr. Dicks. How many of the cases are individuals versus 
contractors? Is there a percentage or--are these individual 
cases or--how many times do we have major contractors involved 
in questionable or illegal activities?
    Mr. Quinn. Congressman, the bulk of the cases that we are 
seeing over there are not the Halliburtons, they are not Brown 
& Roots, they are not the big major corporations. It is smaller 
companies, holding companies that started up over in theater, 
got access to do contracts, they partner with the Kuwaitis or 
other foreign nationals. They, I think, get some of the 
business because they speak English, they are able to get in 
the door. So you have got U.S. folks partnering with foreign-
held companies. And so it is--but almost all of them, we have 
got a U.S. subject in the subject block. In other words, a U.S. 
Government employee, whether military or civilian that was on 
the other end of the fraud that took place in theater.
    Now, not all 87 that we still have ongoing are exclusively 
with a U.S. Government official in the subject block or being 
investigated. Some of them are contractors ripping off 
contractors. And of course a sub that is defrauding a prime, 
and then the prime is billing the U.S. Government. So we do go 
after those.

                  EXPEDITIONARY CONTRACTING OVERSIGHT

    General Thompson. Sir, if I can add just one thing, one of 
the systemic things that we took a look at as we looked at the 
structure for this, these brigades and battalions, is as we 
partnered with the auditors and with the criminal investigators 
to look at the historical files, we realized that there was a 
real value in having them present not after the fact, but at 
the beginning. And so we are looking at putting auditors and 
criminal investigators as part of that deployable structure, 
both to have that presence there from the beginning, and also 
to act as a deterrent. And that will be one of the changes that 
we put in place in the future. And that has been a result of 
the work that we have done in the last couple of months.
    Mr. Dicks. General, you said these cases were from 2003 to 
2006?
    Mr. Quinn. The bulk of the fraud that we have detected and 
investigated to date is in that 2003, 2006, maybe into 2007. We 
still open cases not every day, but every week or two weeks. 
But when we take a look at the span of when the majority of the 
incidents took place in the cases that we have got ongoing, it 
is back in that 2003-2006 time frame. But we still have folks--
--
    Mr. Dicks. Now, is this because of a lack of personnel to 
audit or check or investigate? I mean how did we get so far 
behind the curve?
    Mr. Quinn. Fraud habitually comes to us late on 
investigations. Seldom do we catch it right there at the very 
start. And that is why we have gone to civilian fraud agents, 
because they can work these cases for years. Part of the reason 
why there was so much in that time frame, which were not 
unusual, was the lack of oversight and being overworked, a 
small office with just too many contracts to manage, too many 
contracts to cut.

           JOINT CONTRACTING COMMAND FOR IRAQ AND AFGHANISTAN

    General Thompson. Congressman Dicks, if I could, one of the 
issues, the Defense Department was not organized to do 
expeditionary contracting on this scale. You did not have a 
deployable structure. And that is one of the systemic issues we 
are addressing not just in the Army, but also in the DOD. And 
so it was a pickup game. It was a pickup game from the very 
beginning. They added individuals, they built up a structure. 
There is about a 200-person structure, the Joint Contracting 
Command for Iraq and Afghanistan today. But that has been stood 
up over a number of years. And one of the reasons why we looked 
at a modular structure for contingency contracting in the Army 
is so you can get the people to train together. And when you 
have a contingency, no matter what size it is in the future, 
you will be able to deploy the right number of people with the 
right skill set to be able to deal with that issue.
    We are putting planners in with the combatant commanders 
right now in order to plan in the war plans and in the 
contingency plans how do you structure yourself to make sure 
that you are contracting what you need. We are working standard 
A statements of work. So you know, you do not get over there 
and realize I need dining facilities support. You have already 
got a scope of work that details, you know, what that is. And 
so you are not thinking about that after the fact. So the 
systemic issues from 2003 to 2006 was not organized for it, 
more complex workload than they anticipated, not enough people 
over there to deal with it, and it opened up the opportunities 
that unfortunately led to the fact that the Criminal 
Investigation Division has got that much workload from that 
time period.

                            CONTRACT REVIEWS

    Mr. Dicks. Is it possible to go back and review these 
contracts between 2003 and 2006 to see if we were ripped off? I 
mean, is there a way to go back? And I know you maybe have 
statute of limitations issues, but a lot of times the statute 
does not ring unless somebody knows about it.
    General Thompson. Sir, that is exactly what we have done. 
In Kuwait, there was about 6,000 contracts in that time frame. 
And Secretary Geren wanted to absolutely make sure that there 
was not a contract that was let during that time frame that may 
not have been picked up on already by an investigation. So 
between August and December, we reviewed on a statistical 
basis, all of the contracts under $25,000 were reviewed in 
Kuwait, all the contracts that were over $25,000 during that 
time frame were shipped back to the Major Acquisition Center in 
Michigan. And with the auditors and with the criminal 
investigators, we went through those contracts. About 650 
contracts that were selected statistically. Of those 650 
contracts, 41 or----
    Mr. Dicks. So that means you did not do them all?
    General Thompson. We did not do them all, no, sir. But 
every place where we saw an indication that we needed to go 
look at another contract, we did. And of those 650, there was 
41 that had evidence of maybe not fraud, but something as not 
done right. And those have been turned over to the criminal 
investigators to take a look at to see if it should lead to 
opening up a formal investigation.
    Mr. Dicks. Mr. Chairman, I know my time has expired, but 
just one final thing. How many total contracts, the total 
number were there during that time frame? You picked 650 out of 
how many?
    General Thompson. There was about 6,000 contracts let in 
Kuwait in that 3-year period. And we got with the auditors and 
looked at the representative sample of those. And that was 
about 650. So a little more than 10 percent of the historical 
contracts were looked at. And these were ones that were not 
already subject to an investigation.
    Mr. Dicks. Thank you. Mr. Chairman.
    Mr. Murtha. I am going to be very lenient, because this is 
such an important subject. So feel free to follow up on your 
thoughts. Mr. Hobson.
    Mr. Hobson. Thank you, Mr. Chairman. Welcome, gentlemen. I 
have had a lot of problems with Army contracting before, as you 
know, General Thompson.
    General Thompson. Yes, sir.

                            AMOUNT OF FRAUD

    Mr. Hobson. It was not very good when we started, 
especially on trucks. But let me say that how much dollar 
amount do you think we were involved here in the fraud--not in 
the overall contracts, but just on the fraud part, how much do 
you think?
    Mr. Quinn. Congressman, we think that at least $6 billion 
in contracts were touched by the fraud. But we do not believe 
there was that much fraud involved in it. But a portion of $6 
billion in contracts we think there was some fraud involved in 
it. Now, that may have been the sergeant out there looking the 
other way as the fuel trucks were being delivered, but that is 
the size.
    Mr. Hobson. Is it in certain areas more prevalent than 
others, like the fuel?
    Mr. Quinn. Congressman, I do not think I could put it in 
one area, whether it was fuel. It is goods, it is services, it 
is hauling contracts, it is food coming into theater, it is 
port-a-potties being cleaned. It is just that whole gamut of 
services that it takes.
    General Thompson. But Dan, one of the things, the total 
dollar amount of bribes that are part of the investigations to 
date is what?
    Mr. Quinn. $20 million. We think $20 million in bribes was 
taken by different individuals.

                            MISSING WEAPONS

    Mr. Murtha. Let me focus on just the arms thing, because I 
have heard figures as high as 50 percent disappeared. Now, do 
we have any idea of what percentage at this point of your 
investigation actually disappeared from the time they got to 
Kuwait until the time they got out in the field?
    Mr. Quinn. Mr. Chairman, I do not. I know the DOD IG is 
working that. Occasionally, we will get a report.
    Mr. Murtha. We will get a report?
    Mr. Quinn. Yes, sir.
    Mr. Murtha. What time frame was that?
    Mr. Quinn. The DOD IG was looking over the last 6 or 7 
months when he went into theater and----
    Mr. Murtha. What was the time frame the arms went missing?
    Mr. Quinn. It went all the way back into 2003 time frame, 
when we were pushing weapons in to stand up Iraqi units.
    Mr. Murtha. Mr. Hobson.
    Mr. Hobson. That is another point. Were these arms going--
the arms that were done, were arms going to the Iraqi Army 
being contracted for to them? Is that where it happened?
    General Thompson. The arms were being purchased in order to 
stand up Iraqi Army and Iraqi police forces. When we looked at 
the contracts, the receipt of those weapons, we can go back 
through the contract files and show who received those weapons 
on what date and at what location. It is the accountability of 
those weapons after they were received by an Army individual or 
a U.S. Government representative, it is the accountability of 
those weapons from that point on that is the subject of the 
investigation of the DOD IG.

                       CONTRACT SUPPORT SERVICES

    Mr. Hobson. Well, part of this, that is not new in a way. 
But part of what happened in the Army is--in the big Army 
overall, is that you got rid of, over a period of time, support 
services within the Army. You do not carry the same kind of 
capabilities that you carried in previous conflicts. So this 
idea that it would be smart to change and not carry these, and 
it would be cheaper to contract out with contractors all these 
support services. You did not used to have all those. Now we 
do. The problem is that apparently the Army or the Defense 
Department did not set up, when they contracted those out, a 
new set of controls. You had to look at how that was going to 
work. Apparently we did not learn any lessons in Bosnia and 
Kosovo, because that is what we did there, where we contracted 
out.
    We bought arms elsewhere in the world for other people, 
maybe not in this environment, but in other environments, we 
did. We did not seem to set up, until after the fact, the 
controls that we needed to have on that type of services, 
whether it be the chow hall services and those contracts. I ran 
into a problem when I tried to build a bakery once over there 
because KBR did not like it. KBR also stopped at one point, 
until I complained to the Secretary of Defense, about more fast 
food operations. Apparently, they were cutting into the 
contracts that they had to supply food. There are some big 
people pushing back. I think you started to allude to this, 
that the Army, when it shifted from carrying these types of 
services, did not set up enough control. There was no idea of 
how that would work in the field when you got into a real 
conflict versus an operation like Bosnia and Kosovo?
    General Thompson. Sir, in the 90's there was two things 
that happened. And it was not just in the Army. There was a 
philosophical shift in providing a lot of the services via 
contract. You know, not having soldiers in uniform of whatever 
service to do some of those things. Because it was looked at as 
a better value, so you could turn on that contracted support 
when you needed it and turn it off. You can argue both sides of 
that, but that was the general philosophical shift.

                    ACQUISITION WORKFORCE DOWNSIZING

    Mr. Murtha. Why didn't it work then? For instance, if you 
agreed with that, it seemed like----
    General Thompson. Well, that is the second piece of it, 
Congressman Murtha. Simultaneously with that was there was a 
major downsizing in the acquisition workforce. And so you have 
got more contracted services and the acquisition workforce 
going down. So in the big picture, and it is a very simple 
conclusion, but you did not have enough people to be able to do 
that. So the workload that was contracted out went up, the 
contracting workforce went down. And that is one of the issues 
that we are facing today. And that is one of the reasons why 
the Army is going back, and the Gansler Commission recommended 
that the Army, the Army grow its military and civilian 
contractor workforce to be able to handle the workload.
    Mr. Murtha. And have you budgeted for that in this budget?
    General Thompson. Not completely. Part of it, Mr. Chairman, 
is working that into the program, which is 10 and out. We have 
gone back on the military side and we have added since August 
301 military spaces for the contracting brigades and battalions 
and teams. And we are in the process of adding another 167.
    Mr. Murtha. I understand. But is this because you can not 
get qualified people or because you are worried about the money 
because OMB cut you back?
    General Thompson. I think we can get qualified people, but 
it just takes--it just takes time. I do not----
    Mr. Murtha. Well, the question I am asking, do you have 
enough money to accomplish what you think needs to be 
accomplished in your request so that we can fund it? For 
instance, the supplemental. Is there funding that would help 
you with this problem in the supplemental, either CID or 
yourself?
    General Thompson. In the near term in the supplemental, 
there is not a request to do some of the training----
    Mr. Murtha. I am not asking if there was a request. Is 
there enough money, can we put money in the supplemental? 
Should we put money in the supplemental? This is our business 
here.
    General Thompson. Yes, sir.
    Mr. Murtha. This Committee is in the forefront of so many 
different programs. We are way ahead of the military, or OMB, I 
guess you would call it. So you tell us--maybe you can not tell 
us offhand, but you need to tell the staff if you need more 
money because we are right now negotiating with the Defense 
Department about what we are going to do for the supplemental.
    General Thompson. We will go back, and we will look at what 
is in the 2008 supplemental request and the 2009 supplemental 
request and make sure the things we need in the near term are 
in there.
    [The information follows:]

    The Army Contracting Task Force and DASA (P&P) identified 
funds for three major areas, Workforce Initiatives, Virtual 
Contracting Enterprise, and cost to hire 1000 1102's. FY 08 
costs for the three areas: Workforce Intiatives--$1,860,300, 
Virtual Contracting Enterprise--$5,795,000 and Hiring Costs--
$164,225,649.
    The attachments provide a detailed analysis of the 
Workforce Initiatives, Virtual Contracting Enterprise, and cost 
to hire 1000 Contracting Professionals.

[GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]

    Mr. Murtha. Thank you.
    Mr. Hobson. I have one last question. Right now you are 
talking about the Army, but you also alluded to the fact that 
that the other services, the Marine Corps, Navy, others may 
have a similar-type problem. Maybe you cannot speak for this, 
but is this something, Mr. Chairman, we should look at? If it 
is systemic here, is the Marine Corps facing the same problem 
in service contracts? Maybe not in supplying the military 
stuff. But what about the Navy? Is anybody looking at that?
    General Thompson. Yes, sir, we are. As a matter of fact, 
yesterday I spent 2 hours in a meeting with the senior 
officials in the Defense Department across all the services. 
And one of the things that the Gansler Commission recommended, 
and it is a requirement in the law, is that DOD report back in 
120-days, as well as the Army reporting back in 120 days, on 
what they are doing to address the systemic issues. There are 
eight groups in the Defense Department right now with 
representation across all of the services looking at all of the 
systemic issues to make sure that we fix not just the Army, but 
all of the services. And that report will come back over to the 
Congress within the 120-day period from the time of the 
enactment of the Authorization Act.

                            TRUCK CONTRACTS

    Mr. Hobson. Just one last comment. I am still concerned 
that we are just automatically renewing truck contracts for 
billions of dollars and not competing them. Because the last 
time not at the Army's request, but at this Committee's request 
that trucks be competed, we saved a lot of money. Still do not 
like the truck, but we saved a lot of money. We are not doing 
that today. I understand you people are going to do another, or 
already have done another $2 or $3 billion contract, noncompete 
rebuy on the FMTV trucks. And in my personal opinion, that is 
not good for the taxpayer. Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Moran.

                           CONTRACT PERSONNEL

    Mr. Moran. Thank you, Mr. Chairman. The frustrating thing 
is that it is now 2008, and the problems we are talking about 
have been going on for almost 5 years. And what I want to 
underscore is that the authorizing Committee primarily drove 
this reduction in acquisitions personnel. Acquisition personnel 
were cut by almost 50 percent, not because of the 
Appropriations Subcommittee, but because of the authorizing 
committee. And yet there was not a squawk from any witness 
before this Committee until the subcommittee initiated the 
questioning.
    Even though this kind of stuff was going on and there was 
fraud, there was just incompetence, there was an enormous waste 
of money. And now we look back and we see, well, gosh, contract 
actions increased by almost 650 percent since the Clinton 
administration, the dollar value of contracts went up by 330 
percent, and yet the number of contract personnel went down by 
50 percent. And yet the military never asked for more people. I 
mean, you can look back in the testimony, and not that you are 
that young, General, but you know, you are relatively new to 
the scene, so I am not holding you personally responsible, but 
it is frustrating that this stuff has been going on.
    And now we look back and say, oh, gosh, here is the Gansler 
report that says the obvious, and now we are starting to deal 
with it. Now that we should have already concluded this mess in 
Iraq. And the subcommittee has always been willing, the 
subcommittee, in fact, has always granted whatever was 
requested. Now, I know I am kind of lecturing here on a 
harangue; but that is the frustrating aspect of it. We look 
back, and the Gansler recommendations are pretty obvious. You 
need to increase contract personnel by 1,400 people. And you 
look back, well, what has the Congress done? You find that this 
subcommittee has done everything that has been done.
    It has not been enough. But you know, we added almost $50 
million for the audit agency. We added--the staff can tell us--
but I think all told, a few hundred million into contracting. 
And now you are responding. And that is the troubling thing, 
that it is so much after the fact, and this money has been 
wasted, and morale of the troops has been affected accordingly.
    For 4 years now, this subcommittee, and particularly in the 
last 2 years, has asked how many contractors are there in Iraq? 
And we were given what, a round number of about 100,000 or 
something. But you would think, and I am sort of hoping that 
this is brought back to the folks who are still there now in 
their 8th year, that they would have gotten us an accurate 
number. I still don't think we have an accurate number. And you 
tell us about this fraud, some of these people who committed 
the fraud are still getting contracts. And I do not know that 
we have a system for saying, look, there is accountability 
here. If you were involved in any kind of fraud in your 
contract, you do not get any more contracts. Do we have a 
policy like that?
    General Thompson. We have a system to do that. A couple of 
points, sir.

                    SUSPENDED AND DEBARRED CONTRACTS

    Mr. Moran. Has it been implemented? Has anybody been 
actually blacklisted as a result?
    General Thompson. Yes, sir.
    Mr. Moran. Who?
    General Thompson. Once an organization or a contractor is 
identified, they can go on the suspended or debarred list. And 
then the other thing that happens is before they get on the 
suspended and debarred list, which, in some cases, takes some 
time, their performance is evaluated by the existing contracts 
that they have got. And if they are bidding for a new contract, 
the contracting officer that is looking at them as a potential 
source for the new contract looks at their performance. And 
that is part of the consideration in whether they should be 
awarded a subsequent contract.
    Mr. Murtha. That is a hypothetical answer. How many has 
that happened to?
    General Thompson. I would have to take that one again for 
the record, sir, to give you the specifics. But there are 
companies that are on the debarred and suspended list. There 
are companies whose past performance is not good, and that is 
known to the contracting community as they look to let future 
contracts. And we can go back and give you on an annual basis 
how many those numbers are that get added to that list.
    Mr. Kingston. Would the gentleman yield?
    Mr. Moran. Yeah.
    Mr. Kingston. I just want to ask, when you bar somebody, is 
that as an individual or as a company? Because so many of these 
people work through a shell of different corporations.
    General Thompson. It can be either/or. It can be either/or.
    Mr. Kingston. So you can actually follow the individual?
    General Thompson. Yes.
    Mr. Moran. Let me say, Mr. Chairman, first of all, it is 
what we should be doing, but in many ways this is subjective. 
You know, it is one of the considerations to take into--it is 
one of the factors to take into consideration. The reality, 
unless we can be shown otherwise, is that these very same firms 
are still getting contracts. Maybe, you know, they took it into 
consideration and they were not the prime contractor, but the 
fact is they are still getting the contract. There has got to 
be some accountability. And I just do not see it coming 
internally.
    No offense to the witnesses, but you have got--I think you 
have got to show us some proof that you have gotten tough on 
these folks, because unless there is proof, they are going to 
continue. Because the message, the contractors know who has 
been abusing the system. And if they continue to get contracts, 
that is a message that is sent that the contracting officer is 
going to look the other way.
    Now, a lot of them have come to us and said, now, look, it 
is not so much they are looking the other way, but there are 
not contractors looking anywhere because there are not enough 
of them. And the really good ones we wind up hiring anyway, and 
we can pay them three times as much. And that is the other 
thing the Gansler report said, it is not just the quantity that 
we are missing, we are missing the quality. And there is not 
enough training and not enough compensation. And if we want 
to--and that is one of the things that was underscored in the 
Committee's report last--that was released with the '08 bill.
    [The information follows:]

    A number of persons and companies have been suspended or 
debarred. The attachment provides the most current list.

[GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]

                          CONTRACTORS IN IRAQ

    Mr. Moran. And then it is accountability and getting some 
specifics. You know, if we asked you now how many contractors 
are in Iraq, I do not know that we would get any better an 
answer than the 100,000 we have been told before.
    General Thompson. The number today is about 133,500. There 
is a contractor accountability system in place now. It is 
called the Synchronized Predeployment Operational Tracking 
System, which is a database where contractors are put into, and 
they are also put into that database when they move inside of 
theater. Now is it perfect? I will not tell you it is perfect, 
Congressman Moran, but there is a system in place today to 
account for not just the number, but also the physical location 
of the contractors in theater.
    Mr. Moran. So it is 133----
    General Thompson. 133,500 in Iraq today.
    Mr. Bishop. Would the gentleman yield?
    Mr. Moran. Sure.
    Mr. Bishop. That is 133,500 contractors for DOD. What about 
other agency contracts that overlap? For example, security 
contracts at the industries that are paid for out of other 
agencies like State? What about those? Do you have any way of 
interactive accountability for contractors that are working in 
theater alongside DOD contractors?
    General Thompson. That were hired by Agency for 
International Development (AID).
    Mr. Bishop. That were hired by other agencies?
    General Thompson. Yes, sir. I do not know about their 
specific systems. But one of the things that the Defense 
Department and the State Department have worked out as part of 
this December memorandum of agreement is to work together to 
account for the total contractor population that is in the 
theater. And I do not know where that specifically is, 
Congressman.
    Mr. Bishop. But in addition to State, there is also 
Interior. There are Interior contracts. From the various 
agencies and----
    Mr. Murtha. Let me interrupt here. I want to make sure I am 
getting clear. The last I heard was 126,000. Now, we are not 
pulling troops out and putting more contractors in.
    General Thompson. I do not think. we are doing that, Mr. 
Chairman. I would expect that as the number of troops come 
down, the number of contractors there to support the troops 
would also come down. But there may be some cases where you 
replace troops with a contractor to do something that needs to 
be done. But in the aggregate, I would expect the proportion of 
contractors to come down as the troop level comes down.

                       GSA CONTRACTING ASSISTANCE

    Mr. Murtha. I worry about the same things Mr. Hobson and 
Mr. Moran outlined. This subcommittee last time said take 600 
people from GSA because we were so concerned about this 
problem. Well, I find out that in conference that we said, ``we 
encourage'' you to do that. Then we find out GSA was livid 
about it. They could not--what are you telling us about put 
some of our people over there in a combat area? We just can not 
do that. So in the end we put money in. We can not solve this 
problem, General Thompson. You have got to tell us what you 
need to help you solve the problem.
    Now, if you, in your professional opinion, think it is 
better to have contract officers that you can surge--which did 
not seem to work--or you need more people in uniform or working 
for you, we need to know so we can fund it. That is our 
problem. I mean, I do not know what the OMB does over there. 
But every time we run into something it is always OMB's fault. 
But you need to tell us so we can address the problem. At least 
help you with the solution. That is what we are trying to do.
    General Thompson. Yes, sir.

                    FUNDING FOR CONTRACTING OFFICERS

    Mr. Murtha. And CID the same way. If you need more money, 
you need to tell us.
    Mr. Quinn. Mr. Chairman, you had asked earlier about money 
needs, personnel needs. The Army is giving us what we need. As 
I mentioned, we had 100 agents. They have authorized us to grow 
to 136. They are going to use the supplemental to pay for those 
additional 36 agents. And then in the next 2 months, we will be 
putting it into the Program Objective Memorandum and I have 
every assurance that we are going to get what we need when it 
comes to agents to investigate this.
    General Thompson. The biggest need----
    Mr. Dicks. 5 years late. That is the problem.

                          CONTRACTING PROCESS

    Mr. Moran. Yes, it is. And the chairman expressed what I 
was trying to say. You got the message. We have been trying to 
be responsive, and we are going to be held accountable here, 
for all this money that is spent and all this fraud that has 
taken place. And yet, I do not see that there is the kind of 
cleanup, fix-up, and confidence in moving forward that this 
situation is not going to continue. One problem is there is 
just too many contractors contractors over there. There is too 
much money being poured into it. And there is too little 
accountability. And so the Committee is interested in how you 
are going to fix this. I know that the leadership is determined 
to give you whatever you say will help fix the problem. But I 
am not sure we are hearing enough right now with the Gansler 
report. If it is being implemented is certainly a step in the 
right direction.
    General Thompson. Yes, sir. I do think it is a step in the 
right direction. I will share your concern that you have to 
appreciate contracting. And it is not just the contracting 
officers, it is the whole process from end to end. From setting 
a requirement on what you need, to contracting for it, to 
making sure it is delivered properly, to making sure it is 
properly paid for. You know. culturally. I will speak just for 
the Army, not across all of DOD, contracting was not valued as 
much as it should have been. I will tell you that Secretary 
Geren is dead serious about fixing this. I have spent probably 
50 percent of my time over the last 6 months addressing these 
issues. Secretary Geren personally briefed the Secretary of 
Defense a week ago, I was there, to make sure the Secretary of 
Defense knew how seriously we were taking this.
    I told you about the two-hour session I had yesterday with 
all the senior officials across the Defense Department. We are 
briefing the Gansler Commission this afternoon to show them the 
things that we are doing. I think we are on the right path to 
address this. I agree it should have been fixed a while ago. 
But, you know, I think we are on the right path.
    Mr. Moran. Let me just say there is a bigger issue here 
that transcends this. And that is, should we really have as 
many contractors fighting a war as we have uniformed personnel?
    Mr. Rothman. Will the gentleman yield?
    Mr. Moran. I want to finish my statement.
    Mr. Murtha. Wait. Let us go to Mr. Frelinghuysen.
    Mr. Moran. That contractors are getting paid more money. 
And it has got to be undermining the morale of our troops. And 
it is not the way to carry out a military action. But that is a 
larger issue. And it is not the policy issue you are 
responsible for. But I think the subcommittee is increasingly 
aware that that issue needs to be addressed as well. I am 
sorry, Steve.

                    FUNDING FOR CONTRACTING OFFICERS

    Mr. Murtha. Let me mention in conjunction with this, you 
know, the budget process goes on, last year at somebody's 
recommendation, I do not remember who it was, we put $21 
million in for this particular area. It went to the Senate, 
they took it out. I mean, we had to come to agreement on a lot 
of different things. If you folks need money, you need to step 
in and tell the staff on the Senate side, hey, this is 
important. Because you know, we have so many things, when we 
are dealing with $459 billion, if somebody would step up and 
tell us, tell them it is important, we drop out some issues, I 
am sure, important to them, and they drop out some issues that 
are important to us.
    So you need to watch what we do and then tell the Senate 
staff so that we do not have a problem--I mean, $21 million is 
a lot of money in your field. So we do the best we can do. And 
it comes because subcommittee members themselves make the 
suggestions. So Mr. Frelinghuysen.

                      CONTRACTING SUPPORT BRIGADES

    Mr. Frelinghuysen. Thank you, Mr. Chairman. Gentlemen, 
thank you for you what you do. I am an optimist by nature. Just 
taking a little look back here, we have now joint contracting 
commands. In the future with these new Contracting Support 
Brigades, have they actually been activated?
    General Thompson. Yes, sir. There are four brigades that 
have already been activated. There are five battalions that 
have been activated. And there are 120 four-person teams. Not 
all of them have been activated yet.
    Mr. Frelinghuysen. So they report to the existing military 
structure that is there?
    General Thompson. Yes, sir, they do.
    Mr. Frelinghuysen. They do?
    General Thompson. They do.
    Mr. Dicks. Would the gentleman yield for just one quick 
question?
    Mr. Frelinghuysen. Yeah.
    Mr. Dicks. Is there 3,000 people in a brigade?
    General Thompson. No, sir. That is the point I made 
earlier. This contracting brigade, headed by a colonel, has a 
staff of 19 people. It is going to grow a little bit. So it is 
not like a Stryker brigade or an infantry brigade.
    Mr. Frelinghuysen. But inherent in the brigade is they will 
be working side by side with qualified civilians in a variety 
of auditing and other types of capacities. Is that what we are 
led to believe?
    General Thompson. In that brigade staff structure are the 
legal support necessary, the contracting expertise, the audit 
expertise, we will add the investigative expertise from the 
CID. So he has got what he needs. And you have a colonel--the 
military understands brigades and battalions. And so that is 
one of the reasons we structured it that way, so it was not a 
pickup game in the future.
    Mr. Frelinghuysen. So we are going to have Contracting 
Support Brigades, battalions, they are activated, they are 
going to be working side by side----
    General Thompson. There is going to be more of them.
    Mr. Frelinghuysen. More of them, side by side with their 
civilian counterparts. Is it true that only three percent of 
the Army contracting personnel are in military today?
    General Thompson. That is true.

                   GROWING THE ACQUISITION WORKFORCE

    Mr. Frelinghuysen. So you are talking about depending upon 
a relatively small portion of the Army. And it has been drilled 
into me by all the Army chiefs that the Army actually brings to 
the battlefield everybody else that is responsible for the 
logistics and the overall footprint. Do you have enough people 
coming through the military, going through the training 
process? Are you yanking people out of the Pentagon? How are 
you actually building up these brigades?
    General Thompson. The acquisition workforce in the Army 
today, the military acquisition workforce is about 1,540. We 
are going to grow that by about 400 people. In addition to 
that, we also----
    Mr. Frelinghuysen. You have the resources to do that?
    General Thompson. Yes, sir. We do.
    Mr. Frelinghuysen. You have the money to do that?
    General Thompson. We have the money to do that. It is part 
of the Army's overall authorization on the active component 
side of 547,000.
    Mr. Murtha. Wait a minute. He asked you do you have the 
money to do that. You said something about supplemental.
    Mr. Quinn. CID. Yes, sir.
    General Thompson. I was coming to that. In the 
supplemental, Mr. Chairman, what we need to look at is do we 
have the money to hire the civilians. Because the military 
personnel account is adequate to pay for the military 
structure. It is do we have the O&M funds to pay for the 
increase in the civilians?
    Mr. Murtha. You are going to tell the staff what money you 
need in order to fix this problem.
    General Thompson. Yes, sir.
    Mr. Frelinghuysen. Wait a second. You are confident that 
you have enough people in uniform with these types of military 
occupations and backgrounds and others in the pipeline to 
populate these Contracting Support Brigades?
    General Thompson. Congressman, I am not confident that I 
have got enough people today. But over the next few years as we 
stand up this structure and recruit the people, we will have 
what I think is an adequate structure to do that. But it is not 
there today.
    Mr. Frelinghuysen. Mr. Rothman wants to go in order and I 
will yield to him.
    Mr. Rothman. Thank you Mr. Frelinghuysen. You mentioned the 
word ``culture,'' and it is related to Congressman 
Frelinghuysen's question, but some earlier questions and 
comments too. The war has been going on for almost 5 years. 
Hundreds of thousands of our troops have been in and out of 
theater; maybe a million have been in and out of the theater. 
Why did it take 5 years for this stuff to come to light? And is 
it a problem of a culture of the services if in fact, for 
example, rank-and-file folks saw these things going on and did 
not report them----
    Mr. Frelinghuysen. I would like to reclaim my time, and 
maybe he can in your time be more----
    Mr. Rothman. It is related to whether this fix is going to 
be sufficient with adding a few thousand in the mix.
    Mr. Frelinghuysen. Reclaiming my time. I am interested in, 
obviously, the military component. But as others have pointed 
out, the DOD acquisition force has been reduced by 50 percent. 
The issue we have discussed is, from last year's report and 
discussion, between now, or I think between 2006 and 2010, half 
of the Federal acquisition workforce will be eligible to 
retire. So not only do you have the issue of military 
institutional memory, you have the issues related to the DOD.
    Mr. Murtha. What was that again? Half of what? What is 
that?
    Mr. Frelinghuysen. We were told in another hearing that 
half of the Federal acquisition workforce will be eligible to 
retire between now and 2010. And so if that is the case, you 
know, how are you going to marry this new initiative, which we 
compliment you on, with the reality of a workforce that is 
aging, that may want to get out and may not want to even go 
into theater; are you going to work on like the military 
recruiting retention bonuses, higher salaries? How are you 
going to marry all that? And more importantly, how are you 
going to pay for it?
    General Thompson. Yes, sir, There are a number of programs, 
intern programs, recruiting programs, and Ms. Ballard, who sits 
behind me, is the head of contracting inside of the Army and 
works on the Army Secretariat. But we have got those programs 
in place.
    One of the things I will commit to, Mr. Chairman, is go 
back and make sure they are adequately funded either in the 
base program or in the supplemental. Those numbers that you 
quoted, Congressman Frelinghuysen, on the members of the 
acquisition workforce that are eligible to retire, are 
accurate. We typically don't see that number that actually do 
retire, but it is a concern out there. And we know we need to 
recruit over the next couple of years an adequate bench in 
order to replace those people.

                        JOINTNESS IN CONTRACTING

    Mr. Frelinghuysen. Well, if they have to go to Afghanistan 
or Iraq, I am sure, like other Federal agencies, there is 
probably some reluctance.
    In my last question, since the time is limited, since you 
carry the burden in many ways for the other military services, 
getting them into the theater, you know, the overall footprint 
of all the contracting services, this is a pretty enormous 
workload. The structure that you are setting up here, is it 
going to be mirrored in any way? I know you have sort of 
answered that question by an equal number, equal contribution 
from the other services. Are the Marines going to have a 
small--I assume they have some sort of contracting contingent 
now. Navy does. Air Force. Is there going to be jointness in 
this initiative across the services?
    General Thompson. Very much so. One of the things that they 
are doing is making sure that the planning for joint 
expeditionary contracting is done at the combatant commander 
level, and that as you go into a theater, you use Iraq or 
Afghanistan or some other theater in the future, that you 
understand what that need is; and the actual workforce that 
does that contracting would come from all the services. And so 
there is that deployable structure not just in the Army but in 
the Navy, the Air Force, and the Marines as well. And we are 
sharing the doctrine.
    There is joint doctrine that is being developed right now. 
It is in the final stages. One of the things--and I brought 
this along. This is the Contingency Contracting Joint Handbook 
that has been developed across all the services in the last 
year to standardize those procedures as we go forward. And this 
is now being published and is given to all the contingency 
officers across all the services.
    The joint doctrine has been years in development. Arguably 
that takes too long, but it is in the final stages right now, 
and that will be published as a joint publication here within 
the next couple of months. But it is a joint effort, 
Congressman. And that is the way we are approaching it in the 
future.
    Mr. Frelinghuysen. I didn't know you brought that with you. 
But it obviously speaks volumes of the issue of whether the 
services are working together on this issue. It can't just be 
the Army doing the heavy lifting here. It needs to be shared.
    General Thompson. This is primarily an Air Force document 
that all the services then got together and said, This is 
really pretty good, let's make sure we get all those thoughts 
in there.
    And this is just being published. As a matter of fact as I 
talked to members of the Senate staff last week, I had another 
copy, and I gave it away because they were interested in it.
    And the Army has the lead on the development of the joint A 
doctrine contributed to by all, of the services. So it is very 
much a joint effort and that is the recognition across the DOD.
    Mr. Bishop. Would the gentleman yield?
    Mr. Frelinghuysen. I would be happy to. And then I will 
yield back.

                     DEFENSE ACQUISITION UNIVERSITY

    Mr. Bishop. To follow up on what Mr. Frelinghuysen was 
discussing, what is the role of the Defense Acquisition 
University in trying to address this age imbalance? And is it a 
cross-service effort? Have you all done any kind of assessments 
to determine whether or not there is sufficient personnel at 
the Defense Acquisition University to meet the demand for the 
new trainees, to address the retiree situation?
    General Thompson. The Defense Acquisition University, 
Congressman Bishop, has got the responsibility for training the 
acquisition workforce across the DOD. They also have 
responsibility to look at all the workforce trends in the 
acquisition across the DOD. They have expanded their course 
offerings and increased the course content for contingency 
contracting. They have got lessons learned, they are always 
looking at lessons learned and incorporating that into course 
content. And one of the things that works across the DOD is, 
looking at those workforce trends to do some of the things we 
talked about, is bringing in enough people with the right skill 
set to replace those that may retire in the next few years. But 
they have a very active role in that.

                   ACQUISITION WORKFORCE RETIREMENTS

    Mr. Murtha. The time of the gentleman has expired. I am 
going to read something about Joint Contract Command. I am sure 
you have read this. ``The Gansler Commission reports the Army 
is the DOD executive agent for contracting Iran, Iraq. and 
Afghanistan but is unable to fill military-civilian contract 
billets in either quality, quantity, or qualification.''
    What Mr. Frelinghuysen said worries me. You can contract 
out and it takes you a while to train your folks to do this 
business. And that is part of the problem we had in Iraq. If 
you have got that many people retiring, you had better give us 
a plan.
    You know personally. I think one of the big problems we 
have is we are living day to day. We are not living ahead. You 
need to give us a plan, so we don't run into this problem down 
the road. I know personally, when it comes to health care, the 
Army does a hell of a lot better job than the Air Force does. 
The Air Force doesn't know which end is up when it comes to 
contracting for health care, but the Army does a lot better 
job.
    General Thompson. Sir, just to give you some assurance that 
when we send this 120-day report back, part of how seriously 
Secretary Geren has taken this, he has got the Under Secretary 
of the Army, Mr. Ford, pulling together the action plan, the 
campaign plan to address this thing into the future. And it 
will address things doctrinally, organizationally, training, 
the materiel solutions. It is very comprehensive.
    Mr. Murtha. This says here the Air Force is handling most 
of the complex contracting actions. Is that true?
    General Thompson. In Iraq and Afghanistan, in the Joint 
Contracting Command, about 25 percent of the presence there are 
Army. And then the others are shared across the services. A lot 
of the Air Force, because they have about 2,000 military 
contracting professionals in the Air Force, which is----

         CONTRACTING EXECUTIVE AGENCY FOR IRAQ AND AFGHANISTAN

    Mr. Murtha. If you are the executive agency coordinating 
it, and yet 67 percent of the money comes from the Air Force, 
which provides 67 percent of the Joint Contracting Command, 
according to the Gansler report.
    General Thompson. Yes, sir. And that is accurate. But then 
again, that is because we treat contracting as a joint 
operation. And so the Air Force has got more qualified and 
trained people. And therefore they are filling those 
requirements in the Joint Contracting Command.
    Mr. Murtha. Should you not change the Air Force being an 
executive----
    General Thompson. One of the things that we are discussing 
with OSD right now is, should the Army be the executive agent? 
If it is going to be treated joint, should DOD be the executive 
agent for contracting in the joint operation rather than 
delegated down to a service? That is under discussion right 
now.
    Mr. Murtha. Okay. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman.
    General Thompson, thank you and your family for your 
service to our country.
    General Thompson. Thank you, ma'am.

                       CONTRACTED SECURITY FORCES

    Ms. Kaptur. Thank you, Mr. Quinn, for your service as well. 
We appreciate your being here with us today. My interest, my 
greatest interest is in--I guess I feel like I am running after 
a herd of elephants that is stampeding across the plains and I 
am running after them and I can't catch them. They are always 
ahead of me. And they are doing things that I can't stop.
    My interest is in contracting, and in those members of the 
contracted forces who carry guns. The most troubling thing you 
have said this morning, more than once, is that there is an 
agreement being worked on between the State Department and the 
Department of Defense regarding contracted security forces, 
which is still not signed.
    General Thompson. No, ma'am, it is signed.
    Ms. Kaptur. It is signed?
    General Thompson. It was signed in December.
    Ms. Kaptur. Signed in December.
    General Thompson. And in December also were a comprehensive 
set of instructions put together by the multinational force in 
Iraq to pull together all the pieces to get their hands around 
the contracted security guards and the accountability of those: 
who is allowed to carry weapons, and all those procedures. And 
I don't know if Mr. Quinn has got anything else to add to that. 
But those documents are there and can be made available to the 
Committee.
    Mr. Quinn. Yes, ma'am. The memorandum between the Deputy 
Secretary of Defense and the Deputy Secretary of State was 
signed on 5 December; and then later in December, on the 22nd, 
is when the multinational forces-Iraq put out their 
instructions. They had instructions prior out there, but they 
pulled all these different agreements together and issued a 
fairly comprehensive set of instructions on how to get control 
over all the different agencies over there that may have 
private security contractors.
    Ms. Kaptur. All right. Who has more under contract. DOD or 
Department of State? How many are there? And who has more under 
contract--which agency, which department?
    General Thompson. Private security contractors? I don't 
have the answer to that, ma'am. We can again take that one for 
the record. That is a fairly easy question.
    [The information follows:]

    The Department of Defense is not privy to the number of 
Private Security Contractors employed by the Department of 
State.
    As of the end of the 1st Quarter 2008 (December 31, 2007), 
CENTCOM reported 12,950 DoD-funded private security 
contractors; 9,952 in Iraq and 2,998 in Afghanistan.

[GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]

    Ms. Kaptur. What is so interesting to me, is that we are in 
theater 5 years and some of us even went to Iraq to try to 
figure out under whose command and control some of these 
individuals were. We are now 5 years. That is why I feel the 
elephants are stampeding across the plain and I can't catch up 
to them. I am wondering what this contract will provide, or 
this agreement. What will it tell us that we don't--we don't 
have answers now on how many they are. Will it tell us which 
countries these people are from? What percent of these 
contractors who carry guns aren't U.S. citizens? Do we know?
    Mr. Quinn. No, ma'am.
    Ms. Kaptur. Five years into a war, we don't know that.
    Do we know how much----
    Mr. Quinn. I don't know, ma'am. The contracting 
organizations over in theater may very well. But I am speaking 
from the investigative side of the house where we go out and 
investigate any of these allegations. I am just not aware of 
those numbers.

                         CONTRACTOR DISCIPLINE

    Ms. Kaptur. We don't know how many are under State, we 
don't know how many are under DOD. The two of them weren't 
cooperating until last December. And I am not sure what this 
agreement will actually cover.
    I don't have much time this morning, but it is troubling to 
me, you know, that we have to get to the fifth year in the war 
before we even begin to think about this. The Washington Post 
had a--and it isn't that some of us haven't tried. We have 
tried very hard to get this information. And I have asked 
myself about the decrease in contracting staff while the 
expenditures have exploded or the fact that you don't have the 
staff you need, is that accidental or intentional? I don't know 
the answer to that. But if you want to have certain things 
happen and you don't want to have anybody look at it, you don't 
provide the people to do the oversight. So the way I am looking 
at this world, it is intentional, it is not accidental.
    In The Washington Post in April, a year ago, there was an 
article entitled ``A Chaotic Day on Baghdad's Airport Road.'' 
And the article said not a single case has been brought against 
a security contractor. And that confusion is widespread among 
contractors in the military over what loss, if any, applied to 
their conduct.
    Let me ask you. General, to your knowledge, who in the Army 
chain of command monitors contractor performance and takes 
action if the contractor's conduct is inappropriate or illegal?
    General Thompson. Well, the operational chain of command 
monitors that, and the contracting officer also monitors the 
contractor's performance. And part of what is in place in this 
agreement and in the instructions from the Multinational Force-
Iraq are the accountability issues, both with the UCMJ and with 
the Federal statutes and with the military extraterrestrial 
jurisdiction and what they can and cannot do with the 
contractors.
    Ms. Kaptur. But these 5 years now, none of this has gone 
on. None of it. It says not a single case has been brought 
against a security contractor. That means no case was brought 
under State--of course, we don't know about State because the 
agreement is new so. You haven't had a chance to really look at 
that, right?
    And what about DOD? Any case been brought against a 
security contractor under DOD to your knowledge?
    General Thompson. Ma'am, I don't know. Like I indicated 
earlier, that is an area that I did not personally look at. I 
know it is being looked at inside the DOD and with the State 
Department.
    Ms. Kaptur. Do you have any idea how many contracted forces 
are under DOD's purview within Iraq today? Do you know?
    General Thompson. Yes. That is the number that I quoted 
earlier.
    Ms. Kaptur. Kaptur. 133,500. But of that, how many of them 
carry guns? Who are the security contractors? How many?
    General Thompson. I don't know the answer to that.

                      TRAFFICKING IN ARMS AND OIL

    Ms. Kaptur. The fact that we can't get answers to this, and 
many of us have been trying, is very troubling. And it tells 
me, it leads me to believe that there are certain individuals 
in our government who are tying to set up a different type of 
operation over there down the road, largely based with 
contracted forces and not regular military. And that bothers me 
a great deal.
    Let me just ask--and my time may be up here. I am very 
interested in trafficking in arms and oil. I would like to know 
if any of the criminal investigations that are underway are 
targeted at the oil sector, and how much has been moved out of 
that country illegally? Who is doing it? Is there any way to 
get at that in the work that you are doing? And the same with 
arms. The Chairman referenced theU.S. arms, that have leaked up 
into Turkey. That isn't the only shipment, obviously, that got out of 
the country. How do you get your hands on oil and arms and illegal 
trafficking out of Iraq?
    Mr. Quinn. Ma'am, Army CID does not have any open 
investigations ongoing on trafficking and oil. The closest that 
we have on the trafficking of oil would be deliveries that 
aren't delivered to base stations or base camps out there where 
contractors, in collusion with the military members or somebody 
else, are taking bribes not to deliver it. But I think the oil 
you are talking about is the major movement of oil, out of 
the--out of Iraq. And we are not----
    Ms. Kaptur. Who would that be, Mr. Quinn? Who would have 
responsibility of oversight of criminal activity----
    Mr. Quinn. Ma'am I believe that would probably be the FBI 
in conjunction with State Department. I don't know that for 
certain. And it probably goes--ties back to the dollars 
involved, on any dollars moving back and forth that touch U.S. 
hands. If it is purely Iraqi oil and sovereign Iraqi movement 
of oil, then that--that would not probably be the FBI either, 
to be quite honest.
    Mr. Dicks. Would the gentlelady yield briefly for a second? 
Would the Iraqi Government be looking into this? Do they have 
any investigating----
    Mr. Quinn. Congressman, they do. They do have 
investigators. They may very well look at it. They have got 
courts over there that they have established. We are working 
some cases with the Iraqi officials where they have been ripped 
off by contractors not delivering garbage trucks to Baghdad, et 
cetera.
    Mr. Dicks. Thank you for yielding.
    Ms. Kaptur. Thank you. I think my time has expired.
    General Thompson. Ma'am, before----
    Ms. Kaptur. Yes, General.
    General Thompson. To your points about the jurisdiction. I 
am looking at my notes here. And back as early as 2004, they 
expanded the military Extraterrestrial Jurisdiction Act, which 
is anybody that commits a Federal offense outside the U.S. 
soil. They expanded that to contractors working for all Federal 
agencies, not just DOD.
    And then in 2006, there was a statute change that made 
contractors in Iraq and Afghanistan subject to prosecution for 
courts-martial violations of the UCMJ.
    So the changes have been put in place over the last few 
years to hold the contractors accountable. I don't know how 
many have been prosecuted or how many are under investigation 
right now.
    Mr. Quinn. I think The Washington Post may have it right as 
far as private security contractors actually prosecuted. They 
are getting ready to do some prosecutions in the not-too-
distant future, but the fact that there was no prosecutions----
    General Thompson. At that point in time.
    Mr. Quinn. I would not want to infer that we didn't go out 
and investigate. We did investigate maybe about a half dozen 
shootings out there conducted by private security contractors. 
Most of them got to the point on the use of force that we did 
not have enough information to actually go forward with the 
criminal indictment through either U.S. courts, or, in one case 
we even tried to go through the British courts because it was a 
British citizen. But again, it turned on the fine point of 
protecting one's self. And it wasn't an incident where, just 
flat on its face, you had a murder of Iraqi civilians by 
contractor guards.
    Ms. Kaptur. Is it possible for you to provide for the 
record, to the best of your knowledge and as a result of this 
agreement total, contracted workers inside of Iraq: and of that 
number, both from DOD and from State, which of them are 
involved in armed activities, security, whatever-it-is-force, 
in each of those departments? Is that information available to 
you to provide us?
    [The information follows:]

    As of the end of the 1st Quarter 2008 (December 31, 2007) 
CENTCOM reported that there are approximately 163,590 DoD-
funded contractor personnel in Iraq. There are approximately 
12,950 DoD-funded private security contractors in Iraq, of 
which 9,212 are armed.
    The Department of Defense is not privy to the number of 
Private Security Contracts awarded by the Department of State.

    General Thompson. Ma'am, I think the information is 
available.
    Mr. Quinn. This agreement with--that the multinational 
forces-Iraq published, it gets down to the point where when 
maybe a Department of State private security contractor is out 
there moving around, they have to notify the multinational 
forces that are in the area. If there is an accidental--if 
there is a discharge of a weapon that has to be reported, they 
have to do a spot report on it. So they are tightening it down 
to the point where we should have visibility across each 
other's lines between Department of State and Department of 
Defense.
    Mr. Murtha. So the report is part of the defense report to 
the Army commander?
    Mr. Quinn, Yes, yes, sir. Reports go up both lines of the 
chain of command, Department of State. And we actually have a 
U.S. military over in Department of State's emergency 
operations center, and they have one over in ours too.
    Ms. Kaptur. I would like to request for the record just the 
numbers. Then I want to know how much they are paid versus 
regular force. I want to know their pay scale.
    Mr. Murtha. I don't understand the question. The question 
for what?
    Ms. Kaptur. All right, Mr. Chairman. I would like to know 
from this agreement that was signed with the State Department 
back in December, I want to know for DOD and for the State 
Department how many total contractors are working in Iraq for 
each of those departments. All right.
    Then I want to know what subset of that total is armed 
force in any form, whether it is involved in some type of 
security operation, working with the Iraqi military, whatever. 
I want to know who they--I want to know how many there are, and 
then I want to know how much they are paid compared to regular 
personnel, regular force that we have in theater.
    Mr. Murtha. Part of the problem is when I was there a year 
ago, they were falling all over each other, Blackwater people. 
And this is in the Green Zone, inside the military command. So 
I assume the Defense Department pays for that. Or does State 
Department pay for that?
    General Thompson. It is a combination.
    Ms. Kaptur. See, that is what you can never find out.
    And then, Mr. Chairman, I would like to know how many are 
not U.S. citizens and where they are from. That is something 
else I would like to know. And I want to know the dollar 
amounts of those contracts. I want to know that. You would be 
the first people in the world that would give this member that 
information. Thank you.
    [The information follows:]

    The total dollar amount for contracts in Iraq for FY06 was 
$71,496,222, and in FY07 the amount was $179,465,170, resulting 
in a total of $250,961,392.
    As of 27 Feb 08, JCCI/A has 4,218 Iraqi businesses in the 
vendor database. The total dollars to Iraqi businesses for 
March 06-Jan 08 was $5.1B.
    As of the end of the 1st Quarter 2008, CENTCOM reported 
that there are approximately 163,590 DoD-funded contractors in 
Iraq. Of these, 132,266 or 81% are either third country 
nationals or host country nationals. There are 31,325 U.S. 
citizens employed as DoD contractors in Iraq accounting for 19% 
of the total.

    Mr. Murtha. Mr. Tiahrt.

                      ARMY CONTRACTING TASK FORCE

    Mr. Tiahrt. Thank you, Mr. Chairman. Thank you all for 
serving the country. We have heard from earlier testimony that 
you could be doing something else for more money. So I am glad 
you are serving the country. And I appreciate it very much.
    General Thompson, you have been tasked with the Army 
Contracting Task Force. I heard you earlier say you have 
developed a plan to implement this. Is that plan complete? Has 
it been approved? And is it available?
    General Thompson. No, sir. It is not complete yet. It will 
be complete, because that plan will be either referenced or 
attached to the report that we need to submit back to the 
Congress in 120 days. And whether we had that requirement in 
the authorization act or not, we would have done that because 
it is the right thing to do.

                        ARMY CONTRACTING COMMAND

    Mr. Tiahrt. And as part of our staff's notes to us, it says 
that the action that has already been taken in response to the 
Gansler Commission was that you have established a two-star 
level command. And is one the expeditionary and one 
operational?
    General Thompson. There is a two-star level contracting 
command. And underneath that----
    Mr. Tiahrt. One star.
    General Thompson. One star to focus on installation 
contracting, and then a one-star level focused on expeditionary 
contracting, and the one focused on expeditionary contracting 
will have the command and control of all the deployable brigade 
battalions and teams.
    Mr. Tiahrt. Also, there is a commitment to increase the 
Active Duty contracting personnel by 400 and the civilian by a 
thousand. Is there a timeline when you hope to achieve those 
goals?
    General Thompson. Yes, sir. The exact numbers for the 
military, 301 have been approved, another 167 have been 
recommended. I am optimistic they will be approved. And the 
exact number of civilians that we think we need to grow is not 
1,000, it is 801. And it is the 801 that is the subject of are 
there the dollars there to pay for those? And that is what I 
owe the answer to the Chairman.
    Mr. Tiahrt. So there are two ways to look at this. One is 
how much can I afford. And the other is how much do I need. Are 
your numbers based on what you believe you need, or is it based 
on what you think----
    General Thompson. No, sir. It is based on what I think we 
need.

                   TRAINING OF CONTRACTING PERSONNEL

    Mr. Tiahrt. Okay. Where will you set up the training for 
all these personnel? And will you train the Active Duty 
alongside with the civilian?
    General Thompson. Yes, sir. The training is already there. 
It is there in the Defense Acquisition University and it is 
also there with the internal Army training. We do a lot of the 
training----
    Mr. Tiahrt. Will this be a surge coming through--I hate to 
use that term because it is kind of confused, like the pig 
going through the anaconda.
    Is there more than normal going through your education 
system because of this?
    General Thompson. We will expand the course offerings and, 
the class sizes as we need to, to be able to handle the growth 
of people.
    Mr. Tiahrt. But you have the physical----
    General Thompson. Physical space to do that? Yes, sir.
    Mr. Tiahrt. Okay. The other thing is that the Gansler 
Commission thought you were not adequately staffed. It said 
that part of the experience of being deployed was lacking. Are 
you going to change your curriculum to match some of the things 
that they have pointed out and some of the things you have 
experienced in Iraq and Afghanistan?
    General Thompson. Yes, sir. Like I said earlier, we are 
actively interviewing both the individuals and the unit 
leadership as they come back. And we are adjusting course 
content for all of our courses. The 12 in particular that I 
referenced earlier, that course content is being adjusted based 
on the lessons learned.
    Mr. Tiahrt. I am sorry. I missed that part of your 
testimony. I didn't mean to make you repeat yourself. The other 
thing is part of the training is supposed to be contracting, 
going out and establishing the contract, the terms and 
conditions, making sure that it meets the requirements. And the 
other part is contract management, which is really a different 
task.
    But is your training going to train people separately where 
you have two different job descriptions? Or will they be the 
same individual that does the contracting, and then follows on 
and manages the contract? Because if you look in private 
sector, quite often they treat that as two different job codes, 
if I can use that term, and they make them two different 
specialties.
    General Thompson. It is a full-time job to be involved in 
contracting. On the military side, that is a 51 Charlie, either 
officer or NCO. It is an 1102 series code for the civilian 
workforce. The contracting officer representative is not a 
full-time job, but it is an important job. We have trained 
4,700 contracting officer representatives over the last year 
time frame. I just want to make sure I have the time frame 
right. And those are the eyes and ears on the ground for the 
operational commander to make sure that the trash is picked up, 
the water is delivered, the fuel is delivered.
    There is an online course--online is not necessarily the 
answer to everything--that the Defense Acquisition University 
offers, that it would require all our contracting officer 
representatives to take. And in addition to that, we have 
augmented that with on-the-ground training that is specific to 
the job that they are going to do.
    So, for example, if I am the contracting officer 
representative, I am Lieutenant Thompson out there, and I have 
got to make sure the dining facility trash is getting picked up 
three times a day, I have to know what the specifics of that 
contract are. And that is an important responsibility for me. 
And one of the things we have to get across to the operational 
commanders and the individuals out there, it is not just an 
extra duty. It is a very important extra duty.
    One of the strategic points I would like to make to the 
Committee is my cochair on this Army Contracting Task Force, 
Ms. Conden, and the head of contracting for the Army Materiel 
Command, Mr. Jeff Parsons, a two star, SES, are over in theater 
today, meeting with the new three-star operational commander in 
Kuwait, who is very interested in making sure he understands 
what his roles and responsibilities are so he can become 
actively involved in making sure that the U.S. Army gets what 
it is supposed to get, and he fulfills his responsibilities as 
the senior mission commander in Kuwait.
    It is not to say that the previous commanders weren't 
interested. I mean, I give general Wickham great credit as the 
previous commander in Kuwait for raising a lot of the issues to 
the senior leadership level to be addressed. And General 
Wickham did a really tremendous job, in my view, of making sure 
that we understood that there were issues out there that needed 
to be addressed.
    The seriousness that the Army has taken is Secretary Geren 
and the Chief of Staff are now going to have the general 
officers go through a course for a week focused on business 
issues. The inaugural course for the general officers is going 
to be the second week in February, and the 4-hour block on why 
contracting is important is going to be taught by me to the one 
stars, soon to be two stars. And that is a significant change 
in the way we viewed this from the past. and I think a positive 
change; and, to me, an indication of the seriousness that the 
civilian and military leadership and the Army are taking this.
    Mr. Tiahrt. I think it is very important that you are 
setting up the contract command, because in the past, it was 
just sort of a square to be filled by most officers on the way 
to the top. And so they filled their 2 years in contracting, 
however long it was. That made them available for promotion to 
something outside of contracting. And there was never a career 
path. So a lot of the Active Duty personnel didn't see that as 
a way for them to move up. And so it was never treated, I 
think, with the seriousness that it needs to be treated with, 
as we are seeing with all this problem of fraud now.
    So I think it is the right path. I hope that the other 
services will, follow a similar path as well. In the way that 
you are first over the hill here, I think it is very important 
we do that across the services so we can keep the taxpayer 
dollars from being as part of fraud and part of the abuse that 
we have seen in the past.
    General Thompson. One of the things that the Secretary of 
the Army did is he gave specific guidance to the last brigadier 
general promotion board to select an individual for the general 
officer ranks that had a contracting background. And when that 
list is sent, over to the Congress and approved, you will see 
the name of that officer who has been selected--and also gave 
specific guidance to the colonel-level command selection board 
that just adjourned to pick the right people to fill these 
contracting brigade positions. And I know, because I worked it 
with the secretary. He personally made sure that those words 
reflected his intent to make sure this gets addressed and to 
create that leadership opportunity at the top, so it is a 
valued career field, so people will come in at the bottom and 
recognize it is not a dead-end career field. It is a career 
field that has got service in the service.
    Mr. Tiahrt. Thank you, General. Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Rothman.

                            REPORTING FRAUD

    Mr. Rothman. Thank you, Mr. Chairman.
    General Thompson, Mr. Quinn, thank you for your service to 
our country and thank you for taking on this important job. And 
I want to commend all my colleagues for great questions.
    I want to go at something completely different, though. I 
understand that we are fighting a war, and when we send our 
troops into battle it is to win a war, and we are sending 
warfighters. But I wonder is there a role or not for the 
private, the sergeant, the captain, the major, if they see 
ammunition, guns and the rest of that stuff being stolen or 
diverted and they know it is happening? Is there a role for 
them to play? There are 100,000 of them over there. They are 
seeing this stuff. I understand they want to complete their 
mission, they want to stay alive.
    Is there any role for them, however, in this system of 
reporting abuse, fraud? And what happened? I am sure some of 
these rank-and-file folks reported in since 2003 that they saw 
stuff going on. What happened to their complaints or their 
observations?
    Mr. Quinn. I would say, Congressman, that they have a 
responsibility to report when they see fraud, waste and abuse. 
And that is something that the Army preaches to soldiers. Some 
of the cases that we investigated did in fact come from 
soldiers coming to us and said, hey, I just think I got offered 
a bribe by a contractor down here. Are you all interested? And, 
of course, we are interested.
    So it is a responsibility. They have a means, with the CID 
agents actually out there with units. Now, we are not at every 
forward operating base. But commanders know how to get hold of 
our agents. But, yes.
    Mr. Rothman. Is this something that has just recently been 
brought to the attention of the troops? Or hate they always had 
this as part of their ethos as an American fighting person?
    General Thompson. Yes, sir. It has always been a part of 
their ethos.
    Mr. Quinn. Exactly.
    Mr. Rothman. But again, if it has always been part of the 
ethos of the American fighting person, then again, they want to 
complete their mission, they want to stay alive, and maybe it 
is too much to ask of them to do much more than that. This has 
been--this went on to some large degree for years. Did they not 
report in numbers? And I think it is important to know whether 
this instructing of the ethos has been effective.
    Maybe you need to beef up that part of the training. Unless 
you say, ``Steve, they can't do it. They have got enough to do 
their job and stay alive.'' Which I will accept that if you 
tell me that that is the truth. But if you say it is important, 
it is in the mix for them to be doing, did they do it? And if 
not, you need to beef up your curriculum maybe to the troops 
and their training and the majors and sergeants and lieutenants 
and colonels all the way up, in addition to the separate thing 
that you are building to manage the contractors.
    So if they didn't need to beef up the curriculum, and if 
they did report this, what happened to their complaints? And 
why were their observations/complaints buried?
    General Thompson. Sir, I don't know what happened to their 
complaints. I would say that hearing from the DOD Inspector 
General who was looking at all of the issues related to the 
weapons accountability and complaints that were made and how 
those were investigated, I mean, that is something that, if the 
Committee desires, could be followed up on with the DOD 
Inspector General. I mean, that is the way I would answer that 
question.
    Mr. Quinn. Congressman, I would just like to add on, a lot 
of this wasn't out in the open. I mean, these folks that were 
stealing money or taking bribes, they didn't advertise the 
fact. We are not seeing a lot of collusion between multiple 
individuals that all got in on this sweet deal to rip off the 
government.
    Mr. Rothman. I am not saying there was collusion. And 
again--can't say it enough--they need to complete the mission 
and stay alive. And I am not sure how much more capacity they 
have to be observers. But if it is supposed to be part of their 
responsibility, they must have seen this stuff going on.
    Ms. Kaptur. Would the gentleman yield?
    Mr. Rothman. Sure.
    Ms. Kaptur. I just wanted to state that, remember when 
General Shinseki said we weren't sending enough into theater at 
the very beginning, we wouldn't be able to hold down Iraq? I 
would probably argue a lot of the theft and fraud that I am 
talking about on oil and arms occurred outside the sight of our 
soldiers and our commanding officers. And, in fact, if you 
looked at some of the contracts that have been signed like the 
AEGIS contract, for example, the logistical commands that are 
being handled by private contractors, our folks aren't there.
    Mr. Rothman. I think the gentlelady may well be correct on 
that category. I am wondering--and I think perhaps, Mr. 
Chairman, if you and the Ranking Member agree, we need to find 
out, did the rank-and-file folks have an opportunity to observe 
weapons being transferred, gasoline shipments not making it and 
seeing somebody get a--something. Just to find out if it 
occurred, and if it occurred and it wasn't reported, do we need 
to beef up our curriculum for the rank and file?
    Mr. Bishop. Would the gentleman yield?
    Mr. Rothman. And if it was reported, what happened to it? 
And what in our structure allowed their complaints and reports 
to be ignored for so many years?
    General Thompson. One of the things that a contracting 
officer representative does--and I will give you two recent 
examples here in Kuwait. And that is that person is not a 
professional, but has that additional duty. We had two staff 
sergeants that were trained as contracting officer 
representatives. One of them observed that the fuel delivery 
records didn't match the fuel they were seeing delivered. They 
reported that to the contracting officer. It was a 
subcontractor that was cheating the prime contractor. And the 
subcontractor is now being dealt with as a result of an 
investigation.
    There was another staff sergeant that said, we have too 
many copying machines for the mission, reported it to the 
contracting officer, and there was $100,000; $100,000 is not a 
lot of money, but it is an indication of----
    Mr. Rothman. It is to Mr. Tiahrt and I.
    General Thompson. In the big scheme of things. It is a big 
deal of money to me. And the point I would make to you, sir, is 
that the great majority of our people recognize right and 
wrong. And they know when they see something wrong that they 
need to report it through their chain of command and whatever 
the appropriate authority is.
    Mr. Rothman. What happened when they reported it in 2003, 
2004, 2005, 2006, 2007, what happened to that?
    Thank you.
    Mr. Bishop. Mr. Chairman.
    Mr. Rothman. Can I yield to the gentleman from Georgia, Mr. 
Chairman?

                          SECURITY CONTRACTORS

    General Thompson. Can I answer the question to 
Representative Kaptur? And this is a little bit dated 
information, but we will update this for you. But this is as of 
July 2007, there were 6,400 private security contractors in 
Iraq. Approximately 5 percent were U.S. citizens, 54 percent 
were third-country nationals, and 41 percent were host country 
nationals. That doesn't add up to 100 percent. But those are 
the approximate numbers. So that information is available, and 
we will update that.
    Ms. Kaptur. Are you saying 64 as of when? 6,400.
    General Thompson. July: 6,400 as of July.
    Ms. Kaptur. Did you say contracts or contractors?
    General Thompson. Private security contractors,
    Mr. Dicks. That is an individual, isn't that correct, sir? 
One person.
    General Thompson. Yes, sir. That is an individual. One 
person.
    Ms. Kaptur. Under DOD? Or is this State?
    General Thompson. DOD.
    Ms. Kaptur. So we don't know how many States?
    Mr. Quinn. But part of this fragmentory order (FRAGO) that 
went out----
    Mr. Murtha. We will ask the Foreign Operations Committee to 
give us that information. We may have to go to the other 
committee to get that information.
    Mr. Quinn. Quarterly they are required to report numbers, 
whether they are third-country U.S. national. That was part of 
that implementing instructions that just went out in December 
that pulls together all these numbers for us.
    Mr. Rothman. May I yield to the gentleman from Georgia? 
Thank you.

                            REPORTING FRAUD

    Mr. Bishop. Thank you very much. Mr. Rothman was asking 
about the privates, the sergeants, and their participation in 
helping you reveal the fraud. Do you have built in and do you 
train your folks with encouragement to report fraud, waste, and 
abuse? And I say that because in my casework, I have had an 
occasion to have a civilian employee who was working on the 
base, who was inventorying. Part of his job was to inventory 
weapons parts. And he came in from outside, came into a 
situation, and he noticed that there were parts that were going 
out the door for various weapons, the rifles, a magazine here, 
so many dozens of various other parts, which were sufficient if 
they put them together to put rifles together.
    And he reported it to his civilian chain of command. And he 
was told to mind his own business. He continued to--he also 
discovered some live grenades that were coming back from 
recycled equipment from Iraq, that he also reported they were 
live and disabled. He got an award for that.
    But he was subsequently disciplined, and he was determined 
to be, during his probationary period, unsuitable for continued 
deployment and therefore he was recommended for discharge. He 
was livid about that, simply because he was not going along 
with the status quo and looking the other way like he was 
encouraged to do.
    Consequently, it ended up in my office as a complaint, and 
we had to follow through with case work, ultimately getting 
this guy reassigned from the people he was working under, but 
also having that situation corrected.
    Do you have anything in place that will not allow 
disincentives like that, so that the people who are actually in 
charge will punish or retaliate against employees who do 
travel, do the right thing to stop fraud, waste, and abuse?
    General Thompson. Everybody who is seeing something not 
done properly is encouraged to report that to their chain of 
command. And in addition to that, if they don't get the 
satisfaction, there are a number of hotlines. There are fraud 
hotlines, there are IG hotlines. And so if you don't feel you 
are getting the proper action taken, there are those venues 
available, too. And a lot of the leads that come to the CID for 
investigation come from hotlines. And there is also law and 
policy out there that will punish the leadership if they take 
retribution against somebody for trying to report and do what 
is right.
    So those checks and balances are out there in the legal 
system to address that. I am very confident that that is there.
    Mr. Bishop. This guy ultimately got pushed away and he just 
left. He resigned because of the pressure that he was put under 
because of those situations.
    Mr. Murtha. Mr. Kingston.

                            PATTERN OF FRAUD

    Mr. Kingston. Thank you, Mr. Chairman.
    Mr. Quinn, in the $6 billion, is there a breakdown or a 
pattern of where the fraud typically takes place?
    Mr. Quinn. No, sir. As I mentioned, it just runs the gamut 
with--whether it is double-billing for product substitution or 
bribery. In the past we have not seen an awful lot of bribery. 
It does take place out there. But that probably is the biggest 
area that we have seen in the investigations that we have 
opened so far, is bribery of government officials so that 
contractors can do the product substitution or things of that 
nature. Get the bid, double bill, things of that nature.
    Mr. Kingston. How much of that bribery is cultural?
    Mr. Quinn. Very good point, Congressman. And that is one of 
the issues that was brought up over there. When you are dealing 
with local nationals in Kuwait, Far East, Middle East--and I 
don't know what the name of the term was--but, you know, you 
kind of grease the skids a little bit to get the contract, to 
get the introductions, to know the people involved. So some of 
it should be--may very well be cultural, but then when you 
focus on the U.S. citizen, the soldier, the DA civilian, they 
know better than that. They honestly do.
    Mr. Kingston. What would be the breakdown between this 
being the American citizen's corruption versus people within an 
organization who are non-Americans?
    Mr. Quinn. I couldn't break that down for you, Congressman, 
because we do see third-country nationals involved. We see 
local nationals involved in the process. As I look over the 
personnel that we have got listed as the subjects of our 
investigations, it just seems that on both sides, whether it is 
the U.S. Government side or the contractor side, there is just 
an awful lot of Americans falling on both sides.
    Mr. Kingston, Is there a head of the snake--is there a 
beginning? Or is it just a circle? Can you tell if it is, say, 
American contractors leaping into this thing enthusiastically? 
Or is it Americans who are getting swept away by it?
    Mr. Quinn. I think on the government side, I think it is 
the being swept away with it. On the contractor side over 
there, in an effort to grab the money, you know, they were 
pushing it, they were pushing the dollars.
    Mr. Kingston. Is it low pay? Did you have to feel like you 
made your money on the side? Or is it just pure greed?
    Mr. Quinn. Congressman, I don't know that we know.
    Mr. Kingston. I don't know the justification.
    Mr. Quinn. I don't know that we know. We have had a few 
plea agreements. I guess we could go back to try to see what 
their motivation was. But I just chalk it up to greed. The 
massive amounts of money involved, most of the bribes weren't 
in the $2,500 range. Most of them were in the $100,000, 
$50,000, $250,000, things of that nature.
    Mr. Kingston. Are they squirreling the money away in a 
Swiss bank account? Where does this money go to?
    Mr. Quinn. Congressman Kingston, we are seeing all of the 
above. We are seeing them ship money back through the U.S. 
Postal Service, then going in, making deposits of $9,990, 
thinking that the banks aren't going to report them. We are 
seeing safe deposit boxes over in third countries, Kuwait, that 
we are dealing with the Kuwaiti Ministry of Interior so that we 
can get search warrants over there. And we have even seen some 
of it moving into offshore accounts.
    Mr. Kingston. Aren't most of these contractors former and 
recently retired military personnel, particularly Army?
    Mr. Quinn. I don't think we can say that.
    Mr. Kingston. I saw the General--I don't want to stop you 
if you want to say something.
    General Thompson. He can give you the specifics. But I 
wouldn't draw that conclusion. I don't think you can draw that 
conclusion. The facts don't bear it out.
    Mr. Kingston. Not necessarily the corrupt ones. I am just 
saying, aren't most of the contractors former military 
personnel? That is not the case?
    General Thompson. That is not the case.
    Ms. Kaptur. Will the gentleman yield? How about CIA?
    General Thompson. Ma'am, I don't know. I have no idea.

                            FRAUD DETECTION

    Mr. Kingston. Then my last question is, it has been asked 
several times in several different ways, but I am still 
perplexed why we haven't been catching this along and along and 
early on, and really cracking down. It seems to me that we are 
hearing action today which should have been going on the whole 
time anyhow. There has always been corruption, and particularly 
in purchasing, and particularly overseas. And it just seems to 
me like we are almost inventing the wheel that has already been 
thought of, and I know it had been.
    Mr. Quinn. I think part of the reason we didn't catch some 
of this earlier is because I didn't have my fraud agents over 
there in theater. And we probably should have known that 
because we see fraud in natural disasters in the United States. 
Hurricanes come through, and it is that rush to provide 
services to people so that they get shelter, they get food. And 
contractors then will try to rip off the government.
    We have made some improvements there by pushing out CID 
agents, because we support the Corps of Engineers in natural 
disasters in the United States. And we have dealt with 
contracting offices in Germany and in Korea. And it just--this 
amount of fraud just caught us by surprise, Congressman. We 
just did not expect something like that to happen.
    Mr. Quinn. Now, we are going after them, and we are going 
to get them, and we are going to get money back to the U.S. 
Government. Since 2000, in our fraud investigations, whether it 
is in the States or overseas, we brought back a billion dollars 
to the government on fines, forfeitures, renewal of contracts, 
things like that.
    Mr. Kingston. I think that might be the most surprising 
thing to me, and maybe other Committee members, that we are 
bewildered and somewhat shocked that you didn't anticipate this 
and haven't been cracking down on it the whole time, 
particularly since the President's statement and, you know, the 
end of major conflict in Iraq, that would signal a time where--
--
    Mr. Dicks. Mission accomplished.
    Mr. Kingston. Yeah. Mission accomplished. We are 
rebuilding, we are shifting into another gear during that 
period of time. I agree we should have been ready at Katrina. 
We have put in $120 billion in the Gulf. Certainly we knew, and 
there has always been corruption with an infusion of government 
cash on anything that is being rebuilt. But it seems to me that 
particularly armed services, of all groups, should be proactive 
on the front end.
    Mr. Quinn. Sure.
    General Thompson. I know. And that is one of the reasons 
why I think we are actually putting the fraud investigators and 
the auditors out there at the beginning and not after the fact. 
I mean, that is one of the lessons learned.

                           PENALTY FOR FRAUD

    Mr. Kingston. And I will yield back. But I think from a 
bipartisan standpoint, if you really made some examples of 
people who were stealing money potentially--because that is 
money for bullets or money for fuel, for a tank, money for some 
medicine for a wounded soldier--we feel that you really should 
be very severe on anybody who is----
    General Thompson. And I personally hope that those that are 
beyond the investigation stage that have been indicted, when 
they are prosecuted and, if found guilty, I hope that the 
sentence they get is more than appropriate to the crime. 
Because I want it to send a message to the entire workforce.
    To me, I just don't understand how anybody can think that 
they can cheat the United States government and get away with 
it. Because to me, it is just not a question of if you will get 
caught, it is just a question of when. So I just don't 
understand how people can even think they will get away with 
it, even for a short period of time.
    Mr. Quinn. And the courts have made examples out of some of 
these individuals. We have had 12 sentenced to date. A 
Lieutenant Colonel got 21 months confinement, a Major got 10 
years confinement, a civilian working for CPA got 9 years 
confinement. So they are cracking down on them hard when we 
catch them.
    And DOJ, we have gotten great support out of Department of 
Justice (DOJ) on it with U.S. attorneys to prosecute these 
cases. So it truly is a joint effort on this between the 
investigators, the auditors, and then the lawyers to take them 
to court.

                         SOLE-SOURCE CONTRACTS

    Mr. Bishop. Thank you very much.
    I have got one brief line of questions I would like to 
explore and that has to do with the sole-source contracts. I 
know that there have to be situations where sole-source 
contracting is appropriate, particularly when you have got an 
emergency and you have got unexpected needs that have to be met 
on a short-term basis. But the GAO reported in April of 2006 
that DOD had awarded contracts of security guard services 
supporting 57 domestic bases. And of that 57, 46 of them were 
authorized on a sole-source basis. And it also reported that 
those 46 sole-source contracts that were awarded by DOD 
recognized that they were paying 25 percent more than 
previously paid for contracts that were awarded competitively.
    Why would DOD contracting officials approve sole-source 
contracts that cost the taxpayer considerably more than those 
same services if they were competitively bid? And I am talking 
about not the theater deployment sole-source contracts, but I 
am talking about for domestic bases like Fort Benning or the 
Marine base in Albany, or various other of our bases here in 
the States.
    General Thompson. Sir, there are in statute seven 
provisions that allow other than full and open competition. The 
first recourse always is to do full and open competition. But 
there are the seven provisions, and I will quickly read them to 
you from my notes here.
    The first one is there is only one responsible source, and 
no other supplies or services will satisfy the requirement. 
Unusual urgency. Industrial mobilization or a research 
development engineering capability that only that individual 
organization or company has. An international agreement. It is 
authorized by statute. National security or the public 
interest.
    You cannot commence a negotiation for sole-source contract 
until you determine that that action is justified. You have to 
justify the accuracy of that justification statement, making 
sure that you have got all the information. And you have to get 
the required approvals. And depending upon the dollar amounts 
of the contract action, those approvals, depending upon the 
dollar amounts, go up. And the dollar amounts specifically for 
anything not exceeding $550,000, the contracting officer can do 
that certification themselves. Between $550,000 and $11.5 
million, they have to go to the competition advocate for that 
procuring agency. Above $11.5 million and less than $57 
million, you have to go to the head of the procuring activity 
for that organization. And then above that level it goes all 
the way up to the agency. In this case, the agency would be the 
Department of the Army. So there are--you have to justify it. 
You have to document it. And then depending upon the dollar 
value, you have got to go get approval from higher for those 
sole-source justifications.
    Mr. Bishop. I understand very well that all of this has to 
be documented, and it has got to be approved, but apparently 
these things are being approved. And I am trying to understand 
why it is necessary for them to happen, particularly at a cost 
of 25 percent more. From what I observe with the security guard 
contracts, the majority of the activity that they perform, the 
majority of the contractors and employees are basically at the 
gate checking IDs for people who enter the base. And, you know, 
for those services, which, you know, are minimal, why would we 
be paying 25 percent more for that? And why could not that be 
competitively bid?
    It seems like there is a culture where if the local 
contractor has that kind of authority, that they have a good-
old-boy system where they have preferred contractors. and so 
they just justify it in the paperwork. And there does not 
appear to be much oversight in that regard.
    General Thompson. In that particular case, those awards 
were made to Alaska Native corporations to replace military 
members that were deploying, and so it was done on an urgent 
basis. And then those competitions, those contracts were 
recompeted with full and open competition later. And there is 
where you saw the 25 percent savings that were quoted in the 
GAO report.
    Mr. Bishop, Not savings; it was 25 percent excess, not 
savings.
    General Thompson. Well, when the contracts were 
renegotiated, they were negotiated at a price that was 25 
percent less than they were paying when they were non-sole-
source. I am not excusing the fact that it is 25 percent more.
    Mr. Murtha, Mr. Young.

                             CASH PAYMENTS

    Mr. Young. Thank you, Mr. Chairman.
    Something has been bothering me all the way through this 
hearing, because at the beginning of the hearing, and I had 
asked several questions, and one of the responses that Mr. 
Quinn made was that part of the problem is there is so much 
cash in this system. Where does the cash come from? Do we pay a 
contractor in cash?
    Mr. Quinn. Congressman Young, in Kuwait it is not so much 
the problem on the cash side, but it was up in Iraq, where 
there were no banks, or the banks were nonfunctional. A lot of 
the personnel up there, either the contractors or the third-
country nationals that were working for us, were being paid in 
cash. There is a lot of dollars floating around over there. And 
that is what I was talking about. You get down into Kuwait and 
the contract actions in Kuwait, then they are going through 
banking process. I am sorry I misled you on that.
    Mr. Young. Is this cash American currency, or is it 
Kuwaiti, or is it Iraqi?
    Mr, Quinn. Much of the bribes that we saw up in--well, to 
include Kuwait, but up in Iraq, it is $100 U.S. bills.
    Mr. Young. When the Army awards a contract, in the case of 
the Kuwaiti, Iraqi, the whole region, do you pay them up front, 
or do you pay them based on bills for services rendered?
    General Thompson. Generally it is paid bills for services 
rendered.
    Mr. Young. So you do not advance a lot of cash?
    General Thompson. I mean, there are cases on specific 
contracts where money is advanced. On weapons systems 
contracts, mostly you advance money to buy, you know, long-lead 
materiel so you can begin to build something. But for service 
contracts, for the most part it is paid for services rendered, 
Congressman.
    Mr. Young. Okay. If we pay contractors in cash, who is 
responsible for that? Who actually handles the money? Who is 
responsible to make sure that it is not siphoned off into a 
bribe or siphoned off into a pouch going back home to go in 
somebody's personal bank account?
    General Thompson. There are disbursing officers that work 
under the comptroller that are responsible for the actual 
payment. The Defense Finance and Accounting Service has the 
responsibility for making payment to contractors. Once the 
contracting officer representative certifies that they 
delivered the product or service and authorizes that payment, 
then it is done by a separate organization, the Defense Finance 
and Accounting Service. Where there are cash payments, it is 
done by an individual that does the financial transaction that 
is separate from the contracting officer for the most part.
    Mr. Young. Are there any of the disbursing officers in the 
list of investigations ongoing or the indictments?
    Mr. Quinn. I do not know of any, Congressman Young. I can 
go back and take a look at to see if any of them were 
disbursing officers. We do have one case where some DFAS 
employees figured out how to rig the codes and were paying 
themselves, and I think they have been court-martialed. But the 
actual interaction between contractors and disbursing officers 
I will have to check for you, sir.
    Mr. Young. Well, when there is cash around, there is always 
a concern about where it goes.
    Mr. Quinn. Yes, sir. It is a full-time business for us.

                     TRACKING DELIVERY OF SUPPLIES

    Mr. Young. I keep thinking about food deliveries that were 
not made and did not get to the right place, and weapons and 
ammunition. And Mr. Murtha and I had a briefing quite some time 
ago on a very closed--just the two of us were involved--about 
something very similar to what we are talking about here. And 
this strikes me FedEx, UPS and companies like them deal with 
millions and millions of articles and items and packages, and 
they very, very seldom ever lose one. And you can almost trace 
it minute by minute.
    Should the military be talking to somebody at FedEx and 
asking them how they do it and how they keep track of 
everything without losing or having something misplaced? Very 
simple question, a rhetorical question. I do not even 
necessarily expect an answer, but it is something that goes 
through my mind. If FedEx can do it, why cannot the United 
States military?
    Thank you, Mr. Chairman.
    Mr. Murtha. Ms. Kaptur.

                             AEGIS CONTRACT

    Ms. Kaptur. Thank you. Mr. Chairman, I just wonder if the 
general was aware of a company called Aegis, which apparently 
is on contract to the DOD to provide logistical coordination 
for all security contractors inside of Iraq. Was that part of 
the 6,400 number you gave me, gave us?
    General Thompson. Ma'am, I do not know. I am aware of a 
company called Aegis. I am not aware of the specifics of what 
contracts they have won.
    Mr. Quinn. Aegis does have some, or did have some, private 
security contractors working for them, because one of the 
investigations we did was on one of their subs. So they do have 
some. Now, whether they still have the contract business or 
they extended the contract, ma'am, I do not know.
    Ms. Kaptur. As I understand it, this was a very important 
contract. And it was--I do not know the amount of it, but it 
was large compared to others. I am curious as to whether it was 
sole-source or not. And I am surprised the number you gave, 
6,400. I would like to know what portion of those are Aegis 
contractors. The numbers you gave, over half are third-party 
nationals in 41 host country. That would mean Iraqis, I guess.
    General Thompson. Right. Or--yes, ma'am.
    Ms. Kaptur. But what would be the nature of that Aegis 
contract? And who signed it at DOD? Could you find that out for 
me, General?
    General Thompson. As we look at the updated information 
from the information I gave you that was as of July, we can 
look at what Aegis has got as far as DOD contracts today.
    [The information follows:]

    The Department of Defense has not awarded any sole source 
Private Security Contracts. All contracts have been awarded 
using full and open competition.

    Ms. Kaptur. And, Mr. Quinn, what was the nature of the 
investigation that went on relative to Aegis?
    Mr. Quinn. It was a shooting incident, ma'am, as part of a 
security of a convoy. We investigated to determine if it was 
within the rules of force or was not in the rules of force. I 
know it did not go to prosecution. And I do not know that we 
were able to establish that they violated the rules of force.
    Mr. Murtha. Mr. Dicks.

                     DELIVERY OF INFERIOR SUPPLIES

    Mr. Dicks. You mentioned in our discussion today making 
certain that the contractors supplied the equipment that was 
actually requested, that there was sometimes contractors 
provided things that were not asked for----
    Mr. Quinn. Yes, sir.
    Mr. Dicks [continuing]. In an attempt to satisfy the 
contract. How big a problem is that?
    Mr. Quinn. We did not see that in a number of instances. We 
did see it--there was a contract for cell phones to be 
provided. They provided inferior cell phones. There was a 
logistics contract to move equipment, and they were required to 
give us a truck that was capable of carrying X amount of 
pounds, and they gave us lower quality. I do not know of any 
instance where they provided us something that put soldiers' 
lives at risk. It was more on the logistical side of the house.

                   CONTRACTING OFFICER REPRESENTATIVE

    Mr. Dicks. Is that still a problem, or has that improved?
    Mr. Quinn. It has improved, sir.
    General Thompson. I think that is much less of a problem, 
especially when I go back to the comment I made about training 
4,700 contracting officer representatives to make sure that we 
are getting what we asked for. So I think that is probably 
significantly----
    Mr. Dicks. Do they do inspections?
    General Thompson. Yes.
    Mr. Dicks. They go out to see whatever it is arrives, check 
to see that this is what we have ordered?
    General Thompson. Yes, sir.
    Mr. Dicks. Do they do that in Kuwait?
    General Thompson. They do that everywhere.
    Mr. Quinn. That was the COR responsibility to some degree, 
and that is a unit-level responsibility. And General Thompson 
mentioned the intensive effort over the last 6 months or so to 
get those CORs trained on what to look for out there, what kind 
of indicators of fraud so they can spot this. And they have 
spotted it and reported it to us.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Kingston.

                         NUMBER OF PROSECUTIONS

    Mr. Kingston. Mr. Quinn, you gave me the number of people 
who had been prosecuted earlier. Could you repeat that? I think 
you said 21 or 12 were in----
    Mr. Quinn. No, sir, I think it was 19 that have been 
indicted or charged, government employees, and then I think it 
was 13 that have gone to court, both government employees and 
nongovernment employees.
    Mr. Kingston. That seems a little low for $6 billion.
    Mr. Quinn. Well, the $6 billion is the amount of the 
contract that was touched, not the amount of fraud that took 
place. And in the prosecution, the investigative side, moving 
into the prosecution side, we are still greatly in the 
investigation side. And there will be a number of prosecutions 
over the next year or 2 years; as we move this mountain, as 
somebody mentioned, the pig through the snake, we will be 
processing all these through to completion.
    Mr. Kingston. How would you characterize the corruption? Is 
it widespread, or is it a persistent problem that is there, 
but, you know----
    Mr. Quinn. Congressman, I would say persistent. You are 
always going to have some fraud and corruption out there. We 
saw a couple pockets of it, the Kuwait contracting office that 
was required to do so much with so few without the oversight. 
But persistent. As American dollars and contractors are 
involved, you are just going to have somebody take the bite at 
the apple.
    Mr. Murtha, Mr. Hobson.

                   COMMANDERS EMERGENCY RESPONSE FUND

    Mr. Hobson. I do not know whether this still goes on or 
not, but when we first went over there, a lot of the generals 
and colonels liked this commanders' funds they had. These were 
moneys that they had----
    Mr. Murtha. Was that cash, or how do they handle it?
    Mr. Frelinghuysen. It is cash.
    Mr. Murtha. Cash?
    General Thompson. Cash. Yes, sir. Commanders' Emergency 
Response Fund.
    Mr. Hobson. Well, and some of it was more--they found 
money, too, and they confiscated money, and they kept it. And 
they felt that they were very expeditious and cost-effective in 
passing that money out. However, the Army did not like it 
because they had all these other procedures, and some of the 
procedures were not followed.
    What I was trying to get at was how much of that is in any 
of this stuff that we are prosecuting or looking at? Was that a 
more efficient way of doing it and a better way of getting the 
services than going through all the bureaucracy? Just what 
worked and did not work? Because they liked it, but I know the 
Army pushed back on it. So I do not know what happened finally. 
And are any indictments going to be on those guys?
    Mr. Quinn. To my knowledge, no, sir. I do not know of any 
of our investigations that came out of the CERF funds, the 
emergency funds that were available to commanders. Most of what 
we are seeing is all on the contracting side of the house.
    Mr. Hobson. Okay. Thank you.
    Mr. Murtha. Mr. Frelinghuysen.
    Mr. Frelinghuysen. The money for the different commanders 
was if they wanted to build a water purification thing, the 
locals are not going to take a check. They wanted cash if 
somebody is going to put their shoulder behind the plow to do 
something about it. I think that they were pretty convincing 
that that money was pretty well spent and accounted for. The 
money that went in bundles to the ministries to sort of pay 
people who did not get a check to sort of keep those various 
ministries over, I think that is probably where most of that 
money disappeared. In other words, if it is the Oil Ministry, 
it is not to say somebody might not have taken it, but I assume 
a lot of it was to keep the operations open.
    What exists now I do not know, but I assume when we first 
got there, things would have catapulted even worse if there had 
not been some money going out of the door. And I presume most 
of those were $100 bills. Do I presume right? I assume cash was 
king, probably still is.
    General Thompson. Yes, sir.
    Mr. Murtha. You audited CERF funds, though. You are making 
sure--you know, when any type of cash is around, we do not want 
to get behind the eight ball there, because they are asking for 
more and more money in that particular area.
    Mr. Quinn. Yes, sir. That is an item of interest on Army 
audit side of the house. And the Army has also made a big push 
lately on getting the lay people trained on what the law is on 
how to use the CERF funds and proper appropriation of funds.

                    HIRING CONTRACTING PROFESSIONALS

    Mr. Murtha. Here is some advice. You are going to hire a 
lot more civilians than you are military. You say you are 
hiring those civilians because of the surge capability: You can 
get rid of them any time you want to. Here is the problem. They 
cost a hell of a lot more for civilians than it does for 
military personnel.
    Let us balance this out. When you come to us for a request, 
make sure you have a request that makes sense. Do not just add 
a lot of contractors because you can get them sooner. Because 
we have not done that now when we should have. In other words, 
the idea of this hiring contractors was we can surge when we 
need to, right?
    General Thompson. Yes, sir.
    Mr. Murtha. And yet we did not surge. So we are paying a 
lot more money, and we did not have--for some reason we did not 
surge. Now, what I am saying to you is you are going to hire 
two to one, it sounds like to me, for contractors, meaning 
civilian contractors versus military, which would be permanent. 
It costs a lot more. We need to know the difference in cost and 
the reason for that, and if you are going to get rid of them 
next year or the year after that as this thing winds down. 
Okay?
    General Thompson. Yes, sir.
    Mr. Murtha. Okay. Thank you very much. The hearing is 
adjourned until this afternoon at 3:30.
    [Clerk's note.--Questions submitted by Ms. Kaptur and the 
answers thereto follow.]

                            AEGIS CONTRACTS

    Question: I want listing and detailed info on ALL contracts 
let by DoD to AEGIS for ANY purpose during the Bush 
Administration.
    Answer: According to the DoD Federal Procurement Data 
System and queries with the existing Joint Contingency 
Contracting System (JCCS) database in Iraq, the following 
contracts have been let to AEGIS during the Bush 
Administration:
    Contract Number: W91GY007D0008
    Awarded: 21 Feb 2007
    Agency that advertised/signed contract: JCC-I/A
    CO that signed contract: Lt Col Bradley Riddle
    AEGIS CO that signed contract: William Curan, Deputy 
Program Manager
    Contract Value: $12M
    Period of Performance (Duration): 29 Feb 2008, Option 1 
goes through 30 Aug 2008
    Total number of Employees: 47
    US: 6 TCN: 41 LN: 0
    Services Performed/Deliverables: Provides transportation 
and security to Iraqi military forces throughout Iraq, to 
include government vehicles and equipment from sites within the 
borders of Iraq, Kuwait, and Jordan.
    Sole Source: No
    Type of Contract: Fixed Price, Indefinite Delivery, 
Indefinite Quantity

    Contract Number: W91GY007C0004
    Awarded: 14 Feb 2007
    Agency that advertised/signed contract: JCC-I/A
    CO that signed contract: Capt Jeffrey Hooley, USAF
    AEGIS CO that signed contract: J.P.A. Day, Director
    Contract Value: $9.6M (w/option periods)
    Period of Performance (Duration): 28 Jan 2008, 2 six-month options 
remaining
    Total number of Employees: 25
    US: 0 TCN: 25 LN: 0
    Services Performed/Deliverables: Provides personal security for up 
to 5 principals from MNSTC-I.
    Sole Source: No
    Type of Contract: Firm Fixed Price

    Contract Number: W91GDW07D4021
    Awarded: 31 Jan 2008, Task Order 0001
    Agency that advertised/signed contract: JCC-I/A
    CO that signed contract: June Olmsted
    AEGIS CO that signed contract: Robert Lewis
    Contract Value: $475,000,000.00
    Period of Performance (Duration): 10 Sep 2010
    Total number of Employees: 1,372
    Services Performed/Deliverables: Provides security services, such 
as Reconstruction Operation Centers, personal security details, and 
static guards for the U.S. Army Corps of Engineers, Gulf Regional 
Division.
    Sole Source: No
    Type of Contract: FFP with Cost Reimbursable CLINs

    Contract Number: W91GDW07D4025
    Awarded: 27 Sept 2007
    Agency that advertised/signed contract: JCC-I/A
    CO that signed contract: Maj Damon Coon, USAF
    AEGIS CO that signed contract: J.P.A. Baker, Director
    Contract Value: $45,000,000.00
    Period of Performance (Duration): 27 Sep 2010
    Total number of Employees: 0 (currently no taskings have been 
issued on this contract)
    Services Performed/Deliverables: Provides theater-wide internal 
security services, such as entry control points, perimeter manning, 
tower security, and security of select facilities.
    Sole Source: No
    Type of Contract: Firm Fixed Price, Indefinite Delivery, Indefinite 
Quantity

    Contract Number: W911S04C0003
    Awarded: 25 May 2004
    Agency that advertised/signed contract: Army Contracting Agency, 
Northern Region Contracting Center
    CO that signed contract: Robert Winne
    AEGIS CO that signed contract: Unknown
    Contract Value: $447M
    Period of Performance (Duration): Base plus 2 one-year options (01 
Jun 2004-31 May 2007) contract extended one year to 31 May 2008 due to 
protest on the follow-on contract.
    Total number of Employees: 1,035
    US: 32 TCN: 675 LN: 328
    Services Performed/Deliverables: Provides security to 
reconstruction contractors and physical security protection to fixed 
facilities and personnel.
    Sole Source: No
    Type of Contract: Cost Plus Fixed-Fee
    Question: Is contractor or any subcontract, let with a non-U.S. 
Firm?
    Answer: AEGIS is a British Firm. Subcontracts are allowed on all 
AEGIS contracts, but AEGIS has privity of contract with its 
subcontractors and the US Government has privity of contract only with 
the Prime Contractor, AEGIS. Consequently, pricing data on competed 
contracts is not broken out by a percentage of the contract that has 
been subcontracted.
    Question: What due diligence was done prior to signing to assure 
reputability of contractor/subcontractor, and any of their employees?
    Answer: The contracting officers determined on each contract that 
AEGIS was responsible IAW Federal Acquisition Regulation (FAR) Part 9, 
by ensuring that AEGIS was neither a debarred nor suspended contractor, 
verifying financial capability and evaluating applicable past 
performance in the source selection process.

                            AEGIS Contracts

    Question: Who screened employees of contractor/subcontractor?
    Answer: AEGIS is required to submit the following documentation to 
the Contracting Officer Representative (COR):
    --Completed DD Form 2760 (or equivalent documentation) for each 
armed employee, indicating that the employee is not otherwise 
prohibited under U.S. law from possessing a weapon or ammunition.
    --One copy of a business license from the Iraq Ministry of Trade 
and one copy of an operating license from the Ministry of Interior.
    --An acceptable plan for accomplishing background checks on all 
contractor and subcontractor employees who will be armed under the 
contract. The contractor shall, at a minimum, perform the following 
(which will be specifically addressed in its plan and which will be 
documented and furnished to the COR upon completion):
          <bullet> Use one or more of the following sources when 
        conducting background checks: Interpol, FBI, Country of Origin 
        Criminal Records, Country of Origin U.S. Embassy Information 
        Request, CIA records, and/or any other records available;
          <bullet> Verify with MNC-I Provost Marshall that no employee 
        has been barred by any commander within Iraq. Additionally, 
        Local Nationals are required to have background checks and must 
        be vetted through a local hire vetting program. The contractor 
        will utilize the standards within the MNF-I Access Control 
        Policy to properly vet all Local Nationals as well as conduct a 
        prescreening interview, in coordination with the Human 
        Intelligence Support Teams, of potential employees to determine 
        if any condition is present to preclude them from being hired.
    The contractor is screening and performing its own background 
checks on its employees and flowing down the same requirements to its 
subcontractors. The COR is verifying that the background checks were 
performed and validates the submitted paperwork, but does not actually 
perform the background checks.
    Question: What security checks were done?
    Answer: AEGIS is required to submit the following documentation to 
the Contracting Officer Representative (COR):
    --Completed DD Form 2760 (or equivalent documentation) for each 
armed employee, indicating that the employee is not otherwise 
prohibited under U.S. law from possessing a weapon or ammunition.
    --One copy of a business license from the Iraq Ministry of Trade 
and one copy of an operating license from the Ministry of Interior.
    --An acceptable plan for accomplishing background checks on all 
contractor and subcontractor employees who will be armed under the 
contract. The contractor shall, at a minimum, perform the following 
(which will be specifically addressed in its plan and which will be 
documented and furnished to the COR upon completion):
          <bullet> Use one or more of the following sources when 
        conducting background checks: Interpol, FBI, Country of Origin 
        Criminal Records, Country of Origin U.S. Embassy Information 
        Request, CIA records, and/or any other records available;
          <bullet> Verify with MNC-I Provost Marshall that no employee 
        has been barred by any commander within Iraq.
    Additionally, Local Nationals are required background checks and 
must be vetted through a local hire vetting program. The contractor 
will utilize the standards within the MNF-I Access Control Policy to 
properly vet all Local Nationals as well as conduct a prescreening 
interview, in coordination with the Human Intelligence Support Teams, 
of potential employees to determine if any condition is present to 
preclude them from being hired. The contractor is screening and 
performing its own background checks on its employees and flowing down 
the same requirements to its subcontractors. The COR is verifying that 
the background checks were performed and validates the submitted 
paperwork, but does not actually perform the background checks.
    Question: Do any of them have criminal records?
    Answer: All contractor employees may not have been convicted of a 
felony or misdemeanor involving moral circumstances during the 5 year 
period preceding the date of the contract proposal. Additionally, 
employees may not have been declared incompetent by reason of mental 
defect by any court of competent jurisdiction.
    Question: Who performed them at DoD and for contractor/
subcontractor?
    Answer: AEGIS is required to submit the following documentation to 
the Contracting Officer Representative (COR):
    --Completed DD Form 2760 (or equivalent documentation) for each 
armed employee, indicating that the employee is not otherwise 
prohibited under U.S. law from possessing a weapon or ammunition.
    --One copy of a business license from the Iraq Ministry of Trade 
and one copy of an operating license from the Ministry of Interior.
    --An acceptable plan for accomplishing background checks on all 
contractor and subcontractor employees who will be armed under the 
contract. The contractor shall, at a minimum, perform the following 
(which will be specifically addressed in its plan and which will be 
documented and furnished to the COR upon completion):
          <bullet> Use one or more of the following sources when 
        conducting background checks: Interpol, FBI, Country of Origin 
        Criminal Records, Country of Origin US Embassy Information 
        Request, CIA records, and/or any other records available;
          <bullet> Verify with MNC-I Provost Marshall that no employee 
        has been barred by any commander within Iraq.
    Additionally, Local Nationals are required background checks and 
must be vetted through a local hire vetting program. The contractor 
will utilize the standards within the MNF-I Access Control Policy to 
properly vet all Local Nationals as well as conduct a prescreening 
interview, in coordination with the Human Intelligence Support Teams, 
of potential employees to determine if any condition is present to 
preclude them from being hired. The contractor is screening and 
performing its own background checks on its employees and flowing down 
the same requirements to its subcontractors. The COR is verifying that 
the background checks were performed and validates the submitted 
paperwork, but does not actually perform the background checks.
    Question: Where are all those employee records available from 
contractor and subcontractor?
    Answer: AEGIS and its subcontractors are required to maintain 
administrative files, which must, at a minimum include personnel 
records, investigative records, and training records on all employees, 
for at least 6 months following the expiration of the contract. The 
contractor and its subcontractors shall make these records available to 
the Contracting Officer within 72 hours of a request.
    Question: Who performed and cleared their background checks?
    Answer: The agency performing background checks on its employees 
will depend on the country that the employee is from; however, the 
requiring activity/Contracting Officer Representative is responsible 
for verifying that a background check was completed.
    Question: Type of bidding process conducted for contract/
subcontract?
    Answer: All contracts were awarded using Full and Open Competition 
with a Best Value Source Selection using technical, price, and past 
performance evaluation factors.
    Question: What oversight has there been for performance of the 
contracts?
    Answer: Each contract has, at a minimum, one appointed COR that 
evaluates the performance of each contract.
    Question: Which nations do non US citizens come from? What is their 
citizenship?
    Answer: The nationalities for AEGIS Defense Services active arming 
authorizations are as follows:
    Australia, Bosnia, Canada, Columbia, Denmark, Estonia, France, 
Germany, Iraq, Ireland, Nepal, Poland, Romania, South Africa, Sweden, 
United Kingdom.
    Question: Give me the compensation of each employee under contract 
and the death benefits for each.
    Answer: This type of specific company proprietary data, if at all 
releasable, would only be submitted when certified cost and pricing 
data was required for the acquisition. Certified cost and pricing data 
generally is required on non-competitive actions over $650K, but there 
is an exception when prices are based on adequate price competition, 
which is what occurred with the AEGIS contracts. Those contracts were 
competed on a full and open competition basis, and as such, cost or 
pricing data was not required.
    Question: What percent of the contract and subcontract is for 
administrative expenses vs. Employee compensation?
    Answer: This type of specific company proprietary data, if at all 
releasable, would only be submitted when certified cost and pricing 
data was required for the acquisition. Certified cost and pricing data 
generally is required on non-competitive actions over $650K, but there 
is an exception when prices are based on adequate price competition, 
which is what occurred with the AEGIS contracts. Those contracts were 
competed on a full and open competition basis, and as such, cost or 
pricing data was not required.

    [Clerk's note.--End of questions submitted by Ms. Kaptur. 
Questions submitted by Mr. Murtha and the answers thereto 
follow.]
                       contract oversight in kuwait
    Question: The Committee has seen press reports of fraud and 
corruption at the Army's Kuwait contracting center and that as a result 
nearly $4 billion in Iraq war contracts has been shifted to the 
contracting office of the Army Sustainment Command at Rock Island 
Arsenal, Illinois. Does this remote contracting procedure comply with 
current contingency contracting doctrine?
    Answer: Yes. All Army contracting organizations share the same 
common vision of providing the best possible contracting support to 
their Warfighting customers. Exactly how each organization accomplishes 
that mission varies based on mission and resources. The Defense 
Logistics Agency (DLA) does not forward deploy any contracting 
resources and instead relies on dedicated CONUS contracting personnel 
to provide reach-back support. Some organizations send contracting 
support teams forward on a periodic basis (e.g., quarterly) to provide 
short-term support in theater and to better understand how things 
operate in the area of operation, (AOR), which should improve their 
ability to provide reach-back support when they return to their home 
station. The Army Material Command (AMC), Army Special Operations 
Command, and the Army Corps of Engineers primarily forward deploy their 
contracting resources. They have determined that is the best and most 
efficient way to provide contracting support to the Warfighter in an 
expeditionary environment.
             army near-term actions to improve contracting
    Question: The Secretary of the Army established the Gansler 
Commission in September 2007, to perform a strategic review of Army 
acquisition and contracting. Concurrently the Army Contracting Task 
Force was formed to review current contracting operations and 
recommendnmediate action where appropriate. What recommendations of the 
Army Task Force or the Gansler Commission has the Army implemented?
    Answer: Reforms and completed actions are as follows:
    <bullet> Established reach back capability at the Army Material 
Command to manage over $4B in active contracts.
    <bullet> Doubled the number of trained Contracting Officer's 
Representatives (CORs) in Kuwait.
    <bullet> Establishing Army Contracting Command (ACC); a two-star 
level contracting command including two subordinate one-star level 
commands: Expeditionary contracting command and installation 
contracting command under the Army Material Command (AMC) to enhance 
Warfighter support, leverage resources, capitalize on the synergy of 
contracting personnel, and establish uniform policies.
    <bullet> Establishing the Army Contracting Campaign Plan (ACCP) 
under the A/USA.
    <bullet> Incorporating lessons learned into doctrine, training 
guides and user activity handbooks to include: Joint Publication (JP) 
4-10, Army Field Manual 4-10, Commander's Guide to Contracting, and 
Contracting Handbook for Requiring Activities (under development).
    <bullet> The Army worked with the Army Audit Agency (AAA), Criminal 
Investigation Division (CID), and the Assistant Secretary of the Army 
for Financial Management and Comptroller in reviewing financial data to 
determine if appropriate disbursement and accounting of payments have 
been made. All actions found with potential fraud indicators have been 
turned over to CID for further investigation.
    <bullet> The Army is working with the Office of the Secretary of 
Defense (OSD) to develop several legislative proposals candidates where 
we will need legislative assistance from Congress to resolve certain 
issues.
    <bullet> Distribution of the new Joint Contingency Contracting 
Handbook as well as field manuals for Contracting Support Brigade 
(CSB)s and a Commanders' Guide to Contracting and Contractor 
Management.
    <bullet> Developed the Contracting Government Training Aid card on 
15 November 2007. This TRADOC/CASCOM generated training tool provides 
unit level contracting/contractor situational awareness.
    <bullet> Published and distributed 5,000 copies of the Joint 
Contingency Contracting Handbook to the Air Force, Army, Navy, Marine 
Corps, National Guard, Silver Flag and service courses and schools. 
This joint document was finalized on 1 December 2008, is a single 
pocket-sized handbook that captures the joint contingency contracting 
environment and provides contingency contracting officers with the 
necessary tools for joint-service operations.
    Question: What recommendations have not been fully implemented and 
why?
    Answer:
    a. As recommended in the Gansler Commission report the Army should 
establish a separate Army Contracting Officer promotion board. The Army 
has determined that it is neither necessary nor required to establish a 
separate board just for contracting officers since each board can be 
tailored as required to meet the needs of the Army by establishing 
``floors'' in order to ensure a sufficient, minimum quantity of highly 
qualified officers are selected to fulfill the Army's needs.
    b. The Army has elected not to establish a separate, centrally 
managed; contracting Corps because the needs of the Army and the 
Acquisition Corps are best met though the existing Army Acquisition 
Corps. A separately managed Contracting Corps would require additional, 
redundant, administrative oversight that would not be necessary or cost 
effective.
    c. Increase Army Contracting personnel by 400 military and 1000 
civilians is only partially agreed to. Further analysis is needed but 
it appears that a structure of 301 military expeditionary plus 167 
institutional military coupled to 804 civilian personnel is required to 
fulfill the recommendations made by the Gansler Commission.
                     u.s. army contracting command
    Question: The Army has approved a two-star level Army Contracting 
Command under Army Material Command. The new organization has two 
subordinate one-star commands: One focused on expeditionary 
contracting; and the other focused on installation contracting. Who are 
the general officers selected for the new commands and what are their 
contracting credentials?
    Answer: The selections for these positions have not been made, but 
their credentials will be commensurate with the roles and 
responsibilities of these positions. On January 30, 2008, the Secretary 
of the Army directed the realignment of the Army Contracting Agency 
under the AMC and the establishment of the Army Contracting Command 
(ACC); a two-star level contracting command including two subordinate 
one-star level commands: Expeditionary contracting command and 
installation contracting command to enhance Warfighter support, 
leverage resources, capitalize on the synergy of contracting personnel, 
and establish uniform policies. On February 8, 2008, the AMC 
established the ACC as a provision unit with the mission of providing 
responsive and effective contracting services to meet the Army's 
requirements.
    Question: Please describe the structure and the number of people: 
Military, civilian, and contractor that will be in each command? Where 
will the new general officer commands be located? Will the general 
officers be ``dual-hated'' with responsibilities other than their 
contracting commands?
    Answer: The details are being discussed and a decision is 
forthcoming.
                  addressing army contracting problems
    Question: The Army Contracting Task Force examined current Army 
contracting operations and identified a number of serious problems. The 
Army has been working for several months to address these problems. 
High personnel turn over has been identified as a problem at forward 
deployed contracting organizations. Has the turn over problem been 
solved?
    Answer: It will remain difficult to attract and retain qualified 
personnel in any austere OCONUS environment. Such a situation exists in 
the CENTCOM AOR. There will be a continued need to provide rotational 
forces to supplement the Kuwait staff and to provide reach-back to 
CONUS based operations. Bottom line is only time will tell if 
additional benefits to attract and retain skilled contracting personnel 
are approved and indeed to help with retention before issues associated 
with manning shortfalls and an inexperienced contracting workforce are 
in fact alleviated.
    Question: Are you confident that the necessary numbers of properly 
trained and certified contracting officers' representatives have been 
appointed and are in place performing their duties?
    Answer: Contracting officers have been directed to appoint a 
trained Contracting Officer's Representative (COR) for every service 
contract awarded with an estimated value greater than $2,500. To ensure 
that systematic quality assurance methods are used during contract 
administration, quality assurance surveillance plans must also be 
prepared and implemented. Additionally, a standard, minimum training 
requirement has been established for Army CORs. CORs must complete the 
Defense Acquisition University (DAU) on-line continuous learning 
module, ``COR with a Mission Focus,'' prior to appointment. As of 
November 1, 2007, over 4,500 Army personnel have completed this course. 
Also, acquisition leadership reiterated the requirement for contractor 
performance to be adequately documented and performance reports 
prepared, entered and maintained in our performance assessment systems. 
We will not allow poor performers to be rewarded with more work. A 
reminder was also forwarded to the entire Army Acquisition workforce 
addressing their responsibilities as public servants and stewards of 
the taxpayer's investment and exhorting them to ensure that their 
actions remain above reproach, both in reality and appearance.
               joint contracting command iraq/afghanistan
    Question: The Gansler Commission reports that the Army is the DoD 
executive agent for contracting in Iraq and Afghanistan, but is unable 
to fill military or civilian contracting billets in either quantity or 
qualification. Although providing contracting support to the Army or 
Marine Corps is not an Air Force mission, an Air Force major general 
currently is in command of the Joint Contracting Command--Iraq/
Afghanistan. The Air Force also provides over 67 percent of the Joint 
Contracting Command contracting personnel supporting ground forces, and 
the Air Force is handling most of the complex contracting actions. How 
have you changed the career path for Army contracting officers so that 
they spend enough time in contracting billets to be truly qualified as 
a contracting officer; to be a contracting expert?
    Answer: Changes to the Army Contracting Officer career path are 
being implemented. Army contracting officers will be accessed at the 5-
6 year mark after their basic branch qualification. The goal is to have 
all officers complete the Army Acquisition Basic Course (8 weeks) and 
the Army Acquisition Intermediate Contracting Course (4 weeks) prior to 
their first contracting assignment. In addition, during their first 
year of assignment at a Directorate of Contracting an Acquisition 
Center, contracting officers will be ineligible for deployment. This 
action will help them acquire valuable acquisition experience before 
being placed in a deployed situation.
                    incremental funding of contracts
    Question: The Gansler Commission Reported that contracts in Iraq 
and Afghanistan have been incrementally funded causing unnecessary work 
load and inefficient operations plus often limiting the contracting 
officer in efforts to achieve a better deal. Why are some contracts 
funded only monthly or at even shorter intervals?
    Answer: The incremental funding of contracts is generally a factor 
of the availability of funding. Incremental funding is most frequently 
used at the beginning of a new fiscal year when appropriations have not 
been enacted and DoD is operating under a Continuing Resolution (CR) or 
in advance of supplemental funding for contingency operations. A 
contract can be funded only for the duration of the CR and a contract 
modification must be issued adding incremental funding for the period 
of each subsequent CR.
    Question: Who makes the decision to incrementally fund contracts?
    Answer: The decision to incrementally fund contracts is based on 
the provisions of Continuing Resolution and/or the availability of 
funding. A CR generally establishes that no new projects or services 
can begin, and that continuing efforts can be funded only for the 
duration of the CR. The Contracting Officer cannot fund contracts 
without the appropriate funding available.
    Question: How can the Army solve the incremental funding problem?
    Answer: The Army cannot solve the incremental funding problem, 
since the requirement to have funds available is a fundamental tenet of 
government fiscal law. Incremental funding will continue to be a 
problem every fiscal year for which appropriations are not enacted and 
funds distributed prior to the start of the year.
                 contracting officers' representatives
    Question: Army contracting officers have been directed to appoint a 
trained contracting officer's representative (COR) for every service 
contract awarded with an estimated value greater than $2,500. Who are 
the people who serve as contracting officers' representatives?
    Answer: ``Defense Federal Acquisition Regulation (DFAR)'' 201.602-2 
requires that an individual who is to be designated a contracting 
officer's representative (COR) must be a Government employee, unless 
other authorized in Agency regulations; must be qualified by training 
and experience commensurate with the responsibilities to be delegated 
in accordance with department/agency guidelines; and must be delegated 
in writing with the COR responsibilities clearly delineated and 
accepted in writing by the designee. Typically, the COR is nominated 
and is required to provide the Contracting Officer information 
concerning all relevant training and experience. COR's training is 
offered by the Defense Acquisition University (DAU) as well as by a 
variety of private training sources. Army CORs can be Army military or 
civilian personnel.
    Question: During contingency operations, how often do the typical 
CORs rotate or get replaced?
    Answer: The rotation or replacement of a COR (military or civilian) 
is not linked to their COR roles and responsibilities. CORs are rotated 
based on the normal rotational process for assigned soldiers or 
civilians. There are advantages and disadvantages to either extending 
or reducing rotations for. A COR should be familiar with the contract, 
the work requirements, and the contract history may provide a more 
experienced eye on contractor operations and performance; however, too 
much familiarity with an operation may make some CORs more complacent 
with the status quo. Generally speaking, the rotational rate does not, 
in and of itself, dictate the effectiveness of a COR.
    Question: In the cases of fraud researched by the Army Contracting 
Task Force, how many of those cases were reported by the COR, and in 
how many cases were the CORs complicit?
    Answer: The Army Contracting Task Force did not research the cases 
of fraud committed in theater as many of the investigations are still 
open. However, a review by Army CID of the 93 ongoing and 51 closed 
investigations of procurement fraud impacting operations in Iraq, 
Kuwait and Afghanistan, found that 5 CORs reported suspected misconduct 
and 21 CORs have been, or are currently being looked at, for offenses 
associated with the fraud. It should be noted that many of the cases 
are still ongoing and misconduct on the part of the 21 has not been 
proven.
               expanding the army contracting work force
    Question: The Army acquisition work force has declined in numbers 
over the last decade, while the dollar amount of contacts being managed 
has grown by more than 80 percent. Now the Army is attempting to grow 
the contracting work force. Please describe the Army program to 
increase the contracting officer work force, both military and 
civilian? What progress has been made?
    Answer: The decline in the acquisition work force and the potential 
losses of trained and experienced procurement personnel in the next few 
years due to anticipated retirements is an issue faced by DoD and the 
civilian workforce. The Gansler Commission recommended growing the non-
deployable contracting workforce by 167 Military and 804 Civilian 
positions which is being pursued. However, the level of trained and 
experienced contracting officer personnel currently in both the 
military and civilian workforce is a finite resource coupled with all 
of the government departments and contractors vying for the same 
individuals. Creative solutions must be developed to retain experienced 
personnel while recruiting and training new contracts professionals to 
replace and enhance the current numbers. Among the proposed innovations 
are changes to the current ``rehired annuitant'' restrictions, 
additional partnerships with colleges and universities to enhance the 
recruitment of graduates into the government workforce, and the 
development of more robust contracting internship programs.
                 growth in contractor provided services
    Question: The Committee understands that the Department of Defense 
obligates more for service contracts than it does for supplies and 
equipment, including major weapons systems. In many cases, contractor 
personnel end up working along side of military personnel, doing much 
the same work, but the contractor costs the government three or four 
times the pay of a lower ranking enlisted soldier. How does that make 
fiscal sense?
    Answer: The pay of a Soldier and the total cost of a contract is 
not the appropriate comparison. The cost of the contractor is the 
complete cost to the government, but the Soldiers' pay is only one cost 
component. The full cost of a Soldier includes: Non-taxable basic 
allowance for housing, Non-taxable basic allowance for subsistence, 
health care costs, the GI bill, re-enlistment bonuses, the cost to 
train and recruit a Soldier, permanent change of station moves, and 
retirement accrual.
    The specific difference in cost of a contractor and a Soldier will 
vary depending on the type of work performed, but comparing pay of a 
Soldier to cost of a contract will always overstate the difference, and 
fails to consider operational priorities and limitations.
    The decision to use contractor personnel as opposed to military 
personnel is based on long-term cost rather than per hour cost, as well 
as availability of military personnel. When the decision was made to 
reduce the size of the standing Army and institute a volunteer force, 
it reduced the viability of the Army to operate in an armed conflict 
without the support of contractor personnel. Since the national defense 
cannot be contracted out, the majority of the support and logistics 
functions had to be contracted to free military enlisted and officers 
for the war effort. Each enlisted or officer performing an 
administrative function reduce's the available forces.
    The fiscal analysis to employ as a comparative tool would require 
the comparison of the cost to sustain an Army on war footing throughout 
peacetime, to ensure that the capability exists to perform both the 
military and the administrative functions at the time of greatest need.
                contractor discipline in combat theaters
    Question: The Washington Post reported in an April 15, 2007, 
article entitled ``A Chaotic Day on Baghdad's Airport Road'', that 
``Not a single case has been brought against a security contractor, and 
that confusion is widespread among contractors and the military over 
what laws, if any, apply to their conduct.'' Fortunately, there appears 
to be a significant reduction in the number of reports of out-of-
control use of deadly force by security contractors. Is this a result 
of better oversight of contract security personnel, or is it simply 
related to an overall reduced level of terrorist activity?
    Answer: It is impossible to ascertain with any certainty the reason 
for a reduction in reports of ``out of control'' use of deadly force by 
security contractors. However, in the past several months, several 
changes have been implemented to facilitate greater oversight over 
Private Security Contractors (PSC).
    On December 12, 2007, the Deputy Secretaries of Defense and State 
Department signed a Memorandum of Agreement (MOA) regarding United 
States Government (PSC). The MOA defines the authority and 
responsibility for the accountability and operations of private 
security contractors in Iraq. Consistency in the treatment and 
oversight of PSC should provide better understanding of the roles and 
responsibilities of all the parties to these contracts.
    Further, the Combatant Commander provided specific guidance on 
arming contractor personnel and private security contractors in the 
USCENTCOM AOR. PSC personnel are not authorized to participate in 
offensive operations and must comply with Rules on the Use of Force 
(RUF). Also, they must be properly licensed to carry arms in accordance 
with host nation law and must receive USCENTCOM/Coalition Forces' 
approval of their operations.
    On November 5, 2007, the Joint Contracting Command-Iraq/Afghanistan 
(JCC-I/A) promulgated a mandatory special provision to be inserted in 
all JCC-I/A's PSC contracts. The local provision, IA 25-3, ``Compliance 
with Laws and Regulations'' states: ``The contractor shall comply with, 
and shall ensure that its personnel and its subcontractors and 
subcontractor personnel at all tiers obey all existing and future U.S. 
and Host Nation laws, Federal or DoD regulations, and Central Command 
orders and directives applicable to personnel in Iraq and Afghanistan, 
including but not limited to USCENTCOM, Multi-National Force and Multi-
National Corps fragmentary orders, instructions and directives.''
    On January 10, 2008, the ``Defense Acquisition Regulation System 
(DARS)'' issued a proposed rule to amend the ``Defense Federal 
Acquisition Supplement (DFARS)'' to address requirements for DoD 
contractors to institute effective programs to prevent violations of 
``Law of War'' by contractor personnel authorized to accompany U.S. 
Armed Forces deployed outside of the United States.
    Finally, the National Defense Authorization Act of FY08 (Public Law 
110-181) will allow the Secretary of Defense to define the ``area of 
combat operations;'' require standard the FAR language to be inserted 
in each PSC contract; and require specific contractor reporting 
requirements for discharge of weapons, training, and other related 
requirements.
    Question: What military or civil laws govern the conduct of 
contractors operating in Iraq and Afghanistan?
    Answer: The DoD contractor personnel (regardless of nationality) 
accompanying U.S. armed forces in contingency operations are subject to 
Uniform Code of Military Justice (UCMJ) jurisdiction. Commanders can 
disarm, apprehend, and detain DoD contractors suspected of having 
committed a felony offense in violation of the rules for the use of 
force (RUF), or outside the scope of their authorized mission, and 
conduct the basic UCMJ pretrial process and trial procedures currently 
applicable to the courts-martial of military service members.
    Also, under the Military Extraterritorial Jurisdiction Act (MEJA), 
federal jurisdiction exists over felony offenses committed outside the 
U.S. by contractor personnel of any federal agency or provisional 
authority whose employment relates to supporting the DoD mission. 
Implementing guidance under this Act is included in Department of 
Defense Instruction (DoDI) 5525.11, ``Criminal Jurisdiction Over 
Civilians Employed by or Accompanying the Armed Forces Outside the 
United States, Certain Service Members, and Former Service Members,'' 
and military department regulations. This instruction requires DoD to 
coordinate with the Department of Justice for the return of contractor 
personnel subject to MEJA to the U.S. for prosecution.
    Contingency contractor personnel are subject to the domestic 
criminal laws of the host nation, absent a status of forces agreement 
or international agreement to the contrary.
    Question: Who in the Army chain of command monitors contractor 
performance and takes action if the contractor's conduct is 
inappropriate or illegal?
    Answer: It is the responsibility of all military and civilian 
personnel to ensure that any perceived illegal actions on the part of 
contractors or other government personnel is reported to the 
appropriate organization for investigation.
    However, the Contracting Officer (CO) is responsible to ensure 
compliance with the terms and conditions of the contracts. Generally, 
the CO will appoint a Contracting Officer's Representative (COR) to 
provide closer monitoring of service contracts. The CORs serve as the 
``eyes and ears'' for the CO. The responsibilities and limitations of 
authority of the COR are stated in an appointment letter issued by the 
Contracting Officer. Based on the Army's procurement policy, COs are 
required to validate the CORs' contract records every 12 months and 
document the results of their review. The CORs' responsibilities 
generally include verifying that the contractor performs the technical 
contract requirements in accordance to its terms, conditions, and 
specifications; maintaining direct communication with the contractor. A 
contract administration office is also assigned to provide oversight of 
the contractor's performance. In addition to CORs, Ordering Officers 
may be appointed by a CO when appropriate. Advance training is also 
required for these appointments. Appointment of an Ordering Officer is 
generally limited to placing orders against contracts that contain 
ordering clauses. Ordering Officers are responsible for ensuring that 
all contract terms and conditions are met on the orders that they have 
issued and reporting any performance deficiencies to the CO.
    Question: How many individuals are performing contract services for 
the Department of the Army in Iraq, Kuwait and Afghanistan?
    Answer: Based on the 1st Quarter, 2008 CENTCOM Census Report 
(December 31, 2007), there are 163,591 DoD-funded contractors in Iraq 
and 36,520 in Afghanistan. There are an additional 23,110 DoD-funded 
contractors in the rest of the CENTCOM Area of Responsibility.
    Question: How many contracts have been let to provide these 
individuals?
    Answer: The number of FY07 contract actions performed in Iraq was 
2,477 that totaled $7,515,809,346. The number of FY07 contract actions 
performed in Afghanistan was 1,540 that totaled $2,266,426,110.
    Question: How many of the contracts are sole source?
    Answer: None. The DoD has not awarded any sole source contracts to 
PSCs in Iraq or Afghanistan (source: Testimony of LTG N. Ross Thompson 
III on January 23, 2008 before the HAC). Competitive procedures were 
used for the award of 1,313 of 1,540 (85 percent) of the total 
contracting actions in support of Afghanistan. A total of 1,937 out of 
2,477 (78 percent) contract actions were awarded in support of Iraq 
operations.
    Question: What percentage of the individuals are U.S. National; 
Iraqi; Afghan; Kuwaiti; third country?
    Answer: The 1st Quarter USCENTCOM Census Report reflects the 
following for the private service contracts in Iraq and Afghanistan:
    <bullet> U.S. Citizens = 849 (6.5%)
    <bullet> Third Country Nationals = 7,620 (59%)
    <bullet> Local Host Country = 4,481 (34.5%)
    <bullet> Total: 12,950
    Question: How many of the individuals are security guards?
    Answer: The USCENTCOM's 1st Quarter, 2008 Contractor Census Report, 
dated December 31, 2007 reflects the following:
    <bullet> Iraq: 9,952 private security contractors of which 6,467 
(65 percent) are armed.
    <bullet> Afghanistan: 2,998 private security contractors of which 
2,745 (91.5 percent) are armed.
    Question: What percentage of the security guard personnel carry 
weapons?
    Answer: According to the 1st Quarter, 2008 CENTCOM Census, 65 
percent of the DoD-funded private security contractors in Iraq and 91.5 
percent of the DoD-funded private security contractors in Afghanistan 
are armed.
            contract oversight personnel in combat theaters
    Question: According to a recent GAO report, a common problem is the 
lack of adequate contract oversight personnel at deployed locations. 
Why does the Army not assign sufficient contract oversight personnel to 
the combat theaters?
    Answer: In 2004 and again in 2005, GAO reported that DoD did not 
have a sufficient number of trained personnel in place to provide 
effective oversight of its logistics support contractors on the 
battlefield, citing inadequate surveillance on 26 of 90 contracts 
audited. In FY05, DoD obligated nearly $270 billion on contracts for 
goods and services which represented an increase of over 331 percent in 
dollars and over 650 percent in contract actions from FY00. At the same 
time DoD experienced a tremendous growth in workload associated with 
support for the GWOT, they also experienced a dramatic reduction in the 
capability to meet the contract oversight challenge. Due to the huge 
increase in contracting workload added to a significant shortfall of 
skilled professionals in the civilian and military acquisition 
workforce and difficulties in attracting more civilians to forward 
deploy, the Army has had to assume a greater risk for post award 
processes like contract quality assurance of service contracts until 
such time as the Army can attract and position more administrative 
contracting personnel into the combat theater of operations.
    Question: What is the deployment rotation policy for contracting 
oversight personnel?
    Answer. Deployment rotation policy: The Army, Air Force, Marines 
and Navy all employ different deployment rotation strategies for their 
military acquisition personnel based on service organization and 
mission requirements. Air Force and Navy deployments are typically for 
6 months or less, while Army deployments are normally 12 months or 
longer. Army civilians are typically deployed on 6 month orders, but 3, 
and 6 month extensions are encouraged. The United States Army Corps of 
Engineers (USACE) offers an option of a 6 or 12 month deployment with a 
higher incentive bonus for longer commitments.
    The DCMA who performs the preponderance of contract oversight on 
the battlefield typically deploy their military service members for 6 
months, but rotate them home and back again for another 6 months within 
a two year period. The DCMA civilians deploy similar to Army Civilians 
in 6 and 12 month increments.
    Question: What if any changes are needed?
    Answer: Military members have recommended that Air Force and Navy 
service members should all be on 12 month deployments. Longer 
deployments would make for smoother operations and would relieve those 
who stay for 12 months from the burden of training a continually 
changing workforce.
    An increase in the number of civilians could also improve oversight 
processes by increasing the number of people available to cover the 
gaps when troops rotate in and out.
    Based on discussions conducted by the Gansler commission the 
following legislative proposals have been submitted to increase 
incentives to attract more civilians to deploy and improve contract 
policy on the battlefield:
    <bullet> Optional Life Insurance Election Opportunity for Certain 
Federal Civilian Employees. This proposal will provide adequate life 
insurance benefits to next-of-kin of DoD civilian employees who are 
killed while serving in a combat zone. Benefits would be commensurate 
with those provided to members of the Armed Forces.
    <bullet> Authority to Waive Annual Limitation of Premium Pay and 
Aggregate Limitation on Pay for Federal Civilian Employees. This 
proposal will make permanent authority for the Secretary of Defense to 
increase the limitation on premium pay and the limitation on aggregate 
pay for DoD employees who perform work in connection with a contingency 
operation, national emergency declared by the President, or other 
emergency.
    <bullet> Expedited Hiring Authority for Defense Acquisition 
Positions. This proposal will authorize expedited direct hire authority 
for acquisition personnel.
    <bullet> Requirement for Use of Express Option for Deciding 
Protests of Contracts and Task and Delivery Orders in Support of 
Emergency Operations. This proposal will allow for the use of the 
express option by the Comptroller General to adjudicate any protests 
registered in the case of such contract actions.
    <bullet> Authority to Acquire Products and Service Produced in a 
Contingency Theater of Operations Outside the United States. This 
proposal will authorize the Secretary of Defense to establish a 
preference for the acquisition of products and services in Iraq and 
Afghanistan.
    <bullet> Exceptions for National Security and Emergency Operations. 
This proposal would retain the fundamental domestic preference 
requirements of the law, yet, it would provide the flexibility needed 
for the Department of Defense (DoD) and its suppliers to better respond 
to fulfill the needs that arise in cases of national security and 
defined cases of emergency operations using either competitive 
procedures or other than competitive procedures, as may be appropriate.
    All of these proposals address weaknesses identified by the Gansler 
Commission and advance important Army and DoD legislative priorities. 
These proposals are urgently needed to provide the Army and the 
Department the tools needed to address the contracting challenges we 
face in a complex wartime operational environment. We have requested 
that these proposals be staffed within the Department of Defense and 
forward to the Office of Management and Budget for Congressional 
consideration in the FY09 legislative cycle.
               planning for the use of contractor support
    Question: Although the use of support contractors at deployed 
locations has expanded, the military departments have struggled to 
capture lessons learned and to pass on those lessons learned in order 
to assist commanders in subsequent deployments. How does the Army 
capture lessons learned in providing battlefield contractor support, 
and how are lessons learned provided to new commanders as they prepare 
for deployment?
    Answer: We are capturing ``expeditionary contracting'' lessons 
learned by formally interviewing units as they return from Iraq/
Afghanistan, incorporating lessons learned into doctrine, training 
guides and user activity handbooks. The Army Acquisition, Logistics and 
Technology Integration Office is developing mission specific 
Contingency Contracting Officer courses and incorporating lessons 
learned into mission rehearsal exercises.
    Question: How does the Army represent contract security and support 
personnel in the training scenarios during pre-deployment exercises at 
locations such as the National Training Center?
    Answer: Oversight in the Army is distributed: The activity awarding 
an individual contract has responsibility for oversight of that 
contract. Head of the Contracting Activity (HCA) authority resides in 
individual commands, generally at the two-star level. Contract 
administration can be delegated to DCMA at the discretion of the 
contracting activity, but they retain overall responsibility as 
Procuring Contracting Officer. In the case of a service contract, a 
Contracting Officer's Representative (usually a technical expert from 
the customer's organization) is appointed by the Contracting Officer in 
writing to oversee quality control and ensure that the work is 
performed satisfactorily. This individual reports to the Contracting 
Officer and has no authority to change the contract's terms and 
conditions or request work other than spelled out in the contract.
    For acquisition approvals with higher dollar thresholds, and for 
general policy oversight, the Assistant Secretary of the Army 
(Acquisition, Logistics & Technology) and the Deputy Assistant 
Secretary of the Army (Policy and Procurement) have cognizance. 
Compliance audits are performed by the Army Audit Agency, the Defense 
Contract Audit Agency, and Inspectors General at all levels can 
investigate contracts along with other matters. In recent years, the 
DASA P&P has revitalized the operational review function in the form of 
Contract Operations Reviews in order to provide closer oversight and 
assistance to contracting offices Army-wide. These reviews are done by 
teams of procurement professionals, with a goal of reviewing each 
contracting office every two years. A system of issuing formal reports 
and following up through Corrective Action Plans is being implemented.

    [Clerk's note.--End of questions submitted by Mr. Murtha.]
                                       Wednesday, January 23, 2008.

                    GOVERNMENT ACCOUNTABILITY OFFICE

                                WITNESS

DAVID M. WALKER, COMPTROLLER GENERAL OF THE UNITED STATES

                              INTRODUCTION

    Mr. Murtha. We want to welcome the distinguished American 
GAO comptroller and his support staff. We see that we are 
starting to get--we put in reported language. For a while we 
weren't getting what we had hoped we would get because you were 
so busy with other things. Not you necessarily, but different 
agencies. So we are now getting what we feel are more adequate 
reports on some of the suggestions or requirements that we 
make.
    I have been very concerned about the balance between 
contractors and between Federal employees. We had a contracting 
officer, acquisition officer--whatever we call them--this 
morning, Lieutenant General Thompson. And I voiced my concern 
that we have got too many contractors, and I worry that the 
reason they had the contractors is because--because they then 
would have a surge capability. You know, they had gotten rid of 
acquisition people, then they had the surge capability and it 
hasn't worked is what it amounted to. But at any rate, we had a 
good hearing this morning, but I know we will be enlightened by 
your presence. I know that we will be scintillated by your 
presentation, and we will learn much from what you have to say. 
And I welcome you to the Committee and ask if Mr. Hobson has 
any opening statements.
    Mr. Hobson. No, sir. I will pass.
    Mr. Murtha. Do we have to close this thing or not? Do you 
have anything that is going to be classified?
    Mr. Walker. No, Mr. Chairman. We have some material that 
hasn't been released yet, but it is not classified.
    Mr. Murtha. That is all right. We will leave it open. We 
will tell the news media, well, you didn't--they will ask me a 
question, I will say it was open. Just a little thing between 
me and the news media. They complain because we have too many 
closed hearings. We had an open hearing; we just didn't tell 
them.
    Mr. Hobson. I apologize. I have to leave at 4:00 to catch 
an airplane.
    Mr. Murtha. At 4:00? That is all right. Frelinghuysen will 
be here. Oh, this guy is the best. He doesn't miss a trick. 
This may be a little longer than we would like.
    Okay. Go forward with your condensed statement and then we 
will get into questions.

                    SUMMARY STATEMENT OF MR. WALKER

    Mr. Walker. Thank you, Mr. Chairman. I appreciate the 
opportunity to be back before the subcommittee. As you know, I 
have a full statement. Hopefully it will be submitted for the 
record. I will just summarize some of the highlights if I can.
    I share your concern with regard to what is happening in 
the government.
    Mr. Murtha. Mr. Moran is here.
    Mr. Moran. I want to hear particularly from Mr. Walker.
    Mr. Walker. I share your concern with regard to what is 
going on with regard to the use of contractors. As we all know, 
the government has to be able to achieve its many missions and 
important functions and activities through the combined efforts 
of what is referred to as the total force. In the case of the 
Department of Defense, the total force would include civilian, 
military and contractor personnel. We have seen a significant 
increase in the utilization of contractors. In some cases, that 
makes sense because it is a noncore function, or it is 
something that may be a one-time or temporary need. It may also 
be a situation where, because of government policies and 
practices, you can't attract and retain enough people to be 
able to do the work. Finally, it could be a circumstance where 
otherwise it makes either sense to do it or for various reasons 
you have to do it.

                      DECISION TO USE CONTRACTORS

    However, one of the concerns that I have, Mr. Chairman, is 
we have seen a tendency to use contractors possibly as a first 
resort rather than through a considered process. Now, sometimes 
that is because there is a need that arises because of a 
contingency operation. For example, Iraq or Katrina. And 
because the government hasn't taken enough steps to be able to 
deal with those kinds of situations, they are pretty much 
forced to have to use contractors.
    In other circumstances there is a tendency to use military 
personnel, frankly, instead of civilian personnel, because you 
can get people to a particular location to do a particular 
function very quickly, because you can order them to do that, 
whereas you may not be able to do that with civilian personnel.

                INCREASE IN OBLIGATIONS FOR CONTRACTORS

    There has been a huge increase in the amount of contracting 
obligations since 2000. You are aware of what those numbers 
are. There has been a significant increase in the nature of 
services contracts, which are even more difficult to be able to 
help assure economy, efficiency, effectiveness; and to fight 
fraud, waste, abuse and mismanagement. Why? Because you need to 
do a much better job of pinning down what you are seeking, 
setting the requirements up front and making sure that there is 
adequate oversight as to cost, quality, performance. If you 
don't do that, you can end up incurring a tremendous amount of 
waste.

                          CONTRACT COMPLEXITY

    We have other factors that are complicating this area 
because, as you know, while the amount of contracting activity 
has gone up dramatically, the number of acquisitions and 
oversight personnel in many regards has gone down at the same 
time. And yet the complexity of some of the types of 
contracting arrangements that we are entering into today are 
much greater than they have been in the past. So that 
contributes to the possibility of additional waste, which is, 
frankly, a much bigger problem than fraud.
    My view is the time has come that we need to step back and 
reassess what type of functions and activities should be 
performed by contracting personnel versus government personnel. 
We also need to keep in mind with the Department of Defense, 
that part of that equation needs to be which types of functions 
and activities ought to be done by military personnel versus 
civilian personnel.

                       PLANNING FOR CONTINGENCIES

    I think we also have to think about what can be done to 
help pre-plan for contingency operations that we know will 
occur. We just don't know when they will occur. An example 
would be if an operation like Iraq, an operation like Katrina--
they are both contingency operations. One is a military 
conflict. One is responding to a natural disaster. We know 
things are going to happen from time to time. And there is a 
lot more that can and should be done to prepare for those 
contingencies, such that we engage in appropriate, competitive 
bidding up front and we have appropriate types of contracting 
arrangements up front. We can then draw down on those when 
those contingencies occur.

                         FLEXIBILITY IN HIRING

    We also need to think about whether or not the personnel 
rules can be changed to provide some additional flexibility for 
agency heads to be able to hire people on a temporary basis to 
perform certain critical functions and activities in lieu of 
automatically going out and contracting for it.
    And let me give you a perfect example. The Comptroller 
General of the United States, my position, has the ability to 
hire up to one-half of 1 percent of our workforce at any time, 
at any level, for up to 3 years, to do whatever I think needs 
to be done.
    Mr. Murtha. Is that the law?
    Mr. Walker. That is the law. Now, in our case it says 15 
persons, which is roughly one-half of 1 percent of our 
workforce. But that concept is a concept that I think has a lot 
of intellectual merit because there are occasions, such as the 
Iraq situation, such as Katrina, where it would have been nice 
for people to be able to acquire some talent and to do it 
expeditiously. Under the normal personnel rules for the Federal 
Government, that is virtually impossible. As a result, many 
times what ends up happening is you default to military 
personnel or you default to contractor personnel because you 
can get things done quickly. It may or may not be the right 
answer. But once you end up entering into that contract, we 
need to structure the arrangements properly, to balance risk 
and reward between the government and the contractor, and we 
need to have an adequate number of acquisition and oversight 
personnel to make sure that we are managing cost, quality and 
performance.
    One of the reasons that the government historically has 
used contractors is not just for noncore functions--which is a 
policy issue--but also to try to save money. We are doing work 
right now to try to ascertain whether--and to what extent it in 
fact does result in saving money. And while we have more work 
to do, our preliminary findings----
    Mr. Murtha. Could you say that again?
    Mr. Walker. We are doing work at the present point in time 
in order to test the assumption that it might be more cost 
effective to hire contractors to perform certain functions 
rather than hiring additional civilian employees to perform the 
function. And we are finding on a preliminary basis that such 
savings are not necessarily the case.
    Let me summarize by saying this: I manage an agency, and I 
will tell you what my philosophy is with regard to contractors, 
just to help the discussion. If it is a function that involves 
the discretion of government authority or discretion of 
government resources, then that needs to be done by a civil 
servant. If it is a function that is more of a support 
function, that is a noncore function, it is something that 
needs to be done but it is not integrally tied to mission, then 
that is something that I think we ought to be looking for 
contracting possibilities in order to benefit from economies of 
scale, in order to be able to benefit from investments in 
technology that can be leveraged by the private sector. The 
government hasn't done a very good job of that.
    Furthermore, if it is a one-time need or a temporary need, 
then in that circumstance it may make sense to use a 
contractor, because you don't necessarily want to build up your 
force with all the related overhead costs and infrastructure 
costs that result. Or if it is a situation where because of the 
classification or compensation policies of the Federal 
Government, you can't attract and retain enough people with the 
requisite skills and knowledge--because we can't pay them what 
they need to be paid--then in that circumstance, you may have 
to hire contractors. And in our case, we use contractors in 
such circumstances but only in one of these circumstances.
    In summary, I think that the time has come to step back and 
relook at when it is appropriate to use contracting, how to use 
it, and that it shouldn't be something that we do as a first 
resort. Something should be done as a considered process, as 
part of a broader strategy for achieving the government's 
mission in an economical, efficient, and effective manner. 
Thank you, Mr. Chairman.
    [The statement of Mr. Walker follows:]

    [GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]
    
    Mr. Murtha. I will go to Mr. Hobson since he has to leave 
at 4:00.

                   FUNCTIONS OF THE ACTIVE-DUTY FORCE

    Mr. Hobson. Thank you, Mr. Chairman. I think I agree with 
most of everything you said. It seems to me--and I would like 
to know how you feel about what I am going to say here--it 
seems to me that the Army and the military in general made a 
decision--I don't know exactly when--that there were certain 
types of functions that they weren't going to carry in the 
Active-Duty force.
    Let me give you an example: Construction of large military 
bases, the funding of the support operations for those, such as 
carrying certain types of skill sets that they would have. A 
real example is they put a lot of stuff in the Reserve and the 
Guard that have historically been in the Active Duty, which 
they have now changed. For example, military police. Military 
police changed almost totally from Active Duty into the Guard 
and Reserve.

                       PLANNING FOR CONTINGENCIES

    There are other types of specialties, MOSes, that that has 
happened to. They did some, apparently, preplanning of 
equipment and materiel and putting it in various sites around 
the world in case there were contingencies. They also entered 
into some very large contracts with some very large people such 
as Brown and Root and Halliburton and a couple of these other 
people that they could guide all these things under in the 
beginning. That apparently wasn't planned well, because they 
have already now changed a lot of those MOSes back into the 
service. But the planning side of these large contracts seemed 
to get out of whack. And that is where they then found out that 
they need--and what I am really wondering, all this comes back 
to one thing--we challenged the administration bipartisanly 
about the number of people that they were putting into Iraq in 
this Committee, time and time again at the beginning. And the 
more I think about this, I am wondering if part of this whole 
problem with all of these contractors goes back not only to 
that base set thing that they did at the time, but the fact 
that they didn't put enough people into Iraq in the beginning 
and therefore subcontracted a lot of things out that they might 
have otherwise been able to do.

                    LACK OF SKILL SETS AND PERSONNEL

    So it is twofold. One, did they early on before this war, 
way back, probably even in the previous administration, make a 
statement to themselves--and this goes back to Bosnia and 
Kosovo--we are not going to carry--before that--we are not 
going to carry these sets. We are going to contract that out. 
And that, then, is exacerbated by the fact that they didn't put 
enough people into Iraq to perform a lot of the services and 
then went out and hired a bunch of subcontractors to do things 
that they hadn't done before, such as all these guards. And not 
just the Army, but the State Department has done this. A lot of 
other agencies have gone out and contracted out things that 
would have normally been theirs.
    That is a rambling question. But do you agree with the 
premise that, one, they did change the concept? And, two, did 
we put enough people in? And did that cause some of this 
problem? And third, about those big----
    Mr. Walker. Sure. Well, I think you noted some of the 
problems that have manifested themselves over the passage of 
time because of actions that have been taken where people have 
had to do something different than what they planned because 
either, A, they didn't plan or, B, the plan didn't turn out to 
be effective.

                      HUMAN CAPITAL STRATEGIC PLAN

    Let me suggest this. Having been in the human capital 
business for a lot of years in the private sector, basically I 
think what needs to be done here is there needs to be a human 
capital strategic plan. Let's take the Defense Department, 
which this subcommittee is concerned with, you have a mission. 
And you have certain things that have to be done to accomplish 
that mission. You then identify which ones of those activities 
are core and which ones are non-core. You then determine what 
type of skills and knowledge are necessary in order to achieve 
those functions. If they are non-core, then you are probably 
going to go to the private sector as a first resort. But if the 
concern is the core or something that is close to core, what 
kind of skills and knowledge are necessary? Is it a recurring 
need? In that circumstance, you need to make sure that you have 
civilians doing it as long as--or the military, depending on 
the circumstance--as long as our policies are adequate to be 
able to attract and retain enough people. I don't think that 
has been done.
    You know, it is understandable, if you have an Iraq or a 
Katrina, that you may have a temporary need and you may have to 
surge up for a temporary period of time. On the other hand, I 
don't think that we have done enough planning with regard to 
the basic recurring need. And as a result, in some 
circumstances people have defaulted to using the military to 
the extent that they can--of course, the size of the force has 
been contracted considerably in the last 10 to 20 years. And in 
some cases, they have used contractors, because you can order 
the military and you can get a contract done fairly quickly, a 
lot quicker than you can hire people in the Federal Government.

                   REDUCTION IN ACQUISITION WORKFORCE

    Mr. Hobson. Well, this morning we heard that they didn't 
have enough people to contract out. As we cut back in the 
military, one of the places they figured out they would cut 
back was in acquisition. I assume you would agree with that?
    Mr. Walker. Yes. We have noted that there has been a 
significant reduction in the acquisitions workforce. I think 
you have to look at two issues there. Not just how many people 
but what kind of skills and knowledge did those people have? Do 
they have the right kind of skills and knowledge to deal with 
the current and prospective type of contracting we are going to 
be doing, rather than what we may have been doing 10 or 20 
years ago. What we are contracting for is a lot different now. 
There are a lot more services arrangements than in the past.

                   MANAGEMENT OF CONTRACTING OFFICERS

    Mr. Murtha. Let me say the impression I got this morning. 
The Air Force hires contract officers, and they keep them in 
that line their whole career. The Army, on the other hand, puts 
officers in contracting for a while, then they go into the 
line, they go into different jobs, and then they come back to 
be contract officers.
    Now, we learned this morning that 67 percent of the 
contract officers in Iraq are Air Force. And the balance is the 
Army. And yet the Army is the executive director or agency for 
contractors. Now, it makes no sense to me that if the policy is 
we go to contracting in order to take care of a temporary 
situation, and yet when the temporary situation comes up, we 
don't have enough people to oversee what is necessary. Now, 
General Thompson this morning admitted that they were slow in 
responding to these problems. But the point is that was what it 
was all about.
    Now my concern is, it costs--at least in my estimation--it 
costs more to hire civilians than it does to do the work in-
house. I mean, that is----
    Mr. Walker. You mean the contractors. It costs more to hire 
contractors.

                          COST OF CONTRACTORS

    Mr. Murtha. Right. I'm sorry. It costs more to hire 
contractors rather than civilian employees. And those civilian 
employees are dedicated, and, as you say, to do the core thing. 
But if you look at the circular from OMB, it says the policy of 
the Federal Government has been to rely on private sector for 
needed commercial services. Now, you can interpret that any way 
you want to. And I think that is part of the problem. I think 
they just--whether it is easier, don't know. You have got 
people who retire from the service and then they go to work as 
a contractor. They get retirement pay in many cases and yet 
they are contractors. And it costs us more, usually, to hire 
contractors.
    We heard last year that the Budget Office was going to hire 
contractors to prepare a budget for us. I mean, they weren't 
going to do it themselves. They were going to hire a contractor 
to prepare a budget. That is the Defense Department.
    Mr. Walker. I would call that core myself.
    Mr. Murtha. I would call that core.

                FUNDING FOR FEDERAL CONTRACTING OFFICERS

    Mr. Hobson. Mr. Chairman, one last comment on that. I felt 
a reluctance by him this morning, and I just wanted the rest of 
the Committee to hear it, as to whether he has asked for enough 
money or if he is getting pushback from OMB on asking for the 
right number to fix this. And I don't know whether this is the 
right forum to discuss that or not. But this is something that 
you might be helpful in in helping the administration or others 
to come to the right number. Because I got the impression that 
there is some--we find this all the time at OMB. But there 
seems to be--I sensed the hesitancy for him to give us a number 
where he felt comfortable that he was going to be able to hire 
the right number of people.
    Mr. Murtha. I think what Mr. Hobson is saying is true. Here 
is the thing. Mr. Moran said this morning the authorizing 
committee cut back. Well, they are quick to say we are going to 
veto a bill if the administration is not happy with it. So the 
authorizing committee would not have done that without the 
administration being satisfied with what they were doing; in 
other words, cutting back the number of acquisition people. It 
shows you how complicated this business is when we couldn't 
find people. And now they are saying, okay, we are going to 
hire x number of civilian employees and we are going to hire x 
number of contractors. The contractors are double what they are 
going to hire in civilian employees, which is much more 
expensive during this period of time.
    So we need some work here. We need some advice about how we 
handle this so that the fraud and abuse that we see, the cash 
that was flowing over there, as Bill Young said this morning, 
that we stop that and we have better oversight over these 
things before it is too late.
    One of the minor things I talked about today is the surge 
money--or CERF money we give to the commanders. Now they say 
they have been auditing that. They say it is no problem. Let me 
tell you something. If there is cash flowing around, there 
could be a problem. So I suggest to them now to watch that very 
carefully.

                   DECISION TO CONTRACT FOR SERVICES

    Mr. Walker. Well, Mr. Chairman, I come back to something I 
touched on before. First, what is the Department doing with 
regard to making the determination of when is it appropriate to 
use military versus civilian versus contractor personnel for 
ongoing recurring types of functions and activities, excluding 
contingency operations?
    Secondly, what plans are they making to be able to be in a 
position to respond in a more timely and effective manner when 
a contingency operation occurs, which they will from time to 
time, of different types?
    And then thirdly, recognizing that, if there is a temporary 
need, and it truly is temporary, it doesn't necessarily make 
sense to hire or to use civilian personnel if it is truly 
temporary.
    On the other hand, we ought to be figuring out ways in 
which where the answer is we really ought to be using civilian 
personnel rather than contractors, we ought to be figuring out 
ways that we can end up doing it a lot quicker than we can 
right now, because I can tell you that there is little question 
in my mind that one of the reasons that military is used on 
occasion and contractors are used on occasion is because you 
can get it done quicker. And not necessarily better and not 
necessarily more cost-effective. It is quicker.
    Mr. Murtha. Well, we would like you to give us some advice 
as we go through the legislative process about what guidance we 
can give to the various departments of the Army or services.

                     LOGISTICS HEALTH INC. CONTRACT

    Mr. Walker. We will be happy to, Mr. Chairman.
    Mr. Murtha. Mr. Dicks.
    Mr. Dicks. One of the concerns that we have had up here, 
and I know you have gotten into this. I believe the GAO is 
reviewing the Logistics Health Inc. contract. Are you involved 
in that one?
    Mr. Walker. My understanding is we have a bid protest on 
that. I apologize, Mr. Dicks--we have dismissed it because the 
company that protested it was a subcontractor to----
    Ms. Coffey. Yes. Logistics Health was the contract 
subcontractor to the company that protested.
    Mr. Walker. Okay. Logistics Health was the subcontractor to 
the company that protested.
    Ms. Coffey. So it was dismissed.
    Mr. Walker. So there wasn't a third party involved to 
protest.
    Mr. Dicks. Okay. We were told that on September 25, 
Logistics Health was awarded an $800 million contract despite 
the fact that at least one other company bid $100 million less. 
The award of the contract has been put on hold and pending--I 
guess it isn't on hold.
    Dina Rasor, the author of Betraying Our Troops, talked 
about the destructive results of privatizing war, said it was 
likely--Dr. Winkenwerder was at the DOD and he left in June of 
2007 to go to work with this Logistics Health Inc. And on June 
30, DOD began accepting bids for a contract to give soldiers 
medical and dental exams before being deployed. Before leaving 
DOD, Dr. Winkenwerder had been in charge of the office that 
wrote the contract.
    So does anybody look into these kind of things? Or does the 
DOD IG have to look into this?
    Mr. Walker. They would be on the first line of response to 
something like this. As you know----
    Mr. Dicks. They don't have a 1-year rule I take it, like we 
do?
    Mr. Walker. A cooling-off period? Yes, there are cooling-
off periods applicable to certain executive branch----
    Mr. Dicks. So the question would be whether he was actually 
involved or not.
    Mr. Walker. Whether he was directly and substantially 
involved is probably what the test is.
    Mr. Murtha. I will tell you, if a Member of Congress were 
involved, it wouldn't make any difference whether he was 
involved or not. The perception would have been and the 
perception is that he had something to do with it. That is part 
of the problem. I don't--listen, I don't want to stop anybody 
from making money. But when a sole-source contract is given, it 
makes it look to all of us like there is somewhat of a problem. 
But where are we with the contract, do you know?
    Mr. Walker. No, I don't, Mr. Chairman. I will try to find 
out something for the record.
    [Clerk's note.--A response was not provided.]
    Mr. Walker. Let me just say, Mr. Dicks, that I have said 
quite frequently that the law represents the floor of 
acceptable behavior. You definitely don't want to violate the 
law. But there are moral, ethical, and other standards that 
rise above the law. And sometimes, one shouldn't do something, 
even though it is not illegal.
    Mr. Dicks. Yeah. Well, again, I know Winkenwerder and I 
have met with him several times. I would be surprised, 
honestly, if he would do anything that would be--that would not 
have been acceptable under the current rules.
    Mr. Murtha. The point, Mr. Dicks, is that was an $800 
million contract?
    Mr. Dicks. $800 million contract.
    Mr. Murtha. And it is a sole-source contract. That is the 
thing that worries this Committee when we hear so much about 
competition with small contracts.
    Mr. Dicks. It says here--I don't know if this is in the 
background from the staff--on September 25 Logistics Health was 
awarded the $800 million contract despite the fact that at 
least one other company bid $100 million less. So I think there 
is a question whether--if the awarding of the contract has been 
put on hold pending GAO review.
    Mr. Walker. That was previous, prior to the dismissal.
    Mr. Dicks. Does this happen quite often where somebody that 
doesn't bid--I am not always for giving contracts to the lowest 
bidders, because we have seen over and over again in the 
defense industry where people bid low, then they get the 
contract and then the prices escalate. I mean, I have seen some 
go up two or three times over what they bid. So I hope that 
somebody looks at----
    I am thinking more of TRW and Lockheed, if you want to know 
the truth. You have your examples, I have mine, okay?

                       CONFLICT OF INTEREST RULES

    Mr. Walker. Mr. Dicks, I think it would be of interest to 
you and the other members of the subcommittee that we have two 
engagements under way right now that we plan to issue in March 
and April, respectively, that deal somewhat with this issue. 
The first has to do with conflicts of interest, which we are 
doing work for the Senate Armed Services Committee to provide 
more information on the conflict rules that exist within the 
Department of Defense and those that apply to the contractors, 
and the differences between those two.

                             REVOLVING DOOR

    And then, secondly, we are doing some work, as required by 
statute, on the revolving door issues. And, to what extent do 
you have people who leave the Defense Department and end up 
going to work for major contractors where you could have either 
real or perceived conflicts of interest along the lines of what 
you are referring to?
    The first will be issued in March and the second will be 
issued in April, and we will make sure this Committee receives 
copies.

                         SOLE-SOURCE CONTRACTS

    Mr. Dicks. This morning we were also talking about sole-
source contracts. And how do you view that? I mean in what 
situations are these justified? And when should there be 
competition?
    Mr. Walker. Typically the circumstance in which you would 
expect to see a sole-source contract is where you have a 
critical need that is very time-sensitive, in which there is 
prior experience that can help inform that decision. Sometimes 
what will happen is you might end up having to issue a sole-
source contract when all of those criteria are met, but you 
then may want to compete it, you know, shortly thereafter. So, 
in other words, you might give it sole-source----
    Mr. Dicks. You don't give it to them forever.
    Mr. Walker. You don't give it to them forever. You might do 
it initially. That happened in Iraq. There were circumstances 
where there were initially sole-source contracts that were 
granted. But it wasn't forever. And then they were recompeted 
after a period of time. One of the things you have to be 
careful of is you don't end up issuing sole-source contracts in 
circumstances where, if you had done planning that I mentioned 
before--like in the case of Katrina. If there are certain 
contingency operations that apply, if you know you are going to 
need certain services and capabilities at that time, then one 
of the things that I think the government needs to be doing 
more of is to anticipate that, to have a competitive process 
where you enter into a process whereby the government can issue 
task orders and draw down on that contract when that 
contingency occurs. We should be doing that to a greater extent 
than we are now. And that is something that we have noted not 
just with regard to the Defense Department but also with regard 
to the Department of Homeland Security in relation to the 
Katrina contingency.

                        CONTINGENCY CONTRACTING

    Mr. Dicks. So in other words, you could even stockpile; 
there are some situations where we have done this in the 
Defense Department. You have prepositioned ships. You could 
have prepositioned reserves of things that you know you are 
going to need around the country. I think we are doing that 
now, I believe.
    Mr. Walker. Well, there are two issues, Mr. Dicks. I am 
saying two things. One, you are correct, we have ``prepo'' for 
military and for nonmilitary purposes, if you will. I am 
talking about something different from that. I am talking about 
where you don't necessarily want to buy a lot of things and 
store it, because that costs money.
    Mr. Dicks. Right.
    Mr. Walker. In some cases, Some things have a longer shelf 
life than others things. But what I am talking about is in 
addition to ``prepo'' in appropriate circumstances, to enter 
into competitive bidding arrangements. Conduct competitive bids 
so that people can bid on certain types of products and 
services that we know we will need if a contingency happens. 
Therefore, you don't actually buy it.
    Mr. Dicks. Give us an example.
    Mr. Walker. Okay. Let me give you an example. Remember how 
we bought all these trailers of which we didn't use many? Since 
we know that hurricanes happen, floods happen, tornadoes 
happen, et cetera, it might be nice if we thought about 
entering into a competitive bid arrangement among all the 
different potential providers that could provide trailers and 
have them bid against each other such that we have the right to 
buy trailers at a pre-stated price, if and when that 
contingency occurs. What happens is if you have a contingency 
occur, then you have a critical need, you may not have time to 
do competitive bidding. Since the contractor then knows you 
have a critical need, they don't have a great incentive to 
negotiate a great price in that circumstance. So we need to 
recognize that reality and think about employing some planning 
and contingency contracting-type approaches that historically 
we haven't.

                         ACQUISITION WORKFORCE

    Mr. Dicks. In your judgment, did they cut back the 
acquisition force too far? And are they right now to put more 
people back into this?
    Mr. Walker. What we have said is that we believe that the 
acquisition workforce is going to need more people with 
different skills and knowledge. We have not rendered a judgment 
on how many that might be. We have expressed concern.
    Mr. Dicks. And they have got this new plan.
    Mr. Walker. We are looking at that plan at the present 
point in time, Mr. Dicks.
    Mr. Dicks. Thank you. Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Frelinghuysen.

                        ARMY CONTRACTING COMMAND

    Mr. Frelinghuysen. Good afternoon. You said in your 
concluding remarks we must elevate the acquisition function 
within the Department. So you are not familiar with the Gansler 
Commission, obviously.
    Mr. Walker. I am.
    Mr. Frelinghuysen. You are intimately familiar with their 
goals and objectives? I assume you are familiar with their 
recommendations.
    Mr. Walker. I am somewhat familiar with the Gansler 
Commission, and I know that there have been steps that have 
been taken since 2006 in order to try to deal with some of the 
issues that we have raised and the subcommittee has been 
concerned about.
    Mr. Frelinghuysen. I sort of wondered, you know, we had 
some testimony from General Thompson this morning. They are 
sort of moving ahead with these contracting brigades which 
have, you know, a military top leadership, and then underneath 
is positions that are occupied by, you know, I won't say people 
of your ilk, but people who are extremely knowledgeable about 
accounting and----
    Mr. Walker. Financial matters, contracting matters.
    Mr. Frelinghuysen. Things of that nature. But you actually 
haven't had a chance to sort of review that, where they are 
going with this new structure here?
    Mr. Walker. I haven't had a chance to review it personally. 
No, I have not. My staff has had a chance to look at some of 
it. My understanding from the Gansler Commission is they talked 
about four things that need to be done: to increase the stature 
quality and career development of military and civilian 
contracting personnel, especially for expeditionary operations; 
to restructure the organization and restore responsibility, 
facilitate contracting and contract management in expeditionary 
and CONUS operations; to provide training and tools for overall 
contract activities and expeditionary operations; and to obtain 
legislative, regulatory, and policy assistance to enable 
contracting effectiveness in expeditionary operations.
    As you know, sir, we have noted ourselves that in the 
training area, the Army really is lacking there; whereas the 
Air Force, which takes a more professional approach and has 
people really dedicated to this MOS and therefore spends a lot 
more time on training, tends to have a lot better results in 
this area.

                CONDUCT OF STUDIES IN THE COMBAT THEATER

    Mr. Frelinghuysen. It is interesting that the Air Force has 
more people, while the Army, as we have discussed this morning, 
is really responsible for bringing everybody to the combat 
theaters, you know, is really responsible for much of the 
logistics footprint and basically the administration.
    I sort of would like to get your view of how you actually 
conduct your GAO studies in the combat theater. I know over the 
years we have been privileged to have your remarks. They are 
usually pretty much on target. How do you actually conduct your 
studies in the combat theater to arrive at the conclusions you 
have reached?
    Mr. Walker. Well, first, I think it is important to keep in 
mind that we are one of many players ----
    Mr. Frelinghuysen. You are there with sort of the regular 
IG, and then you have got sort of another IG that we SIGig set 
up, SIGIR, and then you have got CID. There are quite a lot of 
operatives. And where do you come off in the overall scheme of 
things?
    Mr. Walker. As you know, there is a Special Inspector 
General for Iraq. The DOD IG, the State IG, the USAID IG, lots 
of people on the field. The IGs and the Special Inspector 
General, including the Special Inspector General for Iraq, have 
more people in theater, on the ground on a recurring basis than 
we do. We just deployed three people to stay there for a full-
time basis for up to 3 months, and we will rotate teams in and 
out, and then we project teams to go in to do audit work, as 
necessary, typically for a period of several weeks in order to 
be able to do our work.
    Most of the frontline contracting audit work, is being done 
by either SIGIR or by an inspector general. We do, however, do 
supplemental work that takes a broader look and doesn't drill 
down as deep on individual contracts. That is what they are 
doing, but where we look more from the standpoint of the 
overall process and how it has been approached by the 
respective departments and agencies from a planning and 
execution standpoint overall, rather than drilling down on 
individual contracts.
    Mr. Frelinghuysen. Do you do surveys of soldiers? Do you do 
surveys of DOD people in the field? I mean, I sort of--you 
know, I just sort of wonder how you, you know, how you gather 
your data and----
    Mr. Walker. With regard to acquisitions and contracting, is 
that what you are saying?
    Mr. Frelinghuysen. Yes. I know you reached some fairly 
weighty conclusions, and actually in the public's mind the most 
egregious problems relating to contracting generally, people 
can complain about sole-source contracts. But in a contingency 
emergency situation, as you have emphasized, you have got to 
act pretty damn quickly.
    Mr. Walker. Correct.
    Mr. Frelinghuysen. Even though we may have problems with 
these independent operators who were providing security, if 
they weren't providing security--and God only knows some of 
them, I am sure, have crossed the line--probably a much larger 
contingent of soldiers would be required to provide that degree 
of security. So I just wondered who you have been talking to.
    Mr. Walker. We have talked to people in theater, on the 
ground. I don't believe we have conducted surveys per se. But 
we do talk to people in theater, on the ground, with 
responsibility in this area.
    And let me note--I think one of the biggest challenges is 
not just that not enough work was done in anticipation of the 
needs, but also in many cases the government has not been as 
specific as it should be in defining what its requirements are. 
One example of that would be the LOGCAP arrangement where you 
are contracting for a range of food and other support services 
for our troops. One of the things that one has to do is to try 
to define what the requirements are. What are you actually 
looking to get? And in the absence of doing that, then you are 
ceding certain authorities to the contractor to do it for you. 
And in that circumstance, there obviously can be additional 
costs incurred that may or may not make sense.
    But you are correct in also saying that sometimes we have 
to go to contractors because we don't have enough force. We 
don't have enough military to be able to do the job, and a job 
needs to be done. Therefore, what are your alternatives? And 
that is an example of where you may have to default to 
contractors, because you don't have other viable options.
    Mr. Frelinghuysen. Well, the arguments around this table--
and I don't want to mischaracterize them--is why are we going 
to contracts, contractors, when in some cases many of those 
contractors--and it depends on what they are doing--are former 
military? And you know, compared to the soldier who has his or 
her life on the line, they are earning about six times more for 
that particular responsibility
    Mr. Walker. I understand. And you see that in Iraq.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.

                             MRAP CONTRACT

    Mr. Murtha. Have you evaluated the MRAP contract at all?
    Mr. Walker. We are looking at it at the present point in 
time, Mr. Chairman, but we haven't reported on it.
    Mr. Murtha. I would be very interested because here was a 
priority contract that seemed to be handled very well. And it 
is the biggest contract, I think, we ever dealt with, $21 
billion, at one time. So I would be very interested when you 
get done to evaluate that and let us know what you think. It 
was very competitive, a lot of people involved with it. My 
advice to a lot of companies was don't get involved, because it 
is not going to last very long. But the point was, we had 
enough contractors to get involved that they seemed to have 
done a pretty good job. Mr. Moran.
    Mr. Moran. That is interesting. I was at an awards ceremony 
for businesses in Northern Virginia. It turns out every single 
one of them was a government contractor. These were the 
businesses that had done the best over the last year. That is 
why I was late for the hearing, actually. There were more than 
100 of them that had done so well. One of them had just gotten 
a contract for $12.5 billion for MRAP.
    Mr. Murtha. One just got a contract for $12.5 billion?
    Mr. Frelinghuysen. I am in the wrong place.
    Mr. Moran. I had never met the guy. He had worked for 
DARPA. And you know, he had worked on that type of technology. 
And then he had somebody else that worked in another part of 
the government. They seemed to know what they were doing. But 
enormous contract. And it has come down to give him this Ideal 
Innovation Concepts or something. And BAE, British Aerospace 
Systems, is the other that is going to develop a phase 2 of 
MRAP.
    But the most striking thing about this, these government 
contractors, was that I--and it is not necessarily the case 
with the one I am talking about--but I talked to a great many 
of them. I was there for almost 3 hours. And invariably they 
were working on contracts to provide goods and services that 
they had previously been involved in when they were part of 
DOD. In other words, they knew the personnel at the Pentagon. 
They had been involved themselves, and they simply decided that 
it is time to, you know, make some money. We will set up a 
company. We know the folks that we are going to be dealing 
with. So they had an inside track.
    It doesn't mean it wasn't competitive. It didn't mean it 
was the best product and service. But they did know exactly 
what their buddies were looking for. And now, again, it is not 
this group that I am referring to. But I talk to a lot of folks 
that--kind of neighbors in Northern Virginia who work for the 
Federal Government. And they tell you that over the last 
several years, there has been a real antipathy towards working 
for the--or toward Federal employees on the part of a lot of 
the political appointees in the Federal Government. And the 
idea is that we are going to reform the government by 
privatizing it. And so there is clearly a bias on the part--but 
I am saying particularly political appointees--a bias to 
contract out whatever can be, to really turn as much of the 
Federal Government over to the private sector. And I think we 
are seeing a lot of this because some of it just doesn't make 
sense.
    For example, the cost estimated. You would think cost 
estimating of a contract is inherently governmental. I mean, if 
it is not, then you put the fox in the chicken coop. And yet 
you have done a report that showed us that 64 percent of space 
acquisition, for example--let me see, I have got the actual 
numbers, and you did a report on it. But 64 percent of the 
people who were doing the cost estimating were contractors.

                  CONTRACTOR COST ESTIMATING PERSONNEL

    Now, when you think about it, why should contractors be 
determining what the appropriate cost for a contract is? And 
yet we have contracted out the cost estimating function.
    Here it is. The GAO report on DOD Space Acquisition noted 
that at 11 of the offices in the Pentagon, contractors 
accounted for 64 percent of cost-estimating personnel. That is 
one of your findings. Now, obviously, I am not being critical 
of you for finding it out. But it is kind of mind-boggling 
that--and in your report you said that they downsized the 
number of Federal civilian employees who were performing the 
cost estimating function, and then contracted out for those 
same cost-estimating services.
    One of your colleagues is nodding their head. This is the 
stuff we are trying to get at. I mean, that is inherently 
governmental.

                           CONTRACT OVERSIGHT

    Another inherently governmental function that GAO has been 
very much involved in is contractor oversight. Of all the 
things that are inherently governmental, is the oversight of 
the contracts. And yet we are contracting with contractors to 
oversee other contractors. And then doing reports.
    Now I would like to ask you, I have several questions. Let 
me just break in at this point. Within DOD, are there private 
contractors performing contract management, the management of 
private contracts or oversight over those contractors?
    Mr. Walker. There are. And also on the other issue, Mr. 
Moran, you talked about cost estimation. There are portions of 
the Defense Department that view that as inherently 
governmental and they don't contract it out. You talk about one 
example where they didn't view it as inherently governmental 
and they have contracted it out. So there are even differences 
of opinion within a particular government department.

                            COST ESTIMATION

    Mr. Moran. Well, Mr. Chairman, just kind of an aside.
    There may be some of these functions that we may want to 
say, look, this is inherently governmental. You don't contract 
this out. You don't contract out the estimation of the cost of 
contracting this out and you don't contract out the oversight 
of the contract. Otherwise----
    Mr. Murtha. Let me ask you, Mr. Walker, what do you think 
about that?
    Mr. Walker. First, I think ultimately the responsibility 
for cost estimation needs to be the government's 
responsibility. The question is whether or not you might have 
to contract for----
    Mr. Murtha. As a core responsibility?
    Mr. Walker. I think the ultimate responsibility and 
accountability, I would say, is core. The question is, in 
certain unique circumstances, might you need to have some 
additional skills and knowledge to help in that process, to 
provide input to that process, but not to be responsible for it 
and not to it make the final decision? So in other words, you 
may have most of the people being government employees. You may 
occasionally have to hire somebody with a high degree of 
expertise in a particular area that you don't have enough 
expertise internally in some cases, because you can't pay them 
enough money to be able to keep it internally. And we do that 
at GAO.
    We have certain circumstances where we have to hire some 
outside specific expertise because we can't hire them in the 
government. But the function itself, I think, is core. Most of 
the duties and responsibilities ought to be done by a 
government worker, absent the ability to hire people with those 
types of skills and knowledge. But if you are going to use a 
contractor there, they should not make the judgments. They 
should be providing input, and ultimate judgments should be 
made by a civil servant.
    Mr. Moran. I agree with you. But in your civil service 
report, you noted DOD fired the cost estimators, let them go, 
and then contracted out. You can always say, well, we didn't 
have cost estimators. But if the reason is is because you let 
them go, I mean, that doesn't hold a lot----
    Mr. Walker. I understand what you are saying.
    Mr. Moran. This Committee, time and time again, has asked 
the simple question, how many contractors are there in Iraq? 
And after about 3 years, DOD set up this synchronized 
predeployment and operational tracker system, SPOT. And it is 
supposed to tell us how many contractors and subcontractors 
there actually are. It is supposed to track them. Is it doing 
that? Is it actually working?
    Mr. Walker. We cannot attest to the reliability, because of 
financial management and other records problems at the Defense 
Department. But my understanding is, their latest estimate is 
129,000.
    Mr. Moran. Okay. We were told 133,000 today. But that is 
close enough for government work.
    Mr. Walker. Well I wouldn't want to use that saying.
    Mr. Moran. That is the result of the SPOT system.
    Mr. Walker. That is my understanding.
    Mr. Moran. 100,000 because of SPOT. We now figure it is 
129,000 or 133,000.
    Mr. Walker. Around 130,000. Correct.
    Mr. Dicks. Is it 129,000 individuals? Or 129,000----
    Mr. Walker. Individuals. Correct.
    Mr. Moran. The point we have been making, there are almost 
as many contractors there as military. I mean, who is fighting 
the war?
    Mr. Dicks. Maybe we will have a surge of contracts.

                        CONTRACTING FOR SERVICES

    Mr. Murtha. Let me remind members, this all started with 
Gore's initiative. Gore believed--and this is in the Clinton 
administration. Well, but I am just telling you this is where 
it started. I think we have gone too far. I think we have 
gotten to the point where we have to draw back. And, I don't 
know how far along we were before this administration. But I 
see evidence that we are spending more money for contractors 
than we should be, because it is not balanced.
    Now, whether it is easy to hire them, whether it is poor 
planning, I don't know what it is. But I certainly see evidence 
that we need to--we need advice from you as you go through your 
studies so that we can make recommendations and the 
subcommittee can look at it and say, okay, we need to look at 
this contract. We need to give direction to the agency.
    For instance, the Army said, we are actually studying 
whether we should have the executive agency in Iraq be the Air 
Force because they have 67 percent of the people are Air Force 
people, and they have more experts in the field. But that is 
the kind of stuff we need advice on because this is a big area, 
and I think we need to turn it around a little bit.
    Mr. Walker. Mr. Chairman, as you know, I believe it was 
President Eisenhower who, might have preferred to be called 
``General,'' as General Washington did, who first had the 
concept that the government should not be competing with the 
private sector in circumstances where it does not involve an 
inherently governmental or core activity.
    But what has happened over the years is, different 
departments and agencies have approached that differently, some 
in circumstances where there were contingency operations and 
they had to do certain things because of the circumstances. In 
others, they just have not done enough planning and proper 
execution even for ongoing activities.
    Mr. Murtha. We do not argue with that. What I argue with is 
the planning process itself. They have not planned ahead in 
case something like this happened, whether it is Katrina or the 
war in Iraq. That is the problem we face.
    Mr. Walker. We are in agreement, Mr. Chairman. There are 
two categories, one, what are we doing--steady state normal 
functions and activities for the Federal Government? Secondly, 
what are we doing for contingency operations? I think both are 
important, and we need to do both.

                       COST OF CONTRACT EMPLOYEES

    Mr. Moran. It is not good management practice to have a 
civilian employee, a Federal employee, doing exactly the same 
job as a contract employee standing right side by side or 
sitting side by side with the exact same responsibilities, 
where the contract person is making two or three times the 
amount of the civilian employee. And the response is for the 
civilian Federal employee to simply go into the private sector 
and make the money. But you cannot manage a government that 
way; it is wrong. And we are finding more--I know of any number 
of examples.
    Incidentally, Mr. Frelinghuysen, the 133,000 is DOD 
contract personnel. It is not the foreign folks that--and it is 
not the other agencies. That is 133,000 DOD contract personnel.
    Mr. Frelinghuysen. Why do we not get that other figure? Do 
we have the other figures?
    Mr. Walker. Their system does not have the other figure. I 
will check and see if there is anything else available.
    [Clerk's note.--a response was not provided.]

          GENERAL SERVICES ADMINISTRATION CONTRACTING SUPPORT

    Mr. Moran. Just one last question; and if the Chairman 
asked it sufficiently, then you do not need to go into it. But 
GSA, we tried to get GSA to pick up the contractor slack, and 
they said they could not do it, they did not--because they did 
not want to do it. They did not want to go to Iraq and all that 
kind of stuff.
    But you mentioned that there is opportunity for one agency 
to borrow from another agency when it has a shortage of skills. 
In your opinion, could GSA meet some of this need?
    Mr. Walker. It is possible. We have not explored that 
directly, I do not believe.
    That is correct; we have not explored that directly. But I 
think that one of the things that we need to keep in mind is, 
as we look at performing the functions of government, we have 
mission activities that are program related--and we have 
functional activities that are horizontal. Acquisitions and 
contracting, human capital, financial management, those are 
issues that are horizontal; they go throughout all of 
government.
    To the extent that we recognize that reality, when we face 
a need in one part of government, especially if it is a 
temporary need, one of the things we ought to be looking at is 
to what extent can we draw on other parts of government in 
order to meet that temporary need.
    Again, that is in a temporary circumstance. You cannot 
sustain that over the long term. But that is an example of 
contingency planning that needs to be pursued.
    Mr. Moran. So you are agreeing, it was not unreasonable for 
us to look to GSA to see if they could not meet that contractor 
gap?
    Mr. Walker. No. That is not unreasonable.
    Mr. Moran. Okay.
    Thank you, Mr. Chairman.
    Mr. Murtha. Any time Mr. Frelinghuysen has any questions, 
just let me know, because you are outnumbered by the guys on 
our side.
    Mr. Frelinghuysen. I do not feel outnumbered.
    Mr. Dicks. We are all on the same team.
    Mr. Frelinghuysen. Since he brought up Eisenhower and you 
brought up Gore, I think we are even.
    Mr. Murtha. Mr. Cramer.

                    COST OF CONTRACTING FOR SERVICES

    Mr. Cramer. All right. Thank you, Mr. Chairman. And this is 
a very valuable hearing for us. I want to, hopefully, just play 
off of what has been brought up already.
    I am curious and challenged by how we all perform oversight 
of contracting out: How you do it, what you do with what you 
do, and then how we find out what we want to find out. I come 
from a community that has a long contractor history with DOD, 
NASA, on the intel side as well. But with my committee 
assignments both here and on the Intelligence Committee, it is 
hard for me to get a straight answer from our agencies, 
especially intel agencies--NSA, CIA, and now even DIA--much 
less on the DOD side of the roster as to how much are we 
spending on contractors.
    And while the number of contractors is a challenge to get 
to know, also the amount of money that we are spending on those 
and how those cycles work. I would be interested in knowing 
that, too.
    But I would assume that one of the first--if not the first 
priority, one of the priorities for contracting out is cost 
savings or that--in that a particular set of personnel may be 
so temporarily used that you are motivated to look to 
contractors to provide those, mainly so that you will 
eventually save money.
    How much scrutiny of that are you giving toward a bottom 
line as to how much we had expected to save versus what we are 
saving? Because I think we are finding out the hard way that we 
are really not saving money.
    Mr. Walker. Right.
    Several things: First, there is not enough oversight going 
on with regard to contracting in the Intelligence Community. We 
can talk about that separate issue, and more needs to be done 
there.
    Secondly, some contracting is intended to save money. No 
question about that. And one of the things that we are doing 
right now is, we have some work under way right now that we 
will be issuing within the next several months to test that 
assumption in connection with certain types of contracting 
activities involving the Army's contract agencies, Contracting 
Center for Excellence, and our preliminary findings are that 
they are not resulting in savings.
    So again, I think it really depends upon the facts and 
circumstances. And I will give you an example. In the Federal 
Government, my personal experience, having spent 21 years in 
the private sector and now about 16 in the Federal Government, 
is that there are certain functions and activities where you 
actually can make more money over time in the Federal 
Government than you can in the private sector because of the 
way the Federal Government ends up grading jobs and how it ends 
up paying its people.
    So there are certain support functions, noninherently 
governmental functions, in which the private sector found many 
years ago it is better to contract those out to achieve 
economies of scale, to leverage technology; and in many cases 
the government has not done that and should consider doing 
that, and it can result in savings.
    That is very different, though, than when you are talking 
about highly skilled and knowledgeable needs--scientific, 
technical, whatever else--where because of those same 
classification and compensation systems you just cannot hire 
the kind of people you want to hire for the money that you are 
willing to pay.
    And so, you know, it is individual facts and circumstances. 
You cannot expect, in some situations to save money. In some 
situations you should not expect to save money, because you 
need specialized skills and knowledge, and you are going to 
have to pay what it takes to get it.
    Mr. Cramer. Well, as you review the functions and 
activities that should be contracted out, and as you look at 
what has been done, surely you can draw conclusions about 
certain activities that no longer make any sense to contract 
out, that they are and should be more inherently governmental 
operations.
    Mr. Walker. Yes. And I think that is something--we can help 
provide some additional guidance, and we can provide some 
information to this Committee that might help you in your 
legislative process, especially in circumstances where we see 
differences between definitions of inherently governmental in 
different parts of government or within the same department, 
and especially in circumstances where we have seen, based upon 
our audit work, where there has been waste or abuse that has 
occurred as a result of engaging in certain types of 
contracting activities.
    Mr. Cramer. Well, DOD's obligations on service contracts 
rose from $92 billion from 1996 to $183 billion in the year 
2006. Does that make sense to you? Service contracts.
    Mr. Walker. No. I understand service contracts are the 
fastest growing type of contract; I would expect them to go up. 
But that is a very dramatic increase. In some cases, we have 
talked about circumstances in which they have gone up, where 
you have people go from being, a military person or civilian 
person, and gone on the other side of the street to be a 
contractor doing essentially the same thing and making more 
money. That does not make sense in my opinion.
    Another concern that I have is we do not always enter into 
appropriate service contracting arrangements to be able to nail 
down what we expect to get to have an appropriate sharing of 
the risk and reward between the government and the contractors, 
and we do not have an adequate amount of oversight with regard 
to a number of those contracting arrangements.
    So those would be several factors that we are concerned 
about in services, especially given their tremendous growth.
    Mr. Cramer. Thank you.
    Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Dicks.

                            LOGCAP CONTRACT.

    Mr. Dicks. Early in our involvement in Iraq, contractor-
provided services were delivered under the LOGCAP contract, a 
contingency support arrangement. How long was the LOGCAP 
contract used before a competition was held for contractor 
support as the U.S. involvement in Iraq continued over multiple 
years?
    Mr. Walker. It has always been competed.
    Mr. Dicks. From the start?
    Mr. Walker. LOGCAP has always been competed.
    Mr. Dicks. There was never any time when it was sole 
sourced?
    Mr. Walker. That is my understanding.
    Mr. Dicks. Was it done before the war in Iraq started?
    Mr. Walker. Yes, it was, 2001.
    Mr. Dicks. So, it was.
    Is a LOGCAP or other contingency contract device necessary, 
and what would be the preferred practice for transitioning to 
regular order contracting procedures?
    You are saying that they followed the regular order here. 
Is that right? Are they necessary?
    Mr. Walker. In the case of LOGCAP.
    But there are other circumstances in which there were needs 
that arose because of a contingency operation that they had not 
already engaged in a competitively bid contract.
    As you know, LOGCAP is for forces that are stationed in 
various parts of the world. I mean, we still have people in 
Bosnia, we have people in Germany, we have people in other 
parts of the world.
    Mr. Dicks. Korea.
    Mr. Walker. And so you can take an existing contract, and 
it just happens to apply in Iraq. There are other 
circumstances, however, where we have new needs that resulted 
from a contingency operation; and there are some situations in 
which they were done via sole source, but may have been bid 
later, after the passage of a period of time.
    Mr. Dicks. Use of contractors in a theater of operations 
allows the release of military units for other missions or to 
fill support shortfalls. Was that done here? Was that one of 
the reasons why they were using the contractors? Because of----
    Mr. Walker. You mean for LOGCAP?
    Mr. Dicks. Yeah.
    Mr. Walker. I think the military had made the decision they 
wanted to use contractors to perform those functions and 
activities, not just in Iraq, but in other parts of the world. 
And so I think it was merely an extension of what they had 
already decided to do in other parts of the world.
    As you know, Mr. Dicks, the force structure----
    Mr. Murtha. This started in the Balkans. And it was a 
conscious decision by the military----
    Mr. Walker. Correct.
    Mr. Murtha [continuing]. That they would provide these 
services.
    Mr. Walker. In the Balkans.
    Mr. Murtha. Yeah.

                        REQUIREMENTS SPECIFICITY

    Mr. Walker. Right. And so it was taking that concept and 
just using it in Iraq, because it started there. As you know, 
Mr. Chairman and Mr. Dicks, we have issued reports in the past 
that highlighted potential problems with regard to these types 
of contracts where the government does not specify adequately 
what it is seeking from the contractor. We have had those 
problems in the Balkans, and we have had those problems in Iraq 
as well.
    Mr. Dicks. So you have got to be careful about the 
specificity, or you will get something you did not ask for.
    Mr. Walker. Absolutely, Mr. Dicks. It is not just a matter 
of entering into a competitive bid, it is a matter of being 
very specific about what you want them to provide--in what 
quantities, in what relative time frames--because if those 
issues are not nailed down and if that discretion is left to 
the contractor, it can result in additional acquisitions and 
additional costs that may or may not make sense.
    Mr. Murtha. Now, let me ask you this question. Now, we 
talked about contractors making estimates for contracts. Now, 
is it possible that these contractors would also set up the 
specifications for the bidding that goes on in the LOGCAP 
contract?
    Mr. Walker. Well, we know for a fact that people work 
together, between the government and the private sector, to try 
to come up with the statement of work. And one of the areas 
that I think one has to be concerned about is, who makes the 
ultimate judgments on that. All right. I mean, it is one thing 
if you end up getting input, but ultimately the responsibility 
and accountability for making the decisions needs to rest with 
a civil servant.
    Mr. Murtha. And do you feel that in this case that is 
happening in LOGCAP?
    Mr. Walker. Division of responsibility.
    Ms. Coffey. It has gotten better, but--originally it was a 
bad situation, but it has gotten better.
    Mr. Murtha. In what time frame----
    Mr. Walker. Just to restate for the record, Mr. Chairman, 
we had serious concerns. We had concerns early on as to whether 
or not there was an appropriate balance. It has gotten better 
in the case of LOGCAP.
    Mr. Murtha. What is the time frame you are talking about, 
from the Balkans on or from the Iraq war on?
    Mr. Walker. Yes, from the Iraq war. We are talking about 
the Iraq war, from the beginning of the Iraq war.
    Mr. Murtha. And again, I assume that came from poor 
planning.
    Mr. Walker. Inadequate planning.
    Mr. Murtha. Inadequate planning.

                              A-76 PROCESS

    Mr. Dicks. Let me ask you one other thing just briefly, and 
then we will get Mr. Frelinghuysen.
    What about the A-76 process? This is, you know, something 
that has been discussed over the years on contracting out. Do 
you think it works? Is it effective?
    Mr. Walker. My understanding is, A-76 involves--less than 5 
percent of the jobs that have been contracted out. In other 
words, there has not been a whole lot of A-76 activity in 
recent years. As you know, what A-76 is about is competitive 
sourcing.
    Mr. Dicks. Right.
    Mr. Walker. It is where the jobs are currently being done 
by civil servants, and you enter into a competition as to 
whether or not they should continue to be done by civil 
servants or contracted out. It does not cover new needs. It 
does not cover certain types of issues.
    Frankly, I think one of the things the Federal Government 
needs to do--and this is based upon my experience as being 
chairman of the Commercial Activities Panel at the request of 
the Congress several years ago--we need to figure out 
mechanisms where we can try to achieve most efficient 
organizations on an ongoing basis without having to go through 
an A-76 competition. It is really rather ridiculous that we 
have a system that only tries to achieve most efficient 
organizations through forcing a competitive process----
    Mr. Dicks. And by the way----
    Mr. Walker [continuing]. Which does not get used very much.
    Mr. Dicks [continuing]. I think that is what Vice President 
Gore was trying to do.
    Mr. Walker. I agree with that.
    Mr. Dicks. Not contract out necessarily. I think what his 
objective was was to try to get a more efficient organization 
of some of the elements of the government, which is totally 
understandable.
    Mr. Walker. Yes. We need to do that, but we need to do it 
in much broader circumstances than just in circumstances where 
somebody is competing to be able to keep their job.
    Mr. Dicks. Okay.
    Mr. Walker. Because the vast majority of government will 
never go through an A-76 competition, and because the vast 
majority of government is performing inherently governmental 
functions.
    Mr. Dicks. Thank you.
    Mr. Murtha. Mr. Frelinghuysen.

                        LEAD SYSTEMS INTEGRATOR

    Mr. Frelinghuysen. Thank you, Mr. Chairman. I would like to 
explore just for a few minutes the fairly recent phenomenon, 
that of the lead systems integrator. I think you have some 
comments in your report. I mean, this is where contractors 
define the weapons system's architecture, and then they manage 
the acquisition, and they integrate a variety of unbelievable 
technology, Future Combat Systems, Navy's littoral ship.
    I know the Committee had some language in our bill relative 
to--LSIs. What are your views, pro and con?
    Mr. Walker. Well, the lead systems integrator, I think to a 
great extent it depends upon to what extent are there known 
technologies out there in other words, how much discretion are 
you, in effect, really giving the contractor?
    In the case of the Coast Guard and Deepwater, the 
contractor was given a great degree of discretion, the lead 
systems integrator, because they were designing capabilities 
that did not exist, and also trying to help develop 
technologies that did not exist. The government did not have an 
adequate number of people with the right kind of skills and 
knowledge to be able to effectively manage or oversee the 
contractor.
    On the other hand, when you talk about some of the things 
that are going on on the border right now with regard to 
helping secure our border, there is a lead systems integrator 
effort going, underway at the Department of Homeland Security, 
with regard to that initiative; and in that situation, there 
are a lot of technologies that already exist.
    For example, the Marine Corps--which, Mr. Chairman, you are 
familiar with and I am familiar with--uses some technologies in 
order to be able to keep people off places where it tests 
weapons and does live-fire exercises.
    And so I think, you know, clearly the risk goes up when you 
employ that approach. It goes up even more when you are, in 
effect, having the contractor have to try to be able to make 
judgments about things that do not exist, and you do not have 
enough people to be able to oversee and effectively manage what 
they are doing.
    Mr. Frelinghuysen. So you would weigh in with where the 
Committee was providing some direction?
    Mr. Walker. That is an affirmative.
    Mr. Frelinghuysen. That is probably a good idea in these 
quarters here. No, I mean the complexity. I mean, I support the 
Future Combat Systems, and obviously, we have been through the 
drill relative to the littoral combat ship and the two main, 
you know, the designs.
    But I mean, some of this stuff is so incredibly complex. To 
some extent you have made a case for, you know, having, you 
know, that--somebody has that body of knowledge. Who does it? 
If we cannot--no one wants to be wholly dependent on the 
contractor, but surely somebody has to have the knowledge to 
make sure that whatever we have is fully integrated and 
working.
    Mr. Walker. Whatever you decide to contract out, you need 
to have an adequate number of people with the requisite skills 
and knowledge to oversee what the contractor is doing. And if 
you do not, then everybody is at risk in many different ways. 
And in many cases, the government has not done that.
    So, even when you determine that it is not an inherently 
governmental function and, for whatever reason, it is 
appropriate to contract out, you have to have enough people to 
be able to effectively oversee what they are doing.
    And there is two other issues here. You know, there are 
issues dealing with defining requirements. That is something 
the government has to decide. And we have to look at Webster's 
dictionary more than we have as to what ``requirements'' means. 
``Requirements'' does not mean ``wants''; ``requirements'' 
means ``needs''. And you have to make sure the government is 
defining those requirements based upon real needs, and then 
turning those over to the contractor. Because if the 
contractor, in effect, has the ability to define 
``requirements,'' you have a problem that has occurred from 
time to time in contracting.
    Mr. Frelinghuysen. Okay. Thank you.
    Thank you, Mr. Chairman.

                            COST AS A FACTOR

    Mr. Murtha. I think there is one other consideration, 
particularly, the gentleman mentioned the FCS. My big concern 
has been long term and the ability of us to respond to the 
needs because of the cost.
    For instance, $140 or -50 billion, there is no question in 
my mind it saves money long term; no question in my mind it is 
less maintenance, it is more sophisticated, more integrated.
    But I am convinced that the budget will go down, whoever is 
elected next time, the defense budget will go down. And I have 
said to the military over and over again, be very careful, make 
sure you are integrating these new systems into the equipment 
you are fixing up, because if you do not, we are not going to 
have any equipment at all that is up to the standards you want.
    So it is a combination, not of technology, but also the 
money that we have available. And we are not going to have the 
money available. Our fleet of aircraft have gone from 8 years 
old when I came out of Vietnam to 24. Just on and on with the 
F-15s, a big percentage of them were grounded and so forth 
because of the age; the ships, we are never going to get to 
313.
    So cost is such an important factor in this. I think you 
folks help us integrate that in. But one little thing that you 
mentioned, you have one half of 1 percent leeway in hiring 
temporary people. Would that help if we got that changed by 
talking to the authorizing committee or doing it ourselves? 
What would you recommend----
    Mr. Walker. Well, Mr. Chairman, my point is, I think it is 
okay for us, what I am suggesting, and we use it.
    Mr. Murtha. Yeah.
    Mr. Walker. What I am suggesting is, that is a concept that 
I think makes sense across government. It makes sense, for 
example----
    Mr. Murtha. What concept?
    Mr. Walker. The concept of giving the agency head the 
ability to hire up to one half of 1 percent of their head count 
on a noncompetitive basis for up to 3 years.
    Mr. Murtha. No. What I am asking is, do you believe it 
should be higher than that? That is what I am asking.
    Mr. Walker. I think it is adequate. It is adequate for us. 
We use it.
    Think what could have happened, for example, the Defense 
Department had that authority before Iraq. Think what could 
have happened if the Department of Homeland Security had that 
authority before Katrina.
    Mr. Murtha. Mr. Moran, do you have any questions?

                       CONTRACTING CENTER KUWAIT

    Mr. Moran. Did you adequately cover, Mr. Chairman, the 
Army's contracting center in Kuwait and all the evidences of 
fraud and criminal conduct?
    No? Well, I would like to ask a few questions about that, 
because that is one of the most extreme examples. And I am not 
sure that the solution is the best one either.
    About $4 billion in Iraq war contracts has now been shifted 
to the contracting office of the Army Sustainment Command in 
Illinois, so the decisions are being made in Illinois with 
regard to contracts in Iraq. But it is because the press 
reported that there are 87 criminal investigations ongoing, and 
so far, 24 people have been charged with contract fraud. Have 
you looked into that?
    Mr. Walker. We have not looked into that directly. No, we 
have not, Mr. Moran.
    Mr. Moran. No one has asked you to?
    Mr. Walker. To my knowledge, no. Not for fraud. Not to 
conduct a forensic audit or to look specifically for fraud 
there.
    Now, my question would be to what extent is one or more of 
the IGs looking into that at the present time?
    Mr. Moran. Well, what I question--and, you know, I am not 
surprised there was fraud; $4 billion of contracts is a lot of 
money to be involved in this, so, you know--and I question 
these contracts. And 87 criminal investigations under anybody's 
perspective is a whole lot of criminal investigations.
    But I question how you can oversee those contracts in 
Illinois. I mean, that is the kind of thing I would like to 
look at. So basically we have decided we cannot trust anybody 
down there in Kuwait or Iraq, so let us have the folks in 
Illinois.
    Now, granted, they are undoubtedly traveling to Kuwait.
    Mr. Murtha. Let me say the way I understood it: They have 
administrative oversight, but the people on the ground still 
have the responsibility. And the people in Rock Island, the way 
they portrayed it, at least I think, was that they would have 
adequate oversight from there because they would do the 
administrative work there. I mean, that is--and it would be 
better, they felt, more efficient.
    Now, I do not know----
    Mr. Walker. I think it depends to a great extent whether we 
are talking about contract surveillance and oversight, where 
you need to have more of a forward presence, you need to be 
there, versus contract award. If it is contract award, then you 
do not have as much of a need to be on the front line.
    On the other hand, if it is contract surveillance and 
oversight, then obviously--you have obviously more of a need to 
be there. There is a certain amount of information you can gain 
electronically, but there is certain information you can only 
gain by being forward deployed.
    Mr. Murtha. Does anybody remember what they said about 
that?
    Mr. Moran. It is oversight. The word they use is 
``oversight.''
    Mr. Dicks. The DOD Inspector General is looking at possible 
criminal investigations on that.
    Mr. Murtha. Yeah, but I think we have to go back and ask. I 
think that is a good point.

                             AFFORDABILITY

    Mr. Walker. Mr. Chairman, you mentioned one thing that is 
very important, and that is the crunch is coming on the budget; 
and the Defense Department needs to do a much better job of 
reconciling wants, needs, affordability, and sustainability.
    They have way more in the pipeline than we can ever 
possibly buy. And one of the greatest concerns that I have is, 
when the crunch comes, we will have a lot of things that people 
wanted, but not enough of what we as a nation needed.
    Mr. Murtha. We have been trying to address that. What we 
are trying to do is do two things. One is, rectify the 
shortages of equipment that we have at home, because we have no 
unit that can be deployed from home.
    Mr. Walker. Right.
    Mr. Murtha. The second thing, we are trying to look beyond 
Iraq, doing the things that we need to do to prevent a war or 
to sustain a deployment outside of Iraq and Iran.
    Now, we tried to start that last year with shipbuilding, 
and we are trying to buy at a rate where we get the most for 
our money at the earliest possible notion. That is why I have 
been so concerned about FCS, because it is such a long, you 
know, 4 or 5 billion a year for 10, 15 years. And they do not 
even deploy anything for, I think--what is it, 2013? 2015.
    Mr. Moran. Future Combat Systems he is asking.
    Mr. Murtha. So I agree with you, and I think we have--I 
have told the contractors over and over, I have told every 
industry group I talked to, I have said to them, folks, do not 
think this is going to go on because it ain't going to go on. I 
have never seen it go on in all the years that I have studied 
or been here.
    So you and I have the same concerns, that it is going to 
come down dramatically, and we are going to be buying smaller 
quantities with a hell of a lot more money, or we are going to 
have to buy more efficiently, buying more and getting it as 
quickly as we can.
    These last 2 years I think are critical, because whoever is 
elected--the public wants to change direction of this country, 
there is no question in my mind about it, and it is going to 
happen.
    Personnel is our biggest problem, because the cost is so--
you know, it is now 60 percent personnel. That leaves us no 
money for procurement.

                           HEALTH CARE COSTS

    Mr. Walker. Well, health care costs are out of control, 
including in the Defense Department. As you know, Mr. Chairman, 
we for the first time--I think it was 2 years ago--issued a 
report on the composition of compensation costs for the 
military. And it was shocking. I mean, we have an all-volunteer 
force, and it costs a lot of money to have an all-volunteer 
force.
    Mr. Murtha. Two of us voted for the draft, so ain't much 
chance of us getting a draft.
    No, I agree, we started in this Committee with a 
demonstration project for TRICARE; and yet when I announce this 
to any kind of a military audience, they get loud applause 
because--they like TRICARE, because it takes care of them.
    But it has gone from $10 billion, I think, to $40 billion 
now in a very short period of time. And so we are going to have 
to reduce personnel as well as buy less. At least that is the 
way I see it.
    Mr. Walker. Yes. As you know, the Congress expanded 
eligibility for TRICARE benefits several years ago in ways that 
any employer who was thinking would encourage their employees 
who are members of the Guard and Reserve to get onto TRICARE. 
And obviously, you know, any of us as human beings would like 
something where we pay little to no of the cost. I mean, that 
is----
    Mr. Murtha. Some things----
    Mr. Walker. But somebody is going to pay.
    Mr. Murtha. Some things the Congress cannot resist. It is 
like us trying to change Social Security now, when it should be 
changed. It is going to be a while before we get to it, I will 
tell you that.
    But thank you very much, Mr. Walker. We appreciate your 
coming, and your indulgence and your service to the country.
    Mr. Walker. Thanks to all of you.
    [Clerk's note.--Questions submitted by Mr. Murtha and the 
answers thereto follow:]

  management and oversight of equipment maintenance contract in kuwait
    The military services rely on contractors for a variety of 
logistical support functions in deployed location. Contractors at the 
Army's Camp Arifjan in Kuwait refurbish and repair vehicles such as the 
Bradley Fighting Vehicle and the HMMWV. However, in a report dated 
January 23rd, 2008, the GAO reported that supposedly repaired equipment 
often failed acceptance inspection and extensive rework was often 
required. From July 2006 to May 2007, 18 to 31 percent of equipment 
presented for acceptance failed government inspection. Since May of 
2005 an additional 188,000 hours or rework was required.
    Question: Administration and oversight of this contract is the 
responsibility of the Contracting Officer located at the Army 
Sustainment Command in Rock island, Illinois. What caused oversight to 
be lacking in this case?
    Answer: Inadequate oversight of this contract is the result of a 
fragmented chain of command, an insufficient number of oversight 
personnel, and delays in communications caused by the distance between 
personnel in Kuwait and the Contracting Officer located in Rock Island, 
Illinois. The following three sections describe the oversight process 
and issues we have identified.
Oversight hampered by fragmented structure
    Numerous personnel and offices provide oversight of this contract; 
however, the Contracting Officer, who has ultimate responsibility for 
oversight, has not effectively consolidated the oversight results that 
have been documented. Having so many organizations involved in 
oversight of the contractor, along with the lack of centralized control 
over the various oversight organizations by the Contracting Officer, 
makes it difficult to monitor the overall status of the contract. The 
Contracting Officer, located at the Army Sustainment Command in Rock 
Island, has ultimate responsibility for oversight of this contract and 
has delegated contract administration to the Administrative Contracting 
Officer (ACO) and has contracting officer's representatives (COR) 
located at Army Field Support Battalion-Kuwait (AFSBn-KU). For the High 
Mobility Multipurpose Wheeled Vehicle (HMMWV) refurbishment effort 
under this contract, the ACO, with acknowledgment of the contracting 
officer, delegated contract administration to a Defense Contract 
Management Agency (DCMA) ACO. Day-to-day monitoring of the contractor's 
performance is by on-site government personnel, including CORs and 
quality assurance inspectors; however, according to the Army, this 
oversight organization is not adequately staffed.
    A dual chain of command for ACOs in theatre has led to inadequate 
contract oversight. The Contracting Officer delegated limited oversight 
authority to the ACO. However, according to the Army, once in theatre, 
the ACO was under both the Contracting Officer's and the AFSBn-KU 
Battalion Commander's chain of authority. The ACO reports to the 
Contracting Officer on the contract but operationally reports to the 
Battalion Commander. It is difficult for the ACO to provide complete 
contract oversight because he reports to both the command and the 
contracting office, which have different priorities.
    There is also an Army officer who serves as the Contract Management 
Officer (CMO) and provides direct contract oversight. The CMO provides 
oversight of CORs in their functional areas and interprets the 
statement of work (SOW). He is responsible to the ACO and the Battalion 
Commander. He translates mission requirements from the Battalion 
Commander into specific tasks within the SOW and recommends any mission 
changes as needed. If there are any conflicts that arise between the 
mission and the SOW, the CMO modifies the requirements so that they fit 
within the scope of the contract. He also advises the Battalion 
Commander on the contract.
Insufficient number of oversight personnel
    The Army has not filled all of its oversight positions. There are 
currently two ACO positions in Kuwait that are filled by the battalion 
and DCMA. In addition to the ACOs, the battalion uses both military and 
civilian personnel to provide contract oversight. Battalion officials 
told us that there were not enough trained oversight personnel to 
effectively oversee and manage the maintenance contract in Kuwait. At 
the time we visited the battalion in April 2007, two military quality 
assurance inspector positions, a civilian quality assurance specialist 
position, and a civilian property administrator position had been 
vacant and remained vacant as of September 2007. The vacancies included 
the quality assurance specialist responsible for such activities as 
performing analysis of quality processes and procedures, tracking and 
coordinating training for quality assurance personnel, updating quality 
assurance surveillance plans, and ensuring productive interaction 
between Army and contractor quality personnel.
Distance between Kuwait and Rock Island, Illinois, affects 
        communications
    Although the ACO communicates with the Contracting Officer through 
biweekly teleconferences, e-mails, and phone calls, the ACO told us 
that there are problems with the Contracting Officer being located away 
from the contract activity. On numerous occasions, decisions on the 
contract that needed immediate action were delayed because of time 
differences between Rock Island, Illinois, and Kuwait. As a result, 
personnel in the field have had to wait on the Contracting Officer to 
administer contract actions. For example, broken equipment needed to be 
replaced in order to commence with needed work. Since the ACO didn't 
have the authority to add a contract modification for the replacements, 
the command had to wait on the Contracting Officer to approve the 
modification. According to the ACO, the Contracting Officer has been 
reluctant to give more authority to the ACO because of frequent 
turnover in ACOs.
    Question: In Kuwait, contract oversight and quality assurance 
personnel billets for support of this contract were vacant. Why did the 
Army not fill these positions?
    Answer: Command officials were unsure why the military quality 
assurance positions had not been filled and told us that the vacant 
civilian positions were advertised but the command had not been able to 
fill the positions with qualified candidates. An ACO told us that the 
quality assurance specialist position was filled for a short time in 
December 2006; however, the person was deemed unqualified and was 
assigned to another position. The Army solicited volunteers to fill 
critical positions with deployments up to 179 days and requested 
volunteers from the U.S. Army Reserve/U.S. Army Guard. Further, a ``20 
percent relocation incentive'' was requested and approved for two of 
the critical table of distribution and allowance positions: the 
industrial property management and quality assurance specialist 
positions. Selections for both of these positions are currently being 
processed by the Civilian Personnel Advisory Center. The Army also has 
attempted to fill the positions by offering off-post housing to 
Department of the Army civilians in exchange for a 1-year assignment, 
requested tax-exempt status for Department of the Army civilians 
serving in the Southwest Asia theatre of operation, and augmented 
military requirements with the mobilization of the U.S. Army Reserve 
Multi-Functional Support Command.
    Question: In May 2006, the Army awarded the contractor a major 
HMMWV refurbishment contract valued at $33 million, even though 
numerous incidents of poor performance had been documented. Why did the 
Army select a contractor that had performed poorly?
    Answer: According to the Army, the HMMWV refurbishment was awarded 
to the contractor in May 2006 as a contractually expedient response to 
the theatre's need for refurbished HMMWVs. The Army said that no 
concerns were raised regarding the contractor's capability to meet 
HMMWV refurbishment requirements, and the contract was initiated with 
confidence that the government was replacing a nonperforming contractor 
with a contractor with a good history of performance in theater. 
According to the Contracting Officer,- issues with-the contractor that 
replaced the nonperforming contractor have been experienced in the 
areas of supply, maintenance, operations, and accountability of 
government-furnished equipment/government-furnished property as well as 
in meeting monthly production for the HMMWV refurbishment. While it is 
true that this contractor was issued a Letter of Concern in March 2006 
on another effort, which cited concerns with its ability to ramp up to 
full personnel strength and its QC processes, the government said that 
it had every reason to believe that the contractor was fully engaged in 
correcting the deficiencies.
    Currently, the only performance measure used to assess the 
contractor's performance is the Contractor Performance Annual Report 
(CPAR) in which the Contracting Officer assesses different aspects of 
the contractor's performance based on what each command reports to her. 
The CPAR results for the base year showed nothing less than a 
``satisfactory'' rating in any element. The CPAR results for option 
year 1 (September 30, 2005, through September 29, 2006) were 
``pending'' and not yet a part of the official record. However, the CMO 
was surprised at the good rating that the Contracting Officer gave the 
contractor in the draft option year 1 CPAR because AFSBn-KU did not 
give an overall favorable report. The Contracting Officer was reviewing 
the contractor's extensive rebuttal to the battalion's assessment.
    For further information, see:
    Defense Logistics: The Army Needs to Implement an Effective 
Management and Oversight Plan for the Equipment Maintenance Contract in 
Kuwait. GAO-08-316R. Washington, D.C.: January 22, 2008.
                 federal employee versus contractor mix
    Question: Please define a proper balance between federal and 
contractor employees in performing DOD missions?
    Answer: There is no one definition of a proper balance between 
federal and contractor employees. Agencies must determine the nature of 
the activity and available resources to provide effective oversight. 
However, there are several factors that agencies should use in 
determining the proper balance between government and contractor 
employees. Factors to consider include, but to which agencies are not 
limited, are the following:
          <bullet> Government's policy that positions that are 
        inherently governmental--those activities that are intimately 
        related to the public interest--must be staffed by government 
        employees;
          <bullet> Extent to which the activity is critical to the 
        agency's core mission;
          <bullet> The current agency capacity relative to the long-
        term demand for the activity and the time sensitive nature of 
        the work;
          <bullet> Cost of government versus private sector employees 
        and the availability of funding;
          <bullet> Match between the activity's requirements and 
        available workforce skills and the competitiveness of the 
        agency as an employer for a service that is in high demand or 
        requires an exceptional capability not available in the agency;
          <bullet> Government's policy that new requirements for 
        commercial services should generally be performed by 
        contractors;
          <bullet> Extent to which the options under consideration 
        would require adjustments to the agency's budget, workforce and 
        staffing plans, and authorized levels of full-time equivalent 
        (FTE) government positions; and
          <bullet> Potential for organizational conflicts of interest 
        created by a contractor's role in the activity and the 
        associated risk to the integrity and control of sensitive 
        information.
    The number and capability of government employees to provide 
effective oversight of a contractor's performance are important. For 
example on the Department of Defense's (DOD) space acquisition 
programs, we identified concerns about whether the numbers and 
qualifications of DOD personnel are sufficient to provide oversight of 
and insight into contractor cost estimates.
    For further information, see:
    Defense Contracting: Army Case Study Delineates Concerns with Use 
of Contractors as Contract Specialists. GAO-08-360. Washington, D.C.: 
March 26, 2008.
    Defense Contracting: Additional Personal Conflict of Interest 
Safeguards Needed for Certain DOD Contractor Employees. GAO-08-169. 
Washington, D.C.: March 7, 2008.
    Competitive Sourcing: Greater Emphasis Needed on Increasing 
Efficiency and Improving Performance. GAO-04-367. Washington, D.C.: 
February 27, 2004.
    Forest Service: Better Planning, Guidance, and Data Are Needed to 
Improve Management of the Competitive Sourcing Program; GAO-08-195. 
Washington, D.C.: January 22, 2008.
    Government Contractors: Measuring Costs of Service Contractors 
versus Federal Employees. GAO/GGD-94-95. Washington, D.C.: March 10, 
1994.
    Question: Why has there been such growth in the percentage of the 
DOD budget for contracted personnel and a decline in the budget for 
federal personnel?
    Answer: DOD's civilian workforce and its spending on service 
contractors have both grown since fiscal year 2001, while the active 
duty military has begun to shrink again after growing from 2001 through 
2003. From fiscal years 2001 through 2008, the total DOD budget for 
civilian pay has increased from $54.1 billion to $60.3 billion and the 
civilian workforce provided for by the budget has increased from 
687,000 to 709,000. DOD active military personnel have decreased from 
1.5 million in fiscal year 2003 to 1.4 million in fiscal year 2008. 
While DOD does not report similar data on the number of contractors in 
its workforce as a whole, we have reported that DOD has become 
increasingly reliant on contractors to fulfill its mission and support 
its operations. For example, after September 11, 2001, increased 
security requirements created an increased demand for personnel to 
perform security-related tasks at DOD installations and facilities. 
Initially, these requirements were filled at military installations 
with active duty and reserve component personnel. DOD reported that 
contracting for security guard services was deemed necessary and 
practical to allow it to simultaneously support increased demands for 
military forces and to meet heightened security requirements. In Iraq, 
contractors provide deployed U.S. forces with an almost endless array 
of services and support, including communication services; interpreters 
who accompany military patrols; base operations support (e.g., food and 
housing); maintenance services for both weapon systems and tactical and 
nontactical vehicles; intelligence analysis; warehouse and supply 
operations; and security services to protect installations, convoys, 
and DOD personnel.
    Factors that have contributed to the increase in contractors 
supporting deployed forces include recent reductions in the size of the 
military, an increase in the number of operations and missions 
undertaken, the need to fill positions for contingency operations, a 
lack of organic military capabilities, and DOD's use of increasingly 
sophisticated weapons systems.
    For further information, see:
    Military Readiness: Impact of Current Operations and Actions Needed 
to Rebuild Readiness of U.S. Ground Forces. GAO-08-497T. Washington, 
D.C.: February 14, 2008.
    Defense Acquisitions: Improved Management and Oversight Needed to 
Better Control DOD's Acquisition of Services. GAO-07-832T. Washington, 
D.C.: May 10, 2007.
    Defense Budget: Trends in Operation and Maintenance Costs and 
Support Services Contracting. GAO-07-631. Washington, D.C.: May 18, 
2007.
    Military Operations: High-Level DOD Action Needed to Address Long-
standing Problems with Management and Oversight of Contractors 
Supporting Deployed Forces. GAO-07-145. Washington, D.C.: December 18, 
2006.
    Contract Security Guards: Army's Guard Program Requires Greater 
Oversight and Reassessment of Acquisition Approach. GAO-06-284. 
Washington, D.C.: April 3, 2006.
    Question: What steps should DOD take to better assure a balance 
between federal and contractor employees in meeting DOD missions?
    Answer: DOD needs to position itself to have the right skills in 
all disciplines, including the acquisition workforce, to ensure that 
the highest quality of goods and services are obtained at the best 
value for the government and the American taxpayer and to properly 
manage the acquisition of those goods and services. To do so, DOD needs 
to take several steps. One key step is to assess the skills and 
capabilities of its current acquisition workforce as well as the 
critical skills and competencies needed in the future workforce over 
the next several years.
    DOD's recent human capital plan includes a list of mission-critical 
occupations needed for the current civilian workforce, but this list 
does not constitute the required assessment of skills of the existing 
workforce. DOD has begun taking steps to build data in preparation for 
such an assessment for its acquisition workforce. However, DOD also 
needs to identify gaps in the skills and capabilities it needs to 
fulfill its mission. DOD must determine whether it will fill those gaps 
through repositioning and retraining current employees, hiring new 
federal employees, or using contractor employees. The decision to hire 
federal employees or hire contractor employees for any particular 
activity should consider the issues discussed above. When contractors 
are used to provide services, DOD needs to take a proactive approach to 
managing strategic- and transactional-level service acquisition 
elements. The strategic level requires the leadership, processes, and 
information necessary for mitigating risks, leveraging buying power, 
and managing outcomes across the enterprise. At this level, we 
identified four key factors for improving outcomes: Strong corporate 
leadership and vision, results-oriented goals and metrics, defined 
responsibilities and support structures, and improved knowledge of 
spending. The strategic level also sets the context for the 
transactional level, where individual service acquisitions are 
executed. Key factors for good outcomes at the transactional level 
include clearly defined requirements, sound business arrangements, and 
appropriate contract management and oversight processes. At both 
levels, risks exist that can impair an organization's ability to get 
desired service acquisition outcomes. A comprehensive management 
approach tailors the strategic and transactional factors to address 
these risks.
                 growth in contractor provided services
    Question: The Committee understands that the Department of Defense 
obligates more for service contracts than it does for supplies and 
equipment, including major weapons systems.
    <bullet> Is the transition to contractor provided services the 
result of a strategic decision or is it more of a piecemeal response to 
downsizing that occurred in the military?
    For further information, see:
    The Department of Defense's Civilian Human Capital Strategic Plan 
Does Not Meet Most Statutory Requirements. GAO-08-439R. Washington, 
D.C.: February 6, 2008.
    Defense Acquisitions: Tailored Approach Needed to Improve Service 
Acquisition Outcomes. GAO-07-20. Washington, D.C.: November 3, 2006.
    Answer: The growth in DOD service contracting is the result of 
practical considerations, policy decisions, and new requirements on 
DOD. In May 2007, we reported that DOD and military service officials 
cited several factors as having contributed to the increased use of 
contractors for support services. These factors included (1) increased 
operations and maintenance requirements for the global war on terrorism 
and other contingencies, which DOD has met without an increase in 
active duty and civilian personnel; (2) federal government policy, 
which is to rely on the private sector for needed commercial services 
that are not inherently governmental in nature; and (3) DOD 
initiatives, such as its competitive sourcing and utility privatization 
programs.
    To a large extent, the growth in DOD's use of service contracts has 
not been a managed outcome. In November 2006, we recommended that DOD 
adopt a proactive approach to managing acquisition of services that 
leverages strategic and transactional elements. This approach should 
include establishing a normative position of how and for what services 
acquisition dollars are currently and will be spent (including volume, 
type, and trends); ensuring that decisions on individual transactions 
are consistent with DOD's strategic goals and objectives; and providing 
a capability to determine whether the acquisition of services is 
meeting DOD's cost, schedule, and performance objectives.
    When DOD identifies new requirements for services that can only be 
met with additional personnel, it should first determine the nature the 
service that will need to be performed, that is, whether the service is 
inherently governmental or commercial. If the services are inherently 
governmental in nature, they should be performed by government 
employees. If the services are commercial in nature, generally, DOD 
should expect to obtain those services by contract. However, there will 
be circumstances where the service in question, though it may be 
available in the commercial marketplace, may warrant performance by DOD 
employees for strategic reasons, for example, its criticality to DOD's 
mission, the necessity for DOD to maintain it as an in-house core 
capability, or the role it plays in DOD's decision-making processes. 
When this is the case, DOD should engage in a deliberate strategic 
assessment of its current capabilities, its new requirements, and the 
pros and cons of its options before deciding between obtaining the 
service by contract or with government employees. DOD should determine 
whether it has the in-house workforce to perform the service, both in 
terms of skill set and the number of FTEs. If DOD determines the nature 
of the service warrants performance by government employees, but it 
does not have sufficient government personnel, part of DOD's strategic 
planning should include criteria for identifying those instances in 
which it would request authorization of additional FTEs. Such criteria 
should include a comparison of the cost and time to obtain the services 
by contract with the cost and time to hire and train new government 
employees. Information necessary to make such a comparison is not 
routinely sought by DOD officials, even though when we asked agencies 
were able to generate relevant estimates for the few case studies we 
have conducted. Our limited work in this area demonstrates that the 
government incurs a higher cost for contract employees.
    For example, in a case study we did at the Army Contracting 
Agency's Contracting Center of Excellence (CCE), we found that CCE has 
relied on contractor contract specialists since it began hiring them in 
2003. In August 2007, contractors--who work side by side and perform 
the same functions as their government counterparts--made up 42 percent 
of CCE's contract specialists. CCE is paying almost 27 percent more for 
its contractor-provided contract specialists than for similarly graded 
government employees. This comparison took into account government 
salary, benefits, and overhead and the loaded hourly labor rates paid 
to contractors. CCE officials cited difficulties hiring and retaining 
government personnel in light of the competition from government and 
the private sector for this competency. While CCE officials said that 
they prefer to use government employees, they have not considered the 
appropriate balance of contractor versus government contract 
specialists. The CCE example delineates a concern in today's 
environment: Hiring contractors for sensitive positions in reaction to 
a shortfall in the government workforce rather than as a planned 
strategy to help achieve an agency mission.
    Similarly, we reported in 2007 that at DOD's Missile Defense Agency 
(MDA) about 8,186 positions--not counting prime contractors--currently 
support the missile defense program. Only about 33 percent of the 
positions are set aside for government civilian personnel. Another 57 
percent are support contractors supplied by 44 different defense 
companies. The remaining 10 percent are positions either being filled, 
or expected to be filled, by employees of Federally Funded Research and 
Development Centers and university and affiliated research centers that 
are on contract or under other types of agreements to perform missile 
defense tasks. MDA officials explained that the utilization of support 
contractors is key to its operation of the Ballistic Missile Defense 
System because it allows the agency to obtain personnel with 
specialized expertise when needed, allowing them to develop weapon 
systems more quickly. Additionally, the officials told us that MDA's 
approach is consistent with federal government policy on the use of 
contractors. MDA officials estimate that while the average cost for 
each of the agency's government employees is about $140,000 per year, a 
contract employee costs about $175,000 per year.
    For further information, see:
    Defense Contracting: Army Case Study Delineates Concerns with Use 
of Contractors as Contract Specialists. GAO-08-360. Washington, D.C.: 
March 26, 2008.
    Defense Budget: Trends in Operation and Maintenance Costs and 
Support Services Contracting. GAO-07-631. Washington, D.C.: May 18, 
2007.
    Defense Acquisitions: Missile Defense Acquisition Strategy 
Generates Results but Delivers Less at a Higher Cost. GAO-07-387. 
Washington, D.C.: March 15, 2007.
    Defense Acquisitions: Tailored Approach Needed to Improve Service 
Acquisition Outcomes. GAO-07-20. Washington; D.C.: November 9, 2006.
    Question: How does DOD achieve oversight of contracting that is 
accomplished at field locations around the world?
    Answer: Several long-standing and systemic problems continue to 
hinder DOD's management and oversight of contractors at deployed 
locations, including the failure to follow planning guidance, have an 
adequate number of contract oversight personnel, systematically collect 
and distribute lessons learned, and provide predeployment training for 
military commanders and contract oversight personnel on the use and 
role of contractors. In order to perform adequate surveillance, 
regardless of where the work is located, oversight personnel must be 
properly trained in how to conduct surveillance, be assigned at or 
prior to contract award, be held accountable for their surveillance 
duties, and perform and document surveillance throughout the period of 
the contract.
    One of the reasons DOD contract management is on GAO's high-risk 
list is because DOD's oversight of its contractors is, at times, 
wanting. Our work has documented weaknesses in this area, including in 
field locations. We have identified instances where personnel who were 
responsible for overseeing the performance of contractors were not 
adequately trained to properly exercise their responsibilities and 
instances where no CORs were on-site to monitor contractor employees' 
work. In addition, as we discussed in our briefing, DOD has not 
allocated the organizational resources or assigned accountability to 
ensure that contractors effectively support deployed forces. There 
continues to be inadequate numbers of oversight personnel at the 
deployed locations and wide discrepancies in the rigor with which CORs 
perform their duties, particularly in unstable environments.
    These oversight challenges, along with others related to the 
management of contractor support, have led to negative impacts at 
deployed locations. For example in Iraq, to award contracts and begin 
reconstruction efforts quickly, DOD used undefinitized contractual 
actions; however, because DOD failed to definitize them within 180 
days, as required by the Federal Acquisition Regulation (FAR), DOD's 
risk of paying higher costs was greater. Undefinitized contractual 
actions, which are authorized acquisition procedures, allow contractors 
to begin work before key contract terms and conditions, such as the 
scope of the work and its price, are fully defined and negotiated. 
Ideally the government negotiates the terms of a contract based on a 
contractor's proposal; however, when the contractor performs work prior 
to the conclusion of price and scope negotiations related to that 
proposal, the government finds itself negotiating scope and price based 
on the actual work performed and the actual cost incurred by the 
contractor. The longer the undefinitized period last, the more work the 
contractor will complete prior to reaching a final agreement as to 
specific scope and price terms. The more work the contractor completes 
the less flexibility the contracting officer has to negotiate for lower 
prices or different contract terms using the contractor's proposal; 
rather, the basis for finalizing the negotiations becomes the actual 
costs incurred by the contractor for actual work performed. In a 
September 2006 report, we found that DOD contracting officials were 
less likely to negotiate those parts of a contractor's proposal that 
the Defense Contract Audit Agency (DCAA) had questioned, in those 
situations where the contractor then performed the work before the 
government finalized the negotiation. To the extent the contracting 
officer was able to use DCAA's assessments of the contractor's proposal 
in negotiations, before the contractor performed the work and incurred 
actual costs, the contracting officer had more flexibility and 
opportunity to control the contractor's costs and conditions of 
performance. For this reason, in the few instances in which the 
government negotiated the terms before starting work, the portion of 
DCAA questioned costs which the contracting officer was able to 
negotiate out of the proposal was substantial. For example, in three 
audits related to a logistics support contract, DCAA questioned $204 
million of the contractor's proposal cost. Since the government and the 
contractor negotiated the terms prior to the onset of the work, the 
contractor had not performed any work or incurred any actual costs at 
the time of negotiations. This afforded the contracting officer total 
flexibility to change through negotiations the terms of the 
contractor's proposal. DCAA calculated that $120 million of the $204 
million in questioned proposal costs were removed by the contracting 
officer through negotiations as a result of its findings.
    We have made a number of recommendations aimed at strengthening 
DOD's management and oversight of contractor support at deployed 
locations, and the department has agreed to implement many of those 
recommendations. However, we have found that DOD has made limited 
progress in implementing some key recommendations.
    For further information, see:
    Defense Management: DOD Needs to Reexamine Its Extensive Reliance 
on Contractors and Continue to Improve Management and Oversight. GAO-
08-572T. Washington, D.C.: March 11, 2008.
    Iraq Contract Costs: DOD Consideration of Defense Contract Audit 
Agency's Findings. GAO-06-1132. Washington, D.C.: September 25, 2006.
    Contract Management: DOD Vulnerabilities to Contracting Fraud, 
Waste, and Abuse. GAO-06-838R. Washington, D.C.: July 7, 2006.
    Contract Management: Opportunities to Improve Surveillance on 
Department of Defense Service Contracts. GAO-05-274. Washington, D.C.: 
March 17, 2005.
                           omb circular a-76
    Question: OMB Circular A-76 states: ``The longstanding policy of 
the federal government has been to rely on the private sector for 
needed commercial services.'' It seems that federal policy encourages 
contracting out of services, rather than encouraging finding the right 
balance between federal and contractor personnel. Do you agree?
    Answer: When the services being sought by the government are 
commercial in nature, it is true that federal policy, founded in law, 
has established a preference for obtaining such items and services by 
contracting with the private sector. The theory underlying this policy 
is that the forces of competition at play in the marketplace have 
already determined what the best price for a commercial service would 
be; therefore, the government should fulfill its requirements for 
commercial services, to the greatest extent practicable, on the same 
terms as the private sector. The idea is that by not using government 
employees to perform commercial services readily available in the 
private sector, government employees would be more available to perform 
an agency's core missions and carry out activities that are inherently 
governmental in nature or so closely related as to warrant performance 
by government employees: Office of Management and Budget (OMB) Circular 
A-76 contains provisions, implementing the Federal Activities Inventory 
Reform Act, that require each agency to annually prepare two 
inventories to categorize all activities performed by government 
personnel as either commercial or inherently governmental. The circular 
provides agencies an opportunity to justify why certain commercial 
activities performed by government personnel should be exempt from 
private sector performance if a written determination is prepared by 
the agency competitive sourcing official.
    At GAO's 2006 forum on federal acquisition challenges and 
opportunities, some participants noted that it might be more 
appropriate for agencies to develop guiding principles or values to 
determine which positions could be performed by contractors and which 
should be performed in-house. Forum participants further noted that 
many corporate organizations carefully deliberate up front and at the 
highest management levels about what core functions they need to 
retain, what noncore functions they should buy, and the skill sets 
needed to procure noncore functions.
    For further information, see:
    Highlights of a GAO Forum: Federal Acquisition Challenges and 
Opportunities in the 21st Century. GAO-07-45SP. Washington, D.C.: 
October 6, 2006.
    Competitive Sourcing: Implementation Will Be Challenging for 
Federal Agencies. GAO-03-1022T. Washington, D.C.: July 24, 2003.
    Questions for Competitive Sourcing Hearing Record. GAO-04-155R. 
Washington, D.C.: October 3, 2003.
    Competitive Sourcing: Greater Emphasis Needed on Increasing 
Efficiency and Improving Performance. GAO-04-367. Washington, D.C.: 
February 27, 2004.
    Question: How is the term commercial services defined? How should 
it be defined?
    Answer: Both Congress and the FAR have used the term commercial 
item, defining it to include both commercial products and many 
commercial services. Congress provided in law that services are 
commercial items if they are of a type offered and sold competitively 
in substantial quantities in the commercial marketplace based on 
established catalog or market prices for specific tasks performed under 
standard commercial terms and conditions. Congress required the FAR to 
include a list of laws that are inapplicable to contracts for the 
procurement of commercial items (both products and services), generally 
on the theory that when the government is buying commercial items it 
should be able to rely on competitive market forces to get the best 
value for the taxpayer. The Acquisition Advisory Panel \1\ in its final 
report found the following:
---------------------------------------------------------------------------
    \1\ The Acquisition Advisory Panel was authorized by Section 1423 
of the Services Acquisition Reform Act of 2003, which was enacted as 
part of the National Defense Authorization Act for Fiscal Year 2004.
---------------------------------------------------------------------------
    ``The current regulatory treatment of commercial items and services 
allows goods and services not sold in substantial quantities in the 
commercial marketplace to be classified nonetheless as ``commercial'' 
and acquired using the streamlined procedures of FAR Part 12. The panel 
recommended that the definition of standalone commercial services in 
the FAR should be amended to delete the phrase `of a type' in the 
definition. Only those services that are actually sold in substantial 
quantities in the commercial marketplace should be deemed `commercial.' 
The government should acquire all other services under traditional 
contracting methods.''
    In the National Defense Authorization Act for Fiscal Year 2008 
(Pub. L. No. 110-181, Section 805), Congress addressed the issue by 
stating that ``of a type'' services may be deemed to be commercial 
items but only if sufficient information has been submitted by the 
offeror to allow for a price reasonableness determination for the 
services.
    Circular A-76 does not contain a definition of commercial services. 
Rather, the circular uses the term commercial activity, which it 
defines as a ``recurring service that could be performed by the private 
sector . . . and is not so intimately related to the public interest as 
to mandate performance by government employees.'' This definition of 
commercial activity recognizes that there are some services, even 
commercial ones, that should be performed by government employees.
    For further information, see:
    Report of the Acquisition Advisory Panel to the Office of Federal 
Procurement Policy and the United States Congress. Washington, D.C.: 
January 2007.
    Question: Does DOD, in making decisions to contract for services, 
have sound decisionmaking processes to ensure that savings will result 
from using contractors to meet a mission requirement? If not, what 
should be done by Congress to get DOD to put such safeguards into 
place?
    Answer: Criteria that come into play when DOD is deciding whether 
to contract for services depend on the nature of the work. With regard 
to work that is inherently governmental in nature performance should be 
provided by government employees, and consideration of cost savings is 
not a determining factor. When considering work that is commercial in 
nature, and currently performed in-house to meet an existing 
requirement, a Circular A-76 competition is the process by which DOD 
determines whether to convert that work to performance by a contractor, 
and generally, the requirement to realize a particular cost savings is 
paramount. With regard to new requirements for services that are 
commercial in nature, DOD should generally obtain such services by 
contract awarded pursuant to the federal acquisition procedures. 
Because the requirement is a new one, not currently performed by 
government employees, there is no baseline by which to measure whether 
contracting for that requirement will realize a cost savings, per se. 
Rather, by contracting for commercial services using the federal 
acquisition process, ideally, DOD will take advantage of the 
competitive market forces to get the best value for the taxpayer. The 
likelihood of DOD realizing this benefit is increased when it uses an 
acquisition strategy that ensures robust competition, and when the 
commercial services it contracts for are in fact services commonly 
competed in the commercial marketplace.
    For further information, see:
    Stabilizing and Rebuilding Iraq: Actions Needed to Address 
Inadequate Accountability over U.S. Efforts and Investments. GAO-08-
568T. Washington, D.C.: March 11, 2008.
    Competitive Sourcing: Greater Emphasis Needed on Increasing 
Efficiency and Improving Performance. GAO-04-367. Washington, D.C.: 
February 27, 2004.
    Competitive Sourcing: Implementation Will Be Challenging for 
Federal Agencies. GAO-03-1022T. Washington, D.C.: July 24, 2003.
    Questions for Competitive Sourcing Hearing Record. GAO-04-155R. 
Washington, D.C.: October 3, 2003.
    Question: The line separating contractor from government employees 
can be blurry and not well-defined on work that closely supports 
inherently government functions. What risks does DOD face with its 
growing reliance on contractors, and what steps can Congress take to 
reduce contracting vulnerabilities especially in contingency 
situations, such as occurred in Iraq when large amounts of money flow 
quickly to address pressing needs?
    Answer: When contractors perform work that closely supports 
inherently governmental functions, there is a risk that government 
decisions may be inappropriately influenced by, rather than 
appropriately independent from, contractor judgments. It is a challenge 
for agencies to define the roles and responsibilities of contractors 
vis-a-vis government employees. Defusing the relationship between 
contractors and government employees is particularly important when 
contracting for professional and management support services since 
contractors often work closely with government employees to provide 
these services. This definition should begin during the acquisition 
planning process when contract requirements are determined. We have 
recommended that agencies define contract requirements to clearly 
describe roles, responsibilities, and limitations of selected 
contractor services. Well-defined contract requirements can also help 
minimize the risk of contractors performing inherently governmental 
functions. Yet contracts, especially service contracts, often do not 
have definitive or realistic requirements at the outset. Because the 
nature of contracted services can vary widely, from building 
maintenance to intelligence, a tailored approach should be used in 
defining requirements to help ensure that risks associated with a 
requirement are fully considered before entering into a contract 
arrangement. Equally important is the need to properly administer the 
contract and ensure that the distinction between the contractor 
employees and government personnel is maintained.
    Our work over the past 5 years has shown that well-defined 
requirements--matched with adequate resources, sound business 
arrangements, and the capacity to properly manage and oversee 
contractor performance--were often missing during specific Iraqi and 
Hurricane Katrina reconstruction efforts, in contracts to support 
deployed forces, and in our efforts to equip Iraqi security forces. The 
absence of these elements often contributed to unmet expectations, 
schedule delays, or higher-than-necessary costs, underscoring both the 
need to hold agencies and contractors accountable for outcomes and the 
challenges of doing so. Such issues are not unique to Iraq but reflect 
some of the long-standing and systemic issues confronting DOD. They 
are, however, magnified in a contingency situation such as Iraq or 
Hurricane Katrina. Furthermore, in our recent review of the Department 
of Homeland Security's service contracts, we found that some contracts 
included requirements that were broadly defined and lacked detail about 
activities that closely support inherently governmental functions. We 
found instances in which contractors provided services that were 
integral to the department's mission or comparable to work performed by 
government employees, such as a contractor directly supporting the 
department's efforts to hire federal employees, including signing offer 
letters.
    Conditions such as these need to be monitored to ensure that the 
government does not lose control over and accountability for mission-
related decisions and that it has the personnel and resources necessary 
to perform oversight. Congress can play an important role in reducing 
such risks by providing timely and persistent oversight and by asking 
if DOD's authorized FTE levels are sufficient and, if not, whether DOD 
has a strategic plan identifying how the additional resources will be 
utilized.
    For further information, see:
    Stabilizing and Rebuilding Iraq: Actions Needed to Address 
Inadequate Accountability over U.S. Efforts and Investments. GAO-08-
568T. Washington, D.C.: March 11, 2008.
    Defense Management: DOD Needs to Reexamine Its Extensive Reliance 
on Contractors and Continue to Improve Management and Oversight. GAO-
08-572T. Washington, D.C.: March 11, 2008.
    Department of Homeland Security: Improved Assessment and Oversight 
Needed to Manage Risk of Contracting for Selected Services. GAO-07-990. 
Washington, D.C.: September 17, 2007.

             Size of Federal Civilian Contracting Workforce

    Question: In your opinion, is the current DOD acquisition or 
contracting workforce adequate to the task in terms of number of 
employees and the skill level of those employees?
    Answer: If you look at the increase in spending on DOD contracts 
since 2001 and the size of the acquisition workforce, one could easily 
conclude that the size of the workforce has not kept up with spending. 
However, overall, DOD does not collect the type of data that would 
allow for a broader assessment of the adequacy of the workforce. For 
example, DOD is aware of specific gaps but does not know how many 
contractors are supporting the acquisition function. Without data on 
the size and skills of this contractor workforce, DOD cannot conduct a 
realistic assessment to determine the right size and shape for its 
entire acquisition workforce. Even without a comprehensive assessment 
of its contracting workforce, DOD can take actions in the interim to 
address urgent workforce issues, such as those identified by the 
Gansler Commission. For instance, in line with the commission's 
recommendations, the Army could take steps to increase the stature, 
quantity, and career development of the Army's military and civilian 
contracting personnel, especially for expeditionary operations. Several 
of our reviews of DOD's major space programs have cited shortages of 
government personnel as a key challenge that increases risk for the 
program, specifically in technical areas. In addition, during our 
review of DOD's space cost estimating function, Air Force space cost-
estimating organizations and program offices said that they believed 
their cost-estimating resources were inadequate to do a good job of 
accurately predicting costs. Because of the decline in in-house cost-
estimating resources, space program offices and Air Force cost-
estimating organizations are now more dependent on support contractors.
    For further information, see:
    Space Acquisitions: Major Space Programs Still at Risk for Cost and 
Schedule Increases. GAO-08-552T. Washington, D.C.: March 4, 2008.
    DOD Acquisitions: Contracting for Better Outcomes. GAO-06-800T. 
Washington, D.C.: September 7, 2006.
    Defense Acquisitions: Role of Lead Systems Integrator on Future 
Combat Systems Program Poses Oversight Challenges. GAO-07-380. 
Washington, D.C.: June 6, 2007.
    Defense Acquisitions: Missile Defense Acquisition Strategy 
Generates Results but Delivers Less at a Higher Cost. GAO-07-387. 
Washington, D.C.: March 15, 2007.
    Human Capital: Key Principles for Effective Strategic Workforce 
Planning. GAO-04-39. Washington, D.C.: December 11, 2003.
    Question: How does the DOD contracting workforce compare with the 
contracting workforce at large private sector companies, in terms of 
the number of workers and the skill level of those workers?
    Answer: We do not have comprehensive data on the number and skill 
level of DOD's contracting workforce or the contracting workforce at 
large private sector companies. More important, DOD does not have data 
on its contracting workforce. DOD is currently in the process of 
collecting data on its contracting workforce to identify skill needs 
and gaps. While we cannot compare the number and skill level of the DOD 
contracting workforce and large private sector companies, several 
important distinctions are clear. Successful commercial companies 
invest in maintaining a state-of-the-art acquisition workforce because 
they have come to realize its contribution to outcomes; in their case, 
it is the bottom line. Leaders from private sector organizations 
testified before the Acquisition Advisory Panel that their 
organizations employ highly sophisticated, highly credentialed, and 
highly trained business managers to carry out sourcing, procurement, 
and contract management functions. The panel noted that the government 
lacks comparable resources for these functions. To take advantage of 
the acquisition practices used by successful commercial organizations, 
the panel said that the government needs to close the gaps between 
these workforces by recruiting, training, and retaining sufficient 
numbers of procurement professionals with appropriate capability. We 
have ongoing work on the practices leading commercial organizations use 
to manage their acquisition workforces that may provide further insight 
on this question at a later date.
    For further information, see:
    The Department of Defense's Civilian Human Capital Strategic Plan 
Does Not Meet Most Statutory Requirements. GAO-08-439R. Washington, 
D.C.: February 6, 2008.
    Question: Please comment on the so called ``age imbalance'' in the 
DOD contracting workforce.
    Answer: As mentioned by the Acquisition Advisory Panel, there 
appears to be a governmentwide shortage of contracting personnel with 5 
to 15 years of experience. Data for DOD's acquisition workforce show a 
similar picture. However, DOD's current acquisition workforce tends to 
stay in their positions longer than the DOD workforce as a whole. 
Therefore, DOD may have a grace period within which it can hire and 
train the replacement workforce that it will need for that inevitable 
point in the not too distant future when its aging acquisition 
workforce will retire. It may have an opportunity to mitigate some of 
the risks posed by the age imbalance by continuing to retain key 
personnel in its existing workforce.
    Question: How can DOD manage its contracting workforce to achieve a 
better distribution by age?
    Answer: DOD must take some fundamental steps with regard to its 
human capital efforts before it can effectively address this and other 
workforce issues. For instance, in February 2008, we reported that 
DOD's civilian human capital strategic plan does not include an 
assessment of current mission-critical competencies, future critical 
skills and competencies needed, gaps between the current and future 
needs, or specific recruiting and retention goals. Once an agency 
identifies the critical skills and competencies that its future 
workforce must possess, it can develop strategies tailored to 
addressing gaps in the number, skills and competencies, and deployment 
of the workforce and the alignment of human capital approaches that 
enable and sustain the contributions of all critical skills and 
competencies needed for the future. Strategies include the programs, 
policies, and practices that will enable an agency to recruit, develop, 
and retain the critical staff needed to achieve program goals. In 
short, developing such strategies creates a road map for an agency to 
use to move from the current to the future workforce needed to achieve 
its goals. During this process, it is also important for agencies to 
consider the full range of flexibilities available, such as recruitment 
and retention bonuses and allowances, special hiring authorities to 
recruit employees with critical skills, and the ability to hire retired 
annuitants to fill critical vacancies in the acquisition field. The 
Defense Acquisition University's 2007 report on defense acquisition 
structures and capabilities also recommended the establishment of 
student or intern programs to help mitigate the impending departure of 
individuals in the acquisition workforce.
    For further information, see:
    The Department of Defense's Civilian Human Capital Strategic Plan 
Does Not Meet Most Statutory Requirements. GAO-08-439R. Washington, 
D.C.: February 6, 2008.
               planning for the use of contractor support
    Question: How does DOD capture lessons learned in providing 
battlefield contractor support, and how are lessons learned provided to 
new commanders as they prepare for deployment?
    Answer: As we have noted in several reports, DOD lacks a process 
for capturing and sharing lessons learned regarding contractors on the 
battlefield. For example, in 2006 we reported that there was no 
organization within DOD or its components responsible for developing 
procedures to capture lessons learned on the use of contractor support 
at deployed locations, and lessons learned were not routinely gathered 
and shared. In addition, in October 2007 the Gansler Commission 
recommended that the Secretary of the Army capture expeditionary 
contracting lessons learned, incorporate them into systemic forums, and 
provide feedback to the force for continuous improvement. The report 
continued that these lessons learned should be considered in the 
development of curricula and be institutionalized in the Center for 
Army Lessons Learned.
    For further information, see:
    Military Operations: High-Level DOD Action Needed to Address Long-
standing Problems with Management and Oversight of Contractors 
Supporting Deployed Forces. GAO-07-145. Washington, D.C.: December 18, 
2006.
    Military Operations: DOD's Extensive Use of Logistics Support 
Contracts Requires Strengthened Oversight. GAO-04-854. Washington, 
D.C.: July 19, 2004.
    Question: How does DOD represent contract security and support 
personnel in the training scenarios during predeployment exercises at 
locations such as the National Training Center?
    Answer: Generally, DOD does not include contractors in its 
predeployment training. In 2006 we reported that some DOD officials we 
spoke with believed that their predeployment preparations, such as 
mission rehearsal exercises, should incorporate the role that 
contractors have in supporting U.S. forces in a deployed location. 
However, we found that most units we met with did not incorporate the 
role of contractor support into their mission rehearsal exercises. 
Moreover, we found no existing DOD requirement that mission rehearsal 
exercises should include such information, even for key contracts such 
as LOGCAP. Several officials told us that including contractors in 
these exercises could enable military commanders to better plan and 
prepare for the use of contractor support prior to deploying. In 
addition, in both 2005 and 2006 we reported that U.S. military units 
are not trained, prior to deployment, on the operating procedures of 
private security providers in Iraq.
    For further information, see:
    Military Operations: High-Level DOD Action Needed to Address Long-
standing Problems with Management and Oversight of Contractors 
Supporting Deployed Forces. GAO-07-145. Washington, D.C.: December 18, 
2006.
    Rebuilding Iraq: Actions Needed to Improve Use of Private Security 
Providers. GAO-05-737. Washington, D.C.: July 28, 2005.
    Rebuilding Iraq: Actions Still Needed to Improve Use of Private 
Security Providers. GAO-06-0865T. Washington, D.C.: June 13, 2006.
    Question: What certifications do private contractors have to 
fulfill in order to work on contracts?
    Answer: DOD requires that its private security companies be 
licensed and registered with the Government of Iraq and that companies 
train their employees on the rules of the use of force and the law of 
armed conflict;. In addition, all contractor employees required to 
carry a weapon must have a weapons card and have approval of U.S. 
Central Command to carry a weapon. Furthermore, individual contracts 
may require particular skills and levels of training and require that 
the contractor document that the training has been successfully 
completed. Contracts may also require that the documentation be made 
available to the government for review:
    Question: How do you ensure that new commanders take advantage of 
the information that is available regarding oversight of contractor-
provided support?
    Answer: In 2003 and again in 2006 we recommended that DOD develop 
training for commanders and other senior leaders who are deploying to 
locations with contractor support. Such training could provide 
information on the roles and responsibilities of DCMA and the COR and 
the role of the commander in the contracting process and the limits of 
the commanders' authority. In addition, contractors should be included 
in predeployment training exercises. By including contractors in the 
exercises, their critical role is made clear early on and commanders 
are in a better position to understand their contract management roles 
and responsibilities prior to deploying to Iraq. Finally, DOD needs to 
develop a comprehensive program to capture lessons learned and input 
those lessons into predeployment training.

          Database To Track the Number of Deployed Contractors

    Question: Can the SPOT database track the number of deployed 
contractors and subcontractors? Do we track the nationality of contract 
personnel? Can we track the compensation level of contractors and 
subcontractors?
    Answer: The SPOT database was developed by the Army and designated 
by DOD as the mechanism to provide by-name accountability for 
contractor staff who deploy in support of DOD. The 80,000 employees 
represent only a portion of DOD's contractor personnel working in Iraq. 
In addition, contractor employees who do not have access to U.S. 
installations are not included in the database, and contractor 
personnel working on small, short-term contracts (under $25,000 or less 
than 30 days) are not included in the database. Information on the 
nationality of contractor employees is included in the database, but 
information related to individual compensation is not.

    [Clerk's note.--End of questions submitted by Mr. Murtha.]
                                         Tuesday, January 29, 2008.

                   DEPARTMENT OF DEFENSE OUTSOURCING

                               WITNESSES

LIEUTENANT GENERAL CLAUDE M. KICKLIGHTER, (RET.), INSPECTOR GENERAL, 
    DEPARTMENT OF DEFENSE
MARY UGONE, DEPUTY INSPECTOR GENERAL FOR AUDITING AND CONTRACTING, 
    DEPARTMENT OF DEFENSE
CHARLES BEARDALL, ACTING DEPUTY INSPECTOR GENERAL FOR INVESTIGATIONS, 
    DEPARTMENT OF DEFENSE

                              Introduction

    Mr. Murtha. Mr. Young is tied up this morning, but our 
faithful member, who is always here, Mr. Frelinghuysen, is.
    Mr. Boyd, welcome to the early morning session here.
    And, General Kicklighter, welcome to the Committee. And we 
appreciate the work that you have done. We talked a little bit 
before the Committee started about Jack Marsh, and what a 
tremendous Secretary he was. He knew more about what went on in 
the Pentagon than anybody else. But we welcome you and look 
forward to your testimony.
    And, Mr. Frelinghuysen, do you have any comments?

                      Motion for Executive Session

    Mr. Frelinghuysen. No comments. Would you like me to make a 
motion, Mr. Chairman? Is that appropriate?
    Mr. Murtha. Please.
    Mr. Frelinghuysen. I move that those portions of the 
hearing today which involve classified material be held in 
executive session because of the classification of the material 
to be discussed.
    Mr. Murtha. Is there any objection?
    So ordered.
    Well, if you will go forward with your--this is a closed 
hearing, and classification would be--well, whatever; it is a 
closed hearing. And if you would summarize your testimony, we 
will put your full statement in the record, and then we will 
get the questions.

                Summary Statement of General Kicklighter

    General Kicklighter. Okay, sir.
    Thank you, Mr. Chairman, distinguished members of the 
Appropriations Subcommittee on Defense. We appreciate the 
opportunity to come and appear before you and talk to you this 
morning.
    Also, I would like to introduce Ms. Mary Ugone, who is the 
Deputy Inspector General for Auditing for Defense. And also on 
my right is Mr. Chuck Beardall, who is the Acting Deputy 
Inspector General for Investigations, and has oversight for all 
the criminal investigations in the Department of Defense.
    Our intention this morning is to focus primarily on 
munitions accountability and control, and to discuss 
contracting in the macro sense, but whatever degree you would 
like to. And our efforts regarding munitions control and 
accountability and contracting was triggered in December, 2005, 
when we received a hotline complaint and allegations of a 
senior Army officer receiving illegal gratuities from a DoD 
contractor. That has evolved into an extensive and ongoing 
criminal investigation that has involved millions of dollars in 
bribes and unfortunately, large numbers of U.S. military and 
DoD civilian personnel.

                     Lack of Control Over Munitions

    In December, 2006 and January, 2007, we began to get 
allegations from the Turkish National Police and from the 
Turkish Minister of Defense that weapons and explosives that we 
were shipping in to the Iraqi Security Forces were finding 
their way into the hands of insurgents, terrorists, and 
criminals in Turkey. We also began to find that some weapons 
that had been supplied to the Iraqi Security Forces were 
finding their way into the hands of insurgents, insurgent 
groups, and U.S. contractors in Iraq. Once we started 
connecting these dots, putting these facts together, we also 
found out that one of the contractors that was implicated in 
bribes and corruption in Kuwait was also in charge of running 
storage warehouses for weapons for the police in Iraq.
    We then briefed the Secretary of Defense and the Chairman 
of the Joint Chiefs of Staff and the senior Defense staff; and 
the Secretary asked at those briefings, could we put a team 
together and get into Iraq and take a look and find out exactly 
what the ground truth was. The Secretary also asked, and the 
Chairman, that we keep them fully informed and make sure that 
we keep the Congress and particularly the committees that work 
with Defense, informed about what we were doing.
    I briefed the Chairman----
    Mr. Murtha. You did that, yes.
    General Kicklighter [continuing]. And Congressman Young. 
And your guidance to us was, get a team on the ground post-
haste, and make sure that if we have got a crack in the barn 
door we nail that barn door shut.

                   Munition Accountability Assessment

    As a result of those discussions, we assembled an 
assessment team on munitions accountability and control, and we 
picked a lot of people with skill sets from our office--Central 
Command, the Army Criminal Investigation Command, the Army 
Corps of Engineers, the Air National Guard, the Department of 
State; the Department of Justice had members on our team, and 
we had somebody out of Bureau of Alcohol, Tobacco, Firearms and 
Explosives.
    The mission of our team was to determine whether DoD 
currently had adequate accountability and controls of the 
weapons and whether DoD had adequate control of weapons and 
ammunition that they were controlling as they arrived in 
country and retained that control until they passed them over 
to the Iraqi Security Forces.
    We were also--with the Iraqis' permission, we were going to 
take a look at how well the Iraqis could control and account 
for the weapons that they were receiving from us.
    The assessment team spent several weeks. We first went into 
Kuwait to take a look at how well they were controlling 
munitions from the time they arrived into port until they 
assembled the convoys and moved the convoys forward into Iraq. 
Then we decided that we needed to go into Afghanistan to take a 
look at how well they are controlling and accounting for 
weapons in Afghanistan. And after a week's assessment there, we 
proceeded into Iraq, where we spent 4 weeks.
    Primarily, we looked at the arrival of weapons and 
ammunition. We looked at the transportation, delivery means, 
the storage, and the distribution from the port of entry until 
the arms and ammunition reached the hands of both the military 
and the police units. We went through many nodes, and we went 
to the end of the pipeline.
    Our preliminary finding was that DoD and the Iraqi Security 
Forces today have a system in place for controlling and 
accounting for weapons and ammunition being supplied to the 
Iraqi Security Forces. However, there still remains much work 
to be done; and many weapons that were lost in the early stages 
were lost to battle losses, police stations that got overrun, 
desertions, disintegration of units that had been poorly 
trained and committed to combat, and police officers and 
military personnel that were selling weapons into the black 
market. And we were also looking into possible pilferage coming 
out of warehouses.
    But the system they have in place today--and we will have a 
chance to talk more about that, I am sure, in your questions, 
but it is much improved during 2006 and 2007. As we left the 
country, we briefed the leadership there of what our findings 
were, and our observations and recommendations. The commanders, 
both Petraeus and General Dubik, who is in charge of the 
training command, agreed with all the findings and began 
immediate work, even while we were in country; as we began to 
uncover things that needed tightening up, they began to take 
action.
    And so I am happy to report that a great deal of progress 
has been made. We received a written report from Central 
Command about the progress that continues.
    That part of the team, that was phase one of the trip; and 
now we are finalizing that report, and in the next week or so 
we will send our final draft back to the DoD organizations 
involved. They will get a chance to review it, and then we will 
publish the report either in late February or early March.

                  Accountability Assessment Phase Two

    The assessment team plans a phase two, and we plan to go 
back to Iraq, and Afghanistan as well, in March and April, and 
to take a look at what progress has been made, but also expand 
the net a little bit and look at something that we looked at on 
this trip. We looked at foreign military sales. And they are 
moving--in both Afghanistan and Iraq, they are moving to 
foreign military sales procedures for procuring and bringing 
weapons into country; and they are also struggling to develop 
the Iraqi logistics support base. Both of these actions are 
important to control accountability of weapons. And we will be 
looking at that.
    We will also be looking at contract operations based on the 
plan the Army has put in place, recommendations that we 
provided to the Army. We will see how well contracting is 
maturing as we go back on this second look.
    The Defense Criminal Investigation Service (DCIS), the law 
enforcement arm of DoD, has been engaged in investigating DoD-
related crimes pertaining to the Southwest Asia theater since 
the start of the war; and it greatly intensified, as I 
mentioned, when we started getting these calls in 2005. DCIS 
has 105 ongoing investigations related to the war effort. Most 
of these investigations were being conducted as part of a joint 
effort with other law enforcement organizations.
    We are an active participant in the National Procurement 
Fraud Task Force and the International Contract Corruption Task 
Force. The International Corruption Task Force was formed in 
2006 specifically to target fraud and corruption in Southwest 
Asia and other global war on terrorist activities around the 
world, to pursue investigations leading to--we are 
investigating the loss of weapons that occurred in Iraq, and we 
are leading and we have a cell that we left in country that 
will continue to pursue all avenues to try to connect all the 
dots and find out how those weapons got out. And many 
investigations are ongoing in that regard.

                              Convictions

    As a result of closed and ongoing investigations, over 40 
cases involving fraud and corruption have been referred for 
judicial action. To date, 25 individuals have been convicted of 
felonies, resulting in a total of 31 years of confinement, 32 
years of probation. Thirty-seven individuals and companies have 
been suspended or debarred from government contracting; in all, 
about $14 million has been recovered for the United States, and 
many more prosecutions and recoveries are under way and are 
pending.

                   Review of Contingency Contracting

    We are continually reviewing the contingency contracting in 
Southwest Asia, particularly with regard to adequate 
documentation and internal control procedures. Our ongoing work 
has generated efforts to improve collaboration between the 
support organizations outside of Southwest Asia and the forward 
deployed forces to help standardize procedures and improve the 
support in the war environment.
    The Government Accountability Office continues to designate 
DoD contracting management as a high-risk area, and has done so 
since 1992. And I think Mr. Walker discussed that with you in 
his appearance here last week. Since 2000, our office has 
issued over 265 reports that have identified problems and made 
recommendations for improvements in the Department's 
contracting and contract-related processes.
    The Department continues to experience the management 
challenge to ensure that we have the right high-quality 
materials and services at the right place at the right time and 
in the right numbers to support the warfighter, at the same 
time, trying to make sure that we are doing everything we can 
to be good stewards in Defense and be cost-effective.
    The DoD acquisition workforce has not kept pace with the 
rapidly expanding demands for increased contract support, and I 
think you heard that from Lieutenant General Thompson, who was 
here last week. There are not enough contracting officers, 
administrative support, and contracting officer 
representatives, and there has been a lack of senior leadership 
on the ground to oversee the current contracting operations, 
and the contract staff is not properly trained.
    Thanks to this Committee and your support, we are now 
dedicating more resources from the DoD Inspector General's 
Office to provide more oversight on munitions control 
accountability and acquisition and to expand our footprint on 
the ground in Southwest Asia. And we will continue to evaluate 
the lessons that we have already learned and do our best to 
help Defense not repeat the mistakes that we made in the past.
    Mr. Chairman, thank you again for the chance to be here, 
and we will take your questions.
    [The statement of General Kicklighter follows:]

    [GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]
        
                         Command Responsibility

    Mr. Murtha. Tell the committee about the command 
responsibility. For instance, we cannot expect the commander 
who is fighting a war to be responsible for things like this, 
and yet ultimately he is responsible.
    Now, tell me the chain of command, how these things happen 
when they do happen, and how the commander reacts to it in the 
process, as you have seen it. For instance, when those weapons 
disappeared on the dock, as I understand it--first, I am 
talking about what, 2003-2004, something like that?
    General Kicklighter. Right.
    Mr. Murtha. How did you find out about it? I know you 
talked about the Turkish response, the hotline, but what was 
the commander's response? I am trying to get a feel here for 
how far we hold commanders responsible for what goes on in a 
situation like that.
    General Kicklighter. The commander that has been tasked 
with the responsibility for training and equipping the Iraqi 
Security Forces, both the military and the police--initially, 
State had responsibility for the police, but some time later it 
was transferred to Defense.
    Defense now has that responsibility. The responsible 
commander on the ground that watches that on a daily basis and 
continually ensures that we are doing the right things is the 
training commander for the Iraqi Security Forces, which is 
Lieutenant General Dubik. He has been on the ground for about 6 
months now, I think. In my opinion, he is very focused on this 
problem. He is taking a lot of action.
    He also has a couple of general officers. One is focused on 
training the military, and one is focused on training the 
police. They are doing their best to make sure not only are we 
doing all we can to control the weapons coming in and 
ammunition, but training the Iraqi forces, both the military 
and the police, to do the same thing.
    Mr. Murtha. Well, what I am trying to figure out, in Abu 
Ghraib they ignored the comments they were getting from under--
people were saying there was a problem and they ignored it.
    General Kicklighter. Right.
    Mr. Murtha. Are you saying here, as soon as they found out 
that the weapons were missing, the commanders immediately and 
decisively looked into it?
    General Kicklighter. Yes, sir. I am saying when this thing 
started unfolding, as soon as the picture began to clarify 
itself, we notified the senior leadership here, we notified the 
senior leadership at CENTCOM, who notified the senior 
leadership on the ground that there was a problem. We notified 
our committees. And then we put a team together to see what the 
size and gravity of the problem was.
    Mr. Murtha. So the commander does not have to worry about 
knowing about it initially, but once he finds out about it, he 
has to implement a plan to get it under control?
    General Kicklighter. Yes, sir. But he should know about it 
initially. He should----
    Mr. Murtha. When I say ``initially,'' I mean the reports do 
not necessarily go right to him.
    General Kicklighter. No, sir, they do not. In fact, this 
came through the hotline and other ways that we began to hear 
that weapons were not being controlled as well as they should 
have been.

                             Monetary Loss

    Mr. Murtha. What was the actual loss in money? I know some 
lives were lost because the weapons got in to whoever it was, 
al Qaeda's or somebody's hands. But what was the actual loss of 
money we are talking about here?
    General Kicklighter. Mr. Chairman, I will have to get back 
to you. We do have those numbers, but I do not have them at my 
fingertips, what the numbers of--and I am not sure we know 
exactly how many weapons were lost.
    We know how many weapons were not properly accounted for, 
but we do not know--but we are attempting to find out how many 
weapons were lost, and we are also trying to put back together 
the circumstances that happened to let this occur and hold 
people responsible, even though it happened some time ago. We 
are trying to put that back together.

                      Resources for Investigations

    Mr. Murtha. But what we are trying to figure out, we put 
$48 million extra in for this type of thing last year. What we 
are trying to figure out is if you need more money.
    Now, we also said--at Mr. Moran's suggestion, we put GSA 
people into the position of contract officers, because of 
course they are trained. Well, we went to the Senate and they 
said, Let's encourage them. So we did not get very far with 
that.
    But if you need money or resources, we need to know about 
it. That is what I am trying to get to.
    General Kicklighter. Yes, sir.
    Let me say that the funding that you did provide to us has 
greatly enhanced our ability for 2008 and beyond. We are going 
to add more auditors that will focus on audits of contracting. 
We have added more criminal investigators. We have added the 
support staff for that. We have added investigators, and we 
have upped our commitment to Southwest Asia, both in Iraq and 
Afghanistan, as a result of your support of the Department of 
Defense Inspector General's Office.
     Mr. Murtha. Well, I appreciate that. This was Bill Young's 
suggestion, so we appreciate that that is what happened.
    Mr. Young.
    Mr. Young. Mr. Chairman, thank you very much.
    General, it is good to see you again.
    General Kicklighter. Thank you, sir.

                           Corrective Actions

    Mr. Young. I know that last year you gave--Mr. Murtha and 
you and I sat down together and we went over some very 
interesting details about very similar issues that we are 
talking about today. And I know you probably still cannot get 
into that any further here today, but I am interested in your 
comment that you had notified the senior leadership at CENTCOM 
and other command structures, and you said that you had issued, 
I think, 265 reports.
    Did anything ever come of any of that? Were there any 
changes? Were there any improvements, anything that you noticed 
that was done differently because of all of the work that you 
had done?
    General Kicklighter. Let me, Congressman--let me answer 
that in two ways; and I will ask Ms. Ugone to join me at the 
tail end of this.
    I can tell you that the effort, as soon as we uncovered 
this problem of weapons and accountability and ammunition and 
explosives, there was tremendous activity taking place in the 
Department of Defense and great support from Congress. CENTCOM 
was very alarmed and concerned about this; and so was the 
senior leadership on the ground in Iraq, and as we began to go 
through this assessment, they had a person on the team with us, 
and we were frequently debriefing General Dubik and General 
Petraeus on the ground. And as they discovered things that they 
thought needed action to be taken, they moved out on it.
    Since we have returned, we have gotten a report from 
General Dempsey, who is a deputy commander at CENTCOM, a list 
of the actions that they have taken. There have been a great 
deal of actions in regards to this assessment. And as I said 
earlier, we are going to put the same team back on the ground 
in a few weeks to assess how well this progress has continued 
and look at a couple other areas in more depth. Foreign 
military sales and the sustainment base are two of those areas.
    Mary, do you want to talk about the results we have had 
from the audits we have conducted over time?

                             Audit Reports

    Ms. Ugone. Certainly.
    The 265 that you referred to are contract management audit 
reports we have issued since fiscal year 2000 or calendar year 
2000. And those are systemic issues that have existed since 
1992, when GAO highlighted those, and those systemic issues 
continue even in a wartime environment.
    What happens in a wartime environment, as you know, is, 
there is pressure, time pressure for results, so there is an 
increased vulnerability for those systemic issues to become 
magnified.
    Issues that we have identified to date in our summary of 
Southwest Asia audit reports, which is a combination of work 
done by GAO, SIGIR, Army Audit Agency, Air Force Audit Agency 
and our organization, highlight that those weaknesses are the 
same weaknesses or similar to the weaknesses we have identified 
since fiscal year 2000. So it has not changed. Those systemic 
weaknesses continue in requirements definition, in sourcing, in 
having proper delivery, in having appropriate funds management. 
Those continue even in Southwest Asia.
    General Kicklighter. Congressman, let me add one other 
comment.
    Ms. Ugone has a team going back and looking at all the 
reports that we have issued on Southwest Asia, not just in DoD. 
But she is looking at the Army Audit Agency, she is looking at 
SIGIR, any reports that have been done and what their 
recommendations are. And we are doing an analysis to see what 
trends there may be, and also what has been accomplished and 
what still needs to be accomplished. I think that is going to 
be very telling. And that is under way.
    Mr. Young. When you have issued these reports, do you issue 
recommendations also on how they should be dealt with, what the 
situation should be?
    General Kicklighter. Yes, sir, we do. We make 
recommendations.

                          Key Recommendations

    Mr. Young. Could you just--of the 265 just pick out one 
important recommendation that you made and what happened to 
that recommendation? Give us an example of how the powers-that-
be responded to your effort.
    General Kicklighter. I will let Ms. Ugone think for a 
minute, and I will tell you about recommendations that we have 
recently made on the trip to Iraq.
    One of the recommendations was that we conduct a joint 
inventory between the U.S. Training Command and the Iraqi 
Security Forces, both the military and the police, that they do 
100 percent inventory so that we have a baseline and know 
exactly how many weapons are in the inventory by serial number. 
That effort is under way. I would say that they made great 
progress.
    They estimate that more than 50 percent of all the police 
weapons are now under control by serial number, and about 85 
percent of all the weapons in the Army are now controlled by 
serial number. That is something we will look at again when we 
go back. But that is one example. And they were already doing a 
lot of work in that arena.

                   Industry Accountability Techniques

    Mr. Young. Just one more question. I asked this of the 
general in charge of Army contracting when he was here last 
week, and the Army Criminal Investigation Command.
    Why is it that we cannot learn from private industry? Why 
is it that we cannot take a look at how FedEx and UPS keep 
track of the smallest or the largest packages and can tell you 
where they are almost any hour of the day? Why cannot we have a 
system similar to what they do very, very successfully every 
day?
    General Kicklighter. Sir, let me attempt to answer that. 
And I will ask you, Mary, if you want to add to it.
    The answer is, we can learn. The question is, have we 
learned? And the answer is, probably we have not learned near 
as much as we should have. And that is something we should look 
very hard at to see if we cannot find what they are doing that 
would improve what we are doing.
    Mr. Young. Thank you.
    Thank you, Mr. Chairman.
    Ms. Ugone. If I could just add, I think it is more than 
just contracting. The information from contracting needs to be 
integrated with our financial management systems as well as our 
logistics systems. It is not a stand-alone process. You know, 
the private sector, commercial sector, they have integrated 
systems.
    If you take a look at the challenges in the Department of 
Defense, financial management is a high-risk area as well, and 
our ability to get financial systems ready to go and have 
accurate and reliable data. It is all integrated.
    In order to accomplish what we have to do, contracting is 
just a tool to get to where we need to, the goods and services; 
and much of those goods and services relates to logistics, 
logistics support of our warfighters, as well as the ability to 
equip and train the Afghan and Iraqi Security Forces.
    So financial management processes provide that highlight, 
provide that visibility, provide that asset visibility. We are 
not there yet with the financial management processes either. 
It is a complicated environment.
    Mr. Bishop. Would the gentleman yield on that point?
    When the subcommittee was in Kuwait, we had an opportunity 
to meet with some of the troops there on Thanksgiving Day. One 
of the members of my unit, who was National Guard, the 1230th 
Transportation Unit, in civilian life actually works for UPS; 
and I asked him about his convoys and how they delivered 
various supplies and equipment. And he said it was highly, 
highly inefficient; and he said that UPS would fire anybody 
that did it the way that the Army was doing it. And I thought 
that was a very interesting comment that dovetails on what the 
gentleman just made.
    Mr. Young. Thank you, sir.
    Thank you, Mr. Chairman.
    Mr. Murtha. Thank you.
    I mean, we keep making mistakes. What do we have to do? I 
mean, we are here offering you help. I mean, that is what we do 
in this Committee. We took on the health care system in the 
military, and I think we have done some good.
    Now you need to tell us what you think needs to be done, 
and maybe not right now, but you need to sit down with the 
staff and lay out some guidelines of what you think needs to 
happen.
    I am surprised, frankly, that it is no different than it 
was. I mean, you know, you make the suggestion, nothing 
happens, it sounds like you are saying. Because the money is 
not there, because--I do not know. I frankly do not understand 
what the problem is.
    Can you explain what the problem is, why it is the same as 
it was no matter what, and why UPS does a better job than the 
Army?
    General Kicklighter. Mr. Chairman, my opinion is that 
things are getting better, but they are not getting better as 
rapidly as they should. And there is a lot more that we can be 
doing.
    Mr. Murtha. But is it resources? What is it that is causing 
this problem?
    General Kicklighter. I do not believe it is resources. 
Management.
    Mr. Murtha. Well, you need to give us some guidelines so 
that staff who are experts in this field can see if there is 
something we can do in order to change the mind-set.
    Do any of you have a suggestion here?
    Ms. Ugone. If I could just--I mean, there has been progress 
in areas like interagency orders. That is something we have 
worked with the Hill on, Congress on, regarding parking of 
funds in other agencies; and there has been corrective action 
in that arena. That has been billions of dollars where DoD has 
used other vehicles inappropriately.
    But where--you know, one of the things, if you go back into 
the history of the procurement dollars, in fiscal year 2000 you 
have half of what we spent in 2007. $600 billion in 2007; in 
fiscal year 2000, it was half of that amount. So part of it is 
the dollars are going up, and your workforce is either 
flattening or declining. So it is exacerbated by that 
situation.

                         Acquisition Workforce

    Mr. Murtha. The workforce where?
    Ms. Ugone. The acquisition workforce is pretty much steady 
or maybe declining somewhat. If you take a look at some of the 
DoD charts on that, you will see that the actual dollar amounts 
are increasing, but the flattening of the oversight arena.
    So I think that is part of it, as well, but some of it is 
systemic weaknesses that have continued since 1992. It has not 
gone off of the GAO high-risk area. And there is a reason for 
that, because these systemic issues continue.
    Mr. Murtha. Okay.
    Well, we are going to take this on and we are going to try 
to see if we cannot work it out so it is more efficient.
    Mr. Moran.

                       Accountability Information

    Mr. Moran. Thank you, Mr. Chairman. You are going to find 
the entire subcommittee singing off the same song sheet on 
this. But your testimony is important because you have got a 
lot of experience, you have got good immediate staff; and I 
think you look at the situation in a systemic matter, and that 
is what we are looking for.
    It is troubling that, you know, 3 years into the war we 
find out the extent of how bad it has gotten in terms of 
oversight because of a hotline, a tip from an Army officer, who 
had to remain anonymous. And then you looked into it, and sure 
enough, you uncovered a great deal of fraud and waste and 
abuse.
    Similarly, the Turkish military tipped us off as to the 
fact that weapons that were supposed to be going to the Iraqi 
Security Forces were not getting there. They were going to the 
wrong people. And again it is tips that we get that tell us 
that some of these weapons that had gone to the Iraqi Security 
Forces were actually winding up in the hands of the insurgents, 
the people that are fighting us. They were our weapons they 
were using to shoot at us. And so you can understand why this 
is such a high priority for the Committee.

                          Contract Management

    I am glad you mentioned the fact that it is not necessarily 
resources, it is management. And if it is management, it means 
it is attitude, that this is just not a high enough priority. I 
mean, we have got hundreds of thousands of people. You are 
right that the one area that we have cut back on, probably the 
only area in the whole government that we have cut back on is 
oversight contracting workforce, acquisition workforce. So we 
probably need to talk to the head of procurement and see what 
is going on in terms of what they think.
    But you are making pretty clear in your statement and your 
follow-up comments that there is just so much in the way of 
contracting--particularly service contracting, we cannot get a 
handle on it. And while our numbers show that the number of 
contract personnel have gone down, perhaps what is more 
important, I think the quality has gone down.
    I think a lot of these defense contractors have actually 
hired the best people who are in the Pentagon, they bring them 
over, and then the people that we are left with are not 
necessarily the best. And the folks that are in the private 
sector can run rings around them in terms of getting what they 
want.
    So I do not know how we get at it. But you are probably the 
office we need to look to.
    Now, of that 48 million that the subcommittee just 
provided, it would be interesting to know how much has been 
obligated. But it would be even more interesting to know what 
you need for 2009. Because this is when, as you know, we start 
putting the budget together. And in terms of the top ranking 
Pentagon people, as far as I am concerned, they have lost a lot 
of credibility on this because it is not a high enough 
priority.
    So we need to know from you what we need to be doing to 
keep this momentum that you have been able to finally start 
going. What do you think we should be doing in this 2009 
budget?
    General Kicklighter. Let me answer that in a two-phase 
answer. One is that the point you made about proper management, 
I think--I hope that when Lieutenant General Thompson appeared 
before you last week, he talked to you of the findings of the 
Thompson-Condon review of contracting. He probably talked to 
you about the Gansler report.
    Mr. Moran. Yes.

                          Acquisition Staffing

    General Kicklighter. Those reports--and it is the same data 
that we found, as well; we were looking at them looking at 
this.
    And we were woefully understaffed. We did not have the 
trained people, we did not have the numbers of contracting 
officers that we needed, we did not have the administrative 
support for that, we did not have the commanders on the ground 
that we needed to do this. And the Army, frankly, did not have 
the resources to measure up, to meet this requirement. And they 
were turning to the Air Force and many other services.
    They are going to expand their contracting. They are going 
to focus on contracting and do a great deal. So the plan is--
and we are watching that plan--they are going to increase the 
Army officers by 400; the civilian personnel are going to be 
increased by 1,000; they are going to add three general 
officers that they do not have in the contracting arena.
    The structure and the focus and the talent and the 
experience is very important. That is part one. And they are 
dealing with that. We are watching to see how well that is 
going to unfold.
    And we are also going to look at it on the ground, not just 
listen to the briefings, but when we get back on the ground we 
are going to look and see what kind of improvements we made in 
overseeing the kinds of things we had to get through tips that 
we should not have. Great leadership on the ground was needed, 
and it was not there.
    The other part of the question about what we need for 
2009--what you gave us in 2008 was exactly what we needed; what 
we need in 2009, we just--I am not prepared to give you an 
answer, but I will get back to you on what we need to expand 
the oversight that we need to do in this arena.
    [The information follows:]

  Department of Defense Inspector General Growth Plan for Increasing 
                  Audit and Investigative Capabilities

    In Senate Report 110-77, the Committee on Armed Services, United 
States Senate (SASC) stated that, ``The committee is concerned that 
funding levels for this important independent audit and investigative 
function is not keeping pace with the demands for Inspectors' General 
services in the global war on terror.'' The committee also noted that 
within the last three years there has been ``exponential growth in the 
number and cost of Department contracts for operations, procurement, 
research, and construction within the United States and around the 
world.'' During the three-year period from FY03 to FY06 DoD contracts 
have increased in value by $75.5 billion.
    The Senate report also notes that, ``the nation's annual defense 
costs have crossed the $500 billion mark, well beyond the annual 
budgets of just over $200 billion before the start of the global war on 
terror in 2001. Despite this growth, the personnel strength of the OIG 
has remained nearly constant. The committee is concerned that the 
capabilities of the OIG are not keeping pace, in terms of qualified 
personnel, with the growth in the size of the defense budget and the 
numbers of contracts.''
    As a result, the SASC recommended an increase of $10 million for FY 
2008 for the OIG to start and accelerate the growth of the OIG. The DoD 
IG subsequently was provided additional funding in the amount of $24.0 
million in the Fiscal Year 2008 Department of Defense Appropriations 
Act, per House Report 110-434, to improve contract management 
oversight.
    In the language of Senate Report 110-77, the SASC directed the IG 
to, ``provide to the defense committees, by March 31, 2008, an analysis 
of the current and future personnel, organization, technology, and 
funding requirements of the OIG.''
    This report, as directed by the committee, will also include, ``a 
comprehensive and detailed master plan, with annual objectives and 
funding requirements, that provides the fastest possible increase in 
audit and investigative capabilities.''
    The report will contain an analysis of DoD IG future requirements 
to increase personnel by 490 full time equivalents (FTEs) above FY 2008 
levels by FY 2015. This manageable level of growth will increase FTEs 
from the current level of 1,437 to 1,927, and allow the DoD IG to 
increase audit and investigative capabilities to better keep pace with 
the growth of the DoD budget and number of contracts, and the increased 
demand for IG's services in the global war on terror. This includes 
increasing FTEs by 235 in auditing, 125 in investigations, 28 in 
intelligence and intelligence oversight, 50 in policy and oversight, 
and 52 in the administrative and support functions.
    The majority of this increase, 360 out of 490 FTEs, will be for 
audit and investigative personnel to insure the fastest possible 
increase in audit and investigative capabilities as directed by the 
committee in the language of SR 110-77. The remaining 130 positions 
largely consist of personnel in areas that support the audit, 
investigative, and oversight functions, such as inspections, 
evaluations, policy, procurement, quantitative analysis, human 
resources, logistics, information technology, and training.
    The $24.0 million additional funding provided to the DoD IG in the 
Fiscal Year 2008 Department of Defense Appropriations Act has allowed 
us to begin working towards our goals to increase our oversight 
capabilities by increasing our FTEs from 1,387 in FY 2007 to 1,437 in 
FY 2008. Furthermore, we estimate that the President's Budget for FY 
2009 will allow for an increase to 1,474 FTEs in 2009. This would 
account for 37 of the 490 FTEs outlined in our growth plan through 
2015, closing the gap to 453 FTEs, but falling 134 short of the 1,608 
FTEs that we require for FY 2009 in order to provide the fastest 
possible increase in our audit and investigative capabilities.
    The following charts contain the DoD IG budget request above the 
President's Budget for FY 2009. We will provide you with a copy of the 
completed Department of Defense Inspector General Growth Plan for 
Increasing Audit and Investigative Capabilities for Fiscal Years 2008-
2015 once it is finalized.

[GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]

                     Holding Offenders Accountable

    Mr. Moran. Mr. Kicklighter, have we made a statement in 
terms of how important this is by holding some of these worst 
offenders accountable?
    You know, you have given us some pretty high numbers in 
terms of indictments, convictions and so on, but of those 
people that are responsible--and again it goes to the 
management in the private sector largely. I know, obviously, we 
are responsible for lack of oversight within the Federal 
Government, but the private contractors, are they still there? 
I represent a lot of them. We all do. I think that is one of 
the reasons we are on this subcommittee. But there are not many 
who cannot figure out a way to get around any kind of slap on 
the hand. Create a new subsidiary, whatever.
    How do we send a message that we take this seriously and 
that if you are going to be stealing from the government, if 
you are going to be involved in fraud, if you are going to 
allow some of your people to get bribed and so on, we are going 
to come down hard on you so you cannot do it again and you are 
going to lose your contracts with the government?
    Have we tried to do that? Have we done it?
    General Kicklighter. We are attempting to do that, and we 
have investigations continually going on. I will ask you----
    Mr. Moran. Yes.
    Mr. Beardall. Yes, sir. Actually, I hoped the numbers we 
gave you are just a drop in the bucket, because at this stage, 
a lot of cases are pending going to court.
    The trouble with a lot of these cases, is they have so many 
ramifications. And the attempt is to use somebody that you have 
discovered and you have arrested to then build other cases and 
use that individual, it is a cobweb.
    Mr. Moran. It is a swamp, basically.

                         Investigation Resources

    General Kicklighter. It is a swamp.
    Mr. Beardall. But I will tell you, the $40 million and what 
it is going to do to DCIS, we are extremely pleased. One of the 
big reasons was because after the war started, the Air Force 
Office of Special Investigations, the Naval Criminal 
Investigative Service, and even a lot of the FBI, after 
September 11th, are now concentrating on war efforts. NCIS has 
a counterintelligence mission. So does OSI. And CID has a small 
group doing fraud. So the only one left in town, just about, 
was DCIS; and we had not grown since September 11th.
    With this amount of money for this year, we will bring on 
at least 30 new agents, which will make a big dent, and be able 
to look in areas that we have neglected, frankly, because of 
the crush of extra things.
    Besides that, DCIS has also been involved in technology 
transfer cases, which are key to protecting our soldiers, 
sailors, airmen, and marines, and we have been devoting assets 
there. But the big thing was the fraud mission, from an 
investigative standpoint, dropped dramatically, too, because 
DCIS was almost the only game left in town.
    General Kicklighter. I think the Congress would be 
interested in what we are doing in the joint arena, as well, 
with other Federal agencies.
    Mr. Beardall. And that is how we have been able to succeed, 
with the synergy of getting others to join in, and 
organizations such as the International Contract Corruption 
Task Force, where we have everybody joining in, even the FBI.
    It is great because, that way, we can--we are trying to cut 
down, again be very economical with what we have. If we can 
then say, no, you travel here, you travel there, do not both 
travel to the same area. We are trying to deconflict 
assignments, deconflict cases so we are using our assets as 
most economically as possible. That is bringing some success as 
well.
     I have never seen such cooperation and the National 
Procurement Fraud Task Force that was started by Mr. McNulty, 
and is now headed by Alice Fisher, has been very helpful, too, 
in raising procurement fraud back up. But still, at times, the 
visibility gets up, but it is what you have then to actually 
do, the ground pounding that makes a difference.
    Mr. Murtha. I think the gentleman's time has expired.
    That is what we need to know. If you do not have the 
resources, you need to tell us. And every member of this 
Subcommittee is interested in this subject because it causes so 
much of a problem from a confidence-of-the-public standpoint.
    Mr. Lewis.

                 Numbers of Indictments and Convictions

    Mr. Lewis. Thank you, Mr. Chairman.
    General Kicklighter, I appreciate very much your being here 
and setting forth the responsibility that IG and your fine 
support staff have responsibility for. I want to come back to 
what Mr. Moran was asking in a little different way.
    The IG has done extensive investigation regarding the 
munitions and equipment and accountability regarding bribery 
and illegal gratuities. It is suggested that general officers, 
noncommissioned officers, civilian officials have received 
millions of dollars in bribes--millions of dollars. And this 
series of investigations began as a result, apparently, of the 
hotline caller or a hotline call in the latter part of 2005.
     2005 is a long time ago.
    Mr. Moran. December of 2005.
    Mr. Lewis. It is a long time ago.
    In the meantime, this investigation, going forward, and we 
were talking about dozens or hundreds or--I do not know how 
many; can you tell me?
    While investigations are going on--and I know you have to 
be sensitive about investigations, et cetera. How many have 
gone beyond being charged, have actually been indicted, have 
actually gone to jail as a result of bribes involving millions 
of dollars? How many?
    General Kicklighter. I think we have that number.
    Mr. Beardall. Yes, sir. Convictions are 25.
    Mr. Lewis. Of those 25, how much money was involved, 
roughly?
    Mr. Beardall. Well, I have it broken down by a total number 
of what we have recovered so far, which is about 14 million, 
which again is peanuts. It is a drop in the bucket, because we 
expect to have more things come up.
    And still, even this one case that we are talking about 
that came from the hotline and from investigators on the ground 
who were also following the same lead, it keeps on evolving, 
and we still find other people who we then are going to charge 
and arrest.
    But the case that has been the most celebrated case in the 
newspapers, Major John Cockerham, who himself was enriched by 
about $9 million, unfortunately we are still trying to get a 
hold of that because apparently he was smart enough to put his 
money in Kuwaiti banks, and so the Department of Justice is 
working to try to get that back. But there is still more out 
there that we are going to get.
    Mr. Lewis. Well, it is suggested here that your 
investigations have looked at Afghanistan, Iraq, and Kuwait. I 
am still trying to get a handle on how many people have 
actually gone to jail. Has anybody gone to jail as a result of 
this yet?
    Mr. Beardall. I cannot break them out by individual, but we 
have a total of almost 31 years' worth of confinement that has 
been adjudged, 32 years of probation. And again, the initial--
--
    General Kicklighter. We can give you a breakout.
    Mr. Lewis. The statement says U.S. general officers, 
noncommissioned officers, and civilian officials.
    Mr. Beardall. Not general officers. Officers.
    Mr. Lewis. Officers. All right. It does say military 
officers.
    General Kicklighter. Yes, sir. No general officers at this 
time. 06s are the highest so far, several 06s.
    Mr. Lewis. I frankly will want to have a lot more 
discussion about these, because it is absolutely unacceptable 
that people in these places of responsibility should be taking 
bribes directly and/or otherwise, and literally--and frankly, 
newspaper reports do not help you a damn bit because most of 
them are uninformed.
    But the real nuts and bolts of what is going on in terms of 
your investigations, and the message that is being sent to 
those people who might even consider being so tempted is pretty 
critical. I would almost want to change your name from General 
Kicklighter to ``Kickharder.'' At the end of the hearing, 
General, I would appreciate your taking just a moment and 
coming and talking to the Chairman and myself privately for 
just a moment, and perhaps include Mr. Young in it.
    General Kicklighter. It would be my pleasure.
    Mr. Murtha. Mr. Visclosky.
    Mr. Visclosky. I am fine right now, Mr. Chairman.
    Mr. Murtha. Mr. Boyd.
    Mr. Boyd. Thank you, Mr. Chairman.
    And General Kicklighter----
    General Kicklighter. Yes, sir.

                            Preventing Fraud

    Mr. Boyd [continuing]. I want to shift focus just a moment 
and try to focus on what we as a legislative body might do to 
prevent this from happening in the future.
    You know, as long as we are dealing in money and at these 
large sums, you are going to have people that are going to be 
dishonest, who are going to try to scam the system and take 
bribes and things like that. But it seems to me that, as long 
as we have been doing this, we ought to have a good set of 
procedures in place that for the most part can prevent fraud 
and waste of the American taxpayers' dollars.
    I was shocked to hear you say, I think, that there were 
some number of weapons in Iraq, or out in the Middle East 
someplace, that you were trying to implement a procedure which 
you would record by serial number, an inventory by serial 
number.
    The question is twofold. One is, do we have those systems 
in place? Who is responsible for not seeing that they are 
implemented? And number two is, if we do not, what can the 
legislative body do to get those in place?
    General Kicklighter. We do have procedures in place that we 
record the weapons by serial numbers. In the beginning--and 
this is not an area we focused on on this assessment--we were 
focused on how we are doing it today. And today we are bringing 
weapons in by serial number, and we are handing them over, and 
we are recording them in most cases--not all cases.
    But in the beginning, it was a rapid movement to get 
weapons quickly into the hands of the Iraqi Security Forces. 
And they were not issued by serial number, they were issued by 
crates, and numbers of weapons in crates, and they were handed 
over both to the military and the police in that manner in the 
beginning. That is not the case today.
    Mr. Boyd. Is part of your recommendation then, sir, that we 
do not do that in the future?
    General Kicklighter. Absolutely.

                       Commanders' Responsibility

    Mr. Boyd. Are we as a government holding commanders or 
people in the chain of command responsible who were responsible 
for seeing that these procedures and systems were followed? Are 
we holding them accountable? Or are we turning the other way 
because of the urgency of the war?
    General Kicklighter. No, sir. When we find what we think is 
a discrepancy, we record it and we report it. And then that is 
dealt with by their chain of command.
    Mr. Boyd. Mr. Chairman, that is really all I have. I think 
the more important issue is, how do we see that the chain of 
command in the Defense Department require that the procedures 
that we have in place are implemented? If nobody wants to 
follow them because there is something more important to do, 
then we will always have this problem.
    Mr. Murtha. I think the gentleman is right, as he knows, 
having been in Vietnam, how difficult it is. You are fighting a 
war, and these are not incidental things. And that is why I 
hope we will be able to work with you folks and the staff to 
come up with a procedure so that we get something done here, 
that we do not just talk about it every time something happens, 
we get it done.
    For instance, I cannot believe they would send those 
weapons over without serial numbers. I mean, anybody with any 
common sense knows damn well those things are going to 
disappear, especially in that part of the world.
    Mr. Hobson.

                         Contractor Performance

    Mr. Hobson. Mr. Chairman, you are right. I do not know why 
somebody--how fast it is or how slow it is to open a crate and 
write down a number. I think that is a lame excuse, the guy 
that gave you that. Somebody was not doing their damn job.
    That is not that slow to get it there. So when somebody 
tells me that, I have some credibility problems.
    Let me tell you, the other problem I have credibility 
problems with is, I have been on this Committee for--I don't 
know, 10 years or so--and I have been yelling about systems 
that do not talk to each other within the Defense Department 
today.
    Personnel records is a simple example. We do not even have 
those coordinated, much less the coordination of equipment, 
which ought to be simple. But the whole Department is 
unaccountable for money, it is unaccountable for weapons. You 
cannot account for the people half the time because they do not 
have their records up to date.
    We put people on active duty from the Guard and Reserve, 
they have got different systems than the regulars. So the pay 
gets all screwed up. I mean, it is not money; it is the people 
and the responsibility of the people running the place. And 
what I find is, the damn guys who screw up get promoted. No 
wonder you have all these problems with 06s. They were probably 
incapable when they were in the other place, and they screwed 
up and they promote them.
    It drives this Committee out of its mind to deal with this 
stuff. Let me give you one example on a contract. In May of 
2006--this is going to be trucks and HMMWVs, guys. Amazing, you 
know, that----
    Mr. Moran. Just shocking.
    Mr. Hobson. In May of 2006, the Army awarded a contractor a 
major HMMWV refurbishment contract valued at $33 million, even 
though numerous incidents of poor performance had been 
documented--why did the Army select a contractor that performed 
so poorly; this was a contractor in theater--to refurbish it.
    They did not do them right, so they give them another one.
    General Kicklighter. I know the contractor.

                         Contractor Employment

    Mr. Hobson. Do you know that? I mean, somebody ought to 
look at this and say how do we do this? These people are 
incompetent. Who writes up the record of the guy that did this 
and promotes him?
    Or somebody else said it the other way. I ride on airplanes 
back and forth all the time with people, and I say where do you 
work? Well, I work for such and such contractor. I said, well, 
where did you work before? Well, I worked for the Department of 
the Army. What did you do? Well, same thing I do today, but I 
get paid more. Or the Air Force, whatever it may be, whatever 
service it is.
    Mr. Moran. And you are riding in First Class, I will bet.
    Mr. Hobson. No, I am not.
    Mr. Moran. Normally, they ride First Class.
    Mr. Hobson. Well, now that I am not running again I can do 
that. This is a closed hearing, isn't it?
    But those are simple things that need to be--you know, 
there is--I do not know that there is any delay. Like we have, 
if you come out of the Defense Department, the next day I 
guess, you can go to work for the contractor doing the same job 
at twice the price. And it is considered totally acceptable.
    But I would like somebody to tell me at some point, I will 
give you the question here on this company----
    General Kicklighter. We will look into it.
    Mr. Hobson [continuing]. As to how can we go back and do 
that?
    General Kicklighter. I will certainly look at that.
    Mr. Hobson. But this is not an isolated case, sir. This 
happened over and over again. And the excuse seems to be--and I 
understand the fighting-the-war part. But I think that is used 
as an excuse when somebody does poor management. There is no 
reason that systems cannot be in place that can talk to each 
other, that can work together, and that people understand how 
to do it.
    You have a tough job, I understand, but what we keep 
hearing in this Committee is, Well, we are going to do it the 
next time. Well, we have been sitting here in this war for how 
many years now? Seven years and we have----
    Mr. Boyd. Five.
    Mr. Hobson. Five. And we have been hearing that same story 
over and over again, and we do not seem to get to the lessons 
learned. Do you think we are ever going to get there on the 
lessons learned at all?
    General Kicklighter. Yes, sir, we are. We are going to do 
our best to get to the lessons learned and do our best to make 
sure we do not repeat them in the future, as we keep doing.
    I could not agree with you more. We will certainly do our 
best to make sure we prevent some of the lessons learned as we 
go forward, and we will look at this case that you outlined.
    Mr. Hobson. Okay. But I hope you are putting more people in 
jail that do this stuff, because the best preventive in this, 
the more people that go to jail that have perpetrated this, a 
lot less people are going to be out there trying to do it.
    General Kicklighter. We are doing our best to do that.

                          Punishment for Fraud

    Mr. Hobson. If you run into problems, I think the chairman 
and the ranking member would be more than happy to help you if 
you get push back on putting people in jail. I mean, a couple 
times I have tried to put--when I was the chairman of Military 
Construction, I tried to put a couple guys in jail and I got a 
little push-back from the Defense Department. I even got push-
back on taking a star away from a guy who had been taking 
money. He had a 33-year wonderful career, they said.
    I said, Yeah, but he was running the place that should be 
the best and he was playing with the money. And they said, 
Well, we will put something in his file. I said, What good is 
that when he is retired. Take a star away, everybody says, Do 
not do that again.
    But we don't do that. We do not do that.
    General Kicklighter. Thank you, sir.
    Mr. Murtha. Mr. Dicks.
    Mr. Dicks. Why don't you go to Mr. Bishop.
    Mr. Murtha. Mr. Bishop.

                  Contracting and Logistics Technology

    Mr. Bishop. Thank you very much, Mr. Chairman.
    What I understand from earlier hearings is that we were 
told that there were going to be high-level meetings with the 
Department of Defense and UPS and FedEx on their systems. And I 
know that this Committee has heard from countless witnesses 
that have sat where you sit with regard to this accountability, 
telling us that you need more personnel in contract management 
and oversight and auditing. And of course we have put the $48 
million extra in there for that.
    But from what I am hearing, when you get the additional 
personnel, it seems as if they need to have better tools with 
which to conduct the business. And so my question is, how much 
or how effective are you in utilization of current technology, 
current commercial grade technology with inventory management 
such that is used by UPS and FedEx?
    And our grocery stores? You know, RFID technology where you 
take an item to the grocery counter and they automatically are 
able to account for that, they are automatically able to 
subtract that from their master inventory, they can account for 
what was bought, where it was bought, you know----
    General Kicklighter. Yes, sir.
    Mr. Bishop [continuing]. Wherever it is in the world in 
that chain the transaction was made; they have got that 
instantly.
    And so I am trying to understand why it is and to what 
extent has the Department of Defense utilized this RFID 
technology which would give these additional personnel and 
existing personnel the tools with which to do it almost 
instantly?
    We are criticized by the administration, and I do not 
recall that the Department really has asked for that RFID 
technology, which would be an incredible tool, but this 
subcommittee has done earmarks to put it in, for example, with 
the Marine Logistics Command.
    General Kicklighter. Right.
    Mr. Bishop. We did earmarks, but we are criticized by the 
administration for putting in earmarks that they did not ask 
for when this is--I mean, this is current technology utilized 
all across the world by all of the commercially successful 
businesses, and yet our Department of Defense is not doing it, 
not utilizing it. And then we get criticized because we try to 
push them by putting in earmarks to try to demonstrate that it 
works, and it will help your people do a better job of 
accounting for the taxpayers' money and doing the job that they 
have to do, even delivering the materials and the convoys in 
Kuwait up through Iraq.
    General Kicklighter. Right.
    Mr. Bishop. I mean, to what extent are you really utilizing 
that and to what extent is the Department requesting this kind 
of technology to give those tools to the people that you are 
now hiring as a result of the additional money that we are 
giving to get it done?
    Mr. Murtha. Let me add to what the gentleman is saying.
    General Kicklighter. Yes, sir.

                         Acquisition Leadership

    Mr. Murtha. I think maybe we have the wrong people to urge 
to solve the problem. You see the problem, you recommend the 
problem, but I think we get need to get Mr. Young in and talk 
to him about some sort of--for instance, staff here says to me 
we cannot find any regulations at the Defense Department level 
that says, Get this show together.
    I mean, here is what they have found, and here is what we 
should have: some kind of a similar acquisition program.
    So we need to get Mr. Young in and talk to him. You made 
the recommendations, you see the problems. What we need to do 
is find out from them, are they implementing them?
    Obviously, you say they are not. So we keep making 
mistakes.

                     Radio Frequency Identification

    Mr. Bishop. Mr. Chairman, do you recommend the utilization 
of technologies like RFID? Do you say that if you implement 
this that you could better account for the materials, the 
supplies, equipment, the weapons?
    I mean, having to do it by serial number is one thing. But 
if every item in a grocery store has a bar code on it and can 
be immediately identified, subtracted, or added to an inventory 
simply by running it across that scanner at the cash register, 
it seems to me that as much money as we put into the Department 
of Defense, that ought to be done and specific recommendations 
ought to be made on that.
    General Kicklighter. I think that--if I could comment, Mr. 
Chairman, I think that what you are describing is exactly what 
we need for the weapons that we have been talking about, and 
also the ammunition. And we will go back and take a look and 
make the recommendations that you have outlined here.
    Mr. Murtha. Make some recommendations to us so that if they 
won't do it, we can put it in language in the bill that forces 
them to do what.
    General Kicklighter. Yes. Let us look into that. But that 
makes a lot of sense. That technology is badly needed for what 
we need right now. It would greatly simplify what we are trying 
to do.
    Mr. Bishop. I get beat up--I mean, we are getting beat up 
as a Congress and as the subcommittee for putting in earmarks 
to do that; and that is the same thing that I understand that 
you need. That would simplify the process.
    General Kicklighter. I owe you an answer on this.
    [The information follows:]

           Summary of Radio Frequency Identification Projects

    We are conducting two audits on Radio Frequency Identification 
(RFID)--the first on the implementation of passive RFID tags and the 
second on the security over active RFID information. On July 30, 2004, 
Under Secretary of Defense for Acquisition Technology and Logistics 
(USD[AT&L]) issued policy requiring the use of passive and active RFID 
technology. For passive RFID, contracting officers are required to add 
a RFID DFARS clause to most contract for supplies issued on or after 
October 1, 2004, for delivery of material on or after January 1, 2005. 
Vendors shipping supplies to DoD must apply a passive RFID tag to all 
shipments (boxes)--primarily Defense Logistics Agency [DLA] depots--as 
well as, send an advanced shipping notice containing the quantity and 
description of the material being shipped (Project No. D2008-D000AS-
0022.000). Contractors are not required to apply tags to boxes 
containing munitions and major end items. DoD is still in the process 
of testing the passive RFID technology for compliance with Hazards of 
Electromagnetic Radiation to Ordnance.
    Any DoD cargo going to, from, or between overseas locations 
requires an active RFID tag on the freight containers or pallet. The 
active tag must contain the content-level detail of the shipment. PM J-
AIT officials stated that shipments sent from the U.S. to an overseas 
location is typically divided into other shipments at its place of 
entry into a country and prior to reaching its final destination. PM J-
AIT official stated, however, that a new active RFID tag is not always 
applied to the divided shipments as required. The active RFID tag 
information is stored in an automated information system called the 
Radio Frequency In-transit Visibility (RF-ITV) system (Project No. 
D2008-D000AS-0044.000). The Army's Product Manager Joint Automatic 
Identification Technology (PM J-AIT) office is responsible for the 
security of the RF-ITV system and its information.

Contracting for Supplies Using RFID (Project No. D2008-D000AS-0022.000)

    Objective. The audit objective is to determine whether DoD 
Components complied with policies on RFID. Specifically, whether DoD 
Components prepared and implemented plans to use passive RFID and to 
assess whether DoD contracts comply with the Defense Federal 
Acquisition Regulation Supplement (DFARS) and contractors are complying 
with those contracts. We plan to issue a draft report in July 2008.

   Security Over RFID Information (Project No. D2008-D000AS-0044.000)

    Objective. The audit objective is to determine whether DoD 
implemented security controls to protect RFID information. 
Specifically, we assessed the implementation and effectiveness of the 
information assurance controls for the RF-ITV system. We plan to issue 
a draft report in June 2008.

    Mr. Dicks. National program, Mr. Chairman.
    Mr. Murtha. We are talking high-level stuff here.
    Mr. Frelinghuysen.

                  Contracting and Logistics Technology

    Mr. Frelinghuysen. I won't interrupt you. Let me endorse 
what Mr. Bishop ended up with and what Mr. Young started out 
with. It is inconceivable to most of us. Here we are promoting 
smart munitions and smart technology delivery systems, and we 
cannot keep an eye on the ball through using a variety of 
technologies.
    The fault is not yours, but I think that we have unity in 
our frustration here that we cannot come up with a better way 
to track all of these munitions and weapons in both Afghanistan 
and Iraq.
    Let me just focus on one part of your statement here, get a 
little bit of clarity. This is on--I do not see your pages 
numbered here, but on page 6, the bottom of page 6, and I 
quote, ``Our preliminary findings are that DoD is improving 
control and accountability over weapons being supplied to the 
ISF; however, there remains work to be accomplished.'' The area 
that I have concern about is, also, as the U.S. supply of 
munitions to Iraq shifts to the FMS, foreign military sales, 
the U.S. needs to put FMS on a wartime footing while assisting 
the ISF in building their logistical sustainment base.
    Would you comment on the whole issue of putting the FMS on 
a wartime footing? And how we can accomplish that? How is that 
going to be accomplished?

                         Foreign Military Sales

    General Kicklighter. The complaint in the field, in both 
Iraq and Afghanistan, but I will focus on Iraq, is that FMS is 
not responsive enough. It doesn't provide the visibility that 
the host nation needs to know, and it is not resilient.
    Let me just make one comment that I think is extremely 
important, and that is that the Minister of Defense in Iraq has 
chosen foreign military sales to be their national strategy for 
modernizing and replacing weapons systems and sustaining their 
forces. That is a tremendous opportunity for the U.S. to ensure 
that all these arms dealers around the world don't come in 
there and sell a bunch of arms that they don't really need.
    It also builds strong relationships with the U.S. and the 
Iraqi military as we go forward to the future. And the system 
is very slow and it takes a long time to get something 
delivered, and they go through these bureaucratic steps that 
you have to go through to get approval to do that. Some of it 
is in Congress and some of it is in State, but a lot of it is 
in Defense.
    DoD has put together a task force trying to figure out a 
rapid way to cut through the bureaucracy and be more responsive 
to providing and anticipating what the combat needs are going 
to be of the Iraqi Security Forces, particularly the military, 
as they take over more and more of the fight over there.
    Mr. Frelinghuysen. Well, the nature of Iraq itself, 
obviously Iraq was an arms market when Saddam Hussein was in 
power. When Jerry Bremer was over there, to some extent 
obviously, there was a lack of controls and oversight. Of 
course, there is no guarantee that the minister you are 
referring to in a government which in some cases might be 
described as somewhat dysfunctional, that this is going to be 
carried out.
    Is this FMS going to be carried out and how can we be 
assured that we have enough oversight?
    General Kicklighter. The FMS team that we had on the 
ground, in our opinion, was woefully short when we got there. I 
think they had 12 people managing a program of billions of 
dollars. We thought it should be something in the order of 60 
or 70 people, and it ended up being a general officer.
    This is going to be the residual organization that stays 
behind. When our forces draw down, this will be an organization 
that continues support over there. They are moving now, they 
will have more people on the ground. They have a general on the 
ground.
    The Iraqi military also have to be trained. They don't know 
how to use this system very well, but they have adopted it and 
are embracing it. They will turn away from it unless it is 
responsive to their needs.
    Mr. Frelinghuysen. So the Iraqis are going to embrace this 
system?
    General Kicklighter. Yes, they are--presently. But that 
won't last if we don't deliver what they need on time and give 
them the training teams and learn how to maintain and operate 
those systems that you are taking in.

                       Iraqi Tracking of Weapons

    Mr. Frelinghuysen. What are we giving them in the way of 
resources?
    General Kicklighter. Well, they are buying this.
    Mr. Frelinghuysen. They are buying this, but obviously they 
still have to have some ability to track the very weapons that 
go into their system.
    General Kicklighter. Yes, sir.
    Mr. Frelinghuysen. They obviously have an inability to 
track the weapons they have now, as it appears our forces do.
    General Kicklighter. They are doing a fairly good job of 
tracking the weapons they have now and also tracking the 
ammunitions they have now. That was not the case in the past.
    Mr. Frelinghuysen. So progress has been made?
    General Kicklighter. Progress--significant progress has 
been made, particularly in '07 to present.
    Mr. Frelinghuysen. Thank you.
    General Kicklighter. And it continues.
    Mr. Frelinghuysen. Thank you.
    Mr. Murtha. Mr. Dicks.

                           Weapons in Turkey

    Mr. Dicks. On this issue about, you know, these weapons 
found in Turkey. I know you may have covered part of this 
before, but I would like to go back. It says, as a result, we 
assembled an interagency multidisciplinary assessment team of 
munitions accountability composed of subject matter experts 
from the Office of Inspector General, U.S. Central Command, 
Army Audit Agency, Army Criminal Investigative Command, Army 
Corps of Engineers, Air National Guard, Department of State and 
the Department of Justice Bureau of Alcohol, Tobacco, Firearms 
and Explosives.
    What came of this? Where are we in this investigation?
    General Kicklighter. We spent 4 weeks in country assessing 
how well we are controlling and accounting for weapons and 
ammunition. We made a lot of findings and recommendations on 
the ground, and the command accepted the recommendations that 
we made, without exception.
    They moved out on a lot of the--on all of the 
recommendations. Since we have returned, they have provided us, 
through Central Command, an update on actions that they have 
taken. And we are in the process of finalizing that report, and 
we hope to have it back to them in final draft sometime in the 
latter part of this month. And then we plan to follow that up 
with another trip in about 6 weeks.
    Mr. Dicks. One of the issues you got into was armed weapons 
and munitions which were given to the Iraq Security Forces.
    General Kicklighter. Yes, sir.
    Mr. Dicks. How does that work. Do you have to work with the 
Iraqi Government?
    General Kicklighter. Yes, sir.

                          Control of Logistics

    Mr. Dicks. How is that going?
    General Kicklighter. It went extremely well. They opened up 
everything. They are eager to have a good system. They are 
eager to have a logistics base that will give them 
accountability control of their assets, particularly weapons 
and ammunition.
    They have built a national depot. They have built a 
national ammunition point. They have got regional logistics 
units. They have got division units that are trying to 
implement--although very fragile, implement a logistics base 
that will sustain their forces.
    They recognize--and they have done this before, sir. As you 
recall, they fought a 10-year war with Iran where they had 
corps in the field, so they had a logistics base before. It 
won't be our logistics base, but it will be their base that we 
leave behind for them.
    Mr. Dicks. So you think this thing is under control now?
    General Kicklighter. I think it is in much better control 
than it was in 2004, 2005 and early 2006. But it still needs 
work to be done. It is very fragile, and it has to continually 
have emphasis and support and advice from the U.S.

                      Implementing Recommendations

    Mr. Dicks. Now, as I understand it from our staff, we 
increased the amount of money to the Defense Contract Audit 
Agency by $10 million, the Defense Contract Management Command 
by $14 million and the Defense Inspector General by $24 
million.
    There is a question that seems to be whether the DoD--
whether you understand that additional funds are to be used for 
more than just discovering and revealing needed improvements to 
contract management and oversight but also help accomplish 
these improvements.
    General Kicklighter. I couldn't agree with you more, sir. 
We do understand that.
    We think a very important part--and you have given us the 
ability to do that--is to force change and prevent making a lot 
of the mistakes that we continually make over and over again.
    Mr. Dicks. Are you working with the services on this so 
far?
    General Kicklighter. Yes, sir, we are. We are working with 
the services inspector general, but as the Chairman remembers 
and, Mr. Young, when I briefed this to you before, the 
Secretary of the Army was at my side and we did this together. 
We worked very closely with the services on this challenge, and 
you have enabled us to do that more effectively, I know.

                    Expansion of Contractor Support

    Mr. Dicks. The question of all of us on these service 
contracts, in 1994 civilians accounted for 8 percent; 
contracted personnel counted for 17 percent of the total DoD 
budget. However, in 2008, civilian pay accounted for 5.5, or a 
drop of 2.5 percent, and contracted personnel accounted for 27 
percent of the total DoD budget.
    I mean, that is shocking.
    General Kicklighter. It is shocking.
    Mr. Dicks. Have we looked at why they are doing this? What 
is the explanation for this?
    General Kicklighter. There has been a great demand for 
expanding contract support in the contingency areas of Iraq and 
Afghanistan. We, to my knowledge--we, as in the inspector 
general's office, have not looked at do we have the right 
balance, are we contracting out the right things.
    That is probably an area that we should take on. We have 
not taken it on, have we, Mary?
    Ms. Ugone. We haven't taken on--you know, A-76 has been 
driven in the past many years due to the push to outsource 
more. We have not looked at the other side of it, which is have 
we done too much.
    Now, we did some work in late 2005 where we identified that 
there was no system to track or assess the cost of performing 
these functions under competitive sourcing, nor was there a 
system to track the quality of work done in-house versus 
through a contractor. So we started doing some initial work in 
the area, but we have not looked at the other side of the coin, 
which is something----
    Mr. Dicks. Which is, I think you will find, is once these 
people get the contract, the cost goes up dramatically.
    General Kicklighter. Over time.
    Mr. Dicks. I put in a provision years ago which they fought 
about and finally got repealed when the other party took 
control of the House on A-76 reviews. You had to have a post-
contract audit to look at whether, in fact, you saved money or 
not, once you contracted it out.
    Mr. Chairman, I think we might want to consider putting 
that provision back in, because that is the only way you are 
going to really find out the truth of this.
    I think the truth is, once these contractors get in, a year 
or so goes by and the cost ramps up. If there isn't a post-
contract audit, there is no way to find that out.
    The Chairman. I think we have to be more basic. I think 
what you suggest is--you haven't looked at this yet, 
contractors versus military personnel--what is the balance that 
we need? I certainly have been concerned since I found out how 
many contractors we had in Iraq. So we need to look at that.
    General Kicklighter. We will, sir. Let me respond to that.
    Mr. Dicks. This isn't just Iraq, is it? This is for 
services for the entire Defense Department.
    General Kicklighter. No, this is not Iraq, this is 
throughout Defense.
    Mr. Dicks. You think about 27 percent. That is over a 
quarter of the budget on hiring service contractors. I mean, do 
you have service contractors in your outfit?
    General Kicklighter. Yes, we do.
    Mr. Dicks. How many?
    General Kicklighter. But very few. I don't know off the top 
of my head, but we have a few in the IT world. I think that is 
about the only place we have any.
    Mr. Dicks. What do they do? That is in information 
technology. That is more understandable.
    General Kicklighter. Yes, sir. But I think your point is 
extremely valid. I think when Mr. Walker talked to you last 
week, the GAO is very concerned about this too, that we may 
have gone too far. I think we need to go back and look at 
functions and what functions should be performed by the 
military, what functions should be performed by the civilians, 
and what functions should be performed by the contractors.
    Let us take a look at that and come back to you. I think 
all the indications is it takes a very--it will take a very 
hard look.
    Mr. Lewis. Will the gentleman yield?
    Mr. Dicks. I think my time is up.
    Mr. Lewis. Let me just say, we all served on this committee 
when we went through any number of reinventions, the 
reinventing government. Now we play a significant role in 
cutting back the number of personnel for the slots that we are 
talking about, the kind that we need. There is pretty obviously 
a need to reinvent government again, because it is absolutely 
ridiculous that we find ourselves in these circumstances again, 
and we are talking about millions and millions of dollars.
    Mr. Dicks. Billions.
    The Chairman. Yes, we are going to send a letter from the 
Committee and give them directions. For instance, the 
contracting out in the Air Force, from what we heard in the one 
testimony, is a lot better than the Army, because the Army puts 
people in them awhile, they take them out for awhile, and yet 
the Air Force stays in.
    Yet I found health care service for the Air Force contract 
not worth a damn. I mean, they haven't done near as good a job. 
So we need to get our handle on this when we are spending this 
much money on contracting.
    General Kicklighter. Yes, sir. I think this is a very 
fertile area.
    The Chairman. Mr. Tiahrt.

                            Contracting Out

    Mr. Tiahrt. Thank you, Mr. Chairman.
    Peter Drucker said you should always be looking for 
improvements in the way you do business. I think it is a common 
practice now in most of corporate America, they are constantly 
trying to do a better job. We certainly can't forget that, 
whether it is in the way we contract or the way we conduct 
business. I think that is very important.
    We have done some studies on different parts of the 
government, whether we should use our uniformed personnel, our 
military, versus contracting. The other areas where it doesn't 
make sense, if you look at how much it takes to train someone 
in the military versus how much it takes to train somebody 
working in a cafeteria, obviously it costs more to train 
somebody in the military. So there are some jobs that we should 
be contracting out. It just makes economic sense.
    General Kicklighter. Yes, sir.
    Mr. Tiahrt. But being concerned about fraud and waste and 
abuse is something we all need to be vigilant in preventing. 
We, in the 2008 budget, put $48 million; $10 million of it was 
a bump-up for the DCAA, Defense Contract Auditing Agency.
    I know it is not your area, but could you just give me an 
idea of what their charter is? Aren't they the post-contract 
award?

                     Defense Contract Audit Agency

    General Kicklighter. Ms. Ugone has oversight for that 
organization. If you don't mind, I will hand off with her.
    Mr. Tiahrt. Please.
    Ms. Ugone. We partner with the Defense Contract Audit 
Agency oftentimes, but their focus is they do preaward prior to 
contract.
    Mr. Tiahrt. They do preaward analysis?
    Ms. Ugone. Right. They service the contracting officer. 
They assist the contracting officer in arriving at some sort of 
negotiated price.
    Mr. Tiahrt. They are technical support, engineers?
    Ms. Ugone. Well, pricing analysts. They take a look at the 
pricing, the cost, and do a preaward survey about the 
contractor. They understand the contractor and the contracting 
system, so they are an adviser to the contracting officer.
    Mr. Tiahrt. They doing postaward auditing.
    Ms. Ugone. They also do postaward, which is mostly incurred 
costs, because what they want to do is determine whether or not 
costs are reasonable and allocable and allowable. That is their 
charter.
    We actually work more the entire process. We can look at 
any part of the contract management process, because you 
actually have three phases. You have the preaward, the award, 
and you have the postaward, which is normally contract 
administration, contract closeout.
    We can look at any part of that process, whereas DCAA 
actually concentrates more on the preaward and they do also 
postaward, any kind of advice that the contracting officer 
needs.
    Now, our chain is different. They report directly. The 
director of the DCAA reports directly to the Under Secretary of 
Defense for Comptroller, so their mission is different and 
their reporting chain is different as well.

                  Defense Contract Management Command

    Mr. Tiahrt. We also bumped up the Defense Contract 
Management Command $14 million. What is their charter?
    Ms. Ugone. Well, the Defense Contract Management Agency 
historically, when you take a look at it, they provide contract 
surveillance, contract oversight.
    Mr. Tiahrt. So this is postaward?
    Ms. Ugone. Right.
    Mr. Tiahrt. Until contract completion?
    Ms. Ugone. Or termination, depending on the situation on 
that. Historically they have been focused on weapons systems, 
you know, the major weapons defenses, major contractors. And 
part of the challenge for them is not necessarily the weapons 
system area; you have got this huge growth of services 
contract, so how do they play in that arena, so they 
traditionally----
    Mr. Tiahrt. But they they looked at service contracts.
    Ms. Ugone. Right. But traditionally their focus has been on 
weapons systems and major service contractors.
    Mr. Tiahrt. Which is all supplying our troops other than 
substituting work for the troops, because weapons systems, for 
example, are used for the troops but we traditionally don't 
build them in our military.
    It looks at the contracts that provide goods and services 
to the military?
    Ms. Ugone. Right. They usually are colocated with a major 
defense contractor overseeing them, because they are usually 
colocated with major defense contracts.
    Mr. Tiahrt. Is DCAA also colocated usually?
    Ms. Ugone. They could be. I am not sure of their 
organizational structure. They could be colocated or closely 
located near the major defense contractors.
    Mr. Tiahrt. Okay. We know what the Inspector General's 
Office is doing. I don't have any questions about that.
    There was something that looked like this hotline tip came 
in from Southwest Asia rather than from Iraq. We have talked a 
lot about Iraq.
    But this December 2005, or--yes, 2005 phone tip came from 
the Southwest Asia area; that is right, Chuck?
    Mr. Beardall. Well, it is actually from Iraq. We just use 
the generic Southwest Asia, which includes Iraq, Afghanistan, 
and Kuwait as our normal area. But it came from in-country, 
yes, sir.
    Mr. Tiahrt. Okay, so it came from Iraq. It was a little 
puzzling because we were talking about Southwest Asia and Iraq, 
but they are synonymous in this case.
    General Kicklighter. The officer was located in Iraq, and 
the company was located in Kuwait but had activities going on 
in Iraq as well.
    Mr. Tiahrt. In your testimony, page 10 of your testimony, I 
think this was the ICCTP, the International Contract Corruption 
Task Force, it went through 700,000 payment records.
    Mr. Beardall. Different things. What you are talking about 
is 700,000 invoices.
    Mr. Tiahrt. Invoices.
    Mr. Beardall. Invoices that we were going through at the 
Defense Finance and Accounting Service Office in Rome, New 
York. That is the office that is receiving all the invoices 
from Southwest Asia, for pay, for paying contractors, all that. 
What we are doing now is data mining to find other fraud, it's 
getting all those vouchers, scanning them in and let analysts 
go through all of those and see if there are trends that sit 
there and say, well, why was this individual--just to use a 
soldier--why was this soldier getting so much money over this 
extended period of time?
    We find out it is theft, that the soldier has worked in the 
finance office and was paying himself extra money along the 
way, or a high dollar amount for a contractor that shouldn't be 
providing items that cost that much.
    So we are going to be going through all of those. We have 
at the moment two DCIS agents up there, looking through those 
vouchers being analyzed, we'll look at the vouchers if we find 
a crime, through the ICCTP they will be referred out to the 
appropriate law enforcement agency.
    Mr. Tiahrt. So the three investigations, three cases of 
investigation of the $700,000, you guys are looking for a 
needle in a haystack.
    Mr. Beardall. Yes, sir.
    General Kicklighter. We are just beginning.
    Mr. Beardall. We are getting this stuff in, analyzing it 
right now. We have three referrals for criminal investigation. 
We expect that number to go way up.
    Mr. Tiahrt. Well, I am wondering if we have the money in 
the correct pots because this ICCTP, you guys, DOD-IG, Defense 
Criminal Investigative Service, the U.S. Army Criminal 
Investigation Command, Army CID, Office of Inspector General, 
Department of State, FBI, people from Iraq, there are a lot of 
people involved in this agency.
    Mr. Beardall. Actually, the three big players are DCIS, 
Army CID, and the FBI. The others are very small offices, but 
because they participate, we obviously mentioned them as well 
as partners in that effort. But it is a mainly DCIS, FBI and 
Department of Defense effort.
    Mr. Bishop. Will the gentleman yield?
    Mr. Tiahrt. Yes.

                           Contract Employees

    Mr. Bishop. Earlier on he asked a question about the 
functions of the Defense Contract Audit Agency and the Defense 
Contract Management Command in conjunction with the Defense 
Inspector General. You were asked about how many contract 
workers you had in your office. You said you had a few.
    But with regard to DCAA and DCMC, isn't it true that they 
have, because of a lack of trained personnel and because of the 
enormity of the task, they have had to employ contractors to 
actually assist in the management of these contracts and in the 
auditing? Don't they have extensive outsourcing of the contract 
management and the audit?
    General Kicklighter. Let me answer up front, and I will ask 
Mary to follow on.
    Mr. Bishop. I thought that is what GAO told us.
    General Kicklighter. I visited DCMA and in both Iraq and 
Afghanistan on this last trip. In the briefings I received, I 
did not get any indication there were contractors involved in 
their operation. But I did get the knowledge that they were 
woefully understaffed.
    So this $14 million that you invested in DCMA is going to 
make a big difference of our management of contracts in the 
field. I think that is a wise investment for helping us prevent 
fraud and waste.
    Mr. Bishop. I agree. But it seems like the GAO guy told us 
when he was here that they are having to utilize contractors in 
those functions.
    General Kicklighter. We will look into that, sir.
    The Chairman. Mr. Tiahrt.
    Mr. Tiahrt. Mr. Chairman, the DCAA, if I could just inject 
this, the DCAA, which does very important work, there are some 
times when they do need to get outside expertise in a specific 
technical field. Mitre Corporation up in Boston has been very 
helpful, I think, in injecting some high-tech experts, 
especially in areas of stress and composite manufacturing.
    I think we shouldn't put them in the same lump with a lot 
of other contracting that is going on to support our troops 
overseas.
    The Chairman. I don't think any of us object to supporting 
some contract, maintenance, perhaps that includes services on 
some services. What we need to do is get it under control, is 
what we need to do.
    General Kicklighter. Yes, sir.
    The Chairman. Mr. Visclosky.
    Mr. Visclosky. Thank you very much. Just a general 
question, because we find ourselves where we are today. In your 
testimony, you mentioned since 2000 your office had issued over 
265 reports that identified problems, that made 
recommendations. Later in the testimony, you also indicated 
that you were summarizing about 300 government accountability, 
IG, Army Audit Agency reports. So at this point we have got a 
lot of information.
    General Kicklighter. Yes, sir.

                 Implementing Contracting Improvements

    Mr. Visclosky. We have had a lot of testimony and give-and-
take. We appropriated additional monies for you for 2008. If 
you had the same amount of money, or more--and actually, what 
do we do today? Because in some areas apparently we are making 
some progress, but it seems like it is still a mess.
    What one or two things are we supposed to be focused on 
that we are supposed to do to bring DOD around?
    General Kicklighter. What you have done has been a 
tremendous help for us in 2008, but what we have to do is 
figure out a way to sustain the increased capability that you 
have provided to us as we go forward.
    I promised the Chairman I would get back to him, what we 
would need to continue to sustain that. What we are doing in 
regards to all those former audits that we have conducted and 
investigations, we are trying to pull together and evaluate all 
those and try to find out what did we accomplish, what have we 
not accomplished, what are the trends, what can we predict for 
the future? How can we prevent fraud, or how can we prevent 
some of the mistakes that we have committed in the past as we 
go forward?
    Mary, is there anything you would like to add to that about 
those reports?
    Ms. Ugone. One of the things, the summaries, or two reasons 
why we did it that way, one is since 2000--those are DOD IG 
reports--what we have identified, and it was prior to the 
commencement of the wartime effort.
    Then we also decided to summarize from 2003 to present all 
the oversight, major oversight organizations and what they have 
looked at. We have taken about 300 reports, and we divided them 
into systemic issues of which one of them is contracting.
    That, together, using that information, we want to focus 
our resources on those major systemic issues. Right now, it has 
come to contract administration, so far to date. When we 
summarize those reports related to Southwest Asia, seems to be 
the number one recurring problem over and over again, which is 
postaward issues.
    So that is our strategy, is to take this and actually focus 
our resources on those key systemic issues.
    Mr. Visclosky. On that discrete problem. That is the 
largest problem you have?
    Ms. Ugone. Right. That is our approach. We are going to be 
sharing that summary of Southwest Asia issues, identified with 
our joint planning group, Southwest Asia Joint Planning Group, 
which is made up of members from State, from SIGIR, from GAO, 
from Army Audit, Air Force Audit and Navy Audit so we can fan 
out, so we can actually leverage the rest of the oversight 
community to work together on mitigating and resolving some of 
these longstanding issues.
    Mr. Visclosky. So we should anticipate, if we are sitting 
here 12 months from now, that you are going to be able to tell 
us you have made progress and there are less problems?
    General Kicklighter. That we have been able to identify 
issues and make recommendations; that hopefully the Department 
can make progress and resolve. We make recommendations. The 
Department is the one that has to take the corrective action.
    The Chairman. Let me just say to the gentleman, before--we 
learned before you came in, it is the same as it was. They make 
recommendations but nothing happens.
    So what I am saying to them is give us those 
recommendations. They have made some progress but not the kind 
of progress that we should see. We need to put it in language, 
in a bill that says okay, let's get this act together. We have 
found the problem, but let's correct the damn problem.
    Mr. Visclosky. The Department itself.
    The Chairman. The Department itself.
    General Kicklighter. Sir, could I add one comment, if I 
could?
    The Chairman. Sure.
    General Kicklighter. I think we can do a better job in 
driving those recommendations; not just following, making them, 
but putting on some follow-up and pressure and getting results. 
I think I committed to you earlier that we are going to do that 
from now on.
    Mr. Visclosky. I guess that is part of my point is because 
you do have some responsibility. The Department clearly does. 
But summarizing reports and giving it to somebody who is not 
doing the proper job or, in fact, has engaged in nefarious 
activities, it is a paperweight for them.
    General Kicklighter. We can do a better job at that and we 
will commit ourselves to that.

                  Contractors Working for Contractors

    Mr. Visclosky. If I could, two more questions. You have a--
we have a question about contractors doing government cost 
estimates for government contracts in one area in particular, 
for the Space Acquisition Program.
    My understanding, about 64 percent of the cost estimating 
personnel are contractors, doing the cost estimating for other 
contractors. Is there a danger involved in that?
    Ms. Ugone. I think the Federal Acquistion Regulation--and I 
can't pull them all out--there is a list in the Federal 
Acquistion Regulation of what they consider appropriate to be 
able to contract out.
    The major distinction is you can do support work for the 
government, and that has covered the gamut from budget, from 
helping to provide budget information, cost estimations. The 
distinction, the major distinction is you don't make the 
decision.
    But that is where we are in this kind of situation with 
service contracts. That is where most of your service contracts 
are coming from is the service to the government in providing 
this information, the gathering of data which has been 
determined to not be inherently governmental. And that is 
rooted, that is in regulation right now in the Federal 
Acquisition Regulation.
    I haven't looked at that specific issue.
    General Kicklighter. But we will.
    Ms. Ugone. If you would like us to, we can. But there is a 
governing regulation that covers what is inherently 
governmental and what isn't. The distinction seems to be data 
gathering, gathering information, as well as making a decision.
    General Kicklighter. Frankly, I think that distinction is 
getting more blurred over time, and we need to take a hard look 
at that.
    Mr. Visclosky. Here the case in this agency, 64 percent of 
the personnel doing cost estimates are contractors themselves, 
and I assume at least have enough sense that their firm is not 
bidding on the contract. It is a small community, everybody 
knows everybody, and I am doing the estimating and things could 
move along. I mean----
    General Kicklighter. Let us look at that and get back to 
you.
    Mr. Visclosky. Thank you.
    General Kicklighter. I don't want to assume that.

                         Sole Source Contracts

    Mr. Visclosky. The final question. And if somebody has 
asked this stop me. Sole-source contracting for 57 domestic 
bases has been identified. It has been estimated that 46 had 
awarded sole-source contracts for security services.
    Is that healthy, and what are the standards for more than 
half being sole sourced?
    General Kicklighter. There are times when sole sourcing is 
appropriate, but not normally, and certainly not because of bad 
prior planning. That sounds awfully high, and we need to look 
at that.
    Mr. Dicks. Will the gentleman yield for just a second?
    Mr. Visclosky. Sure.
    Mr. Dicks. I have been involved in this, and the problem 
has been the Defense Department has been unable to come up with 
a memorandum that is cleared through all the different deals. 
This is being managed out of General Clapper's shop--Greg 
Torres is the person who in Clapper's shop was supposed to be 
putting this thing together.
    So what has happened is we had this situation like Fort Dix 
where they did not have a system in place, but there are 
contractors out there who are providing a service. And that is 
why these things--each base has kind of done their own little 
competition between these various parties and picked the one 
that they thought was the best.
    My concern is we hope the DoD will come up with standards 
so that everybody will know how they are supposed to evaluate 
and make these decisions.
    But what the bases have been doing is looking at the 
contractors and then picking one, and that is how it has 
worked.
    General Kicklighter. Let us look into that.
    Mr. Dicks. The worst problem is just not to do anything. 
That is what happened at Fort Dix. They didn't do anything. Let 
me give you one quick point.
    At Andrews, when this contract went into Andrews, they 
found like 1,200 people who were going on that base regularly 
who were not supposed to be on base, some of them which had 
criminal records a mile long. Many of them, I think, were going 
on just from some relative to go to the PX. But it showed you 
that there are a lot of people getting on these bases.
    We found the same thing at the Trident submarine base at 
Bangor, that people with long records were getting onto these 
bases because there was no effective check of their 
identification when they came on the base. So this is a real 
problem.
    The Chairman. Mr. Kingston.
    Mr. Kingston. Thank you, Mr. Chairman.
    General Kicklighter, I am glad to be able to give you 
greetings from Tattnall County.
    General Kicklighter. Well, good to see you again, 
Congressman.
    Mr. Kingston. Mr. Chairman, if you are a Kicklighter or a 
Dasher or a Dubeley or a Deloach in Tattnall County, you are 
related to clearly 75 percent of the people. So the general is 
an extremely popular guy in Glennville, Georgia.
    I would ask you for some Vidalia onions, but we would 
probably both get arrested in today's climate.
    General Kicklighter. Give me about an hour, and I can get 
you some.
    Mr. Kingston. On this sole-source contract issue, when is 
it appropriate to have one and when is it not? Because there 
is, as Mr. Visclosky pointed out, the number according to a GAO 
report in April of 2006 was that on 57 domestic bases, 47 of 
them--46 were done on a sole-source contract.
    I don't need a specific, but generally when would they go 
sole source? That seems to be the case rather than the 
exception.
    General Kicklighter. When there is an urgency and you have 
to move quickly, when there is only one source that does the 
service that you are looking for.
    Ms. Ugone. We can actually give you a list, but the three 
main ones you would think about, as Mr. Kicklighter said, is 
there is only one responsible source, which means somebody who 
can actually do the job. And the second one is urgent and 
compelling need.
    The third one would be you want to make sure you maintain 
industrial mobilization capability of a particular contractor. 
There are like three others in the FAR, Federal Acquisition 
Regulation. We can actually get you the list of when it is 
appropriate.
    Mr. Kingston. Well, when is it a really urgent and 
compelling need?
    It would seem to me, pre-9/11, some of the military post 
bases had security and some did not. And then suddenly 9/11 
comes; it doesn't seem like you would still be inventing the 
wheel, though. I don't see where we would be in an urgent and 
compelling need at all.
    Having gone in and out of military bases all my 
congressional life of 16 years, I can say pre-9/11 it was a 
little bit haphazard, but there still wasn't the need to rush 
out and get it. Particularly now, we are talking 6, 7, 8 years 
down the road, so why would it still be urgent?
    Ms. Ugone. Well, prior, we have identified issues with 
sourcing for quite a bit, and we have had issues with sole 
sourcing too, because usually it was a substitute for 
inadequate planning. So, yes, it is similar to today's 
environment.
    Previously, there was a citation of urgent and compelling 
because of the need to surge and those reasons. But it is the 
same issue, adequate planning versus sole source. We do 
continue to have sourcing issues. When we do our audits, the 
question is why not use more competition is really the reports 
that we have been issued, pre-OEF and -OIF and post-OEF and -
OIF.
    Mr. Kingston. That doesn't make any sense, because, you 
know, if you didn't have security on the gate pre-9/11, why, 
suddenly, was there a panic? I could see, for example, Kings 
Bay Naval Base where you have nuclear--right in the middle of 
the base that is actually guarded by the Marines, which was 
always the case pre-9/11--post-9/11. But that gate actually had 
security, but other bases did not.
    It is hard for me to believe that outside of the panic that 
this town always gets in when there is a rush to do something 
or being perceived as doing something, that much of this was 
really urgent as much as it is window decoration.
    But even saying, okay, it was urgent, you know, September 
12, 2001. But to me, I am flabbergasted that we would still be 
saying urgent and compelling would be a reason to use sole 
source.
    General Kicklighter. We certainly would agree with you. We 
are very concerned about the sole-source contracting. There are 
cases that it makes sense, but they should be rare and the 
exception rather than the rule. We will certainly be glad to 
look into this issue and find out why we are still using that 
at this late date. We agree with you. We should be a free and 
open competition.
    Mr. Kingston. I don't know if this comes into your 
jurisdiction or not, but illegal aliens going on military post 
bases, is that something that you have concern about, because--
--

                 Control of Base Access to Contractors

    General Kicklighter. We are concerned about the security of 
all our bases, and if illegal aliens are going on--or if any 
criminals are going on, as pointed out by Congressman Dicks, we 
are concerned about that and something we should look into if 
we find that is a problem.
    Mr. Kingston. The President, by executive order, did sign 
an executive order last year that said that people who have 
employees on military bases need to verify their Social 
Security numbers, use E-Verify. Are you familiar with that 
executive order?
    General Kicklighter. I am not, personally. Are you?
    Mr. Kingston. I think it was in August.
    General Kicklighter. We will certainly look that up.
    Mr. Kingston. Yes. If you could find out about it and tell 
me how that has worked, and if that is something we need to do 
by law in Congress, to expand on it or shore it up or correct 
it, I think we would be interested in it, because we have tons 
and tons of contractors coming in and maintaining the building, 
cutting the grass, picking up the laundry, serving food, all 
kinds of things like this, and the Social Security numbers of 
their employees aren't verified consistently.
    General Kicklighter. Let me just add one comment, and I 
will stop. But one thing we are doing that we hadn't mentioned 
earlier is looking at control and accountability of contractors 
in Southwest Asia, particularly in Iraq and Afghanistan. We are 
trying to help everybody get their arms around how many 
contractors are there and should they be there?
    The way we are approaching it is through the CAC cards and 
making sure that they are legitimate, they should have them, 
and they should be there. If they are not, we will recommend to 
their commanders that they not let them have access. That is 
ongoing as we speak.

                      Contractors and Military Law

    Mr. Kingston. Another question about Iraq and Afghanistan. 
Are those contractors subject to military laws or civil laws? 
You know, there is a criticism that they are outside military 
law because of conduct or whatever.
    Mr. Beardall. If they are U.S. contractors, then they are 
subject to our laws as well. Now, getting them back to the 
States may be the more problematic issue.
    In the case that we are talking about that keeps building, 
one of the main subjects is an American citizen has a home in 
the States but he lives in Kuwait and has not come back, and so 
that may be the problem. But, no, we can prosecute in Federal 
district court, crimes committed over there by U.S. citizens 
against Iraqis.
    Mr. Dicks. Will the gentleman yield for a very brief point, 
very brief? Are the laws adequate to deal with these 
contractors?
    Mr. Beardall. Yes, sir.
    Mr. Dicks. In an overseas context?
    Mr. Beardall. It is the same violation whether it occurs 
over there or back here. False claims, bribery, theft, 
corruption all of those are provided for by U.S. statute and 
prosecuted.
    Mr. Dicks. What about the Blackwater situation where they 
are involved in some kind of almost combat in protecting 
people. Is that covered adequately?
    Mr. Beardall. Well, in the case of Blackwater, if you are 
talking about Blackwater injuring or killing civilians, that is 
really then a matter for the Iraqis, because there is no crime 
against the United States by Blackwater killing citizens of 
another country.
    The Chairman. Since that incident, the Defense Department 
has been more clear on rules for engagement for contractors.
    General Kicklighter. Correct.
    The Chairman. Let me just say and wrap this thing up, we 
don't want to go too far here where it costs us more money. 
Sometimes you can standardize things to the point where you 
have competition, and it costs more than it did otherwise.
    General Kicklighter. Yes, sir.
    The Chairman. We want a reasonable recommendation and see 
what this Committee can do. We are going to have Mr. Young over 
and Tina over, because they control this, and ask them if they 
are implementing these plans. Give us some advice and we will 
work on it. Thank you very much.
    Mr. Bishop. Mr. Chairman, will you yield for a second on 
that question?
    The Chairman. A second?

                           A-76 Competitions

    Mr. Bishop. Yes, sir. The Federal employees complain that 
when they are doing an A-76 contract, outsource, that the 
contractor has a right to appeal it, but the employees 
themselves don't. And could we get the Inspector General to 
make a recommendation as to whether or not it would be fairer, 
in the best interest of overall efficiency and cost, if the 
appeal rights were equal on both sides?
    The Chairman. Do you understand the question?
    General Kicklighter. I basically do, but I will talk to him 
right after the hearing.
    The Chairman. I am not sure I understand what the gentleman 
wants, but we will try to work it out.
    General Kicklighter. I will stay with you, sir.
    The Chairman. Thank you very much. The Committee stands 
adjourned.
    [Clerk's note.--Questions submitted by Mr. Murtha and the 
answers thereto follow.]

     IG's Actions To Improve Contract Management and Accountability

    Question: The Committee added $48 million to the 2008 budget 
request in an attempt to improve accountability and management of 
contracted services. The funds were added for more robust staffing of 
contractor management and oversight personnel. Funding was added as 
follows:
                                                         ($ in millions)
Defense Contract Audit Agency...........................            + 10
Defense Contract Management Command.....................            + 14
Defense Inspector General...............................            + 24
                    --------------------------------------------------------
                    ____________________________________________________
Total for Improved Management and Oversight.............            + 48

    The DoD IG has the responsibility to improve contract management 
and oversight. The Inspector General's Act of 1978 requires U.S. 
Federal IGs to:
          ``. . . provide leadership and coordination and recommend 
        policies for activities designed (A) to promote economy, 
        efficiency, and effectiveness in the administration of, and (B) 
        to prevent and detect fraud and abuse in, such programs and 
        operations . . .''
    Mr. Kicklighter, of the $24 million provided to the DoD IG by the 
Committee to improve contractor oversight, how much has the DoD IG 
obligated?
    Answer: The additional funding was allocated within the agency to 
cover increased costs related to the increased hiring which translated 
to more FTEs; higher-than-budgeted pay raise; NSPS performance bonuses; 
increases in travel, communication, training, supplies, start-up 
equipment related to new hires; other fixed cost increases for rent and 
O&M minor construction at field locations, and additional GWOT-related 
premium pay and travel costs.
    As of March 25, 2008, we have obligated 47.7% of the total program 
funding, $113.940 million out of $239.089 million (total includes 
transferred counter drug funding). An additional $2.4 million (1%) is 
in commitment status. Payroll costs are increasing as new hires come on 
board. Current projections are the majority of new hires for 
Investigations and other mission areas should be brought on board 
during third quarter. A significant element of the Audit hiring 
strategy targets college recruitment so that a significant proportion 
of Audit new hires will come on board during the third and fourth 
quarters.
    We are deferring the majority of equipment purchases until the 
enactment of the GWOT emergency supplemental funding. The GWOT request 
includes $4.394 million for the OIG. If we do not receive supplemental 
funding we will have to cover the incurred costs ($2.6 million to date) 
for GWOT reviews within our current funding.
    Question: How is the DoD IG planning to utilize the additional 
funds provided by this Committee?

------------------------------------------------------------------------
                                     FY 2008 Estimate  (in $ millions)
                                  --------------------------------------
                                       PB08       Revised       Delta
------------------------------------------------------------------------
 Personnel Comp/Benefits.........      169,011      183,623       14,612
 Travel..........................        7,515        8,714        1,199
 Transportation..................          446          706          260
 Rent............................       16,312       17,948        1,636
 Communications/Utilities/Other..        2,679        3,172          493
 Printing........................          107          200           93
 Other Services..................       12,717       16,089        3,372
 Supplies........................        3,235        3,697          462
 Equipment.......................        2,973        4,846        1,873
                                  --------------------------------------
     Total O&M...................     $214,995     $238,995      $24,000
------------------------------------------------------------------------

    The OIG is proceeding to hire 73 additional criminal investigators, 
auditors, inspectors and evaluators, and required support staff to meet 
the need of increased oversight, particularly enhanced contractor 
oversight. Five additional positions will be filled to meet the OIG 
initiative to improve training for combatant command and joint 
inspectors general. We funded permanent change of station moves, 
travel, communications, supplies, equipment purchases related to the 
new positions.
    We are funding the establishment of field activities at Combatant 
Command locations in Korea and Europe more efficiently support audits 
of contracts, logistics, and funds as force restructure occurs in the 
Pacific theater and as EUCOM transfers responsibilities to AFRICOM.
    The additional funding was needed to support the final approved pay 
raise rate and NSPS performance pay adjustments and bonuses which was 
higher than the budgeted level. We have a significant proportion of 
staff in the Washington Metropolitan Area so the pay raise rate was 
nearly 4.5 percent versus the 3 percent budget rate. If the additional 
funding had not been provided, the OIG would have to reduce staffing 
levels since personnel costs make up over 76 percent of our budget.
    We are funding the GWOT oversight costs out of the core 
appropriation until the additional supplemental funds are appropriated 
by Congress.
    We were faced with other mandatory cost increases for GSA lease 
renewals and office renovations.
    We are also gearing up to respond to the reporting requirements 
contained in the National Defense Authorization Act for FY 2009. 
Specifically, Section 842, investigations of waste, fraud, and abuse in 
wartime contracting processes in Iraq and Afghanistan requires a series 
of audits.
    Question: How has the DoD IG reached out to the Services to make 
them aware of the contract management and oversight help that you can 
provide? Please be specific.
    Answer: DoD IG participates in various joint planning groups with 
the Services and GAO including a planning group on contracting and 
oversight to share ongoing and planned audit coverage. In addition, 
Program Directors conduct research on planned areas for future audit 
coverage and reach out to Senior Service officials for areas of 
interest. In addition we participate in the APEX Orientation. APEX is 
designed to improve executive job effectiveness through enhanced 
leadership skills and decision-making strategies. During the APEX 
orientation we traditionally provide a briefing regarding our office 
the general responsibilities of Senior Executive Service Members. In 
addition, each announcement letter issued by Audit also solicits 
additional areas that management believes should be covered.

                  Federal Employee vs. Contractor Mix

    Question: Mr. Kicklighter, how does DoD define a proper balance 
between federal and contractor employees in performing DoD missions?
    Answer: The DoD IG has no input into the decision making process 
involving contracting for services versus hiring Government employees 
to do the work of the Department. However, when making a determination 
regarding the use of contractor support the following needs to be 
considered.
    <bullet> Is the requirement short-term (contractor) or a long-term 
recurring requirement (in-house) to meet the mission needs?
    <bullet> Is the contractor support cost-effective?
    <bullet> Is the requirement inherently Governmental or closely 
related to an inherently Governmental function?
    <bullet> Does management and control of the program need to remain 
in the hands of full-time Government officials clearly responsible to 
the President and the Congress?
    <bullet> Can the Department provide adequate surveillance over 
contractor personnel?

                 Growth in Contractor Provided Services

    Question: DoD's obligations on service contracts rose from $92 
billion in fiscal year 1996 to $183 billion in fiscal year 2006 (per 
2008 President's Budget).
    Is the transition to contractor provided services the result of a 
strategic decision?
    Answer: For the past 20 years DoD has applied civilian manpower 
ceilings and not funding ceilings on the Services that basically allows 
the Services to hire contractors but not Government employees to 
perform the functions. In fact, for many years the DoD manpower 
ceilings were actually being cut and there have been many initiatives 
designed to contract for tasks readily available in the commercial 
marketplace.
    Question: How does the DoD achieve oversight of contracting that is 
accomplished at field locations around the world?
    Answer: The majority of DoD contract dollars are not awarded at 
field locations. Historically, the IG has tried to align resources with 
highest dollar awards to get the biggest bang for the buck for the 
taxpayer with our limited resources.

                           OMB Circular A-76

    Question: The Executive Office of the President's policy on the 
performance of commercial type activities, OMB Circular A-76, states: 
``The longstanding policy of the federal government has been to rely on 
the private sector for needed commercial services. To ensure that the 
American people receive maximum value for their tax dollars, commercial 
activities should be subject to the forces of competition''.
    What is the definition of ``commercial type activities''? What 
should it be?
    Answer: The A-76 policy statement provides the following definition 
for ``Commercial Activity'':
          A recurring service that could be performed by the private 
        sector. This recurring service is an agency requirement that is 
        funded and controlled through a contract, fee-for-service 
        agreement, or performance by government personnel.
    Under the A-76 policy statement, the Government must characterize 
the activities that are performed by Government personnel as commercial 
activities that could be performed by contractors or inherently 
governmental activities that must be performed by Government personnel. 
As noted in the A-76 policy statement:
    An inherently governmental activity is an activity that is so 
intimately related to the public interest as to mandate performance by 
government personnel. These activities require the exercise of 
substantial discretion in applying government authority and/or in 
making decisions for the government.
    In contrast, an activity may be provided by contract support where 
the contractor does not have the authority to decide on the course of 
action, but is tasked to develop options or implement a course of 
action, with agency oversight.
    Additional guidance as to what could be considered a ``commercial 
service'' is set forth in the Federal Acquisition Regulation (``FAR''). 
For example, the definition of ``commercial item'' set forth in FAR 
2.101 includes the following:
          ``Commercial item'' means--
          (6) Services of a type offered and sold competitively in 
        substantial quantities in the commercial marketplace based on 
        established catalog or market prices for specific tasks 
        performed or specific outcomes to be achieved and under 
        standard commercial terms and conditions.
    The definition contained in FAR 2.101 of ``inherently governmental 
functions'' also indicates that:
          (2) Inherently governmental functions do not normally include 
        gathering information for or providing advice, opinions, 
        recommendations, or ideas to Government officials. They also do 
        not include functions that are primarily ministerial and 
        internal in nature, such as building security, mail operations, 
        operation of cafeterias, housekeeping, facilities operations 
        and maintenance, warehouse operations, motor vehicle fleet 
        management operations, or other routine electrical or 
        mechanical services.
    FAR 7.503(d) provides a list of examples of functions generally not 
considered to be inherently governmental functions. FAR 7.503(d) 
further states that the list is not all inclusive and notes that 
services and actions that are not considered to be inherently 
governmental functions may approach being in that category because of 
the nature of the function, the manner in which the contractor performs 
the contract, or the manner in which the Government administers 
contractor performance.
    Question: Does DoD, in making decisions to contract for services, 
have sound decision-making processes to ensure that savings will result 
from using contractors to meet a mission requirement?
    Answer: Recent coverage by the DoD IG has found a variety of 
problems related to contracting for services. Areas where our reports 
have found problems include a lack of justification of price 
reasonableness and inadequate surveillance of contractor performance.
    Question: If not what should be done by Congress to get DoD to put 
such safeguards into place?
    Answer: Our audits have made recommendations for various 
improvements in contracting for services. Congress and DoD have taken 
actions based on our reports to improve safeguards. Our audit plans 
include additional audit coverage of service contracts. This coverage 
should disclose strengths or weaknesses in contracting and provide a 
basis for future recommendations for further improvements.
    Question: What risks does DoD face with its growing reliance on 
contractors, and what steps can Congress take to reduce contracting 
vulnerabilities especially in contingency situations, such as has 
occurred in Iraq when large amounts of money flow quickly to address 
pressing needs?
    Answer: Tradeoffs include balancing the need to retain a staff of 
exceptionally strong executives, scientists, engineers, and acquisition 
officials within DoD versus obtaining the expertise from contractors. 
Another tradeoff is the degree of control retained by the Government. 
The Government loses some degree of control when functions are 
contracted out.
    The following things need to be considered when making decisions 
about using contractor support.
    <bullet> Is the requirement short-term (contractor) or a long-term 
recurring requirement (in-house) to meet the mission needs?
    <bullet> Is the contractor support cost-effective?
    <bullet> Is the requirement inherently Governmental or closely 
related to an inherently Governmental function?
    <bullet> Does management and control of the program need to remain 
in the hands of full-time Government officials clearly responsible to 
the President and the Congress?
    <bullet> Can the Department provide adequate surveillance over 
contractor personnel?
    The John Warner National Defense Authorization Act of 2007 (Public 
Law 109-364) directed the DoD to convene a panel of senior leaders to 
conduct Department-wide reviews of progress to eliminate areas of 
vulnerability of the defense contracting system that allow fraud, 
waste, and abuse to occur. The panel was to review the report of the 
Comptroller General required by the National Defense Authorization Act 
of 2006 (Public Law 109-163) related to these areas of vulnerability, 
and to recommend changes in law, regulations, and policy deemed 
necessary.
    The DoD IG representative is a member of the overall Panel on 
Contracting Integrity, a member of the subcommittee on Adequate 
Pricing, and is Chairman of the Procurement Fraud Indicators 
subcommittee. The Procurement Fraud Indicators subcommittee is 
identifying what these indicators are and how they should best be 
addressed and used for the contracting/acquisition workforce.

          Database To Track the Number of Deployed Contractors

    Question: In January 2007, DoD set up a database called 
Synchronized Predeployment and Operational Tracker (SPOT) to identify 
and track for DoD the number of deployed contractors. It is not clear 
if DoD is able to track the number of the private sector contractors 
who are deployed.
    Mr. Kicklighter, can DoD track the number of deployed contractors 
and subcontractors?
    Answer: We do not currently know the number of deployed 
contractors. On January 28, 2008, DoD issued guidance on a time phased 
implementation approach for input of contractor data into SPOT. All 
contractor personnel employed on any DoD-funded contracts being 
performed in Iraq is due May 1, 2008. All contractors employed on DoD-
funded contracts being performed in support of contingency operations 
anywhere in the world is due September 30, 2008. Also, the requirement 
excludes (1) personnel hired under contracts that do not exceed $25K 
and for which the period of performance is less than 30 days; and (2) 
Embarked contractor personnel, while afloat, that are tracked by the 
Diary Message Reporting System.
    On January 24, 2008, we announced and began an audit of controls 
over the contractor common access card life-cycle in SWA. Our ongoing 
audit of contractor common access cards will determine whether controls 
over common access cards provided to contractors are in place and work 
as intended. Additionally, by using the common access cards' data 
repositories, hopefully, we will also be able to identify the number of 
contractors forward deployed to Southwest Asia. We will provide the 
committee with a copy of this review upon completion.
    Question: Can DoD track the nationalities of contractors and 
subcontractors performing service contracts?
    Answer: We do not currently know the nationalities of all 
contractors and subcontractors performing service contracts.
    Our ongoing audit of contractor common access cards will determine 
whether controls over common access cards provided to contractors are 
in place and work as intended. Additionally, by using the common access 
cards' data repositories, hopefully, we will also be able to identify 
the number and nationality of contractors forward deployed to Southwest 
Asia. We will provide the committee with a copy of this review upon 
completion.
    Question: Can DoD track the contractors and subcontractors 
performing service contracts who carry weapons?
    Answer: We cannot currently track the contractors and 
subcontractors performing service contract who carry weapons.
    Our ongoing audit of contractor common access cards will assist the 
department in identifying all contractors, including those on service 
contracts, in Southwest Asia. That will enable the forward-deployed 
commanders to populate the SPOT database with contractor data such as 
those contracts authorizing contractors to carry weapons.

    [Clerk's note.--End of questions submitted by Mr. Murtha.]
                                       Wednesday, February 6, 2008.

                             F-15 AIRCRAFT

                               WITNESSES

GENERAL T. MICHAEL MOSELEY, CHIEF OF STAFF, UNITED STATES AIR FORCE
GENERAL JOHN D.W. CORLEY, COMMANDER AIR COMBAT COMMAND

                              Introduction

    Mr. Murtha. The hearing will come to order. Do we have a 
motion, please.
    Mr. Frelinghuysen. Mr. Chairman, I move that the hearing be 
closed due to the nature of the subject under discussion.
    Mr. Murtha. Without objection, so ordered.
    We want to welcome the chief to this hearing. Everybody in 
the Air Force must be F-15 pilots, because when we asked for F-
15 pilots, they all held up their hands, some of them. So we 
were talking about maintenance problems, about the crew 
chiefs', in particular, concern about the maintenance, not only 
F-15s, but the experiences we have had. I was out at Nellis and 
I heard the same thing. So we are interested to hear about 
alternatives, about how we are going to fund these things and 
get rid of F-15s, so that this Committee can help you with the 
supplemental.

                Summary of Statement of General Moseley

    General Moseley. On behalf of our nearly 670,000 Airmen, I 
want to thank you for the opportunity to be here today to talk 
about our inventory of F-15 Eagle air superiority fighters. The 
proximate cause of today's discussion is the catastrophic 
breakup last November of an F-15C during a routine flight 
belonging to the Missouri Air National Guard. We lost the 
plane. The pilot managed to eject safely. Although he was hurt, 
he survived. I am here today with an expert on the subject, my 
friend, John Corley who commands our Air Combat Command, for 
discussion on returning our pilots and their aircraft to their 
vital role of national defense.
    This is an emotional issue for me on a variety of levels. 
Since 1976, I have flown F-15s and I have been around them for 
decades. I am also the father of an F-15C pilot. And as Airmen, 
we trust these airplanes and have faith that the weapons 
systems we fly will hold together. After this accident, our 
conviction is a bit shaken, so we are working this very hard. 
So as the pilot of this particular aircraft and the parent of a 
pilot, it is important for me to emphasize that the United 
States Air Force remains committed to providing our young women 
and men aircraft that are safe to fly to the limits of the 
design specifications.
    We realize that flying is a dangerous business, always has 
been, always will be. And because the air superiority mission 
is arguably most physically demanding, we know there is extra 
risk associated with it. We mitigate that risk with an aircraft 
that, when designed in the 1960s, was the product of the finest 
engineers in the world and is still cared for today by Airmen 
who are the best maintainers in the world. These Airmen perform 
miracles every day. Aging aircraft issues will continue to 
challenge even them with the unexpected problems that 
inevitably accompany an inventory that is wearing out.
    The bigger picture, the F-15 Eagle's longeron problem, has 
caused us to ground nearly 40 percent of the aircraft that are 
primarily responsible for America's air superiority and 
fighters that guarantee America's air superiority.
    Meanwhile, existing and emerging opponents are not sitting 
idle. The air superiority environment in which they operate is 
becoming increasingly stressful. New weapons and jammers give 
opponents unprecedented parity. In some cases, these air-to-air 
and surface-to-air capabilities make legacy platforms like the 
F-15 obsolete. These events demand our aircraft generate and 
sustain performance that three, four decades ago we didn't 
anticipate.
    Just to survive, you have to fly the F-15 at the limit of 
its capabilities. That, in turn, is going to mean surprises. We 
simply don't know what is going to fail next.
    Mr. Murtha. Say that again.
    General Moseley. We operate the F-15 to meet the existing 
threat at the maximum level of its capability.
    Mr. Murtha. So what does that mean?
    General Moseley. As the aircraft ages, we simply don't know 
what is going to fail next.
    Mr. Murtha. So you are not talking about the systems; you 
are talking about the structural failure of the airplane 
possibility?
    General Moseley. Yes, sir. Now, we are confident we are not 
flying an unsafe airplane, nor would we put people into unsafe 
airplanes. That is a given. But as we look at the threats and 
this aging airplane, Mr. Chairman, we just don't know what is 
going to break next on it. So the once impenetrable field is 
now beginning to crack. Unfortunately, we have similar stories 
we could share about other aircraft, but today's topic is the 
F-15. So, recapitalization and looking at modernization are the 
things that General Corley and I worry about. And we have plans 
and programs in place to move us in that direction. And, more 
than you will ever know, we appreciate the Congress, and in 
particular, this committee's consistently strong support for 
our Airmen to fly these airplanes and maintain these airplanes 
and serve as key members of the joint team, alongside Soldiers, 
Sailors, Marines and Coast Guardsmen.
    Now, sir, if you will allow me, with more details about the 
2 November F-15 mishap and about our ``Get Well'' plan, I offer 
General John Corley--also an F-15 pilot and Commander of Air 
Combat Command.

                              F-15 Mishap

    General Corley. Thank you, Chief. And thank you, Mr. 
Chairman, in terms of the opportunity to be with you today 
along with the distinguished Members of Congress.
    As the Chief alluded to, F-15s really primarily have 
proudly watched over this Nation in terms of air superiority 
for more than three decades now. That remains kind of 
fundamental for the air defense and air dominance for the 
United States. Its previous durability was pretty much 
unmatched and had been unmatched for more than 6 million hours 
worth of flying time. But on 2 November--prior to 2 November, I 
would say--F-15 pilots were always confident that their 
aircraft was not going to snap in half. We have got to restore 
that confidence in terms of their tools they use to defend this 
Nation, sir. So here are the facts on the accident, sir.
    On 2 November, an F-15C out of St. Louis and our Missouri 
Air National Guard suffered catastrophic structural failure. It 
broke apart in flight. One of the first reports back to us was 
we had two major parts of this airplane separated by about half 
a mile, with other parts spread across the landscape a half 
mile wide by about three miles long. We are just extremely 
grateful, as the Chief said, that the pilot was able to get out 
of the airplane. He did suffer some fairly severe injuries, a 
dislocated shoulder, broken bones, surgery, some blood 
problems, some other related damage. He is lucky to be alive, 
sir.
    The incident, I guess, does highlight the risks that are 
inherent in terms of our fighting fliers, and it is a risk that 
we try to manage in the defense of this Nation and our pilots 
manage it every day. But that 2 November incident, sir, served 
us up a notice. The notice is: What happens when these aging 
fleets add risk to our ability to be able to perform the 
mission that this Nation asked of us?
    On the 3rd of November, right after that accident, we stood 
down the F-15s; a couple of days after that, I convened an 
accident investigation team so we could get at the root causes 
of this particular mishap. And from the beginning, we wanted to 
be transparent in terms of what was the cause.
    Really, and I would say it was a partnership in the 
investigation of the best, as far as minds, of our F-15 
Logistics Center, the Air Force Laboratory, the Boeing 
Corporation, and academia all coming together to find out what 
caused this problem. We spent over 5,000 hours sifting through 
the wreckage we found spread across; and the accident team did 
find a smoking gun for this particular airplane, 80-0034. It 
was a four-inch-long fatigued crack in the longeron.
    Now, a longeron is, really, it is the structure of the 
airplane. It is the backbone of the airplane. It is what the 
ribs connect to. But in this case, this aging airplane had 
brittle bones in it, and one of those brittle bones snapped. 
Those longerons connect the fore and aft sections of the 
airplane, and in this case this longeron and fatigue crack was 
in a place where it was about 60 percent too thin. Over time, 
that stress, that twist, that pulling, that pushing pulled in 
an area causing a crack. The crack grew until it eventually 
snapped, and so did this particular airplane.
    Now, following the finding of what was at the root of this 
airplane accident, we took that accident team out and debriefed 
the recommendations of the Logistics Center, and we released 
259 of the 441 A through D model F-15s back to flight. We put 
them back in the air. That left us about 40 percent. We did 
not--because as we inspected those airplanes, 40 percent were 
not to blueprint specification. And before we released them to 
flight, sir, we wanted to make sure, one, no cracked longerons; 
two, that the longeron thickness met specification; three, that 
there were no rough spots in those longerons that connect the 
ribs of the airplane.
    Now, the 40 percent that did not meet those criteria, 
including nine other airplanes that we actually found cracks 
in, cracks that would have also resulted in broken longerons 
and failed catastrophic airplanes, those are still pending 
further analysis. In fact, there is a meeting this week, sir, 
for all the engineers to come together to try to determine what 
can we do with that other 40 percent of the fleet, that other 
162 airplanes that remain grounded.
    Operational impact to the ground, sir, is significant. 
These units are trying to get requalified right now with the 
limited number of airplanes they have. We are focused on safely 
returning to flight and focused next on homeland defense. And 
the third thing is meeting those war plans and meeting other 
training that is necessary. But it is going to take us months 
to get back, sir.
    Until those airplanes are returned or we have a way to meet 
that mission, we use other airplanes in the inventory: F-16s, 
F-22s, even Canadian CF-18s, to support homeland defense 
requirements. There is a cascade effect when you stand down 
that many airplanes, sir, that cannot meet their mission. For 
two plus months we had the entire inventory of F-15As through 
Ds stand down, and now we only have 60 percent that can fly. No 
one could have predicted this particular incident.
    [The joint statement of General Moseley and General Corley 
follows:]

[GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]

    Mr. Murtha. Go back and say that again. Give me an idea of 
how it is, because you can't fly airplanes, is there a threat 
to our security?

          Alaskan Air Defense Identification Zone Penetration

    General Corley. Yes, sir, there is. Maybe coincidental, 
sir, but on 2 November, this airplane broke in half; now, on 6 
November, three Bear TU-95 aircraft penetrated the Alaskan Air 
Defense Identification Zone. Maybe coincidental, sir, but what 
I find unusual about that is this time of year, Russian long-
range aviation goes home for the winter because they fly out of 
places like Tich-I up close to the Arctic Circle and normally 
they are not flying. 2 November, they turn around and on--6 
November. Then they turned around towards the end of November 
and again on the 5th of December.
    Mr. Murtha. So what intercepted them . . . F-22s?
    General Corley. Yes, sir. On the 5th of December and the 
22nd of November, F-22s went up there and intercepted.
    Mr. Murtha. They turned around when they saw the F-22s?
    General Corley. Correct, sir. Once they were intercepted on 
the 6th of November by the Canadians, they turned around and 
went back home.
    General Moseley. Mr. Chairman, remember, under NORAD 
treaty, the Canadians and the United States do these things 
together. And so the ability from Canadians to help us when the 
F-15s were grounded is a testimony to this partnership we have 
had for more than 50-plus years. So the fact that the Canadians 
were able to do this is a testimony to standardized training. 
So it was a good thing to have partners. But it was those F-22s 
and CF-18s that did this since the F-15s were grounded.
    Mr. Murtha. And what does your intelligence indicate to you 
why the Russians did this?
    General Corley. Sir, I don't have that intelligence. I just 
find it remarkable that literally within days they had deployed 
assets forward, or began to make penetrations, which is totally 
out of character for this time of year. It is not just the 
operational impact or the impact on the ability to perform the 
impact. When I look out there at the young maintainers, that 
one has a worry for me, too.

                     F-15 Maintenance Requirements

    As I look just in the last 10 years, the number of hours we 
do in terms of maintenance for every flying hour has gone up 
136 percent. Just in the last five or six years, the cost per 
flying hour to maintain these F-15s is up 87 percent. Our F-15s 
are requiring more maintenance. We are averaging over 800 
additional hours every time we put one of those F-15s into 
depot status.
    Mr. Murtha. They are requiring 800 additional hours?
    General Corley. 800 every time those planes go into the 
depot.
    Mr. Murtha. This is before the catastrophic failure.
    General Corley. Yes, sir. And it shows you the systemic 
problems associated with trying to deal with and manage this 
old fleet, the number of times, or maybe the frequency to get 
at this one sir, in terms of maintenance actions. That 
frequency says I now have problems occurring at twice the rate 
of what they were. For every day in the fleet of F-15s, I am 
getting a demand of three more engineering demands into the 
system to try to solve a problem I didn't know about before. 
Those are just some examples of what we are doing in terms of 
the maintenance of these aircraft to try to keep them back in 
the air, redesigning additional patches that go onto the 
airplane, try to put in new doublers on parts of the airplane.
    So in conclusion, sir, we are sustaining this fleet to the 
best that we can, but right now we are only sustaining about 60 
percent of the fleet. And I hope to be better informed from the 
engineers after their meeting this week.
    These F-15s are trying to regain their pilot combat ready 
status, as I said, safely take off and land, then focus on the 
air sovereignty alert to protect the homeland, then move 
forward to their war on terror missions. But with only 60 
percent of the airplanes to generate the sorties, I am woefully 
behind on getting my pilots back up to speed. But it will take 
months and months to regain that level of proficiency and 
competency to do their tasking, sir.
    Mr. Murtha. Mr. Frelinghuysen.

                      Remarks of Mr. Frelinghuysen

    Mr. Frelinghuysen. Thank you, Mr. Chairman. Thank you 
gentlemen for what you do. Sir, as I understand, the Canadians 
having met our needs where we were not able to put up aircraft 
to do what we traditionally did to protect our homeland, I 
assume, as complementing them?
    General Moseley. Sir, as a complement to them, though the 
numbers of airplanes they had to support us were small; they 
did what they could do. We used F-22s to fill in the vacancies 
on the F-15s in Alaska. And in Alaska we could have used F-16s, 
but the water temperatures and the conditions operating out of 
Alaska take you back to a bigger airplane with twin engines. So 
the F-22s were able to fill in, and the Canadians were able to 
help.
    Mr. Frelinghuysen. So that the F-16s weren't in there. They 
didn't scramble.
    General Moseley. We use the F-16s out of New Jersey and a 
variety of other places.
    Mr. Frelinghuysen. The question here, when you talk about 
crack and snap, these are not words we like to associate with 
any situation where your people are doing some pretty 
remarkable work.
    General Corley. Sir, could I add onto that. When I talk 
about a cascade effect.
    Mr. Frelinghuysen. That is sort of where I am going. 
Because if you have all these planes grounded, and if the F-16 
should fill the gap, the question might be, that obviously puts 
stress not only on those pilots but on those planes.
    General Corley. Absolutely. As I look across these units, 
you just look at Duluth in terms of the Air National Guard. We 
immediately moved them to pull some of this homeland defense 
responsibility, and then we moved them again. But the problem I 
am bumping up against is those same F-16s that are scheduled to 
go to Iraq and perform in Operation Iraqi Freedom.
    Mr. Frelinghuysen. And we are told and we know that those 
planes are being used to their maximum. I mean, pushing their 
hours way beyond whatever is normally.
    General Corley. And today we have got 63 of our Block 40 F-
16s with cracks in the bulkheads. So we are increasing the rate 
that we are utilizing F-16s to backstop an F-15 fleet so we are 
putting additional stress on those aircraft at a faster rate 
and those two are starting to show systemic signs.
    General Moseley. Congressman, could I----
    Mr. Frelinghuysen. This cascade issue. Yes, please.
    General Moseley. Sir, I tell you, this also goes without 
saying with this committee, members and staff, but I think it 
is useful to reinforce that the way the Air Force has done 
business over the years with our Air National Guard, Air Force 
Reserve and active duty, it is an imperceptible plug and play 
with our units because we hold all our units to the same 
training standards, to the same evaluation standards.
    So the ability for an F-16 unit to backfill another F-16 or 
an F-15, whether it is Guard, Reserve or active, this is the 
payoff that we get for 50 years of integration. And those units 
in Duluth and St. Louis are Guard units. We don't even think of 
the differences in this when it comes to this air sovereignty 
thing. This is an equal plug-and-play relative to the people 
who do this. So this is another testament to the way we train. 
The same with the Canadians.

                          Longeron Inspections

    Mr. Frelinghuysen. Just on the maintenance issue here. You 
never defer maintenance, obviously, if you are putting lives at 
risk. But has there been deferred maintenance in one sense? I 
mean, the potential for catastrophe in this Missouri situation, 
that was--then you went out and found another 100-plus planes 
with the same defect?
    General Moseley. Sir, let me answer that, and then I will 
let General Corley get back to you. Sir, all the engineering 
data that we had on that part was it would last four times 
longer than the life of the airplane. That part also lives in a 
region of the airplane that you have to keep painted and you 
have to keep sealed, because that is where the canopy closes 
and the pressure seal on the canopy is on that part. So if 
historically we have been told that part won't fail and you 
can't see the cracks, then there has been no inspection on that 
part. Now that we know that one failed, General Corley and our 
experts and the engineering experts from Boeing have been 
helpful----
    Mr. Frelinghuysen. What do you do, peel back that area?
    General Corley. Yes, sir.
    Mr. Frelinghuysen. And I just wonder, a lot of these 
planes, the older ones were inherited from a previous company. 
Is that right?
    General Corley. That is correct.
    Mr. Frelinghuysen. And I assume those designs are all 
public information and have been reviewed.
    General Corley. We asked the accident investigation board 
to go back and look at the records the best we could. Now, the 
reality is, when we talk about airplanes that were put together 
30 years ago, the recordkeeping, the computerized data bases, 
of course, did not exist. But we continue to dig through those 
files on microfiche at the present time.
    But your point is, this backbone, this longeron was 
perceived to have a life in excess of 32,000 hours. This one 
snapped at 5,800 hours. This longeron where the cracks were, 
these can be microscopic and imperceptible cracks. In fact, 
what we have to do is remove the paint, remove the epoxy, and 
then we use dye penetrant, which uses a black light fluorescent 
way to get at it. And we also use other nondestructive 
techniques.
    Mr. Frelinghuysen. So you x-ray the wings? Or how you do 
describe?
    General Corley. We x-ray and use other ultrasound 
techniques. But every time we do that adds more hours worth of 
maintenance between flight hours. But we are not going to take 
the risk, if you will, of something that could result in a 
catastrophic failure and loss of aircraft or loss of one of our 
pilots. We do not defer critical maintenance.
    Mr. Frelinghuysen. I am sure you don't.
    General Corley. No, sir. But I will also tell you, on this 
fleet we are now up to 1,763 time compliant technical orders, 
which are problems that we know about at present. Those are 
modifications or problems that we have, including 56 just about 
the structures, sir.
    Mr. Frelinghuysen. It is horrifying to a layperson.
    General Moseley. Congressman, this airplane has been a part 
of my life for my entire career. The same with General Corley. 
It is a part of my son's life. I love this airplane, but she's 
a 1960s design, the production capabilities are 1970s 
technologies. Thirty years ago we made decisions on this 
airplane that have served us very well. This airplane has done 
everything that we asked the aircraft to do 30 years ago. And 
so finding things like this now with the number of time 
compliance technical orders is not that far-fetched when you 
think about an airplane built in the 1970s, or production 
facilities in the 1970s with a 1960s design.
    Mr. Frelinghuysen. So in some ways, thank God there wasn't 
loss of life.
    General Moseley. They built a good airplane, and it is a 
testament to the people who designed and built the F-15 that it 
has lasted this long. But now things are beginning to happen, 
and we don't know what is going to happen next. I guess that is 
the simplistic way to say that.
    Mr. Frelinghuysen. Thank you.
    Mr. Murtha. Mr. Dicks.

                             Aging Aircraft

    Mr. Dicks. I think this is just a very clear example of a 
problem we have all across the Air Force; that is, aging 
aircraft. And we are not replacing these older planes as 
comprehensively as we would like because of financial 
considerations. Isn't that the bottom line here, General? We 
need to be modernizing, and we are not getting it done because 
of the war and everything else that we are doing.
    General Moseley. Sir, part of the three priorities I have 
had since day one of becoming Chief of Staff is to fight and 
win the war on terrorism; take care of our people; and 
recapitalize, to get at the things that you are talking about. 
We have done everything we can do inside the Air Force and the 
Department of Defense to recapitalize as best as we can.
    Mr. Dicks. Now, isn't it true that the F-15Es all have been 
inspected and returned to service?
    General Moseley. Yes, sir.
    Mr. Dicks. So the newer airplanes have held up.
    General Moseley. F-15Es have a different structure from F-
15C Eagles.
    Mr. Dicks. Also, I have from my staff that there were four 
incidents last year. Is that correct? The ones I have here are 
May 30, a Missouri Air National Guard F-15 crashed in 
southwestern Indiana during a training mission with the Indiana 
Air National Guard. June 11, an F-15C fighter collided in mid-
air with an F-16C and crashed near Eielson Air Force Base in 
Alaska. And June 26, an F-15 from the Oregon Air National Guard 
F-15 Wing went down in the Pacific Ocean during a training 
mission with another aircraft, killing the pilot. And then, of 
course, the one that you mentioned here today. So what did we 
learn from these other three events?
    General Moseley. Sir, we have lost five F-15s since last 
May. Three of those have been----
    Mr. Dicks. That is right. This other is Missouri, broke 
apart mid air, injuring the pilot. And then Hawaii Air National 
Guard, that is the last one last Friday.
    General Moseley. Correct. The one that broke up in the air 
was the Missouri Air National Guard airplane. We got the pilot 
back. We have lost two other airplanes with apparent--one other 
airplane with apparent flight control issues. We don't know 
what happened to the Hawaiian Air National Guard airplane last 
Friday. The board is investigating that. So while there is no 
connecting tissue to each of these five losses to an aircraft, 
some things that happened that cause us concern relative to 
flight controls and certainly the concern over the aircraft 
breaking up in the air.
    Mr. Dicks. Now, 161; one of these you have set aside for 
further inspection?
    General Corley. 162.
    Mr. Dicks. What is the status of the 162 aircraft?
    General Corley. All have at least one longeron--at least 
one critical portion of the structure that does not meet 
blueprint specification. It is either too thin, too rough, or 
had an undercut, which means it wasn't built properly.
    What are we going to do about that? Today and through this 
week, the best and brightest of minds from an engineering 
perspective are meeting to try to give us an engineering 
assessment about the future life of those aircraft: How long 
will that last? If a crack did develop, how long would it take 
before that crack would propagate? If the crack propagated, how 
long before it would snap that longeron and break that aircraft 
in half?
    Also, sir, to your point about the numbers of airplanes 
capacity is something that I have to worry about. In that 
period of time from about 1975 to about 1990 or so, we were 
buying 250 fighter airplanes a year. Now we buy about a tenth 
of that many. So that does create a bit of a problem as 
airplanes get old and come down and I don't have the new 
airplanes to come on board to replace them.
    Mr. Dicks. Part of the problem is the cost of the new 
planes has been quite expensive?
    General Corley. Or buying them at an inefficient rate I 
would say might contribute to that.
    To your point on what are some of the things that my Chief 
mentioned about loss of control. Difficult to predict, 
difficult to have predictive tools to tell you what part is 
going to break next. But there are some canaries in the mine 
that help you. We have lost one airplane for sure back in May 
because of flight controls. Don't know about this one that we 
lost on the first of February out of Hawaii.
    We know what the pilot said about control of the airplane, 
but we don't know what caused it. But here's what I do know. 
When I go back and look at the last ten years or so, and I look 
back at how often airplanes of this model used to go out of 
control, it was only about two for every 100,000 hours. Now, it 
is five. So I have got ten times the number of airplanes going 
out of control that I had only about a decade ago.
    Mr. Dicks. Now, is there anything you can do in terms of 
maintenance to deal with those kinds of problems? Can you look 
at the flight controls and have you be able to detect what in 
the flight controls is a problem? Or is it a multitude?
    Mr. Murtha. In addition to that, you talk about all the 
airplanes or just about these F-15s when you say ten times?
    General Corley. Just the F-15 and just the F-15 models that 
we are talking about, sir. The A, B, C and Ds.
    General Moseley. And, Chairman, I would add a footnote to 
that. The pilots of today that are flying these airplanes are 
much better than the pilots were 10 or 15 years ago. And I 
include myself in that. They are much more technically capable, 
much more savvy. So the number of aircraft departures I would 
say is not relative to the pilot, it is relative to the aging 
airplane.
    General Corley. That is exactly right.
    Mr. Dicks. We have aging aircraft across the fleet. Our 
tankers are aging. We are hopefully going to do something about 
that. Almost every category of airplanes, you know, we have the 
new C-17, that is one. We are still carrying the C-5s which are 
very old. Some are very old. This is a problem across the Air 
Force. All the airplanes are getting older and older because we 
are not replacing them. So I just worry that we are going to 
have something happen. This could happen with the tankers or it 
could happen with airlift as well. I hope we are inspecting 
those as well. Learning a lesson from this is a problem of 
aging aircraft, and I hope we can get more of these airplanes 
and then better qualities. But I don't know how we do all this 
and spend all this money on the war.
    General Moseley. Congressman, if you remember, we have 
given the committee and we have had a chance to talk to you 
over time about this body of work that we have, this Fleet 
Liability Board that is a group of experts that look at aging 
aircraft. And we have representation from the Navy, from 
industry, and representation from resource labs. We have looked 
at the C-5, KC-135, C-130, A-10, and last week--somewhere in 
the last couple of weeks--I have directed them to take the F-15 
now and go back and do what we did with the older airplanes.
    And it is a wonderful piece of work. It has told us much 
more about the KC-135, the C-5, and C-130. That goes straight 
into depots and maintenance and informs us much better. We have 
also asked Air Force Materiel Command to take two off the line 
and run a fatigue test on an airplane now, because we ran 
fatigue tests on the aircraft early in the their lives.
    So take one off the line and break it so we know what 
breaks would occur in airplanes, and then take another off the 
line and do a complete teardown. General Corley and our Air 
Force Materiel Command have engineers who are going to do that, 
plus the Fleet Viability Board, which will help us understand 
this airplane a lot better. So, sir, that work goes on every 
day, like we did with the tanker, C-5, C-130E and A-10. And 
those are all aging aircraft.
    Mr. Dicks. Again, we have been pointing out, with the lack 
of money in the procurement account and not being able to buy 
enough of the F-22s and delay in getting to the funding to the 
Joint Strike Fighter, the time it has taken to bring this on, I 
mean, this is what we are left with. And I think, as you all 
believe in and I believe in, air superiority is one of the most 
important aspects of our military capability. This has got to 
be a concern. Thank you, Mr. Chairman.
    Mr. Murtha. Mr. Visclosky.

                                Funding

    Mr. Visclosky. Thank you, Mr. Chairman.
    Generals, I want to proceed in the same vein. In the 
testimony you mentioned you don't just have problems with the 
F-15, but I think the F-16 modifications you find cracks in the 
bulkhead. And you talk about the A-10s and we have had the 
conversation. You also said that the remaining F-15s will have 
to be drawn down and replaced by fifth generation fighter 
platforms. How is that reflected in your 2009 budget? Are you 
proceeding with that in your budget?
    General Moseley. Yes, sir. The Fleet Viability Board gave 
us some incredibly useful work ahead on the A-10 as far as 
precision engagement, a modern cockpit, gun, landing gear, and 
wings. So we have that line laid in to take 356 A-10s and give 
them to a level where we can operate them for another decade. 
So the Fleet Viability Board helped us with the A-10.
    On the F-16s, the Block 40/42 version, which is our 
precision attack F-16s, we are seeing cracks in that bulkhead. 
We have redundant paths, so it's not a safety of flight issue, 
but it is causing us more maintenance time. Because the 
bulkheads are cracking, we have to go in and work around that 
so we are not operating aircraft beyond our safety margin. It 
is just an aging aircraft.
    On the F-15, from the 2006 to the 2008 budget, we lost 
resources relative to the F-22 funding line. And so we were 
able in the 2008 President's budget to be able to get a multi-
year approved through the Congress. And we appreciate all the 
help this committee did on getting the multi-year approval. We 
saved 411 million on the F-22. That delivers 28 years. We are 
now, in our world, inside the Department of Defense, we have an 
agreement not to shut the line down on the F-22. We are now 
going to be working inside our Department on the long lead 
items to buy titanium, aluminum, and steel to build more F-22s.
    So our multi-year ends our bridge account. We have to work 
and we are working that inside DoD and I know that Congress 
will help us with some of this. And that opens the door then to 
continue to build F-22s, which is, I think, the challenge you 
are addressing.
    Mr. Visclosky. You are picking up some savings that, your 
part returns from these aircraft because of the additional 
maintenance to the old aircraft that remain. I assume it is 
almost a wash for you, not that much money.
    General Moseley. Yes, sir. The cost for flying aircraft 
goes up, the rates go up. So any savings is eaten up by the old 
airplanes. The same with the KC-135s and the C-5s and the C-
130s. Sir, we have on our books right now retirement of 55 F-
15As and Bs. So in the 2009 time frame, we will begin to retire 
bigger numbers of F-15s to accept more of that risk based on 
more F-22s. So there is a fine line. There is a given amount of 
capacity that we have to be able to present to the combatant 
commanders to maintain air superiority. And as the F-15s begin 
to age and cost more, the F-22s become more important. But 
those are separate discussion items relative to the health of 
the F-15 fleet and what we do about it and what we are talking 
to you today about.
    Mr. Dicks. Yield. None are stealthy, either. We are talking 
about F-22s and Joint Strike Fighters that are stealthy, which 
give you an enormous additional capability that you don't get 
by spending your money fixing up old airplanes.
    General Moseley. Congressman Dicks, that is exactly right. 
It is not a fifth generation fighter. The F-22 and F-35 are 
those capabilities that will get us into the 21st century.
    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Murtha. The gentlewoman from Texas.

                                  F-22

    Ms. Granger. Thank you. I am very glad to be back. Let me 
just follow just to make sure that I understand on what you are 
saying about the other aircraft. Because the forecast for the 
F-22 is based on maintaining a fleet of F-15s at a certain 
level for the next 15 to 20 years. So if that changes because 
of the problems you are having, then I assume that that is what 
you are looking at to change them, the level of the F-22s.
    General Moseley. Yes, Ma'am. That is where the challenges 
intersect. I will let General Corley go through the numbers, 
but we, in our planning, have laid in a number of F-22s and F-
35s that we believe meets the demand signal from the combatant 
commanders plus allows us to operate our rotation rate so that 
we don't get into high demand low density situations like we 
have with some. And it allows us to train our pilots and 
maintainers and go to Red Flag and continue composite force 
training while meeting the demands on a global scale. You have 
a number of F-22s and F-35s; that then is relative to the 
number of F-16s and 15s and how those are retired out.
    General Corley. You have this exactly right. To underpin 
the National Security Strategy inside of your combat Air Forces 
you need about 2,200 fighter aircraft. Out of that 2,200 
fighter aircraft, the floor was 381 F-22s plus 177 F-15s that 
we were hoping to keep viable for a few more years. That is 
being called into question right now. Plus, your Joint Strike 
Fighters. So, yes Ma'am, you have got those right.
    General Moseley. That is the floor for us.
    Ms. Granger. And this engineering meeting that is going to 
occur or is occurring, when do you expect the results of that?
    General Corley. I would expect by the middle of the month 
of February, but I can't predict that. They should have more 
information to inform us.
    Ms. Granger. Thank you.
    Mr. Murtha. Mr. Moran.

                       Homeland Security Concerns

    Mr. Moran. Thanks, Mr. Chairman. Why is this a Homeland 
Security issue?
    General Moseley. Sir, I would offer air sovereignty and 
being able to identify aircraft or tracks that approach this 
country and be able to do something about that. Should the 
commander of US NORTHCOM or First Air Force be told to do 
something about that, that is a Homeland Security issue, 
because it offers the three dimensional defense of the country: 
Offers us alert against unknowns and against the Russian 
threat, which may or may not be the same as it was before. But 
when two airplanes hit buildings in New York and an airplane 
hits a building in Washington, then airplanes flying through 
the air and hitting things does become an issue.
    Mr. Moran. Those were commercial airplanes that were 
hijacked. I mean, talk about the Russians flying over Alaska 
being a comparable threat, I am not sure I buy that. But I 
won't belabor that issue. Is there any liability in terms of 
manufacturing that have been addressed?
    General Moseley. Sir, we have got lots of folks looking at 
that. That is outside my expertise. I am not a lawyer and I am 
not willing to cast dispersion or blame. I think we need to let 
people look at what this part is and let that work its way 
through.
    Mr. Moran. That is fine, except it is a financial matter. 
It would be in terms of what needs to be appropriated. But it 
seems to me it is relevant when we make an appropriation 
request.
    General Corley. Can I go back to the comment of Homeland 
Security. Just since 9/11, inside Operation Noble Eagle, just 
the air sovereignty alert piece, the United States Air Force 
has flown over 50,000 sorties. Every day somebody takes off and 
penetrates an area, and we don't know who they are, friend, 
foe, threat, not threat. Of those 50,000, 32-plus thousand 
times, we have done that to go up and confirm that. Just over 
the Super Bowl overnight we intercepted airplanes. So it is 
happening every day, sir.
    Mr. Moran. What percent constituted a potential threat of 
those 32,000 you say violations?
    General Corley. Those are all the air sovereignty alert 
mission and sorties that have flown out. And additional 
locations as far as helicopter based aircraft, not counting up 
in Alaska. As we sit here today in our lowest, if you will, 
posture for air sovereignty level, we have got 50 on alert.
    Mr. Moran. What percentage of those 2,000 violations?
    General Corley. I can take that for the record and go back 
and give you the exact detail.
    [The information follows:]

    All intercepts are potential threats. To date, we are unaware of 
any Operation NOBLE EAGLE intercept of an actual threat such as an 
explosive laden aircraft.
    As the attacks of 9/11 have shown us, any aircraft can be used as a 
weapon. The aircraft used by the terrorists on 9/11 were not equipped 
with additional explosive or other devices. The kinetic energy of the 
aircraft itself, combined with the fuel load on board, produces a 
destructive force. This is why we take all airspace violations 
seriously. If an aircraft flies into restricted airspace, is 
intercepted, and subsequently maneuvers out of the restricted airspace, 
we do not know if the pilot was testing our response, was deterred from 
malicious intent, or was simply lost.

    Mr. Moran. I would be curious, one out of 32,000.
    General Moseley. There is another part of this that is a 
lot like a Coast Guard mission. If there is an aircraft in 
distress, we launch to go out and see to assist. If there is 
someone lost, you go out and see. That is a part of this. I 
wouldn't tell you that I wake up in the middle of the night 
worrying about a threat to the country that we have to go 
engage off the coast of Massachusetts, but I do worry about our 
ability to provide air sovereignty and live inside the FAA and 
International Aviation Civil Authority and be able to do things 
that are of assistance to Airmen in distress.
    Mr. Moran. I don't argue with you on that score. And I 
think it is important to have air sovereignty. I do wonder 
whether this is the most efficient way of maintaining that, to 
be using an F-15 to check out an inadvertent violation of air 
space, which I suspect is the case in 99 if not 100 percent of 
the cases that we are investigating. And this strategic policy 
was initiated during the time of the Cold War. And I think it 
is----
    Mr. Dicks. It was after 9/11. The Cold War was over.
    Mr. Moran. I am talking about the F-15. I thought the F-15 
was, would be regarding Russian air space, was a different 
climate during the Cold War. Am I wrong that we only started 
this after 9/11?
    General Moseley. Congressman, we have had air sovereignty 
and air defense alert from the Cold War all the way through 
today.
    The higher levels have been since 9/11 because of the 
unknown, the uncertainty about commercial tracks and where they 
go, and also the notions of defending--``defending'' is the 
wrong word--being able to cover airspace like Washington, New 
York, major population centers, and key sites.

                           Concurrent Threats

    Mr. Moran. I know we stepped up a lot of our defense 
posture after 9/11, but it seems to me this was initiated 
during the Cold War environment. I just wonder whether we 
adjusted for the fact that the Cold War is not a threat 
anymore. I don't like the idea of the Russians taking advantage 
of the fact that the F-15s aren't able to patrol as much, but 
the Russians are not likely to represent an immediate attack 
threat.
    Again, these are not things I want to belabor. I am just 
wondering whether the F-15 is the best way to address what it 
has been used for, which is to investigate violations of 
airspace, which I expect in 100 percent of the cases is not 
represented as a potential threat and, through radio 
communication, we can also determine what it is.
    Anyway, I won't belabor that anymore. What we are most 
concerned about is the immediate concern, is the implication 
for the 2009 budget.
    Mr. Visclosky got into that a bit. We have additional O&M 
requirements within the 2009 budget to address this. I would 
assume that you would argue those are fully adequate.
    General Moseley. Sir, with what we know, we believe the 
approach being adequate, but until we get the engineering data 
back on the 162 airplanes and until we get the tear-down and 
fatigue test and until we know more about that from the Fleet 
Viability Board, I don't know that I can answer you.
    Mr. Moran. But you wouldn't have any anticipation of 
putting any additional request in the supplemental or anything 
like that?
    General Moseley. Sir, not as of 11:00 this morning.
    Mr. Moran. There was a question that alluded to this. There 
must have been some savings, in the sense that there is less 
flying going on, less fuel being used. It wasn't necessarily 
anticipated or wanted, but there must be some savings that 
offset.
    General Moseley. I guess, as the Air Force Chief of Staff, 
I would say I was amused by that question because the follow-on 
to get my pilots recurrent and to get the airplanes flying may, 
in fact, cost me more. Once the pilot doesn't fly for a month, 
especially a young lieutenant, it is not going to be an easy 
path to get that lieutenant back to being combat-capable in the 
airplane. So not flying for a month is not necessarily a 
savings in the next month or the six weeks or two months to re-
qual my pilots.
    So folks that say, ``You didn't fly, so you saved money,'' 
perhaps don't understand the second order question of when we 
start flying, it is going to take perhaps four to six months to 
get the pilots back.

                             Golden Eagles

    Mr. Moran. Is this an opportunity to upgrade the Golden 
Eagle program?
    General Moseley. Sir, that is ongoing.
    Mr. Moran. Yes. But now that we grounded them, which was 
not anticipated when you first developed that initiative, can 
we see this as an opportunity to upgrade?
    General Moseley. Sir, let me defer to General Corley, but I 
think there are 62 of the 177 airplanes that we have identified 
by tail number to be the ones that we keep alongside the 381 F-
22s and the 1,763 F-35s. That is the force structure, 1,763, 
381, and 177, but--I will be corrected, but I believe 62 of the 
177 are still grounded.
    General Corley. Exactly right.
    Sir, to your first point, once you have lost currency, once 
you have lost proficiency, it takes you more sorties to regain 
that than it does to maintain that. So in terms of sorties lost 
during this grounding period, we will expend more dollars to 
get those aviators back up.
    Number two, when those F-15s were not performing in that 
function, they were being backstopped by F-15Es, F-22s, F-16s, 
et cetera. So we are also consuming dollars and resources 
there.
    On the 177 Golden Eagles, I think you are right, sir. We 
have to go back and look at the viability of those airplanes 
and find if, for those numbers of dollars, we may no longer be 
able to afford the capability enhancements that we wanted. To 
make them more military-utility and viable for the mission, we 
may have to put structural enhancements into them just to keep 
them in the air.
    So I might have an airplane that I have got a structure 
that can last, but I may have to sacrifice its mission 
capability once it is up there.

               Changes to Metrics To Measure Aircraft Age

    Mr. Moran. I understand that.
    The only last question I would have is that, given what has 
happened, I wonder if you have reassessed your--I don't know 
what the proper term for it is, but you do a depreciation 
analysis of all of your equipment, particularly planes. This 
was not anticipated, even though that--and I am probably using 
the wrong term, but it is basically an assumption of 
depreciation of the equipment. An analysis was mistaken, 
probably too optimistic.
    Have you reassessed that? Have you gone back and decided we 
need to plug in different numbers because this didn't give us 
what we encountered?
    General Moseley. Let me answer from my perspective, then 
ask General Corley to answer, since he is the operating 
commander.
    Yesterday, I asked our logistics experts and engineers to 
accelerate as much as we can the Fleet Viability Board 
investigation of the F-15 so we will know on a fleet-wide, 
systemic notion what does this mean to us.
    I also asked to standardize our flying hour metric. We say 
8,000 hours or 4,000 or 12,000, but we say it in different 
ways. So I have asked, let's standardize the notion, 
effectively a depreciation metric that says when you hit that 
certain number, we ground the airplane. And I don't have that 
answer.
    We say the airplane was built for a 4,000-hour life. Then 
we said we have done some work to it so it is an 8,000-hour 
life. We talk about logged flying hours and equivalent flying 
hours.
    So I said, simplistically give me a number so that when we 
approach that flying hour number, we either ground the airplane 
or fly it, based on what----
    Mr. Moran. Then check it out. It can go back up in the air 
again, I assume.
    General Moseley. Perhaps.

                          Aircraft Warranties

    Mr. Moran. Is there such a thing as a warranty that the 
manufacturer provides when you purchase planes like this? Can 
you demand it?
    General Moseley. Sir, we have, effectively, warranties on 
contract logistic support on new airplanes because they don't 
have to go into depot for a while. So we have partnered with, 
in the case of the C-17 and some others, to be able to do that. 
I don't think in the case of a new car or a house, we don't 
have that same sort of warranty capability.
    Mr. Moran. I am just curious because most manufacturers, 
when you buy something, a warranty accompanies it for at least 
a guaranteed useful life. I guess we don't do that. I am 
curious why.
    General Moseley. Sir, I will go back and ask our lawyers, 
Do we have a warranty? In my experience, I don't think so.
    Mr. Moran. I doubt it too, but it might be interesting to 
find out. It is relevant to the liability issue.
    General Moseley. Sir, of course, we buy the airplanes to 
fight in combat with, so there would be an issue about combat 
losses. There is a graduated scale of just parking the airplane 
and not touching it versus taking it out and having it shot at.
    Mr. Moran. If it is shot, I think the warranty would 
probably be less valid. A lot of these are not shot at, as you 
know.
    Thank you very much, General.
    [The information follows:]

    The current C-17 Multi-Year Procurement contract (P-121 thru P-180) 
and the indefinite delivery/indefinite quantity for the Fiscal Year 
2007 GWOT + 10 (P-181 thru P190) include warranties for both Boeing 
manufactured items and pass-through of all warranties offered by C-17 
suppliers. For Boeing manufactured items, material and workmanship 
defects are covered for the two year period following aircraft 
acceptance. All supplier warranties are passed to the United States 
Government with the same terms obtained by Boeing. The United States 
Government works directly with the companies that provided the 
warranties (either Boeing or the supplier) to resolve warranty claims. 
There is also a specific performance warranty tied to range payload. 
Boeing warrants that at the time of delivery all aircraft shall meet 
the range payload performance as identified in the C-17 system 
specification. There are no engineering design warranties on the 
contract(s).

    Mr. Murtha. Mr. Bishop.

                        Air Sovereignty Missions

    Mr. Bishop. Thank you, gentlemen. Let me salute the men and 
women who fly these aircraft. I had the challenging experience 
of going up in one of those and feeling the g's and realizing 
just what kind of stress, physical and mental, they have to 
undergo.
    Let me ask you this question: The problems with the F-15 
seem to have highlighted a related issue with regard to the Air 
Sovereignty Alert Mission. It is my understanding that the Air 
Sovereignty Alert Mission is a 24/7, mostly Air National Guard 
mission, where the pilots sit at a designated location 24/7, 
ready to launch their jets within minutes if there is a 
notification of a strategic threat, something like 9/11 which--
you know, anything can happen again--which seems like a very, 
very critical-type mission.
    It is my understanding that DoD has not historically fully 
funded the personnel that are needed to do the mission. So my 
question to you is whether or not there are any plans to fully 
fund and to normalize these critical missions in future 
programmatic cycles, and if not, tell us how this committee can 
help to address that issue.
    General Moseley. Congressman, let me take that on in a 
macro sense, and see if General Corley either has information 
to correct me or reinforce.
    Historically, this is not just an Air National Guard 
mission, this involves the Active, Reserve and Guard. So there 
are Active units that sit alert, as well as Reserve units and 
Guard units. So that is a Total Force piece of our operation.
    Sir, also the funding to support Air Sovereignty Alerts 
comes out of our operations and maintenance appropriations 
accounts which we fund by the units and by the major commands. 
I will have to go back and see if there has been any 
degradation from DoD relative to the O&M accounts. Sir, I don't 
know that.
    Mr. Bishop. You fund the personnel out of O&M?
    General Moseley. You have a personnel account that the 
people are paid for, but the operations are paid for out of the 
O&M account, because it is flying hours and maintenance.
    Mr. Bishop. I know the flying, that would basically go for 
maintaining the equipment, wouldn't it?
    General Moseley. And the flying hours. The personnel 
account pays for the pilots and crew chiefs. Those are in the 
units now. So whether it is an Active, Guard or Reserve unit, 
they are actually in those units now, sitting alert.
    So I am curious. If you will please allow me to take that 
for the record, I will go find and see if there has been any 
degradation of that, because I am not aware of that.
    Mr. Bishop. I would be interested to find that out.
    [The information follows:]

    The North American Air Defense Command (NORAD) air sovereignty 
alert (ASA) mission has been performed without degradation to the Air 
Force military personnel account. The ASA mission is a 24/7 requirement 
for operations from several fixed alert sites, supported by a Total 
Force of Air National Guard, Active, and Air Force Reserve pilots, crew 
chiefs, maintainers, security forces, and weapons personnel. Since 
December 2002, NORAD has stabilized the mission to support programming 
and budgeting actions; the operation has been funded, and normalized 
upon execution during each fiscal year. During the two years following 
September 11, 2001, the ASA mission was covered by mobilization of Air 
National Guard personnel. After 2003 and the end of their two-year 
mobilizations, the Air Force's corporate structure worked the Air 
National Guard leadership and the Air Combat Command to identify the 
appropriate mixture of active-guard-reserve (AGR) billets and drilling 
reservists for the mission.
    The United States Air Force is committed to protecting our Nation 
from all threats as directed by the President and the Secretary of 
Defense, and has provided a Total Force (ANG, AFRC, and Active Duty) 
solution for totally supporting the NORAD air sovereignty alert 
mission. This support has been provided without reliance on other 
Services' air assets since the inception of this steady state activity.
    Mandays are resourced and executed throughout the fiscal year. To 
sustain maximum flexibility, Air Force major commands balance the needs 
of combatant commanders with the requirements on a quarterly basis. We 
continue to search for fiscal solutions for ASA just as we do all other 
missions to counter the asymmetric threats we face as a sovereign 
nation.

    Mr. Bishop. That is all I have, Mr. Chairman.

                           Campaign Air Plan

    Mr. Murtha. I appreciate you coming before the committee, 
both of you. I think you have given us a good idea of how bad 
shape the air situation is.
    For instance, when I left Vietnam, it was 8 years old, the 
airplanes, and now they are 24 years old. In 1943, we built 
86,000 aircraft. This year we are going to build 409--a big 
number of those are UAVs, and 114 helicopters. The Navy is 
buying 200. The Air Force is buying 89 airplanes. We are not 
going to get where we want to get.
    The thing that worries this Committee, and this Committee 
has been at the forefront in trying to change the direction, 
looking beyond Iraq, because if we don't look beyond Iraq, we 
are going to have somebody threatening us.
    Just like you talked about the Bears coming in, or whatever 
that Russian airplane is, coming into Alaska, they are going to 
keep probing to see how weak we are. If we don't have the 
airplanes to put up there, we are going to have a real problem.
    We are going to help you in every way we can. I know there 
are budget constraints, but we are going to face a $330 billion 
supplemental in this next year--in other words, 130-200, I am 
convinced. So we have got a chance here to move beyond and buy 
some stuff in the future. This is the key.
    I tell you, another thing I think you have to do to help 
us, Chief, is, I think you have to reassess this cap and all 
this flying you guys are doing. Maybe you have to do it. But 
you ought to reassess it, look at it again, see if there is any 
way we can save some money there. Get rid of some 15s, get rid 
of these C-5s, and give us a chance to buy some new stuff.
    We need your help. We are going to do everything we can to 
help you, but we need to look ahead.
    I see--and I have said this over and over again--I see us 
competing for oil for years. I see China coming up long before 
they are predicting they are going to come up. They 
miscalculated Korea, they miscalculated in World War II. The 
Chinese miscalculated in Vietnam. We can't afford a 
miscalculation.

                          Aircraft Retirements

    Mr. Dicks. Mr. Chairman, just one point.
    You brought this up last year, and we tried to help you, 
about the issue of having airplanes that you want to send to 
the boneyard, but Congress, through legislation, prohibits you 
from doing that.
    Can you refresh us on where we are on that?
    General Moseley. Yes, sir. We have had some progress in 
this last bill, but we still have a percent of our desired 
aircraft retirements on congressional restrictions: the KC-
135E, C-130, and C-5.
    Mr. Dicks. I mean, there are billions of dollars right 
there that----
    Mr. Murtha. It is not billions. But we asked the 
authorizing committee, and they did give the Air Force the 
ability. But there are still some political problems there that 
we can't overcome. I would like to.
    Mr. Frelinghuysen.

                   Aircraft Blueprint Specifications

    Mr. Frelinghuysen. General, will you clarify for the record 
your statement that 40 percent of the planes we are talking 
about were not built to blueprint specifications--for the 
record? I mean, that seems to me that if this group is tearing 
things down, looking at fatigue--I mean, blueprints mean that 
somebody has inherited some blueprints. If you could, clarify 
for the record.
    Mr. Murtha. Say that again. I didn't catch that.
    General Corley. We had a specification. The specification 
was for how thick these longerons were supposed to be, what the 
surface smoothness was supposed to be; and of this fleet of 
airplanes, approximately 40 percent of the longerons in them, 
or in those airplanes, had at least one longeron that did not 
meet that specification.
    Mr. Frelinghuysen. So it was milled improperly?
    General Corley. Sir, it could have been a problem with the 
milling machine; it might have been a problem with the operator 
who set it into the milling machine, left or right of where he 
should have.
    Mr. Frelinghuysen. I understand. If you can't see the damn 
thing, you can't see it. When you have blueprints, one has to 
assume whoever prepared those blueprints did what they should 
have done. Sort of gets to the issue of residual 
responsibility.
    Mr. Moran. Liability, some sense of warranty that this is 
according to blueprints. When 40 percent are not according to 
blueprint, you have to wonder, are we making the manufacturer 
sufficiently accountable.
    General Corley. Sir, I think we will continue to examine 
that in great depth inside of the Air Force. However, my one 
caution on this is, when we put the first F-15 on contract, we 
specified a 4,000-hour safe life for it. This is the 
combination of fatigue on a part, on an old part. So these 
aircraft, this particular one that came apart, had 5,800-plus 
hours on it.
    So we specified an airplane that would last 4,000 hours of 
safe life, and then this one came apart at 5,800 hours. So that 
also is a contributing effect.
    Mr. Moran. I think what we are getting at is, we plan for 
the future, if we might not look at that to guarantee that what 
we are getting is built according to blueprint. If it is not, 
there is some inherent liability.
    Mr. Frelinghuysen. Just as alarming as your comment--and I 
don't mean to take it out of context--10 times the number of 
planes that are going out of control than perhaps had happened 
in another period of time. I mean, that obviously is due to a 
lot of the factors.
    Mr. Murtha. The pilots are better than these old guys 
sitting here.
    General Moseley. Sir, the pilots are better than these old 
guys.
    Sir, can I add one more thing?
    The committees have helped us with the retirement of the 
airplanes. In this last bill, we got more, and Congressman 
Dicks, you know we have been working our way through this to 
retire airplanes so we can take the money we don't have to 
spend on the old ones and reinvest. So we have made some 
progress, but we still have restrictions.
    As we come back to the committee----
    Mr. Murtha. What are the restrictions, B-1s and C-5s?
    General Moseley. C-5 restrictions are still there, some C-
130s, and some KC-135s. Sir, when we come back for the posture 
hearings, I will be happy to provide a specific update.
    Sir, the last thing I would ask the committee to help us 
think through is, we look at not just the retiring of old 
airplanes but the production and capacity of the new equipment. 
To me, this is not just about an air force, this is about an 
American aerospace industry. This is about engineers, this is 
about incentivizing engineers to want to be in this business. 
This is about production facilities. This is about economic 
order quantities. This is about air frames, avionics, 
integration, engines. This is about our production lines and 
how do we economically deliver.
    Mr. Murtha. We are with you. We are with you. We are trying 
to solve the problem.
    This subcommittee has been in the forefront of doing the 
best we can, and we are going to go beyond that if we can. So 
you are preaching to the choir. This subcommittee is in the 
forefront of trying to add newer airplanes, newer inventory.
    General Moseley. Sir, I guess I am thanking the choir.
    Mr. Murtha. Thank you, very much. The Committee adjourns 
until 1:30 p.m.
                                      Thursday, February 7, 2008.  

 FORCE HEALTH PROTECTION POST-TRAUMATIC STRESS DISORDER AND TRAUMATIC 
                              BRAIN INJURY

                               WITNESSES

S. WARD CASSCELLS, M.D., ASSISTANT SECRETARY OF DEFENSE FOR HEALTH 
    AFFAIRS
ELLEN P. EMBREY, DEPUTY ASSISTANT SECRETARY OF DEFENSE, FORCE HEALTH 
    PROTECTION AND READINESS

                              Introduction

    Mr. Murtha. Dr. Casscells, we welcome both of you to the 
Committee.
    We appreciate your coming before the Committee and look 
forward to any remarks. We will put your full statement in the 
record, without objection.
    Do you have any opening statement Ms. Granger?
    Ms. Granger. No, I do not.
    Mr. Murtha. Dr. Casscells.
    Dr. Casscells. Thank you very much for the opportunity to 
give you update on what we are doing. We appreciate this chance 
to visit with you--Ms. Embrey and I and our great Surgeons 
General--to tell you what we are doing together to address this 
pressing issue and to recognize right up front that you have 
made possible what I think is an unprecedented energy, 
excitement and enthusiasm for collaboration and coordination 
with our service providers and particularly these leaders with 
me today.
    As you know, we have a duty to protect our servicemembers. 
To do our best for prevention, for diagnosis for treatment, for 
recovery and, in some cases, to help them transition to the 
private sector, take off the uniform, fill out the DD-214, get 
their care at the VA or private sector and so forth.
    That is our duty, and you make it possible.
    We really appreciate very much this partnership and we 
appreciate the guidance. Our ears are wide open, so we take 
very seriously the suggestions that we have gotten, and I hope 
that you will find that we have acted on those suggestions in 
the past several months.
    We face the challenges of a long war, an unprecedented 
length, and it is wearing some of our people down; and these 
are some of the best people on Earth, some of the strongest 
people, some of the best-trained people, and it is a tough 
time.
    We are faced with a rising suicide rate in the Army, which 
has borne the brunt of the fighting. This is particularly true 
of the longer and the repeat deployments. So we have got--we 
are pleased that Admiral Mullen, the Chairman of the Joint 
Chiefs, and the SECDEF, Dr. Gates, are doing everything they 
humanly can to build our Army with your help and to shorten 
those deployments. Maybe there are other ways to shorten them, 
too; we are brainstorming that.
    We also face a high rate of PTSD, post-traumatic stress 
disorder, as we have done in every conflict. This goes back 
1,000 years.
    We also--and that is going to be the focus of most of my 
comments, but we also have what some are calling the signature 
injury, traumatic brain injury--others call it a concussion--
just a heck of a lot of them; twice as many--whether, in this 
war because of the body armor, we have got twice as many 
amputations, the amputations are twice as high a percentage of 
the injuries; and head injury is even a higher figure, several 
times beyond that.
    Most traumatic brain injuries are mild; 80 percent of them, 
they recover. Called ``mild TBI,'' that is how you will hear it 
mentioned, these are concussions where people are just dazed a 
little bit. They see stars. They are confused. They may be 
dizzy. About a third of them, which is about 5 percent of all 
the soldiers coming home and the Marines--about a third of them 
have actually been knocked out cold. Then you have a higher 
incidence of depression, and a higher incidence of PTSD.
    About 40 percent of them get PTSD, which is higher than the 
average. On average, about 10 to 15 percent of our soldiers 
have PTSD when they return. The figure is lower than that in 
the Navy and the Air Force.
    So in terms of the numbers, the biggest problem we face is 
PTSD. Shell shock, combat stress. Not the same as depression, 
but there are a lot of aspects they have in common. And these 
people are at higher risk of suicide. It is imperative that we 
find them.
    Skeptics will tell you that there is no treatment for them. 
Well, there are treatments. There is no proven treatment. The 
fact that you don't have data proving something works does not 
mean it is a failure. A lot of these treatments have never been 
studied. So we have got to study them.
    Secondly, we have got to make the diagnosis early. If you 
have somebody suffering with PTSD, and they are shaking it off 
and the battle buddy says, Are you okay, Jones? You don't seem 
yourself. I am fine; get out of my face. Well, he will go on 
and do something dumb and get in trouble.
    And so we need to get out there and reach that soldier or 
marine or sailor or airman and wrap our arms around him and 
say, We are taking you in to see the chaplain or the 
psychologist, and you don't have to tell me if you have 
received a ``Dear John'' letter from your wife; you can tell 
that to them. But I am taking you in there; otherwise, you are 
going to do something stupid. You are going to lose your 
security clearance, you are going to lose your weapon, you are 
going to go home and you are not going to like it.
    So you have got to sometimes put some tough love on these 
guys.
    And let me tell you, the Army is all over this. They took 
800,000 soldiers--Congressman, thank you for coming--Ward 
Casscells, Assistant Secretary of Defense for Health Affairs--
talking about the Army stand-down day a few months ago. The 
Army made everybody take this course where they got a 
refresher, no battle buddy left behind.
    It is your duty to get help if you need help. It is your 
duty to get help for your buddy if your buddy needs help. And 
it takes strength to ask for help. These messages are coming 
loud and clear. The Commandant of the Marine Corps is giving 
the same message. General Schoomaker will tell you more about 
that, and he is doing a superb job on this.
    Backing up for one second. The Military Health System 
which, with your generous support--and I am the main coach and 
cheerleader--we are held to an incredible degree of 
accountability. Dr. Gates, the Secretary, takes your guidance 
extremely seriously and tells me on a regular basis, Dr. 
Casscells, I am holding you accountable and you must hold other 
people accountable for the quality of the care that we deliver. 
He is absolutely got a dead aim on this.
    And we have defined in regular terms what ``quality of 
care'' is. This is not just for TBI, this is for the whole 
environment of care. And competent care, we define it as 
compassionate, confidential, comprehensive, coordinated, 
communicated clearly, controlled by the patient as much as 
possible. That is a little bit of a culture change for the 
military, but it is the way the whole country is going--
courteous, computable, convenient and cost-effective.
    We seek to find an environment--and Dr. Chu works hard at 
this with his people--where families are supported, where 
education is supported, where benefits are protected----
    Mr. Murtha. Who was that? Who was that that supports this?
    Dr. Casscells. Dr. David Chu, the Under Secretary for 
Personnel Readiness, focuses on reminding us that health care 
is a part of a larger picture, sir, that involves educational 
opportunities, benefits and the like. And to this end, we want 
to recognize that our line leaders have a big responsibility 
and a big opportunity here.
    And some of them just step up and can't do enough for 
soldiers and marines and sailors and airmen. This year we gave, 
for the first time ever, a big award to one of our line leaders 
for this, the General Leonard Wood Line Leadership Award, and 
it went to General Magnus, Bob Magnus, the Assistant Commandant 
of the Marine Corps. We need help from the line on this.
    Let me say that when we last spoke to you, we had the 
report of the mental health task force led my Admiral Don 
Arthur. Two big tasks came out of that sir, reducing the stigma 
associated with getting help and, two, providing more access.
    On the stigma side, the result of MHAT-5, Mental Health 
Assessment Team 5--it is an Army study, very gratifying--people 
are now saying in this survey that they feel more comfortable 
asking for help and getting help for a buddy; that they are 
less concerned about losing their advancement, about losing 
their weapon, about losing their security clearance, about a 
less-than-honorable discharge--all the things that people, when 
they are depressed, worry about, things that wouldn't worry 
them at a normal time. They get obsessed with things, and it is 
terribly important to get this stigma thing reduced.
    On the access side, the Army has hired 129 psychological 
caregivers; we have about another 100 to hire. And these people 
are not all psychologists, they are not all psychiatrists, but 
they are all people who are trained and have had recent 
training in this and they know how to do it--how to talk to 
soldiers, how to help people transition through to the VA and 
so forth.
    Let me talk for a second about the Center of Excellence 
which you have made possible. And that is with the--last year 
you gave us an additional $900 million for TBI and PTSD; of 
that, 600 million was for care, 300 million for research. Ms. 
Embrey will talk about the process that has distributed most of 
these funds to the services, with the Army as the executive 
agent for competitive process, working with the best of breed 
in the university and industry community in a transparent 
competitive way; and we feel good about that.
    I will say that in my experience in the academic world--I 
have put together two major successful multiuniversity research 
consortiums, and I have never seen something put together as 
quickly or with the energy and enthusiasm and the goodwill that 
this has been done, with thanks to my colleague, Ellen Embrey, 
and Brigadier General Sutton, who is with us also, who is 
leading this now.
    In particular, one of her challenges is to take the Defense 
Veterans Brain Injury Center, add to it the efforts of the 
Fisher Family Foundation, who are trying to raise funds for a 
new center and to create the Defense Center of Excellence in 
TBI and PTSD. So we want to acknowledge Arnold Fisher and his 
family and their generosity in committing to raise these funds; 
and he and Deputy Secretary England signed this letter last 
week.
    Going forward, sir, we are in the start-up phase of a 3-
year program, development research effort; and you have before 
you our request for the fiscal year 2009 supplemental 
appropriation request of $797 million.
    And per your query to me just before the meeting started 
about unmet needs or new and emerging needs, there are two in 
number. In terms of new science, in November we had a big 
breakthrough--General Schoomaker may allude to it. You can now 
use your own skin cells, and they can be instructed in the 
petri dish to revert to fetal tissues which could be used to 
treat your own burn, a skin graft of your own skin which would 
not be rejected--or kidney or heart or spinal cord tissue. And 
as you know, sir, we have got about 150 kids who are blind and 
about 150 that are paraplegic from their injuries in Iraq 
alone; and this gives them enormous hope that did not exist 
before November. We respectfully request assistance in this 
area.
    And we need help within the military, the neurostem cell 
effort which will help the spinal cord, brain, and eye, and to 
develop the companion excellence in neurosurgery, neurology, 
and neuroradiology. It is going to be about $95 million, if we 
could get your request there.
    Sir, one other thing that Ellen Embrey has wisely retained 
some funds to invest in programs that are particularly 
promising as we reassess at the 1-year mark and 6-months mark, 
and we are starting to do that.
    And there are some programs that are really hitting the 
ground running. There are also some needs that have not 
previously been identified, and I will just mention these for 
the record.
    Patients come to us asking that we treat them with things 
that they have got a good feeling would help. Music therapy, 
certain nutritional therapies, dance therapy, art, meditation, 
things like this. These may be very effective and they may not. 
They deserve study.
    So we respectfully would like your opinion, but my 
inclination would be to task our staff, working with the best 
epidemiologists and clinicians, within the military and 
without, to get a better handle on some of these complementary 
and alternative therapies, some of which could be terrific. And 
one thing for sure, patients have great interest in them. So we 
want to look into that in the coming months.
    Sir, there are some things for which we don't need funds; 
they are just a question of leadership. So, for example, when 
you go to sick call, I have asked our commanders in theater--I 
went back to Iraq for a visit a couple of weeks ago. I have 
asked our commanders to consider that when someone comes into 
sick call--they are often complaining of a headache or a bad 
back or sore throat, but really--they could have toughed it 
out, but really want some guidance, some counseling. They are 
upset about something; they may not even know it.
    I have asked our commanders there, medical commanders, to 
think about putting at the top of the sick call questionnaire 
just a statement that we care about mental health, and you have 
to let us know if you have got a buddy suffering or if there is 
something that we can do for you.
    Mr. Chairman, I want to thank you and other members of the 
Committee for this opportunity to give you some idea of where 
we are going with the Defense Center of Excellence. I do think 
that in this area, with the right facilities and the right 
people--and we are on the way on both counts--that the military 
will be the world's best in psychological care of head injuries 
and of stress in general. And this is an area that is the 
number one priority for us at Health Affairs.
    Thank you, sir. And members of the Committee, thank you 
very much.
    [The statement of Dr. Casscells and Ms. Embrey follows:]

    [GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]
    
    Mr. Murtha. I am going to ask Mrs. Embrey to put her 
comments in the record so that the members have a chance to ask 
questions of the Surgeons General who are here with us also.
    A couple of things that I wanted to talk about.
    At Fort Hood, I think I see the work that you have done and 
the Army has done. I saw the best screening process, the most 
effective counseling that I have seen since I have been 
visiting the hospitals; and I was very impressed by how that is 
working.
    I am a little concerned. Yesterday, I met with a doctor, a 
military doctor, who told me he is an expert in diabetes; and 
he recommends that people don't go to the war zone if they have 
diabetes. And yet when I was in Afghanistan at my table were 
two people with diabetes.
    If we are so short that we have to send people against the 
advice of the doctors into a war zone, I think we ought to 
relook at that. I know that it may not necessarily be your 
problem--I am going to bring it up with the chiefs--but 
diabetes is very difficult to keep under control. Both of these 
people were not overweight, and it just worries me that we have 
lowered the standards to the point where we have got people 
against the doctor's orders going to a war zone.
    But as a whole--one other issue, when you talk about 
stress: This morning I made a speech, and the State Department 
guy got up and said, I want you to know that 75 percent of the 
time spent by the adjutant general in Iraq is on divorces. So 
obviously there is tremendous stress at home. And when I was in 
Afghanistan this past weekend they talked about the divorce 
rate, and they talked about the stress at home.
    So I think we are all saying the same thing, and we are 
going to do everything in this subcommittee, as we have done in 
the past under Bill's leadership and Jerry's leadership and my 
own leadership, to try and make sure that we make up for some 
of the things that happened in the past where the chiefs felt 
like the budget constraints kept them from being able to 
maintain a level of expertise that we should have.
    So we are going to consider the recommendations. We ask you 
to go out and look at the military construction work that needs 
to be done, the infrastructure work that needs to be done. And 
certainly we will take a look at this Center of Excellence, and 
I think the subcommittee will be very favorably disposed to 
take care of those things.
    Mr. Lewis.
    Mr. Lewis. Mr. Chairman, I came in a little late. Would you 
go to my friend at my right?
    Mr. Murtha. I certainly will. Mr. Frelinghuysen.
    Mr. Frelinghuysen. I appreciate the comment. Thank you, Mr. 
Chairman.
    We have about 3,500 New Jerseyans deploying in mid-June. 
Obviously, when they are called up, their anxiety level goes up 
pretty high. In some ways, you start the process of actually 
deploying before you get over there.
    What do we have on the front end, taking a look at the 
needs of soldiers? And some of the soldiers, pardon the 
expression, are not exactly spring chickens. Some of them are 
National Guard, they are all citizen soldiers and volunteers 
doing a great job.
    What do we have on the front end and the committee has 
discussed over the years on the back end? When they come back 
they don't go to the base. They may not go to Fort Hood or 
somewhere. You know, they go back into the citizen population.
    The stigma--it is a legitimate issue, but in reality you 
want to get out of the uniform pretty quickly. What do we have 
on the front end and the back end this time around, as opposed 
to maybe a year ago or several years ago? I know that you have 
made considerable progress, but where do we stand today?
    Dr. Casscells. Sir, thanks for that. The services have that 
Title 10 function as you know, and our Surgeons General will 
address that. But I want to say that it is amazing that in this 
long war they are still recruiting these people who, as you 
say, from all ages, men coming in midlife like I did to the 
Army. And it is a credit to the cause that these--the people 
serving the country here behind me here, who--it is not a 
matter of politics, it is not a matter of--it is just a matter 
of patriots. That there are that many out there it is a 
fantastic thing.
    Now, Health Affairs, Ellen Embrey, to my right, has got a 
different oversight role, which is to make sure that from start 
to finish, from start to retirement, psychological health, 
psychological readiness are not forgotten and do not take a 
back seat to physical fitness and so forth. So I would like to 
ask you to address that. She has done something unprecedented 
in the predeployment assessment and post-deployment health 
assessment.
    Ms. Embrey. I will try to be brief.
    The Department has been concerned since the first Gulf War 
in the 1990s to make sure that we had a good baseline 
understanding of the health and fitness of the individuals. So 
we instituted a predeployment health screening process where we 
evaluate the individual's physical and mental health status 
prior to deployment, to evaluate whether they should go or not 
and to document that.
    In addition, we have a fairly rigorous health assessment 
program ongoing where we capture health encounters in theater, 
and we maintain data about the types of visits and the types of 
counseling that exist; and that is also documented.
    When the individuals return from theater, there is a policy 
to evaluate, within the first 30 days of return from 
deployment, the status of that individual and to screen for 
health concerns, be they physical or emotional.
    Because many of them were anxious to get home and chose not 
to volunteer, that they were having some concerns, we 
instituted a reassessment process within the first 3 to 6 
months following deployment. And, again, that is an outreach to 
all those who have returned from deployment where we ask the 
question, how are they doing.
    Mr. Frelinghuysen. Just to make it clear for the committee, 
you do something within 90 days and we learned last year you do 
something automatically within 6 months. Is that voluntary on 
their part?
    Ms. Embrey. It is mandatory for contact.
    Mr. Frelinghuysen. I do think obviously people, once they 
go back into civilian life, but there is no mandated----
    Mr. Murtha. What I saw at Fort Hood was that they took them 
back in--it was a very short period of time; had a chance, 30 
days back home--and they took them all in and started screening 
them. I don't know what the time was.
    You are saying?
    Mr. Frelinghuysen. I was wondering, is it voluntary? I am 
talking particularly about Guard and Reserve, not to take 
anything away from active duty. They have continuing problems 
of that nature.
    Ms. Embrey. It is for Guard and Reserve, anybody who is 
deployed--redeployed.
    Mr. Frelinghuysen. Do they have to come forward after 6 
months?
    Ms. Embrey. The requirement is for us to contact them and 
ask them how they are doing.
    Mr. Frelinghuysen. How would you characterize the response, 
to date, if this is a relatively new policy?
    Ms. Embrey. I would defer to the Surgeons because they are 
the ones that execute it, but I think that we are getting good 
response.
    It took a while to get the program going, which was full 
steam about a year ago. And the ability to contact and capture 
how people were doing in that 3-to-6-month period after going 
home is a challenge for the Guard and Reserve, and they have 
been working on improving those processes. But I would say it 
is improving steadily.
    Mr. Frelinghuysen. So they are working on it. But do you 
know actually how they are doing?
    Ms. Embrey. Yes, sir.
    Mr. Frelinghuysen. So how are they doing? Besides your 
saying they are improving on it, are there statistics to back 
up the number of people that have gotten help and contacts that 
have been made?
    Ms. Embrey. What I am looking at is the outcome of the 
screening process, not the percent of folks that we were unable 
to contact.
    Mr. Frelinghuysen. We are on your side here.
    Mr. Murtha. I think what he is saying is, it should be 
mandatory.
    Ms. Embrey. It is mandatory.
    Mr. Murtha. It is mandatory. Okay. And you say you contact 
them and they have to come in?
    Mr. Frelinghuysen. The contacts are mandatory, but those 
who have come back----
    Mr. Murtha. They should have to come in, I think. 
Everything we have heard in this committee was, the longer they 
wait without care, the worse it gets. We want to get them in 
and get them some care, right?
    Mr. Frelinghuysen. Yes. So could you clarify your response? 
I mean they are not mandated to come in now; is that right?
    Ms. Embrey. It is mandatory for us to ask the questions. 
They can decline to answer the questions.
    Mr. Frelinghuysen. So how would you say the response has 
been? Somebody must have a general idea.
    Dr. Casscells. I will take a crack at that.
    Mr. Frelinghuysen. We understand the issues of stigma and 
people want to get back to their lives. But it is surprising 
how many people, besides marital problems, have post-traumatic 
stress syndrome, and we all wring our hands about how we are 
going to address it.
    Dr. Casscells. Let me just say that 75 percent of the 
people fill out the post-deployment health reassessment. And we 
feel that by asking it a little sooner--3 months, 6 months--we 
will get a higher rate. But we are concerned that a quarter of 
them are not answering. Those lost sheep are the ones that we 
have do go out and find.
    We have asked our chaplains to organize a program to do 
that, the chaplains and retired chaplains because they can call 
a serviceman and say----
    Mr. Frelinghuysen. Wait a second, when I was in the Army, 
the chaplains were not necessarily the people I wanted to talk 
to. I am talking about medical issues here, bona fide people 
with mental health bona fides reaching out to Army National 
Guard people, Reserve people that have been there 12 months, 15 
months.
    Ms. Embrey. Yes, sir, we have a program that the Reserve 
components have underwritten which has--it is a Reserve 
component readiness program which is centrally managed out of 
our office. And they are responsible for making the contact and 
evaluating the individual's concerns and referring them for 
care if they are identified.
    And they are--if they are eligible for care in our system, 
if they are within that first 6 months or if they signed up for 
TRICARE Reserve Select, then we can refer them and care for 
them in our system. If not, they are referred to the VA for 
care or follow-up. And that is how we engage with the Guard and 
Reserve community.
    We also are responsible--mandatory review on an annual 
basis.
    Mr. Murtha. May I interrupt? I think we need to pursue 
this. Because this, to me, especially National Guard people who 
are--the job back--they are getting back. We do have drill 
days, and so we need to get some--we need an answer for the 
committee exactly how this thing is working.
    I was satisfied at the base, but I don't know about the 
National Guard. As I have said here before, I have a young 
fellow working for me who has really struggled getting back 
into real life, and he has had counseling and he is still 
struggling a little bit.
    I think we need to get some more details, maybe from the 
Surgeons General, or privately the committee needs to hear 
exactly when we require them to come in, if we need an earlier 
time to come in, and what kind of treatment they are getting in 
the National Guard and Reserve, in particular, because it looks 
like they are doing on the bases.
    Mr. Dicks.
    Mr. Dicks. Secretary Casscells, you have been before the 
committee last May, and you and I had a couple of exchanges 
outside of that. The focus of our conversation had to do with 
whether or not DoD would be proceeding last year with the 
request for proposals to recompete the TRICARE contracts, 
especially given all the examination that was going on into DoD 
and VA health care systems at the time.
    You agreed to look into this, but in the end I understand 
that DoD determined to proceed with the solicitation for new 
TRICARE contracts. Now, it is my understanding that DoD has not 
yet released an RFP for new TRICARE contracts.
    Will you please tell us where DoD is on its plan to 
recompete the TRICARE contracts?
    Dr. Casscells. Congressman Dicks, thank you. If I did not 
get back to you personally about that, which I think I did----
    Mr. Dicks. You sent me a letter and said we weren't going 
to do it until we looked at the issues from the Presidential 
Commission and the other commission. And then it came up, and 
all the sudden the decision was made, and then nothing 
happened.
    I am asking for a status report.
    Dr. Casscells. Yes, sir. Of the contracts--the request for 
proposals have gone out in phases and some went out just 
yesterday. All of these contracts are going to be competed, or 
recompeted in the case of incumbents, in a transparent process.
    What we have done, and the reason for going back at it 
again is, we have increased the focus on collecting data to 
measure the quality of care; and we have reorganized some of 
our requirements so that this is more transparent, so that the 
emphasis on quality of care is increased.
    We have shifted the focus a little bit for more choice for 
the servicemembers. So, in other words, our requirements 
changed enough that we felt it was important to recompete the 
contracts.
    Mr. Dicks. Okay. Let me ask you this.
    One of the things I was concerned about was how DoD and 
your office is incorporating the findings and recommendations 
from the DoD task force and the President's Commission into the 
new TRICARE contracts.
    Were any of their recommendations taken into account as you 
proceeded with this recompete on the TRICARE contracts?
    Dr. Casscells. Yes, sir, in particular, the recommendations 
of the task forces which are largely in agreement, the six 
major task forces, really require us to coordinate better, to 
share information faster and completely, and to pay attention 
to what the patients' choices are and to pay attention 
particularly to the psychological aspects of care and well-
being. So all of that is emphasized in these new contracts.
    Who the winners will be, I don't know, because my job is to 
set the policy and then stay far away from the competition. I 
don't even know who applies. I don't take phone calls or meet 
with competitors, don't sit in on the process, but I do have 
people sitting in whose only job is to make sure that the 
process is competitive, and that quality--they meet our goals.
    Mr. Dicks. I would also like to know how DoD's response to 
post-traumatic stress disorder and TBI injuries is going to be 
reflected in the TRICARE program.
    Dr. Casscells. Sir, the programs, what we call the 
``downtown care'' or ``purchased care,'' the private sector 
care has gotten out in front of this. They are all offering, in 
house, or through nearby providers TBI and PTSD care.
    The quality issue here though is important because many of 
our soldiers, marines, airmen and sailors they go back to small 
towns and many are reservists, as Congressman Frelinghuysen 
points out. So making sure that they go to a center that meets 
quality criteria and continues to meet those criteria on an 
ongoing basis to meet those standards, that is very important. 
Anybody can put up a sign saying, We are specialists in head 
injury; the question is whether they really are.
    This is an effort for us, and we are going to have to--we 
are blessed by the fact that General Granger walks the deck, he 
visits all of these places that win contracts. And he holds 
their feet to the fire. He goes around and talks to the 
patients. He calls it ``trooping the line,'' an old-fashioned 
Army term for finding out what is really going on.
    I feel good about it. I don't have the data, Congressman 
Dicks, to tell you about these contracts because they are not 
awarded yet.
    Mr. Dicks. How long is this process before a decision will 
be made?
    Dr. Casscells. October, sir.
    Mr. Dicks. So it is going to be about 6 months?
    Dr. Casscells. Yes, sir.
    Mr. Dicks. In talking to people out there in the field. 
They tell me that one of the major problems is, there are not 
enough psychiatrists, that we do not have enough psychiatrists 
to deal with this problem, which is a very significant 
shortfall.
    Are we doing anything about that?
    Dr. Casscells. Yes, sir. We, of course, are trying to beef 
that up with the Uniformed Services University to improve our 
training. And what this committee has done to support the 
Health Professions Scholarship Program, to support the 
retention of specialists--and I think that General Roudebush 
will talk about this later--this is very, very important and 
very appreciated.
    In the short term, we try to use every available resource. 
And you may realize that it was in the military that group 
therapy began, because of the constraints Congressman Murtha 
alluded to earlier which is, as a country, we have never paid, 
perhaps, enough attention to mental health. And particularly 
there has been a lesser priority in the military, a lot of big 
priorities.
    So we are talking about PTSD and health care in general, 
not overfunded in the military by any means. And then you take 
an area that is chronically underfunded like trauma and another 
one like psychological care. I mean, that is all the least-
funded areas together there.
    So we have got to work on that, and we are putting our 
finger in the dike with things like telehealth and 
telepsychiatry.
    Mr. Murtha. We are trying to give you the money to help.
    Mr. Lewis.
    Mr. Lewis. Thank you very much, Mr. Chairman.
    Secretary Casscells, Secretary Embrey, we appreciate very 
much you being here. This is such an important topic to all of 
us. And as men and women serving us now in the Middle East are 
coming home, to say the least, the pressure on all of our 
institutions is just horrendous.
    The Jerry Pettis Veterans Hospital is in my district, 
located adjacent to Loma Linda University; and there--veterans, 
of course, go there for service, but the freshly new-sworn-in 
veterans, those who have just come back, go for services, and 
there is absolutely a shortfall in terms of people available, 
qualified to deal with questions like PTSD and the variety and 
mix of challenges that affect their families and the like.
    So what are we doing to actively coordinate with those 
veterans hospitals and the professionals who are there with the 
work that you are doing, to try to make sure that we are 
getting to these peoples's need for services early and often?
    Dr. Casscells. Congressman Lewis, we have been engaged in 
the process called the SOC, that stands for Senior Oversight 
Committee, which have been led by Deputy Secretary Gordon 
England and VA Deputy Secretary Gordon Mansfield.
    You have heard a little bit about this, but in terms of the 
coordination on TBI, Under Secretary Mike Kussman and I at the 
VA have worked closely. We talk almost every day about this. 
Our overall leaders are Ms. Embrey here and Colonel 
(Promotable) Sutton to my left, and they work with the VA every 
single day on this, sir.
    We would be delighted to supply you with more details 
because this is something we are feeling very good about. And, 
in fact, the VA has been way out in front of us in PTSD. They 
cared about this a long time ago, and we have learned a lot 
from this interaction with them; I want to acknowledge that. We 
will continue to learn from them and develop joint projects.
    Mr. Lewis. Specifically, at this veterans hospital, I have 
had a lot of interaction regarding these questions, in no small 
part because in a territory like my own you can drop four 
Eastern States in my desert alone, and that is a long way away 
from the hospital. So delivering services away from the VA for 
certain veterans and others, which involves needed contracting 
services with people in Barstow, which is 80 miles away, what 
are we doing in connection with that and how do we begin to 
touch the numbers of people, professionals, that we need to 
care for those services?
    Ms. Embrey. Sir, it is a combination of initiatives. In 
terms of providing support to rural areas, specifically, with 
the generous amount of dollars that have been given to us, we 
are working with the VA to set up a telehealth network that 
will allow us to take experts in one place and do a face-to-
face consult with clinicians in rural areas to help them 
understand the case at hand and to evaluate and to help that 
individual treat the persons in those places and refer them, 
when necessary, to higher specialty areas.
    So telehealth is an important part of that ability.
    Secondly, we are recruiting individuals and there is a 
nationwide shortage of mental health professionals in the 
civilian and military world. Notwithstanding, we are increasing 
our plans to increase our own staff by more than of 750 
individuals, health providers.
    Mr. Lewis. That you are hiring?
    Ms. Embrey. We are hiring them, either civilians or in a 
contract arrangement.
    We are also working with our TRICARE network providers and 
have asked them to ensure that their networks are expanded so 
that they have a ready list of individuals that our 
beneficiaries can call. And to the extent they are not able to 
bring them into the network, they are maintaining current lists 
of providers who are not in the network so that if they cannot 
get care in our network, they can be referred for action within 
our access for standards.
    It is multitiered set of initiatives.
    Mr. Lewis. All of our members, I think, are concerned about 
the impact of these conditions of people returning from 
service, the impact it has had, their service in the first 
place, has had upon their families.
    Are we interplaying with the service needs for some of 
those families beyond just alcohol abuse or otherwise? Tell me 
what I don't know about that.
    Ms. Embrey. Well, one of the recommendations of the mental 
health task force to the Department was for us to evaluate the 
preclinical and nonclinical aspects of the continuum of care 
for emotional health, as Dr. Casscells said, building 
resilience. Not all individuals have the same emotional 
resilience and learning to understand what that is and building 
it up to have better coping mechanisms for all types of stress 
is important.
    And leveraging the preclinical and family support programs 
is an important part of that capability. And one of the 
recommendations was for us to establish directors of 
psychological health at all of our installations; and those 
directors at the National Guard bureau and in every State and 
in several OSD staff offices, policy offices, to make sure that 
we are doing that synchronization of preclinical and clinical 
programs for emotional resilience and treatment. And we are 
implementing that.
    We have identified the dollars, established the 
requirements, and have been working with the services to 
actually begin filling these positions, and that is the way we 
are going to try to make that happen.
    The challenge right now is that the funding that we have 
received went to the Defense Health Program and not to the 
Family Support Program. So we probably will have to evaluate 
and reinform you about the non-Defense Health Program dollars 
that will be needed to fund the preclinical and nonclinical 
programs, to make sure that we have a full continuum of 
support.
    Mr. Lewis. To say the least, the task before all of us is 
almost overwhelming, and I can't figure out in my head where 
you are going to get the numbers of people that you need. You 
say you are contracting with 750 or so. But when you look at 
the suicide rates alone for people who have been serving in the 
Middle East, they are double the standard population rates. 
That is an indication of the effect it is having on the 
individual members of the service who are leaving the service 
perhaps, but on their families as well.
    Ms. Embrey. Our network providers that support us have 
reported that they have hired over 3,000 mental health 
professionals to augment our purchased care networks--and that 
is quite an accomplishment--since last May.
    Mr. Murtha. I don't understand. Tell me--Mr. Dicks just 
pointed out you spent 53 million.
    Mr. Moran. That is obligated money, too, already obligated.
    Ms. Embrey. The process for hiring individuals under 
contract and under the Civil Service Merit System does take 
time.
    Mr. Murtha. That is something we ought to look at, because 
I tell you I went down to a couple of hospitals recently; they 
said, We hire a doctor, but by the time we okay it, they are 
gone; they go someplace else.
    The authorizing committee or somebody, you folks, ought to 
look at your regulations and make a recommendation on how we 
could change that idea.
    Mr. Lewis. Mr. Chairman, not to extend this, but we had an 
individual case where we are trying to help a guy be placed 
within this veterans system, and we made a lot of effort 
saying, Why aren't you doing this, and were about to crack the 
door when the right people from DoD came to us and said, This 
guy had a problem up here. It was the wrong guy to force them 
to hire, if you will. They have to take some time and spending 
the money is an important piece.
    Mr. Dicks. Mr. Chairman, will the gentleman yield? Can you 
tell us, of the $53 million, is it all for personnel; or can 
the money be used for any other possible avenue for treatment?
    Ms. Embrey. I am not sure which 53 you are talking about.
    Mr. Dicks. We are talking about the $600 million that was 
appropriated by Congress in the supplemental, and out of that 
only $53 million has been expended.
    Ms. Embrey. It is for a variety of objectives, a large 
portion of which is to hire personnel. But it is also to build 
and establish new programs and policies for resilience, for 
prevention, communication, education, outreach, several other--
surveillance. Many of the things that Dr. Casscells referred 
to. It is more than just people; it is setting up capability in 
a system that did not exist before as well.
    Mr. Dicks. Why such a long delay? Or are we doing fine? I 
mean, 53 out of 600--out of 900 million does not seem to me to 
be a very aggressive program, especially with the magnitude of 
the problem.
    Ms. Embrey. We had to make sure--one of the criticisms of 
the Department, working with the VA, was to make sure there was 
consistency and standard and easy transition from DoD to VA 
care.
    It is important when you are spending money and you are 
building new programs and capabilities that you have a common 
agreement on the goals, the standards, and the desired outcome 
and that you work together to define that. And once you have 
that common vision, you can begin to implement it. And it took 
us a while to get that common vision.
    Mr. Dicks. For the record, would you give us a breakdown of 
how the 53 million was spent and any plans you have for the 
future?
    Ms. Embrey. Yes, sir.
    [The information follows:]

    Although our expenditures may not have occurred as fast as some 
people might prefer, the Department is following a detailed plan and 
executing a prudent and careful approach to assure we use the funds 
provided by Congress to maximize the benefit to our service members. 
The following slides show the details through January 2008, when the 
expenditure amount exceeded $64 million.

[GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]

    Mr. Murtha. Let me add something else. This committee, 
according to the staff, increased the direct hire authority in 
the fiscal year base bill to include additional mental health 
hires. So, as Mr. Lewis says, we don't want to hire people 
prematurely, but having said that the committee added 167 
million to 232 million budget to fiscal 2008 for the Family 
Advocacy Program, totaling 400 million.
    I see the administration cut that--Dr. Chu cut that--by 39 
percent. Our favorite guy.
    Mr. Dicks. Thank you for yielding.
    Dr. Casscells. Congressman, I want to thank you. We will 
look into that 39 percent figure. If he is using that money to 
streamline the----
    Mr. Murtha. We are going to add it back because we don't 
agree with that figure. That figure is going to be added back.
    Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman.
    The basic problem--you guys are doing a great job. And, Dr. 
Casscells, I have tremendous respect for you and your 
background; I know Ms. Embrey is equally dedicated.
    But this is not the fiscal year 2008 supplemental; this was 
the fiscal year 2007 supplemental. And we provided $900 million 
because we had gotten a lot of testimony; and it was for 
treatment, access and research--600 million for operation and 
maintenance, 300 million for research.
    And now for us to find out, basically a couple of years 
later, that only 53 million is obligated is troubling. The 
reason is that this is not a matter of purchasing weapons or 
whatever; these are human beings who are deeply troubled with 
mental health issues, and they need immediate care.
    So at an obligation like that, so much damage is going to 
be done within their families and their communities, while we 
are still figuring out how to process the money--because we are 
really talking about process, and it is the process that has 
held us back.
    I mean, that is less than 10 percent; it is, what, 6 
percent? Four percent of the money has not been used, and these 
kids are really struggling is what we understand.
    Now, at Children's Hospital, just down the street off North 
Capitol Street, there have been 100,000 kids who have come to 
that hospital, children of military families primarily with 
mental health problems. Those are kids, primarily children of 
the men and women we are trying to deal with.
    Now, it is an enormous burden that falls on the rest of the 
health network. I don't want to be lecturing; the problem is, 
we made the money available, but who is bearing the brunt of 
this? It is these hospitals in rural areas; they are not 
getting reimbursement.
    And it is even a facility like Children's Hospital. I mean, 
they are inundated with problems already, and because of this 
war and our inability to deal with the problems we have caused, 
they now have 100,000 children's visits because of mental 
health problems, primarily as a direct result of what is 
happening, the post-traumatic stress disorder that their 
parents have incurred.
    Again, I hate to be in a lecture mode here, but real 
problems are happening; and when we see that only 6 percent of 
the money has been obligated of fiscal year 2007 money, we 
think, what is the point of making the resources available if 
it is going to be 2, 3, 5, 6 years before we address it and, in 
the meantime, an awful lot of damage has occurred?
    Now, you may want to--while I have been ranting and raving 
here, you may have come up with some thoughts to calm us down a 
little bit.
    Do you have anything to say about that?
    Dr. Casscells. Congressman Moran, we are on the verge of 
getting--well, the hiring is up now. We have 129 hired. General 
Schoomaker may have a more up-to-date number.
    Mr. Moran. How many people are you going to need?
    Dr. Casscells. We need 253 just on the psychological care 
provider side. We are more than halfway there.
    We are about halfway there. So this has taken a long time 
because of the very difficult bureaucracy. And----
    Mr. Moran. The problem is bureaucracy?
    Dr. Casscells. Yes, sir. A lot of problems right in our 
building. The bureaucracy is tedious; and it is put together--
it is a patchwork quality of hiring and so forth.
    And in the midst of this we are moving to a new process in 
SPS, a performance-based system which ought to make sure that 
everybody is working hard and working smart. But this process 
is ongoing just as we are trying to rush these new hires 
through.
    We are very concerned about hiring the wrong people. It 
only takes one bad counselor can do a lot of harm to a fragile 
servicemember. So making sure we have got the right people is 
important.
    But I would have to admit that a big problem is the 
bureaucratic maze. And it is no one person's fault, but the 
bureaucracy seems to grow.
    I find very challenging all of these rules, and whatever 
guidance you can give--and Congressman Murtha says maybe it 
should be done on the authorizing side. There have been a 
number of bills to streamline the Pentagon bureaucracy; you are 
well aware of them.
    Mr. Murtha. Will the gentleman yield?
    Let me remind you, the committee added--the committee 
increased the direct hire authority because we saw this problem 
before. I am not--you have got to go through a procedure where 
you hire the right people.
    But the fiscal year 2008 base bill, which was signed--when, 
November--to include additional mental health providers--in 
other words, we gave you authority in our bill in law that you 
would be able to be more effective and not take so many 
bureaucratic--you are not being held up by the bureaucrats 
above you, are you?
    I mean, this is purely--you have got a problem; purely, you 
don't have enough people because you can't find them. But the 
authority we give you, does that help cut through some of the 
red tape?
    Dr. Casscells. Yes, sir, it does. We have, though, lost a 
number of people, as Congressman Lewis said.
    When I was down at Fort Bragg, I talked to people who said, 
I was about to hire this terrific psychiatric nurse and we 
trained her. She spent a year, and we couldn't get the 
paperwork done in time; and she said, I am not sure this is 
going to happen, I got a job in an HCA hospital.
    Mr. Murtha. You tell us what you need, and we will try to 
work it out.
    Mr. Moran. The problem is, there is little we can do 
without the executive branch having the will to implement it.
    Now, I will give you an example. You have got a guy by the 
name of Al Edwards. He is here, isn't he? He seems to be hiding 
there.
    Now, we had asked, this Committee, when we talked about the 
fact that you have got a very substantial medical facility with 
mental health capability in Northern Virginia and you have got 
enormous need right here. Maybe we could coordinate.
    Well, the Army was tremendously resistant. I have given him 
some credit because he has been pushing through all of that 
bureaucratic resistance.
    But part of the problem, I don't think we ought to be 
necessarily hiring every shrink in the country to work for the 
military, but we need them and maybe we ought to be trying to 
figure out--I am normally not somebody who suggests that we try 
to outsource everything, but maybe we are in a situation where 
we need to be reimbursing clinics that can provide this care in 
the rural areas where you just said their kids are going to. 
They shouldn't have to travel 200, 300 miles to a central 
facility, because we need them working, we need them with their 
families. But we need somebody that is there to counsel them.
    I don't know how the military is going to be able to 
provide what we envision needs to be done. I suspect you have 
got to figure out a way at least to reimburse, but also to 
alert those clinics in the communities where these kids are 
going back to, to watch them, to help them. To help them 
reintegrate into their community, to find a job, to keep the 
job, and to be good parents and spouses.
    So I am wondering whether we really need to be pushing the 
bureaucracy to hire thousands of psychologists and 
psychiatrists who are probably not going to get access to the 
kids where we need them to get this care.
    Have you thought about that, Ms. Embrey?
    Ms. Embrey. Yes, sir, I think about it every day. Actually, 
sir, we have programs in place for treatment, and we have a lot 
of Family Support Programs in place for reintegration and 
counseling and support that is not clinical.
    With the money that was provided to us, we tried to build 
new capability that we did not have and to expand the number of 
resources where we had the risk, the force projection 
platforms.
    The normal population is there on a day-to-day, peacetime 
basis. When you are at war and you are redeploying, you need a 
surge of capability to deal not only with the redeploying 
servicemembers, but with the families as well, you know, 
throughout that deployment.
    Having the capacity there that is a partner between the 
clinical and the nonclinical programs is where we are trying to 
build up. They already have programs. They are just not big 
enough to handle the demand.
    Part of that also will be increasing because one of our 
objectives is to reduce the stigma of seeking care. So, if we 
are successful in that, which we are spending a lot of 
resources on doing, then we are increasing demand in our own 
system because of that. So we need to be capable of doing that, 
and we are working on that as well.
    So building capacity is different. New capacity is 
different than expanding old capability. We want to prevent 
things from occurring and build capability to----
    Mr. Murtha. The time of the gentleman has expired.
    Mr. Moran. Mr. Chairman, if I could, not that I want to 
continue the precedent that has been established, but let me 
just make a point.
    Of all of the horrible things that have happened as a 
result of this war, there may be some silver lining in this 
area, because they tell me that a majority of the homeless men 
in this country are Vietnam vets. We really dropped the ball 
there in a really unconscionable way, so this may be--at least 
let us not do what we did to the Vietnam vets with these Iraq 
and Afghanistan vets.
    That is all. Thanks. I am sorry.
    Mr. Murtha. We are going to have one more questioner for 
Dr. Casscells. Then we will go to the next panel, and we will 
start with the next folks--with the Surgeons General, who have 
not asked questions, unless Mr. Hobson wants to go to the 
Surgeons General.
    Mr. Hobson. I have got one question for them, but I would 
like to talk generally about what--just real quick.
    Mr. Murtha. Do you want to go to the Surgeons General?
    Mr. Hobson. Well, if it is all right, yes.
    Mr. Murtha. It is up to you.
    Mr. Hobson. That is all right.
    Can you stay and listen for a second?
    Dr. Casscells. We are here.
    Mr. Murtha. Let me say that one of the things that works 
right--we will change panels, but one of the things that has 
worked right is the amputee center out at Walter Reed. This 
young major--stand up there, Major.
    This is Major Rozelle. This young fellow, who is an amputee 
himself, took on this job of coordinating the effort and 
putting together the amputee center, which cost a lot less. I 
said when we dedicated it, that it was $20 million. He said it 
was only $11 million. It is just as good as the one out there 
that they spent $58 million on, right?
    Major Rozelle. Yes, sir.
    Mr. Murtha. It is the one time the military did it for a 
hell of a lot cheaper than--he knows.
    Let us get the Surgeons General up here. Because of the 
time constraints, if you do not mind, we are going to put your 
comments in the record, and we will go right to Mr. Hobson.
                                        Thursday, February 7, 2008.

 SURGEONS GENERAL OF THE ARMED SERVICES POST-TRAUMATIC STRESS DISORDER 
                       AND TRAUMATIC BRAIN INJURY

                               WITNESSES

LIEUTENANT GENERAL ERIC B. SCHOOMAKER, SURGEON GENERAL OF THE ARMY
VICE ADMIRAL ADAM M. ROBINSON, SURGEON GENERAL OF THE NAVY
LIEUTENANT GENERAL (DR.) JAMES G. ROUDEBUSH, SURGEON GENERAL OF THE AIR 
    FORCE

                         Remarks of Mr. Hobson

    Mr. Hobson. All right. First of all, let me make a comment 
for all the panel. I have a $90 million VA-enhanced clinic 
being built in Columbus, Ohio, one of the most underserved 
areas for VA services in the country. And soldiers--when the 
first soldiers came back from Haditha Dam from Lima Company, 
they got very poor treatment at the VA because they were told 
that they were not eligible for treatment. They were not 
treated as heroes, as they should have been, so we had to take 
some action there to get some people kicked out and retrained.
    The other problem with the VA and treating soldiers both in 
Columbus, Ohio, and elsewhere--Mr. Ortiz has this same problem. 
I am building a clinic. When we originally started to build the 
clinic, we were told under the previous Secretary that we would 
stop sending people, except for extraordinary treatment, 
hundreds of miles away in Ohio or elsewhere for treatment and 
that we would contract out in the community for beds and other 
services that might be in Dayton or Cleveland or Cincinnati. It 
is not, in my opinion, cost-effective to send them there nor, 
as studies show, is it good health care.
    We continue to do that, and--the military should be upset 
with that; the retirees should be upset with that. And there is 
pushback. At the very time that we are trying to develop this 
kind of network--which is more cost-effective, by the way--the 
VA wants to expand some of their facilities elsewhere, using 
those same numbers, which does not make sense to me.
    So that is something, I think ought to be--it is a model 
that the VA under Principi thought was good. I am hoping under 
the current general, former Army general, that this will be 
taken into account better. But I want all of you aware of that.
    Secondly, do all of you have your SmartCard with you today? 
If someone were to come in here today, or you were on the 
battlefield, can anybody get your card out? Can you tell me 
your meds and what you are allergic to and all of the other 
stuff? When you move from base to base, can they plug it into a 
system and tell you where your records are?
    I have got mine. Have you got yours? No, sir?
    Do you have yours?
    General Schoomaker. I have mine with my ACU, sir. I cannot 
wear it here.
    Mr. Hobson. But does it work?
    General Schoomaker. It works, sir, right now in----
    Mr. Hobson. In a card. That is not the way it was supposed 
to be.
    When Dr. Blank, I think it was, was here, we funded money 
to do a program for the Army to do that. It is not done yet, 
and it should be done.
    Mr. Murtha. Let me see that card.
    Mr. Hobson. I have got my card. Do not read it out loud or 
they will know everything about me.
    Mr. Murtha. No. No. I just want to see what it looks like.
    So this is not a card that you can read into a computer, is 
it.
    Mr. Hobson. No, but it is the closest thing I can--no, this 
is the Federal Government. It will not do that, but they are 
supposed to be able to do that; and we funded the money for 
that. So I hope you get to that.
    I only have so much time.
    I went to an event and gave a speech for an Air National 
Guardsman who had received service awards for meritorious 
service in the war. The kid sitting next to me was getting one 
of those awards, a guardsman not from my State, and he pled 
with me for help, mental health help.
    The Guard is not equipped, nor are the services equipped, 
to give the best continuing service to these guardsmen when 
they come home. This kid did not go over there with an AFSC. 
They talked about kicking in doors and shooting people and 
holding people when they were shot. He had a totally different 
AFSC, but he got assigned to a unit that did that, so he did 
his duty.
    When he came home, he was getting out of the service. His 
wife got out of the service. I think they have got family 
problems. And I am still trying to follow up to see what 
happened to that kid because--he basically told me his story 
because he wanted help.
    I went to the adjutant general and said, You guys have got 
to take care of this. And I still do not know the total answer 
on that yet, but I am sure there are hundreds of stories like 
that within the service.
    The last thing--and I have a long question for you. This 
relates to the mental health situation over there and PTSD and 
other mental health problems for children. Information provided 
to the committee through news reports and visits to military 
bases indicates that children of military members are 
increasingly suffering, as you heard earlier about this. For 
example, last year in D.C., he talked about the visits.
    Mr. Secretary, we think there are trends in children's 
illnesses related to the war, and they can serve as an 
important basis for potential additional access by this 
committee.
    Are there any notable trends that you people know, or the 
Secretary knows, that relate to children's illnesses related to 
the war? Does anybody know anything about that?
    Well, I would suggest that it would be good if there were 
some initiatives, and I think someone needs to tell us about 
the effects of PTSD on children of military members suffering 
from this disease. Is there a correlation of children and 
spousal abuse and PTSD?
    I know, in my local community, I have a rather large Air 
Force base. We are doing a children's AFSC center; it started 
with Mr. Cramer nationally. It is a wonderful program because, 
mainly, we found out there is a lot of children abuse and 
spousal abuse going on in those communities.
    Of the amounts appropriated for PTSD, could any of these 
funds be used to help children?
    So that is really what I wanted to ask both panels today. 
You can answer my other one, too, if you want, General.
    General Schoomaker. Yes, sir. I am the Army Surgeon 
General, Eric Schoomaker.
    First of all, the PIC Card you talked about, the Personal 
Information Carrier, we did do research and continue to do 
research on that. We actually have done a pilot in Afghanistan 
with its use. It is a digital card; it has been hardened 
against the elements and hardened against being worn by a 
soldier.
    We have learned a lot about it. It can interface with our 
handheld, PDA-like medic device, and we are working also with 
how to couple that with our current electronic health records 
so that we can forward information.
    Mr. Hobson. When you were not a general--I know now that 
does not happen--but when you were like Rodney and me, enlisted 
guys, your stuff got lost. Your health records do not travel 
with you all the time.
    General Schoomaker. It gets lost as a general, sir.
    Mr. Hobson. Well, I do not know about that.
    It is the same way with your personnel records and the same 
way with your pay records. All that stuff needs to be 
standardized and digitized, so that whether it is Guard or 
Reserve--when the guardsmen come in, they are told, Your 
records do not match our records.
    General Schoomaker. Yes, sir. We are working----
    Mr. Hobson. I have been on this committee for 12 years, and 
we are still complaining about that.
    General Schoomaker. Sir, we are doing the work to try to 
digitize the medical record on the battlefield so that we can 
move through the echelons of care and----
    Mr. Dicks. Do you have your microphone on, General 
Schoomaker?
    General Schoomaker. Yes, I do.
    Mr. Dicks. Pull it a little closer. Thank you, General.
    General Schoomaker. Okay. Is that better?
    Secondly, what I will just talk to really quickly, because 
it was referred to earlier as well, is about support of the 
Guard and Reserve.
    We totally concur with the concerns about both the 
mobilization and demobilization steps, especially since we are 
moving, as you know, as an Army, from a strategic reserve to an 
operational reserve. In using the Army Force Generation Model, 
every demobilization, in a sense, is restaging for the next 
mobilization.
    So the Army is very, very keen on this; and we are working 
very hard at demobilization to find and fix the problems of 
every soldier so that they can return to uniform in a future 
deployment.
    The last comment was about the children of military 
members. I do not have specific information with me today about 
trends in children's health, but this came up earlier in 
questions about mental health, especially services for 
children.
    This is one area where I think we are facing a national 
problem. We have inadequate child and adolescent psychiatrists 
in the country, and we are working to hire psychiatrists, 
social workers, psychologists. One area that my psychiatry 
consultants have alerted me to is the difficulty in child and 
adolescent psychiatry. It is not purely restricted to the 
military; it is a national concern.
    Mr. Hobson. Does anybody want to answer or make a comment 
about the VA and service in the VA? I know Mr. Ortiz has the 
same problem. I have a problem. There are other members who 
have the problem of people who cannot get care in their 
communities.
    There is no military base, for example, in Columbus, Ohio. 
I have got one at Wright-Patterson, a hospital that I know 
stays open. But they have to go all the way to Dayton or to 
Cleveland or to Cincinnati to get the treatment. With TRICARE, 
they do not want to do that; they want to get it in the local 
community, both the retirees and the returning people.
    General Schoomaker. Sir, I cannot speak specifically to 
Columbus or to any of those communities that you mentioned. I 
will say--and my colleagues, perhaps, can join in with their 
perspectives--we are working extremely closely with the 
Veterans Administration.
    As Ms. Embrey and Dr. Casscells mentioned, we are very 
closely aligned with them. I have met with Secretary Peake 
myself, personally. I have met with his senior medical staff. 
We are exchanging at the senior-most levels, liaisons, to work 
issues. We have moved VA liaisons into our warrior transition 
units and hospitals at many sites.
    Mr. Murtha. Let me say that we have been working with Dr. 
Casscells in trying to come up with an administrator who will 
follow caseworkers the whole way through. I think that may help 
the situation.
    For instance, this committee--after we funded it, we keep 
trying to figure out how do we get past just the Wounded 
Warrior Program. How do we get down and eliminate that problem 
that all of us have in the VA?
    We think we are getting there. We think the caseworker, the 
administrative caseworker, the specialist in finding where 
problems are and telling them who to go to, may be the answer 
to this very difficult problem between how we get help for 
them; and we have had some good examples of it.
    So it is just too early to tell because the bill was only 
signed into law on the 6th. And they asked for $700 million; we 
put $900 million in there. So we are going to get there, and 
this committee has been in the forefront under Bill and under 
Jerry and myself and under all of you folks who have supported 
everything we have tried to do.
    We also ask that you give us a list of shortfalls in the 
military area for military construction, for military 
implementation. We are going to work that out, and then the 
Center of Excellence they have talked about. So we are getting 
there slowly.
    One of the things, though, that came up just recently to me 
is somebody who has TRICARE for Life said that when they go 
overseas, they are not covered. Now, this is true with Medicare 
also. We need--and maybe Dr. Casscells needs to think about 
this.
    TRICARE for Life does not cover you if you go overseas, 
according to the information I have. We need to look at an 
insurance policy or something that people can buy, and we need 
to inform them, if they go overseas and if something happens to 
them, they are not covered; and so they can buy this insurance 
policy for a very reasonable amount, or work something out. As 
it is, people are going to be overseas and not covered is what 
it amounts to. So we need to work something out there.
    Mr. Boyd.
    Mr. Dicks. Mr. Chairman.
    Mr. Murtha. Yes.
    Mr. Dicks. Can we ask somebody to respond to that? I think 
that is a very serious problem.
    Can somebody there tell us, is that a fact?
    Mr. Murtha. Well, I think that is Dr. Casscells' line.
    Dr. Casscells, do you know what I am talking about?
    Dr. Casscells. Yes, sir. TRICARE for Life, you know, sir, 
is primarily a supplement to Medicare. So, since Medicare is 
generally not covering people when they travel overseas----
    Mr. Murtha. Well, we want to change it, so we want you to 
suggest to us how we can change it, whether it needs a policy 
or whatever it needs, okay?
    Mr. Boyd.
    Mr. Boyd. Mr. Chairman, I waive my time.
    Mr. Murtha. Okay. Mr. Rothman.
    Mr. Rothman. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here and for your service. 
Being at the end of the line here, I get to say that I 
associate myself with the questions and with the remarks of my 
colleagues, so I do want to follow up a little bit on some of 
the earlier points and then extend the point of someone else.
    Dr. Casscells, on the 25 percent lost sheep, I would 
encourage you--and I know Congressman Frelinghuysen and the 
chairman have mentioned this, as well--to require, that 25 
percent respond to you would be a good first step. I understand 
from Ms. Embrey that the contact is mandatory, but we ought to 
make the responses mandatory, for 100 percent.
    I did want to follow up on a comment of my colleague, Mr. 
Moran, about the children and about the burden of children of 
veterans and also about the burden on local hospitals and 
health care providers. As Mr. Hobson said, there are not VA 
clinics or military hospitals nearby; the local community bears 
the brunt of that.
    So, firstly, is there a mechanism to reimburse--let us say 
a veteran or the spouse of a veteran or a child of a veteran 
goes to a hospital and demonstrates some illness or disorder 
that can be identified as coming from their service.
    Is there a reimbursement mechanism now, Dr. Casscells or 
Ms. Embrey?
    Ms. Embrey. For the servicemember, yes. For anything that 
is incurred as a result of service, we have a process that 
identifies and documents health issues associated with 
deployment. It is a line-of-duty documentation.
    Mr. Rothman. So a nonmilitary facility would be reimbursed?
    Ms. Embrey. Through our network, that is correct. We would 
get the bill and reimburse them, or the VA would be responsible 
for providing care.
    Mr. Rothman. Typically, does the nonmilitary facility, in 
their initial questionnaire on entry, determine whether this 
person is a veteran, and do they know to contact you for 
reimbursement?
    Ms. Embrey. In the clinical practice guidelines, in the 
postdeployment clinical practice guidelines, which are widely 
dispersed, since the beginning of this war, one of the first 
questions to be asked of an individual is, Are you here as a 
result of your deployment for a health concern related to your 
deployment? Based on that, there is other administrative 
paperwork that is done. But, yes.
    Mr. Rothman. In a nonmilitary hospital?
    Ms. Embrey. They would have to be----
    Mr. Rothman. In other words, if you walked into a community 
hospital as a veteran, are they going to ask you, Are you a 
veteran and is this combat-related?
    Ms. Embrey. I would have to check and follow up with you 
for the record because, frankly, I know the process and how it 
works for people who are entitled to care in our system.
    Mr. Rothman. Right.
    Ms. Embrey. I am not clear about who are entitled to care 
in the VA system.
    [The information follows:]

    Service members and their families are covered under our military 
healthcare plan, TRICARE. TRICARE works very much the same as any other 
health insurance plan in the civilian community. When a patient seeks 
care outside of the military medical treatment facility, the doctor or 
clinic always asks about insurance coverage. I know of no healthcare 
provider or facility that fails to ask about insurance coverage before 
it sees the patient, regardless of the patient's veteran status. Our 
military members, retirees, and family members provide their TRICARE 
coverage information and the bill is sent to the appropriate TRICARE 
claims center for payment. TRICARE covers all active duty and retired 
military personnel and their immediate family members, including 
children through age 23, if they are continuing in school.
    For Reserve component personnel who are to be activated in support 
of a contingency operation, TRICARE coverage for them and their 
families may begin up to three months before their activation date, 
continue during their active duty period, and remain in effect for an 
additional six months after deactivation. In addition, Select Reserve 
members may qualify to purchase TRICARE coverage through TRICARE 
Reserve Select (TRS) for ongoing health coverage. To date, less than 5 
percent of those who qualify sought to continue their TRICARE coverage 
through the TRS program. Again, the same process applies in terms of 
insurance claims submitted.
    For Reserve component personnel, we deliver or authorize treatment 
for all healthcare conditions incurred or aggravated in the line-of-
duty. If treatment is authorized for delivery in the private sector, 
the claim is processed through the TRICARE claims system at no cost to 
the individual, just as any other TRICARE claim for Service members. A 
line-of-duty authorization is provided to Reserve and National Guard 
members who receive referrals from the Post Deployment Health 
Reassessment process that takes place three to six months after return 
from deployment.
    In addition, under TRICARE, patients can access mental health care 
directly. Our access policies specify that a new mental health 
appointment should be available to all patients within seven days of 
the date of request. No referral or preauthorization is needed for a 
family member or a covered Reserve component member to make a mental 
health appointment. After the first eight visits, authorization is 
needed for TRICARE to continue to cover the costs, but again, no 
referral is required. For active duty members, the process is a bit 
different. We encourage all active duty military to be seen for all 
health care needs, including mental health care, in the military 
medical treatment facility, and we strive to ensure that sufficient 
providers are available to see them in the military mental health 
clinic. Again, they do not need a referral to go directly to the 
military mental health clinic for care; they can go directly and are 
entitled to the same seven-day access standard. Only if there are 
insufficient resources to meet the seven-day access standard would an 
active duty member be referred to a civilian provider in the TRICARE 
network. In that case, the claims process would still be the same as 
for any other patient seen in the civilian sector.
    Another counseling service available to our military community is 
the Military OneSource program. This excellent program offers 
counseling for everyday problems, emotional issues, and work-life 
adjustment issues. It provides up to six sessions per person per 
problem and is available to active duty and their families as well as 
Reserve component members and their families. Military OneSource also 
will assist individuals in accessing care through their health care 
benefits if they are not aware of how to do so. In addition, we are 
establishing a call center in the Defense Center of Excellence for 
Psychological Health and Traumatic Brain Injury to assist individuals 
who are uncertain of how to access care or what their benefits may be. 
Further, we provide mandatory briefings to all military personnel 
returning from deployment to inform them about their health care 
benefits in both the military health system and in the Department of 
Veterans Affairs (VA) system. We partner with VA and other federal and 
civilian organizations to provide Transition Assistance Programs for 
military members when they separate or retire from the military to 
ensure they are fully aware of their benefits following military 
service.
    For veterans who have separated from the military (not retired or 
medically retired) for longer than six months, the VA Medical Centers 
and Veteran Centers provide care for those individuals. The VA reports 
that few veterans are more than 50 miles from some kind of VA facility. 
Preauthorization and special health care vouchers are required for a 
veteran who seeks care funded by the VA in a non-VA facility. Most VA 
medical centers are also part of the TRICARE Network, allowing TRICARE 
patients who may not be veterans to seek care in a VA facility with 
charges paid through the TRICARE claims center. Family members are not 
eligible for care in the VA Medical Centers, but may be seen with the 
veteran for family treatment or in the Vet Center for some counseling 
programs, such as grief and loss counseling.

    Mr. Rothman. Mr. Chairman, if I might, Congressman Moran 
and Congressman Hobson raised the issue of nonmilitary health 
care providers, hospitals and others, who are taking care of 
veterans, veterans' spouses, and children in the absence of 
close facilities related to the military.
    My question was, being in a State where hospitals are going 
bankrupt, is there a requirement or an awareness of these local 
hospitals to ask, Are you a veteran; is this service-related, 
so that they can go to the military to be reimbursed? Ms. 
Embrey said that there is a reimbursement policy for the 
veteran, him- or herself.
    So would it be possible, Mr. Chairman, to find out if there 
is this connectivity between nonmilitary hospitals, so that 
they can ask those questions and get reimbursed? I ask that 
just not completely rhetorically, but----
    Mr. Murtha. I know what the gentleman is asking, and I know 
all of us have the same problem. Every time we get beyond the 
military or we get out into the countryside, we have a problem. 
I have tried for years to have a clinic in a hospital put money 
in, and the VA never would figure out how to do it. There is no 
question about it.
    Mr. Rothman. But is there a way to get these hospitals to 
ask the question and then have a system whereby the military 
reimburses?
    Mr. Murtha. Well, if they have TRICARE or TRICARE for Life, 
they get reimbursed. Sure. Yes.
    Mr. Rothman. If the hospital asks them, Are you a veteran, 
and if the hospital files the paperwork with the military.
    I will move on to my next question. Staff, if it is 
possible to look into that, that would be great.
    The other point--my last point was on the issue of 
homelessness that Mr. Moran----
    Mr. Murtha. Wait.
    Mr. Rothman. Yes, sir.
    Mr. Murtha. The staff says, if the hospital is enrolled in 
TRICARE, they are automatically reimbursed. In other words, 
they would be reimbursed by TRICARE. According to Sarah, if the 
hospital is in the TRICARE network, they are automatically 
reimbursed.
    Mr. Rothman. Maybe there is no problem of veterans going to 
non-TRICARE hospitals. Maybe there is no such problem, but 
maybe it is worth looking into.
    Mr. Murtha. But veterans is different than, I mean, the 
active duty, the retired Reserve.
    Mr. Rothman. Okay. So, for non-TRICARE then, that may be a 
real issue. The question, though, is about homelessness.
    Can anyone on this panel or on the other panel address the 
belief amongst some that we are seeing a repeat, if not an 
increase, in homelessness amongst the returning soldiers, 
veterans from this conflict, as we saw from Vietnam? Is that 
true? Are we doing any better? Are we doing any worse? What did 
we learn from the Vietnam experience with regards to the 
subsequent numbers of homeless whom we see?
    General Schoomaker. Let me just take on something really 
quickly.
    I cannot speak to the homeless statistic specifically. I 
think the Vietnam veteran number is one in four. That is what I 
have heard quoted; one in four homeless are Vietnam veterans.
    I completely agree with the earlier comment that if there 
is a silver lining in this, it is that we are recognizing and 
are attempting to prevent as well as screening and managing 
much earlier in the course of a soldier's, sailor's, airman's, 
Marine's, Coast Guardsman's experience following deployment the 
signs and symptoms related to both concussive injury, from mild 
traumatic brain injury, or concussive injury as we call it now, 
as well as post-traumatic stress. In fact, our ambition and, I 
think, our experience now is that we attempt to screen and 
identify and manage the symptoms of post-traumatic stress 
before it becomes a disorder. So this is really post-traumatic 
reaction.
    I will talk quickly, if I might, Congressman. I will follow 
up with the figures earlier.
    How many lost sheep out there are there? We have had a 
mandatory post-traumatic, postdeployment health reassessment 
since January of 2006, 2 years now. This was based upon 
experience in one of the earlier mental health assessment teams 
that went out in the field and realized--and the work that 
followed that, from Dr. Hoge and others, that the symptoms of 
post-traumatic stress in a redeploying soldier emerged 3 to 6 
months after redeployment, not at the moment of redeployment.
    Currently, in the total Army, 87 percent of all redeployed 
soldiers have been screened through the postdeployment health 
reassessment tool, 93 percent of the active component, 87 
percent of the Army National Guard, and 78 percent of the Army 
Reserve. Those are the current figures. That includes people 
who are still in the window that they can go in and complete it 
and still meet the timeline.
    So I would submit that for the Army, which constitutes the 
largest group of deployers, we are doing pretty well in terms 
of compliance with this mandatory screening.
    Mr. Rothman. Congratulations on those significant numbers.
    The obvious question is, what happens to the other 23 
percent or 17 percent? Because, given the number of bodies we 
sent over there, that would constitute a large population in 
and of itself. Why aren't we getting 100 percent?
    General Schoomaker. I share with Dr. Casscells the concern 
that we reach out to each and every one of these people, and I 
think why we are not reaching them is because of movement away 
from the service.
    As I said before, it is 3 to 6 months after, so if you 
leave the service almost immediately upon redeployment, it may 
be difficult to track you down and find you. But that is our 
ambition, and that is certainly our mandate.
    Mr. Rothman. Your mission is to reach out, but it is not 
their duty to respond--heretofore, I mean--until now; is that 
right, Doctor?
    Dr. Casscells. Yes, sir. When the reservists go home, of 
course they take off the uniform; they have got civilian jobs.
    We are brainstorming this, Ms. Embrey and I, right now. We 
will get with the Surgeons. There may be ways that we can 
require that, to get points as they are drilling reservists and 
so forth, that they first get this requirement filled and so 
forth. There may be other incentives we can come up with.
    Mr. Rothman. Putting it in the initial contract, too?
    Dr. Casscells. Yes, sir.
    Mr. Rothman. Yes. Thank you for your service and for these 
great ideas.
    Again, those are great percentages. Of course, we are just 
looking to make it 100 percent.
    Thank you, Mr. Chairman.
    General Roudebush. Sir, if I may just add to that point, we 
have relatively similar experiences, although our Reserve 
numbers are lower than that and not where they need to be. They 
are trending up, certainly, but this is a shared responsibility 
among the medical capability to contact these folks and to 
solicit and elicit with that questionnaire--which, by the way, 
is overly sensitive to emotional and stress issues, so if there 
is anything going on, it will trigger.
    But the command and the line authority with these folks is 
also heavily engaged, enlisting the commanders, the first 
sergeants, the unit commanders to do this. In fact, in the Air 
Force, we are utilizing the incentive of, unless you are doing 
this, you do not get the points to do that.
    So we are moving in the correct direction, but it is a 
shared responsibility and one that we work with the line very 
closely on to be sure that we get this done and with the 
families who, in fact, may be the first harbinger of, you know, 
``My husband just is not the same since he came back.''
    So it is a network. It is not one simple contact, one 
simple response. It is a network. It is a shared 
responsibility. It is a real outreach effort that is trending 
up, but there is much work to be done.
    Admiral Robinson. From the Navy and the Marine Corps 
perspectives, we are not as good as the Army. We have an 
additional problem.
    The Marine Corps units that are deploying actually have 
good PDHA and PDHRA results, so the deployment and the return. 
It is not 100 percent, but it is still good.
    The Navy also has a great deal of individual augments, so 
we are finding that individual augmentees, men and women who 
are deploying as individuals with other groups, have other 
challenges, because the lack of unit cohesiveness hampers the 
ability to get a unit to get a PDHRA or to get a postdeployment 
read.
    So, for that reason, there is a little bit more challenge 
there. It does not mean that we are any less concerned or any 
less responsible for getting it done, but it does produce a 
little bit of a different challenge.
    Many people coming back, as Dr. Casscells has said, are 
going back into their civilian lives. They do not know that 
they have a problem necessarily when they are coming back, and 
they do not want anything to stop their return, so the thought 
of having a positive response on a postdeployment assessment 
that could stop something or do something is something that 
many do not want to do.
    The key is that they, in fact, do get the treatment 
because, as Dr. Schoomaker has said--the Army Surgeon General--
to take care of traumatic stress before it becomes a syndrome 
or an illness, to take care of those stress symptoms, will 
prevent the long-term effects.
    I think many of those effects are responsible for some of 
the homelessness issues with the Vietnam veterans who had never 
had their traumatic stress identified and who had then never 
received treatment for it. I think what you are seeing is--if 
you were doing a longitudinal study, which we are not, you are 
seeing the end result of untreated traumatic stress in a combat 
population 25 years after the fact. So a lot of what we are 
seeing is, I think, a result of traumatic stress that was not 
treated or was not treated effectively, because we were not 
geared into that.
    So one of the nice things now is, not that we are doing it 
completely correctly, but we are, in fact, trying to identify 
that.
    Mr. Murtha. The time of the gentleman has expired.
    Mr. Young.
    Mr. Young. Well, Mr. Chairman, thank you very much, and I 
apologize for not being here at the beginning. We were in 
another subcommittee meeting with the top enlisted leaders of 
the military services; and they are a pretty interesting group 
to talk with, so I tried to hear as much of their testimony as 
I could.
    Admiral Robinson, I just was very interested in your recent 
comments now about PTSD. We spent the weekend at Camp 
Pendleton, and specifically, at the Wounded Warrior battalion 
where a lot of the marines who have gone through Bethesda or 
Walter Reed are spending time, there at the Wounded Warrior 
battalion now. It is interesting that one of the things that we 
heard so much of from those marines was on the subject of PTSD.
    There are a lot of different angles on this concerning 
PTSD. One of them is the fact that the protocols appear to be 
that you will not treat the PTSD if they are having a drug-
related program, for example, until the drug-related program is 
solved. Many of them felt that there should be a dual approach 
to it and treat PTSD and the drug programs, or whatever else it 
might be, at the same time.
    Is that something that would be practical to change into 
the protocol?
    Admiral Robinson. Congressman Young, you are catching me as 
a surgeon in the psychiatry end of business, but I would say 
this. I think that since care is not--care is not monolithic; 
in other words, you do not necessarily--you are not capable of 
treating one part of the disease or one thing now, and then 
tomorrow we will worry about the second part, and then Thursday 
we will worry about the--I think then the answer is, there 
really needs to be a combined approach to making sure that the 
traumatic stress symptoms are treated in conjunction with the 
other symptoms in which case drug abuse occurs.
    This is what we also know. We also know of alcoholism, 
alcohol being probably the oldest anxiolytic that is known to 
human kind. We know that drug abuse, or drug dependence, are 
usually things that patients are using to self-treat the 
anxiety symptoms that are often coming about because of the 
traumatic stress. So it is a complex problem. It is going to 
require more than just one treatment, and I think that there 
needs to be a combination approach that is taken.
    I will add this, too. There is also the approach that needs 
to occur with the family because child abuse/spouse abuse is 
also related to traumatic stress, to anxiety, to depression, to 
a lot of the things that also precipitate drugs and alcohol.
    So--it is a multifaceted, multifactoral problem, so there 
is going to have to be a concentrated effort and a multicentric 
approach to the problem. That means then that we are going to 
need to make sure that we treat not only the individual but the 
family, and make sure that the family receives the kinds of 
counseling and care they need in order to make sure that the 
traumatic stress syndrome, which may affect an individual 
directly, but affects a family as a result, is taken care of, 
too.
    Mr. Young. Well, I want to go back to your opening response 
to my question, where you had a disclaimer that you were not 
much into that issue, but I would say that I have seen you 
counsel wounded soldiers and marines and families and a lot of 
people. I think you do a pretty good job at counseling, but now 
here is the problem.
    We have a lot of kids who have been hurt badly. They might 
not really recognize that they have a post-traumatic stress 
problem; or they may think that they do, and maybe they are 
being told that they do not by somebody in the system--and I am 
aware of cases like that.
    But in the long term, this is going to go on beyond your 
hospitals; it is going to go on into the VA system, where you 
move these young folks into the VA system, but I do not think 
we have enough professionals dealing with them.
    For example, some of the VA hospitals are telling me that 
the best they can do is give a veteran who needs psychological 
help and counseling 15 minutes. I am not a psychologist either, 
but I think if I had a mental problem--and I am sure there are 
those who think that I do--I would not think that 15 minutes is 
enough, but if you have more patients than you have 
professionals, you have got to limit that time.
    So what do we do to get more professionals available to 
your wounded soldiers and marines and sailors and airmen and 
whoever else might be hurt? What do we do to provide them a 
type of counseling?
    This is addressed to all three of you, if you do not mind, 
because if there is something that we can do to help, we would 
like to do that.
    I am thinking about reenlistment bonuses. I understand that 
psychologists, for example, do not get anywhere near a 
reenlistment bonus like some other members of the medical 
profession.
    So I know I am hitting you with a lot of issues all in one 
question, but they all run together, and it is not something 
that is going to go away. It is not something we can sweep 
under the rug. It is something that, every day, it is becoming 
more evident is a growing problem.
    General Schoomaker. Sir, if I might just respond, first of 
all, I have to commend Admiral Robinson's description of what, 
I think, the services are attempting to do to prevent the next 
generation of PTSD.
    Mr. Young. General, could you speak closer to the 
microphone?
    General Schoomaker. I said, I am just going to commend 
Admiral Robinson on his description of what we are attempting 
to do to prevent the next generation of PTSD patients who have 
well-established and almost refractory psychological 
consequences of unrecognized early symptoms of post-traumatic 
stress. He nailed it. It is confounded by drug and alcohol and 
family discord.
    So a lot of our efforts in the military right now are to, 
first, sensitize every deploying soldier, sailor, airman, 
marine, and coast-guardsman that this is a risk. This is what 
we call the ``human dimension of combat.'' You can anticipate 
that you might experience symptoms, when you come back, of 
sleep problems, of problems with relationships, of 
hypervigilance. Things that might have been even helpful for 
you while you were in a combat zone are no longer helpful when 
you are at home.
    And to avoid problems with drugs, alcohol and family 
discord--a couple comments about that--what the Army has done, 
led by our Secretary and by the Chief of Staff of the Army, is 
to do an unprecedented leader-teach program that we have 
completed that went from the top of the Army and included the 
Sergeant Major of the Army, whom you just talked to, down to 
the last soldier on active duty, educating them about the signs 
and symptoms of concussive injury, as well as post-traumatic 
stress, and alerting them to watch their buddies--help them 
avoid alcohol and drug problems, help them recognize that some 
of their behaviors are related to combat-related stress.
    The second thing I would say speaks to this problem of 
professionals available for mental health. A fundamental part 
of that has got to be at the primary care provider level--the 
family medicine doc, the nurse practitioner, the pediatrician, 
the general internist--who is seeing and treating our patients 
probably most commonly. A lot of our programs are powered down 
to them to recognize the signs and symptoms of post-traumatic 
stress and concussive injury and to intervene and, if 
necessary, to elevate them to the specialists.
    General Roudebush. Yes, sir. I think you touched right at 
the heart of what we are attempting to do. How do we get these 
individuals to the right care at the right time and in the 
right fashion?
    To tag on with General Schoomaker's comment, I am a family 
physician, and I can tell you that 70 percent of the patients 
whom I see, or the problems that I see just on average, have an 
emotional or a behavioral or a psychological component to it, 
so there is the opportunity to leverage all of the primary care 
providers as well as the surgeons.
    I mean, any provider who is seeing these individuals needs 
to be aware that there are those issues that are at play. Get 
the individual to the right capability, if that is required--
although, as a family physician, I can provide a great deal of 
that care; but I can get the individual to a psychologist or to 
a psychiatrist at the point when that becomes appropriate.
    I will go back to the network overlay of this. Within the 
Air Force, our Chief of Staff and our Secretary have made it a 
priority to take care of our people.
    One of the programs we have is a Wingman Program, which 
does two things: One, it causes us to look out for each other, 
but it also destigmatizes the act of asking for help. So you 
institutionalize an ethic and a sense that it is okay to get 
help when you need it, and we support each other in doing that. 
Then you begin to get at the family support, as well, for our 
Airmen who are deployed on the ground in combat.
    I mean, it really does go deeply, but it is the network 
that provides that. For us, our outpatients, we embed mental 
health providers in our family practice clinics both as a 
consultant and outreach. But as one who sets the tone, that 
this is how we go about it. So I think there is an opportunity 
to get this.
    That said, I think we still are going to need more 
specialists--psychiatrists, psychologists. I think we need to 
prime the pipeline and be sure that we facilitate the 
bureaucracy.
    I do not diminish the challenge there to help us bring 
those folks on board. So, with your help in our doing that, 
certainly through the supplemental and the dollars that we have 
received, we are expanding the access and the capability. So we 
think that is a huge piece of it as well.
    Mr. Young. Well, I agree with what you just said.
    I am just wondering, you know--I know, in working with the 
American Red Cross, that your hospitals can have volunteer 
medical doctors who give of their time to help our wounded 
troops, but I am not aware of any program like that with 
psychologists or psychiatrists.
    I am just wondering, if we developed a program like that, 
wouldn't it help ease the burden on those who are overworked 
now and who do not have enough time to deal with all of these 
kids or, at least, maybe give them whatever time they needed 
rather than just a block of 15 minutes and you are done?
    General Roudebush. Yes, sir.
    As to the opportunity to bring in those who would wish to 
volunteer and to provide their services, we have that 
capability right now. We can credential them, in fact, as Red 
Cross volunteers, so we can do that.
    I am not aware of a specific program to go after mental 
health providers. I will tell you that the Public Health 
Service has offered and is providing a number of mental health 
providers to the DoD, and we are taking advantage of that in 
order to expand our capabilities. I am not aware of a Red Cross 
program, but I think that certainly merits very strong 
consideration.
    Mr. Young. Well, of all of the issues that are going to hit 
us as a nation postwar, I think this issue of PTSD is going to 
hit us really hard, and I am not sure that the country is ready 
for it, because I know that once they leave your system--you do 
a pretty good job in your system, but when they leave your 
system and get out into the public or go to the VA system, I 
think it is going to come on and hit us really hard, and we 
need to be prepared for it.
    I think everybody on this committee would agree that we 
want to do whatever we can to help you provide whatever it is 
that you need to try to avoid the problems that these young 
folks might have later on because of their exposure to what 
they are exposed to in Iraq and Afghanistan.
    Go ahead, General.
    General Roudebush. Sir, you have raised a very good point, 
and I think we have talked on it in other discussions.
    The DoD has, certainly, the accountability and the 
responsibility to take care of the individual on active duty 
and then transit him into the VA, if that is appropriate. The 
third part of that, out into the great parts of America where 
there is not a military facility or a VA readily accessible, 
is, how do we leverage the local community care in order to 
provide that; and that part of a systematic approach is not 
there yet.
    So I think that is an area where much work remains to be 
done.
    Mr. Young. Yes. If anybody else does not care to respond, 
Mr. Chairman, I am prepared to yield back.
    Mr. Murtha. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman.
    Welcome. I am so glad to have you here, and I am so glad to 
be in Congress at a time when we can deal with these issues, 
and I thank our chairman for scheduling special hearings on 
this critical subject.
    I wanted to mention just a few observations as we think 
through this together, and I wanted to offer any help I can 
give, as one member of this subcommittee, on a set of questions 
I care very much about.
    One is the culture within the military that comes home to a 
district like mine where we have returning troops--this is 
northern Ohio--who do not return home to a base, as in 
Sanford's district, and they exhibit these issues. I mean, they 
have PTSD, they have bipolar conditions; and they know they 
have them. Not all do, but I mean, the ones who do have come up 
to me when they get together, but they are afraid to get help 
because it will hurt their promotion, so they do not seek care.
    I was told that the Army had adopted some type of policy, 
saying that if you do not get care, you will not be promoted. I 
am wondering--I just want to say a few things, but have you 
comment on a couple of them. One of them is this promotional 
issue.
    How do we get at the question of a commanding officer--I 
had a commanding officer come up to me. He goes, I know I have 
got it, Marcy, but I am not going because I will not get any 
promotion.
    So there is this cultural bias against getting help. That 
is number one, culture.
    Number two, the people, the medical specialists. We know 
that in any one of these illnesses, 90 to 95 percent of 
diagnoses that are done by qualified physicians are incorrect, 
incorrect by qualified physicians.
    If you go to a psychologist, it is only correct--I mean, it 
is wrong 90 percent of the--I have got that wrong. It is wrong 
95 percent of the time if a psychologist diagnoses you. It is 
wrong 90 percent of the time if it is by a qualified physician, 
because we do not have enough really qualified people in these 
areas. So if you do require medication--I am not just talking 
about PTSD, but PTSD plus other symptoms sometimes. If you are 
incorrectly medicated, you are never going to be helped anyway.
    So, to me, in looking at this, my question is, how do we 
get more qualified people in the system to do the diagnoses? 
How do we get what I view as the most important people 
networking with that vet and his family? That would be a 
psychiatric nurse and a chaplain.
    All right. Now, we know we are short on our chaplains all 
over the country, but those are really the--they are at the 
firing line for these people.
    We have a series of questions we could submit to the record 
about how many such personnel in those categories do we have. 
Certainly, neuropsychiatrists, but psychiatric nurses so that 
there is continuing care, and chaplains, we are very short; we 
are underhanded all across the system. When you get down to the 
Guard and Reserve, whom I tend to represent much more than my 
colleagues who have active duty bases, boy, does it get short 
down there.
    General Roudebush, I would reference to you that in Ohio, 
we have been working with our adjutant general in trying to 
somehow, in a big State like Ohio, network these resources in a 
reasonable way. It is very hard, because you have got Wright-
Patterson Air Force Base over on the western side of the State. 
You have got all of these Guard and Reserve units coming in 
from every place. You have got your VA clinics scattered all 
over. You have got the VA service centers. You have got the 
State Guard down there coming to see me, ``Hey, we need more 
TRICARE.''
    The problem is, when these units come home, there are not 
the right people there to diagnose properly and to follow them 
on a continuing basis. The one center we have in the north, 
which is a nursing home, a VA State nursing home, there is a 
chaplain. He had me over there a couple months ago. The guy is 
so shorthanded, dealing with not just the returning Iraqi vets, 
but with all of the other vets from the first Persian Gulf War 
and prior conflicts. He said, Marcy, I am just telling you. He 
said, This thing is not working, and he was in the military for 
20 years and is a chaplain.
    So how do we work with you to get a more systemic approach 
in a State to get the proper personnel on the ground--a 15-
minute interview is not good enough--and proper follow-up in 
serious illnesses like these that continue and come up at odd 
times?
    It is not like a broken leg. How do we get those personnel 
deployed--how do we get people trained in the pipeline? How do 
we do that now and then get it organized to hit the ground in a 
place like Ohio? As our people are returning now, they are not 
getting the help that they need. How do we do that?
    Admiral Robinson. I am going to address, first, the stigma 
question because that is a major question, the culture in the 
military and the stigmatization.
    Unfortunately, in this country and in many countries, but 
in this country, there is a stigma associated with mental 
illness and mental health in the entire country, so many people 
do not want anyone to know that they are seeing a mental health 
provider. So that is the first overview.
    The second one is, as we get into our different positions, 
whether that is private sector or military, we certainly do not 
want our bosses to know that we are seeing a psychiatrist, 
because that very often will affect promotion, and it will 
affect advancement; and even if it does not, we think that it 
does.
    Then you hit the military, which has a rather stoic culture 
amongst those who wear the uniform. The stoicism then becomes 
even much larger with mental health issues, because now it is 
not a broken leg or something that you can see; it is something 
that you cannot see. Also, you are malingering or you are 
faking it, or you just do not have the gumption or the spirit 
or the backbone to continue. All of those things are utterly 
untrue, but still, that sometimes is the perception of members 
who are there.
    One of the things that we are doing is making sure that 
members--officers, enlisted, everyone--realize that going to 
seek mental health counseling is a sign of strength, not of 
weakness.
    Ms. Kaptur. Do you think that is permeating in the ranks?
    Admiral Robinson. I do not think that it has permeated into 
the ranks completely, but you know, we have to start someplace, 
and I think that--I will only draw this to your attention. When 
you go to the civilian sector, there are a lot of people who 
will never let you know they are seeing a psychiatrist. That is 
why there are so many psychiatric offices that have very 
private waiting areas. In fact, they will sometimes allow you 
to leave through entrances different than from where other 
people are coming in.
    My point here is not to--I am not trying to off-lay this 
and say that it is not a problem for us. What I am saying is 
that it is a problem because stigmatization in mental health is 
a problem.
    In the military, the worst problem that we have is not the 
warrior; it is the health care professional. The health care 
professionals are the worst. People like me--doctors and 
nurses, psychiatric nurses who have mental health problems--
they are the worst at coming and seeking help, because that 
becomes a real problem for us.
    That surprises many people, but it actually is true for 
those who are actually in the field, as I am, and know that.
    With that said, one of the things you have to do is, you 
have to walk the talk, and you have to just let people know. I 
have to admit to you that it may be one person at a time. It is 
sort of like the old starfish story. We can get the policies 
out, but it is about walking and talking and making sure that 
people realize that seeing a psychiatrist is not going to keep 
you from getting your promotion or from doing the things that 
will enhance your career.
    Ms. Kaptur. From what you know of the Navy, it prevents you 
from promotion, though, doesn't it?
    Admiral Robinson. No, it does not. As a matter of fact, if 
we can keep you alive and keep you from killing yourself, you 
have a much better chance of being promoted.
    Mr. Murtha. The time of the gentlewoman has expired.
    Mr. Dicks. There was a question that was not answered.
    Do you agree with her numbers on the improper evaluations?
    Admiral Robinson. I do not know if the numbers are correct, 
and actually--and I am not disinterested. I will tell you that 
the diagnosing can be problematic, but one of the issues that 
goes with diagnosing is--and I was happy you used both the 
professional and the primary care because, really, the problem 
we are having is a national shortage in mental health 
providers.
    This is not a military shortage; this is a national 
shortage. It is not just child psychiatry. It is across the 
board.
    Mr. Murtha. Let me say what we have been trying to do.
    We have been trying to add money. We have been giving them 
the authority to hire people faster, this committee. We have 
also asked them to get administrative people who could work 
with individuals the whole way through, not only at Walter Reed 
or Bethesda, but down through the VA system so that one 
caseworker would handle them.
    I have just been out at Fort Hood, and I saw an example of 
how much better they are handling things today than they were a 
few years ago. The commanders themselves are urging the members 
to come forward if they have a problem. In other words, they 
are trying to eliminate this stigma which you were talking 
about.
    We are far from it. I mean, the military over the years has 
not liked stigma because you can use that as an excuse not to 
be in battle; so it is a very delicate balance, but I think we 
are making progress.
    As you know, I have been involved in this health care 
business for a long time, trying to get it moving in the right 
direction. I think we are moving in the right direction.
    Ms. Kaptur. Mr. Chairman.
    Mr. Murtha. Yes.
    Ms. Kaptur. Might I just say for the sake of the fine men 
who are here today, in Ohio--I can only talk about Ohio--
General Wayt, who is our adjutant, has been working diligently 
to try to find a better way to provide these services as people 
come home. Congressman Hobson has been a leader on this since 
he was in the State legislature. There is a Dr. Joseph 
Calabreeze.
    I do not quote those statistics, Norm, lightly. Those 
statistics came from work we have been doing in Ohio, and they 
came from Dr. Joseph Calabreeze from Case Western Reserve 
Medical Center and in working with General Wayt. So that is 
where those numbers come from.
    Mr. Dicks. I was shocked by them, to be honest.
    Ms. Kaptur. I was shocked by them. It turned my thinking 
inside out.
    So we have made some headway on the ground in Ohio, but not 
enough because we do not have the plug-in at the national 
level. So that is why I am just raising this, so that they can 
pay attention.
    Mr. Murtha. Well, this is what it was all about. This is 
what we have talked about all day long, and we are getting 
there, I think. We are making some progress. It is not going to 
be perfect.
    They have given us some recommendations. The committee is 
going to consider them, I think, probably very, very favorably. 
But, you know, we are making a little progress.
    Mr. Tiahrt.
    Mr. Tiahrt. Thank you, Mr. Chairman.
    I think all of us who have VA hospitals see that there are 
still Vietnam vets struggling; and one has to wonder if part of 
it was not the rejection that they got when they came back home 
following that conflict.
    I know that my own cousins said that they were spit on on 
occasion because some people rejected what was going on in 
Vietnam. And I fear for our Nation now when communities like 
Berkeley reject our troops today and what impact that is going 
to have on our troops who are returning to those communities.
    The stigma is something that, I think, is probably the 
greatest challenge you are going to face. We have heard stories 
about the officers. I know, in the Marines, that there is some 
kind of an inherent stigma that is just not from the leadership 
or from the officers corps; it is mostly just the machoism 
that, I think, a lot of the soldiers are feeling.
    I am concerned about that because I think we ought to find 
a way to overcome that, and perhaps everybody has to go through 
some kind of a pre/post-screening.
    I know that some psychological experts, like Dr. Faulk at 
the KU Med Center, have identified the need for predeployment 
counseling to sort of prepare them for some of the things they 
are going to be facing. I think that is good advice. It gives 
them sort of a preparation, or something that they can expect; 
and that will help them, I think, deal with the situations as 
they occur. Subsequently, when they return home, it will give 
them a better way of coping with it.
    The Dole-Shalala Commission noted that the VA is noted as a 
leader in PTSD, but they also stated that there is difficulty 
in their transferring that information back to the active duty 
services and to other facilities, even within their own 
network. I hope that there is some way, some mechanism--and I 
do not know what that mechanism would be, whether it would be 
periodicals or seminars.
    I do not know what mechanisms you have of taking the 
information that comes out of the system and dispersing it to 
all in DOD. So I would like you to tell me what the system is.
    Let me just mention one, or a couple of other things; and I 
will just turn you loose, because I do not want to drag on a 
lot. Some providers have called TRICARE ``charity care'' 
because we are just not keeping pace with the current cost of 
providing health care. I think in the area of reimbursement for 
PTSD, it may be charity care. We may not be a good economic 
model in getting the kind of care that these folks need.
    General Roudebush and Admiral Robinson, you both mentioned 
the families, and it was also mentioned by members here, too--
Mr. Hobson and Ms. Kaptur. I think that is very important 
because they do suffer. When somebody comes home with PTSD, it 
affects everybody around them, so we need to have a way of 
including them.
    Perhaps when you get this precare and the postcare and 
include the families, it will become more economical in some 
fashion. I do not know.
    I hope that you can address the way we disperse information 
amongst DoD that is gained from the knowledge of treating PTSD 
even amongst the services, and then also how we can handle the 
families. I mean, is there a mechanism to touch the families as 
well?
    Admiral Robinson. I will take the first--by the way, I 
appreciate your comments on stigma, because I think that is a 
problem, and we will have to deal with it.
    As to the experts in PTSD and their spreading the 
information, there are two answers. The first is the Center of 
Excellence for stress, for traumatic stress, that is actually 
coming up at the National Military Medical Center for which 
Colonel (Promotable) Sutton, who is sitting behind me, is the 
director is actually building.
    That is going to be a center that has Army, Navy, Air 
Force, VA, and civilian academic centers that are going to 
have--in a sense, it is a multifaceted group, and it is all 
together. I think that is one way we are going to get the word 
out and actually dispense and disperse.
    The other way is through the way we are doing casualty care 
at both Bethesda and Walter Reed and the C5 in Balboa and at 
the Wounded Warrior brigades and at the Wounded Warrior in 
Pendleton and Lejeune. That is to make sure that we have 
connections with the polytrauma centers on the VA side--and we 
do, and we talk on a daily basis with them--and that we have an 
interaction with the polytrauma centers around the country. We 
have it regarding amputation. We have it regarding traumatic 
stress. We have it regarding mental health, blindness, spinal 
cord rehabilitation. So there are a multitude of things.
    General Schoomaker. I would say, for the Army, several 
things. First of all, for sharing medical information among 
medical professionals, I think Adam has addressed a couple of 
the ways we are doing that already around polytrauma centers, 
for example, and at our centers of Warrior Care.
    We do a lot of our clinical guideline development with the 
Department of Veterans Affairs. For example, guidelines around 
the management of traumatic brain injury were developed in 
concert with the Veterans Administration through the Defense 
and Veterans Brain Injury Program, which is now incorporated 
into Colonel (Promotable) Sutton's Center of Excellence for 
TBI, that Admiral Robinson referred to, that is going to be 
stood up at Walter Reed National Military Medical Center in 
Bethesda.
    As far as for our soldiers and their families, what the 
Army has done--and I alluded to this earlier, I think, in 
talking to Congressman Dicks. The Army leadership, starting 
with our Secretary and the Chief of Staff, last year did a 
leader-teach program that went from the top to the very bottom 
of the Army.
    And I think everybody at this table would agree that the 
key to stigmatization, breaking the stigma, lies with the line 
leadership. That is where our soldiers, sailors, airmen, 
marines look to. They look for the example of their leadership, 
and our leaders are stepping forward to say exactly that.
    I do not know where the impression came from, that the 
congresswoman mentioned, that you will not get promoted if you 
go to a mental health provider except that that is embedded 
within the culture of the society. I mean, this is not only 
resident in the military, and I think we all remember major 
figures within even Congress whose mental health problems 
became a problem of stigmatization in the past. This is 
something----
    Ms. Kaptur. Excuse me, General.
    General Schoomaker. Yes, ma'am.
    Ms. Kaptur. Since you mentioned my name, that was said to 
me by more than one soldier from my district.
    General Schoomaker. Yes, ma'am, and I am not denying that 
that is there. I am just telling you, as Admiral Robinson said 
earlier, how deeply embedded and ingrained this notion is and 
how difficult it is going to be to change it.
    What we are doing in the Army is, in every military 
training experience that an enlisted soldier or an officer gets 
throughout their career, there will be elements of continuous 
training around the recognition of the symptoms of both 
concussive injury, as well as psychological responses to 
combat. It will be a part of everything we do to continue to 
develop our leaders and to develop soldiers.
    Then, finally, we have a whole group--in fact, in your 
support for us, in the moneys that you have provided in that 
$600 million, O&M dollars, that are going to be directed toward 
the care of patients and their families, we have a large body 
now of training materials under the brand of Battle Mind 
Training that is addressed toward children; and that is 
addressed toward families to sensitize the force, that of 
predeployment to get them prepared to go and that of 
postdeployment to sensitize them to what symptoms they may 
experience as a consequence of that deployment.
    Ms. Kaptur. General.
    General Schoomaker. Yes, ma'am.
    Ms. Kaptur. Excuse me. I am going to put this on the 
record, and I will just ask my colleagues to bear with me.
    This is from an Army Reserve unit, a returning soldier who 
was wounded in Iraq. He suffered serious head trauma--teeth, a 
broken neck--and his life was saved. He came back home to 
northern Ohio where we have no hospital, Army hospital. He was 
made to go to--and he suffers terrible headaches and 
everything; plus, he developed epilepsy--all right?--after 
combat, so they sent him up an hour away to get medical care.
    Of course, he lost his job. There he is--right?--up in the 
hospital. So then they sent him back home to the little town 
that he lives in. He reports back to his Reserve unit for an 
event that they had there, which is how I met him, and he came 
up, and he says, Congresswoman, can you help me?
    He even looked yellow. I mean, he did not even have good 
coloring, right?
    I said, What is wrong, sir? He says, They tell me I cannot 
get any benefits because my epilepsy relates to that I played 
high school football. He said, I never had epilepsy until I 
went in the military, until I went to Iraq. He said, I have 
been in this Guard unit for 15 years or something.
    Here is a situation. I am only telling you because 
something is not right when someone who has given so much and 
who comes home cannot be cared for near where he lives. He has 
got to go somewhere else, and he has PTSD. He has them all.
    Something has to change in the system. So I just put one 
life on the record during this hearing.
    I know you respect what I am saying. I respect what you are 
doing.
    General Schoomaker. Yes, ma'am. I completely agree with 
you. If that is happening to that soldier, your staff needs to 
give me the name of that soldier so I can find out how to help 
him.
    Mr. Murtha. Mr. Bishop.
    Mr. Bishop. Thank you very much, Mr. Chairman.
    Gentlemen----
    Mr. Murtha. Mr. Bishop, I remember when I was down at the 
end of the line myself.
    Mr. Dicks. That was a long time ago.
    Mr. Bishop. Thank you very much, Mr. Chairman. That is very 
consoling.
    I have been very interested in the concerns that have been 
raised. One is the lack of access. And all of you seem to 
indicate that there are not enough professionals to deal with 
these mental health issues; and PTSD is really becoming 
exacerbated as a result of the current involvement.
    One of the things that we did in the last appropriations 
bill is, the committee was kind enough to fund a pilot program 
utilizing a civilian hospital in the area of PTSD to do 
research and treatment, particularly in an area where there are 
not military hospitals, like Ms. Kaptur is referring to, and to 
develop a Center of Excellence where we have a number of 
reservists and National Guard people who have been deployed and 
who are coming back.
    We also have people who returned from their deployments to 
the main base, but who do not live in the community where that 
base is located, where the hospital is located, so they return 
to their rural outpost communities. So here we have now the 
opportunity for a civilian hospital to provide a Center of 
Excellence dealing with PTSD and these issues.
    That is just an isolated case, and I guess I would like to 
get you to comment on whether you think this is a good approach 
and if watching the development of this might suggest that we 
might need to do that elsewhere across the country, given the 
tidal wave of these kinds of incidents that we will have 
following this engagement.
    Then, the other thing I want to raise is the issue at Fort 
Drum that was reported recently on NPR where the soldiers at 
Fort Drum who had returned from their deployments decided that 
they would get assistance in making sure that their disability 
claims were properly and systematically documented. They went 
to the VA and got assistance from some of the VA employees to 
help them in the preparation.
    The Army auditors decided that they were too successful, so 
they ordered the VA to cease and desist from providing that 
service to active duty personnel, which provides a problem for 
me. Given the fact that, General Schoomaker, one of your 
predecessors, General Kiley, and I had some extensive 
conversations in years past about the predeployment and 
postdeployment self-assessed questionnaire that the personnel 
utilize, personnel who often do not get diagnosed because, as 
Admiral Robinson indicated, they want to get home, and they 
want to get back to their families.
    Either they do not know that they need assistance or that 
they need help, or they do not want to take the time to get it 
because they would much rather be back home with their 
families, of course, which exposes their families to the risk 
of the side effects of PTSD.
    So would you comment on those two things, please?
    General Schoomaker. Yes, sir. Let me take the second first.
    Mr. Murtha. Let me interrupt for just a minute, General.
    Here is what we envision with the money we put in. We 
envision a Center of Excellence which does the research on 
PTSD. We have done so little research on it.
    Now, what you have heard the Surgeon Generals talk about is 
what we know about it today. What we believe should happen is 
that--before they leave, we are hopeful at some point we will 
be able to measure whether these people are vulnerable to PTSD 
and then be able to treat it beforehand, or screen them and 
counsel them enough that we can eliminate the problem.
    But we need a Center of Excellence to do the research, I 
think. I think that is what this committee is recommending. So, 
as to that part of the question, I think this committee has 
recommended to them to do that kind of a thing. I think, with 
their recommendation, as long as we can provide the money, that 
will help.
    Now, that will not help us in the rural areas, but at least 
we will know the procedures.
    Right now, we are kind of in the dark about exactly how to 
handle it. We have not the ability to measure exactly what is 
wrong with the person, and that is part of our problem.
    The rest of the question I leave up to them, but I think we 
are in the forefront. This committee has been at the forefront 
of developing and providing money for health care for a lot of 
years, and I think this continues. We are very visionary on 
this committee with what we have done, and I think this is just 
a continuation of that.
    Admiral Robinson. Mr. Chairman, the Center of Excellence 
will not only provide that research, but it will also provide, 
for lack of a better word, the practice guidelines that can be 
utilized in the community hospitals that may, in fact, be stood 
up to take care of people in remote areas in which there is no 
other care available. So then they are not caring for them 
based upon nonmilitary and noncombat stress disorders; they are 
actually folding into what we have learned from the Center of 
Excellence here.
    Mr. Bishop. Let me follow up. Thank you. I appreciate that 
very much. It is consistent with what my expectations were, and 
I appreciate that very much.
    General Schoomaker, there was an incident--and I hate to 
report this--where there was some research being done that was 
authorized through the military's research authorization 
protocols. It indicated that--the premise was that they were 
going to be able to determine which individuals, based on some 
blood tests, were most likely to succumb to PTSD.
    During the course of that research, because of some alleged 
protocol violations, the study was stopped; the doctor who was 
conducting it was disciplined and had a letter put in his 
personnel record. A civilian who was military, but who felt 
forced to retire because of being associated with the study, 
was investigated for prosecution when it appeared as if this 
could possibly have led us to some revelations on when to 
expect and under what circumstances to expect individuals to be 
susceptible to PTSD.
    We can, perhaps, talk about that after the hearing and off 
the record, but I was very disturbed by that. The individual, a 
professional doctor, had an otherwise clean record, but now he 
has a notation in his record. The other individual, who was a 
psychologist or a social worker, now was denied his privileges 
at the hospital, and he was forced to retire.
    It appeared to me that the implications of that were that 
it could possibly hinder recruitment, and higher command 
determined that we do not want to know these things because it 
will stop us from meeting our recruitment goals if we know in 
advance that these people will not make it because of their 
susceptibility to traumatic stress.
    Somehow I wish that we could continue this research and 
make sure that we can learn everything we need to learn about 
it. Maybe the Centers of Excellence will be able to provide 
that.
    These were people who were training for combat, some of 
whom went to combat, who returned from combat, and they 
believed that the people who were conducting the study believed 
that they could get their enzymes and blood chemistry and be 
able to determine whether or not they were likely to have it or 
not.
    General Schoomaker. I think the chairman got it right on 
target, sir, that we are in the dark still, and we are learning 
every day more about the nature of post-traumatic stress, what 
leads to its evolving, as Admiral Robinson outlined earlier, 
into a disorder that may leave one with a lifetime disability 
that we want to avoid--how it overlaps with other elements of 
either injury or exposure.
    For example, last week, Army researchers who have been 
studying post-traumatic stress and concussive injury published 
a terrific paper in the New England Journal of Medicine that is 
beginning to tease apart what we call TBI-PTSD as if it is one 
thing. It is not one thing.
    One, traumatic brain injury, is a physical injury to the 
brain that results from forces directed to the brain, usually 
from debris that is thrown against the soldier or marine or 
from being dashed inside a vehicle or thrown to the ground or 
rapid acceleration/deceleration that you would experience, let 
us say, in a motor vehicle accident.
    The other is a late-emerging set of symptoms that may 
overlap with those that accompany the concussion but are caused 
by two different things.
    What this researcher out of the Walter Reed Army Institute 
of Research and his colleagues have shown is that the 
concussion itself, the brain injury which is not unlike what 
you would get on the sports field or what you may get in a 
motor vehicle accident on our highways--which occurs much more 
frequently, frankly, than in combat--is not in and of itself 
the cause of late-emerging symptoms.
    It is probably the context in which that injury occurred. 
You had a concussion not on a sports field where you wake up 
with a crowd of cheering fans, but where you wake up in combat, 
maybe with your buddies being killed or injured. That then 
leads to a very high predisposition to late-emerging symptoms.
    This kind of work and lots of work like that is going to be 
the result of the research that you all are sponsoring. 
Frankly, we have had an enormous outpouring of interest in 
research projects.
    One thing I will reassure you of, Congressman--and that I 
know you are interested in--is, although this is being 
conducted in the military, we will not violate any of the rules 
that govern how we do research on human subjects. And we are 
very meticulous about observing all international and national 
standards for the conduct of research on human subjects. Just 
because we are in uniform and just because our subjects may be 
serving in uniform themselves, we will not take shortcuts. We 
will not violate protocols. We will not take risks that may 
throw us into a different light with the American public.
    Mr. Bishop. Yes, sir. I appreciate that, and that is 
absolutely appropriate.
    This particular study was about to go for publication, and 
it was joint work with the Army as well as with the CDC and 
with a university up in Virginia, I believe. They were just 
requesting permission to publish the study.
    Then all of a sudden, the protocols which--of course, this 
poor doctor, you know, just was told what he needed to do, and 
he did it and thought it was done. They said, no, the protocols 
were not proper, so now this cannot be studied, this cannot be 
published, and the study has to be stopped.
    General Schoomaker. With respect, sir, I am familiar with 
the study, and he violated the protocol.
    Let me just say quickly, because I spent the morning with a 
National Public Radio correspondent about the Fort Drum event, 
that I deeply regret that we had miscommunication between the 
team that went up there and talked to the VA counselors and the 
Army group at Fort Drum.
    In fact, the Fort Drum visit by our tiger team, in looking 
at the process of disability adjudication and our warm handoff 
to the VA, visited Fort Drum as the last of 11 site visits, and 
they found that that was probably one of the best sites that 
they had visited. They were highly complimentary and openly 
laudatory about what VA counselors were doing for our soldiers. 
They came back ready to make recommendations that this be best 
practice.
    I do not understand how the miscommunication developed. I 
regret that I did not have the internal VA memo that recorded 
their perception that we were telling them to cease and desist, 
because I talked personally to people who were there on the 
Army team, who said this was a terrific collegial relationship 
and meeting; and we left very buoyed by what we saw up there 
and encouraged them to continue.
    Mr. Murtha. I appreciate that. Let me just say one thing 
about what Ms. Kaptur said about diagnosis.
    We found an article here today that talked about diabetes, 
and you know how much they stressed losing weight and how much 
it would enhance your life.
    Now, after years of saying that, we found out, if you lose 
weight, you have more risk of having a heart attack, not by 
losing weight but by reducing your blood sugar. So diagnosis is 
a hell of a problem.
    I mean, the military or the civilian side has a hard time. 
But we appreciate your time.
    Ms. Kaptur. Mr. Chairman. Thirty seconds, Mr. Chairman, 
please.
    Mr. Murtha. Thirty seconds.
    Ms. Kaptur. If I had not worked on it for 25 years, I would 
not care.
    I just wanted to mention to Admiral Robinson that in your 
testimony, sir, there are two professional groups not mentioned 
that I do believe are important--psychiatric nurses and 
chaplains. I just wanted to point that out.
    Also, Mr. Chairman, you referenced Centers of Excellence, 
and I know we have funded Centers of Excellence in the 
neuropsychiatric area. Senator Boxer has. There are different 
pieces. I do not know if you intend to tie that together with 
whatever this is, but I just thought I would mention that 
bureaucratic issue.
    Finally, I would ask, for the record, if it is possible for 
each of the services to tell us what percent of individuals 
treated under your care have actually been diagnosed with 
bipolar-related mental conditions--schizophrenia or obsessive 
compulsive disorder or alcoholism. Not all together; I am just 
saying in those categories because we have been talking about 
PTSD and TBI, but I would be very curious to find out what 
percent--I just had a soldier from my district who presented 
with bipolar, and I am just curious----
    Mr. Murtha. Marcy, you went over 30 seconds.
    Ms. Kaptur. Did I? Okay.
    Mr. Murtha. The Committee is adjourned. Thank you very 
much.
    [Clerk's note.--Question submitted by Ms. Kaptur and the 
answer thereto follow:]

    Question. What percent of individuals under care are diagnosed and 
treated for biploar condition, alcoholism, neurological disorders.
    Answer. What follows provides counts of individuals who were seen 
one or more times for the conditions you mentioned (bipolar condition 
and alcoholism). It is difficult to address the issue of ``treatment'' 
from centrally accessible electronic records. Treatment does not 
necessarily involve medication. Psychological therapy frequently 
involves talking, accomplished during a visit to the clinic or as part 
of community-based groups that do not report to the Department. As a 
surrogate, the data include some information regarding how many people 
were seen for these conditions in consecutive years, which provides an 
indication of follow-up. The data also reflect how many individuals 
received medications that can be used for the treatment of bipolar 
condition. However, many of the medications can be used for other 
purposes.
    Similarly, the data identify cases of alcoholism based on an ICD-9 
code, but medical records are not the primary source of alcohol-related 
problems because the alcohol and drug abuse program is not a medical 
program. These individuals frequently attend Alcoholics Anonymous, Vet 
Centers, or other community-based services that do not report to the 
Department of Defense.
    ``Neurological disorders,'' is a very broad category, especially 
from the standpoint of treatment. The data provide information about 
Post Traumatic Stress Disorder (PTSD) because that seems to be of great 
interest to members of Congress and the media, but PTSD is not a 
``neurological disorder.''

[GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]

    [Clerk's note.--End of question submitted by Ms. Kaptur. 
Questions submitted by Mr. Young and the answers thereto 
follow:]

              Long Term Care for Military Service Members

    Question: With regard to TBI, as we all know, some of our soldiers 
and Marines are returning home with severe TBI and neurological 
problems and head and neck injuries. For some of these heroes, going 
home to a life they knew before is not an option, at least in the short 
term. As a result, they wind up in nursing home settings where 
professional staff can assist their family members in giving them the 
care they need and deserve. But this care is often given in VA nursing 
facilities where they are with older veterans and not more people their 
age. Those I have talked to say their outlook on life might be better 
if they were in a setting with others their age. Have you given any 
thought to centralizing the long term care of these soldiers and 
Marines so they are being cared for together with others their age and 
in similar situations?
    Answer: The care location of our wounded warriors returning home 
with severe injuries is based on their medical diagnosis and care needs 
as determined by their interdisciplinary health care team. The care 
location is also dependent on several other factors, such as the 
capability of medical services being offered within a medical treatment 
facility, complexity of the Service member's medical care plan, and 
consideration of personal and family preferences.
    The joint efforts to develop and implement improvements for the 
care of the wounded, ill, or injured Service members on issues such as 
care continuity are being addressed by the Department of Defense (DoD) 
and VA Senior Oversight Committee, Line of Action (LOA) #3 for Case/
Care Management Reform led by Dr. Lynda Davis (Deputy Assistant 
Secretary of the Navy, Military Personnel Policy) and Ms. Kristin Day 
(VA, Chief Consultant, Care Management Services). This LOA item is to 
standardize case and care management processes for the transition of 
wounded, ill, and injured Service members and their families from 
recovery, through rehabilitation, and to reintegration across the DoD 
and VA.
    The DoD military health system is committed to providing high 
quality, safe, and timely care across the health care continuum that is 
seamless and enhances the severely injured and wounded Service 
member's, and family's quality of life, and is working in collaboration 
with Senior Oversight Committee, LOA #3 for Case/Care Management 
Reform.
    Question: We have centers of excellence for various conditions such 
as the Center for the Intrepid at Brooke and the Wounded Warrior 
Battalions at Camp Pendleton and Camp Lejeune. Should we have a long 
term care facility for military service members at some common 
location?
    Answer: Our nation must be dedicated to take care of those Service 
members who have sacrificed for us. Providing long-term care for 
military Service members certainly would support that, but I would not 
recommend a single facility. Perhaps such care would be better placed 
under the capable hands of the Department of Veterans Affairs, whose 
primary mission is to provide long-term care for injured veterans who 
are no longer able to serve on active duty.
    Question: Finally, I am hearing good things about the improvements 
that have been made in helping our soldiers and Marines through the 
paperwork required to med board them out of the services and into the 
VA health care system. One of the substantial improvements, especially 
for those with TBI/PTSD conditions, is the joint military/VA physcal. 
Can you talk about that change and do you have other recommendations 
for ways in which our committee can help improve the process?
    Answer: The Department of Defense (DoD)/VA joint medical evaluation 
of Service members in the Disability Evaluation System (DES) focuses on 
the Service member while still providing valuable information required 
by both departments. Building a comprehensive network of qualified 
providers who can perform these disability exams will take time, 
resources and cooperation between VA and DoD. Qualified providers may 
have to come from a variety of sources (DoD, VA, TRICARE, contractors, 
or joint). All options for delivery and funding of these exams should 
be available to pilot expansion planners. Integration of the VA 
Benefits Administration, VA Health Administration and DoD information 
systems is also key to success. Many have focused on the clinical 
information systems but the DES includes information sharing in and 
outside our clinical domains. Continued efforts toward integration of 
benefits and clinical information focused on the Service member will 
help improve the process. Formalized collaboration of DoD and VA rating 
experts to allow for DoD and VA medical experts to discuss VA Schedule 
for Rating Disabilities issues during any changes or updates is another 
recommendation to help improve the process. In regards to this program, 
no additional action is requested from Congress at this time.

    [Clerk's note.--End of questions submitted by Mr. Young. 
Questions submitted by Mr. Murtha and the answers thereto 
follow:]

                         Obligation of Funding

    Question: This Committee provided $900,000,000 to increase the 
mental health services available to service members.
    Of the $600,000,000 provided in operation and maintenance, 
$453,000,000 has already been distributed to the services and TRICARE 
Management Agency. Only $53,000,000 has been obligated.
    Why is there such a low rate of obligation?
    Answer: The Department is following a detailed plan and executing a 
prudent and careful approach to assure we use the funds provided by 
Congress to maximize the benefit to our Service members.
    In the summer of 2007, the Department developed a strategic plan 
and guiding principles. In the summer and fall, we solicited proposals 
from the Services that would support the guiding principles. We 
reviewed over 300 submissions from the Services and selected programs 
that adhered to our strategic intent and distributed the funding in 
three phases. The first distribution went out in August 2007. While the 
Services have worked to obligate in accordance to their plans, they 
have encountered some unforeseen obstacles, such as overwhelming their 
contracting offices, the difficulty of hiring contractors on one-year 
contracts, attracting applicants to remote or less desirable locations, 
and competing with civilian agencies for the same finite pool of health 
professionals. Additionally, fiscal law constraints denied the use of 
Defense Health Plan dollars for several of the Reserve component 
programs.
    Question: A large part of the funding provided was to hire 
additional staff. Where are you in executing a hiring plan?
    Answer: The Army has hired 138 of the 302 psychological health 
personnel requirements, which matches their plan. The Navy has hired 8 
of the 175 they require, but has a contract for an additional 51. The 
Air Force plans to hire 97 providers and expects to have their contract 
awarded soon and an overseas contract awarded in July.

                          Center of Excellence

    Question: It seems that the Department's ``Center for Best 
Practices'' is a top-down solution to a bottom-up problem. While I 
understand the need for a ``Center for Best Practices'' and might even 
say that it is long overdue, I do not think it addresses the immediate 
concern about increasing access to services for individuals. This 
demonstrates the process side of the what is being done to address the 
issue.
    What action, not PROCESS, have you been taking for 3\1/2\ years?
    Answer: The Department of Defense (DoD) has a broad range of 
programs designed to sustain the health and well-being of each and 
every military and family member in the total military community. 
Services available at military installations include: health and 
wellness programs, stress management, family readiness and community 
support centers, family readiness groups, ombudsmen, volunteer 
programs, legal and educational programs, and chaplains, among many 
other community programs. Early intervention and prevention programs 
include pre-deployment education and training, suicide prevention 
training, Military OneSource (1-800-342-9647), the Mental Health Self 
Assessment Program, National Depression and Alcohol Day Screening, and 
health fairs (kits available at www.mentalhealthscreening.org).
    DoD has formed a strong partnership with the Department of Veterans 
Affairs and other federal agencies and professional advocacy groups to 
provide outreach and prevention programs that are available to Reserve 
and National Guard members. A Post-Deployment Health Assessment and 
education process is conducted upon returning from deployment to 
identify health concerns that might have arisen. An additional Post-
Deployment Health Reassessment with additional education takes place 90 
to 180 days after deployment to identify any issues that might arise in 
that timeframe. Periodic health assessments are also conducted to 
identify any health issues a person might have prior to entering the 
pre-deployment cycle. In addition, a Mental Health Self-Assessment is 
available 24 hours a day (www.militarymentalhealth.org, 1-877-877-3647) 
as an additional tool for family members and Service members.
    Question: How many mental health professionals will be seeing 
patients in the new Center?
    Answer: The precise staffing model for the National Intrepid Center 
of Excellence (NICoE) is being developed. There will likely be 
substantial inter-facility sharing of staff with the NICoE and the 
Walter Reed National Military Medical Center located adjacent to the 
NICoE. The staffing plan will include psychiatrists, neurologists, 
neuroradiologists, neuropsychologists, neuropsychology technicians, 
physical medicine physicians, physical therapists, occupational 
therapists, audiologists, nursing personnel, and administrative and 
research support staff.
    Question: Will there be in-patient beds?
    Answer: The National Intrepid Center of Excellence (NICoE) will 
contain no inpatient beds. The NICoE will provide extensive and 
intensive outpatient evaluation, diagnostic clarification, education 
and treatments for returning warriors and their families using state-
of-the-art technology and clinical models.
    Question: What type of utilization capacity will the Center have?
    Answer: The currently proposed concept of operations for the 
National Intrepid Center of Excellence (NICoE) includes evaluation, 
diagnostic clarification, and treatment of twenty patients and their 
families in an intensive outpatient program at any given time. The 
program will be individualized to the needs of the patients and their 
families, but will generally last approximately two weeks. In addition, 
the NICoE will provide detailed patient-centered referrals for ongoing 
care and will provide telemedicine follow-up for those patients who may 
not have adequate treatments in their communities. Depending on their 
response to treatment and ongoing functional status, some patients and 
their families will be brought back to the NICoE for reevaluation. The 
NICoE will also provide consultative and referral services to patients, 
families, and clinicians using telemedicine technology.
    Question: How much of the funding provided will be designated for 
the Center?
    Answer: The Defense Center of Excellence has been designated $45 
million in Operation and Maintenance funds and $45 million in Research, 
Development, Testing, and Evaluation funding. These were provided in 
Fiscal Year (FY) 2007/2008 multi-year funding from Title III of Public 
Law 110-28, United States Troop Readiness, Veterans' Care, Katrina 
Recovery, and Iraq Accountability Appropriations Act of FY 2007.
    Question: How much of the funding provided will be designated for 
the Defense and Veterans Head Injury Center?
    Answer: According to the National Defense Authorization Act for 
Fiscal Year 2008, Defense and Veterans Brain Injury Center (DVBIC) is 
to remain independently funded through 2013 with funds that supplement 
not supplant those for the Defense Center of Excellence (DCoE). As 
such, DVBIC has been funded $28.4 million for the nine-month interval 
beginning March 17, 2008. This funding includes $5.1 million from the 
Program Objective Memorandum and $7.3 million from global war on terror 
supplemental funds and $16 million from DCoE funds. These allocations 
support network expansion and the increased responsibility as the 
designated office of responsibility for Department of Defense traumatic 
brain injury surveillance, pre-deployment cognitive testing, as well as 
the congressionally directed 15-year study and congressionally directed 
Family Caregiver Panel.
    Question: How will returning service members and their families in 
rural parts of the country access the new center?
    Answer: Returning Service members and their families will have 
multiple means of accessing the resources available through the Defense 
Center of Excellence (DCoE) for Psychological Health (PH) and Traumatic 
Brain Injury (TBI). These resources, currently in development, include:
          <bullet> The DCoE website, which affords any warrior, and 
        those involved in their support and care, the ability to obtain 
        current information regarding PH and TBI
          <bullet> A 24-hour a day Call Center, which supports the 
        questions, concerns, and informational needs of warrior 
        families
          <bullet> The ability to engage in community discussions via 
        electronic discussion board (website)
          <bullet> The ability to email a consultant on PH and TBI 
        issues (via website)
          <bullet> Video teleconferencing consultation capability for 
        Service members in remote locations.
    Question: What are the anticipated operating costs of the center 
and how will they be funded?
    Answer: The Defense Center of Excellence (DCoE) for Psychological 
Health and Traumatic Brain Injury will be funded through Supplemental 
Appropriations through Fiscal Year 2009. Currently, the DCoE is 
operating on a budget of approximately $128 million, distributed 
between operations and maintenance and research, development, test, and 
evaluation funds. Specific cost relating to the National Intrepid 
Center of Excellence is not possible at this time, but it is estimated 
that it will cost approximately $30 million annually to operate.

                         Legislative Direction

    Question: In the Committee's language it was very clear that DoD 
should increase its reach and to work with commercial entities to 
increase capacity of the mental health system as well as the breadth of 
programs available to individuals. I am not convinced that this has 
happened. We have not asked for increased bureaucracy, we have asked 
for increased services.
    As the wars in Iraq and Afghanistan continue, how many certified 
mental health providers will the Department require in the next 24 
months to handle the increasing issues that are prevalent of PTSD/TBI?
    Answer: The bulk of the increase in mental health professionals for 
the Services will be borne by the Army because it provides services to 
the largest number of Service members. By the end of calendar year 
2008, there should be 574 mental health providers for all the Services 
plus another 200 Public Health Service mental health providers. This 
target was developed using a staffing model that accounts for changes 
in demand resulting from the war. The targets will be monitored and 
further refined to ensure we are able to meet the demand for services.
    Question: How many is the Department planning on hiring?
    Answer: The Army is hiring 302 mental health providers and 15 
support personnel. They have requested 127 Public Health Service (PHS) 
mental health officers for placement across the Army and 275 additional 
providers in the continental United States. Current contracts in place 
will have all providers hired by September 2008. The Navy is hiring 175 
mental health providers and 78 support personnel. The Navy and Marine 
Corps requested 37 PHS mental health providers. The Air Force is hiring 
97 behavioral health providers at 76 installations and placing 32 PHS 
mental health providers across the Air Force.
    Question: How long will that take?
    Answer: We expect the process to take up to a year, although it 
varies by Service. Mental health providers are in short supply across 
the Nation. Hard to serve areas, such as Fort Hood, Texas, and other 
rural locations make staffing a challenge. To serve these areas, we are 
partnering with the Public Health Service (PHS), which provides 
uniformed mental health providers to the Department of Health and Human 
Services (HHS). PHS has committed to provide the DoD with 200 mental 
health providers of all disciplines. Based on the Services' input, we 
will place those providers in those hard to reach areas. We expect to 
begin sending these providers to medical treatment facilities across 
the country as soon as the memorandum of agreement is signed.
    While all Services are aggressively pursuing hiring actions, the 
contracting process is very lengthy and has affected our ability to 
hire rapidly even where providers are available. The Army, which had 
some existing contracts in place, is actively hiring in accordance with 
their plan to add their full requirement of providers by the end of 
July. The Navy, which has had to establish all new contracts, will soon 
let a contract. However, the normal hiring timeframe is 90-120 days. 
Its estimate is that the Navy may not meet its required goal of the end 
of September. The Air Force should have its 50-state contract in place 
in April and its overseas contract in July. The amount of time 
necessary to bring on new contractors indicates that the Services will 
still be trying to find and hire qualified providers late this year.
    Question: What is your deadline?
    Answer: There are near- and long-term staffing plans to meet mental 
health requirements of the Force. In the near-term, we are using 
government civilian hires and contracts for mental health 
professionals. We have active contracting and civilian recruitment 
programs ongoing. Hospital commanders have the authority to adjust 
staffing as required to meet the demand for services. Financial 
resources are not a constraint at any level, except for personnel in 
State National Guard headquarters staffs. The Defense Health Program 
appropriation is not available for that purpose.
    The long-term plan includes recruiting military (uniformed) mental 
health staff in Fiscal Years 2008 and 2009. New resources will be 
allocated to keep pace with increasing behavioral health needs. 
Initiatives such as the Army's retention bonuses and loan repayment 
programs are attracting and retaining military staff in behavioral 
health specialities.

                         Reporting Requirements

    Question. During deliberation of the fiscal year 2008 Defense 
Appropriations bill, (House Report 110-279) this Committee required the 
Department to report by January 15, 2008 on the state of mental health 
experts available across the military, both Military Treatment 
Facilities as well as the availability of care in the private sector.
    Question: What is the status of this report?
    Answer: An interim report was generated in late February and is 
pending coupling with another agency's section that is part of the 
report.
    Question: Why is the report late?
    Answer: The report is late for the following reasons:
    1. A substantial section of the report requires an accounting of 
research funding addressing gaps in knowledge regarding Post Traumatic 
Stress Disorder identified by the congressionally directed Medical 
Research Program. The final of three program integration phases will 
occur the first week of March 2008, and disposition of funding for a 
variety of awards will be announced in late March 2008. At that time, 
an accounting of the distribution of resources will be known. The 
Medical Research Material Command will then be able to generate a final 
report addressing the last half of the reporting requirements requested 
by House Report 110-279.
    2. Inter-departmental coordination is required to complete the 
total report.
    3. The barometer of the Department's success in meeting the 
standard for access to mental health care providers is dependent, in 
part, upon a new TRICARE program developed to measure compliance with 
this standard in addition to enhancing beneficiary support procuring 
such care. In the fall of 2007, a TRICARE Behavioral Health Provider 
Locator function was created, staff was hired by each TRICARE region, 
and training was conducted. The service was initiated on December 21, 
2007. By April, the results of the ability of these locators to assure 
beneficiary initial access to network mental health care providers will 
be through this new modality. Incorporating these results into the 
final report will provide a baseline upon which to judge subsequent 
quarters in terms of beneficiary access to network mental health 
providers. In addition, we will be including data from the Services 
regarding initial access to mental health providers in the direct care 
system, as well.

                 Obligation of Funding to the Services

    Question: Of the $453,000,000, 45% went to the Army, 15% went to 
the Navy, 10% went to the Air Force, and 30% went to the TRICARE 
Management Agency for Joint Support.
    This Committee has heard that the Services are weary of obligating 
the funding for fear of a sizable funding ``tail'' in fiscal year 2009 
that will not be supported by Congress. Could each witness comment on 
this statement.
    Answer: The Services have encountered problems attracting 
contractors to one-year contracts, so follow-on funding is an issue the 
Department has to address.
    Question: What other programs or initiatives are the Services 
looking at to improve access to care for soldiers and their families?
    Answer: There are near- and long-term staffing plans to meet mental 
health requirements. In the near-term, we are using government civilian 
hires and contracts for mental health professionals. We have active 
contracting and civilian recruitment programs ongoing. Hospital 
commanders have the authority to adjust staffing as required to meet 
the demand for services. Financial resources are not a constraint at 
any level.
    The long-term plan includes recruiting military (uniformed) mental 
health staff in Fiscal Year 2009. New resources will be allocated to 
the force to keep pace with increasing behavioral health needs. 
Initiatives such as the Army's retention bonuses and loan repayment 
programs are attracting and retaining military staff in behavioral 
health specialties. Regarding the TRICARE network, over 3,000 care 
providers have been assigned across all three regions, with over 2,500 
in the West, 389 in the North, and 146 in the South.
    Another significant program is telehealth. The intent is to use 
technology, particularly in underserved and remote locations. In 
addition, the TRICARE Management Activity has established a Health Care 
Finder for family members to allow them to call for assistance in 
locating a mental health provider. For traumatic brain injuries (TBI), 
we established standard capability packages that the Services are 
implementing to assist in screening and caring for Service members with 
TBI.
    Question: Of the Army's 45%, the bulk of it is for access to care 
for psychological health and traumatic brain injury.
    How is the Army obligating the funding provided?
    Answer: The Army is obligating the largest proportion of funding 
for PH and TBI access to care against both mental health and primary 
care provider and support staff contracts. These contracts include a 
wide variety of providers and medical staff to include: behavioral 
health providers (e.g., psychiatrists, psychologists, psychiatric 
nurses, social workers, and neuropsychologists); primary care providers 
(e.g., physicians, nurse practitioners, and physician assistants); 
rehabilitation providers (e.g., physical therapists, occupational 
therapists, speech language pathologists, and physical medicine and 
rehabilitation physicians); neurologists; nurse case managers; and 
licensed practical nurses. The remaining funding is being obligated 
against such things as non-staff requirements for outpatient programs, 
telehealth initiatives, and semipermanent buildings for the provision 
of TBI care and rehabilitation.
    Question: How much has been obligated to date?
    Answer: As of January 31, we have obligated $64.1 million of the 
$600 million in operation and maintenance funding and $10.2 million of 
the $300 million of research development test and evaluation funding.
    Question: Are mental health professionals being hired in a timely 
fashion?
    Answer: All the Services are reporting that hiring mental health 
providers is challenging. The Army had most of the contracts in place 
before receiving the funds and they are on their plan for hiring. 
However, the Navy and Air Force did not start the contracting process 
until they received the funds. Completing the contracting process is 
time consuming; therefore, we expect the hiring process to be extended.
    Question: Are there any contracting issues with current hiring 
policies?
    Answer: Yes. The one-year operation and maintenance funding level 
limits incentives to hire mental health staff. Regional disparity in 
availability, quality, and types of mental health staff exist. 
Additionally, there is a national shortage of qualified providers, and 
we are operating in a very competitive market. We have overloaded our 
contracting offices with hiring actions, and other psychological health 
and traumatic brain injury initiatives, as well, and it will take them 
some time to work through the backlog.
    Question: Will you be able to obligate the funding by September 30, 
2008?
    Answer: We are taking steps to reallocate dollars to better support 
the continuum of care. This will also provide flexibility and enhance 
our ability to obligate funds. In addition, we are monitoring the 
Services' implementation of their programs to prepare for midyear 
review where we can shift funds to programs where they can be more 
rapidly executed. However, it is important that we strive to ensure we 
are creating a standardized and consistent program across all the 
Services, and that requires prudent decisions on spending funds, not 
just for the sake of spending quickly.

[GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]

    Question: The Navy spend plan called for obligation of 70% of the 
funding provided by February 2008. How much has been obligated to date?
    Answer: The Navy spend plan has been revised to reflect the January 
release of an additional $42.4 million in supplemental funding. This 
Phase 3 funding increased the Navy total from $68.6 million to $110.95 
million. The overall obligation rate as of March 06, 2008, for the Navy 
psychological health and traumatic brain injury program is 13.2 percent 
or $14.7 million. The current committed rate is 32.5 percent or $36 
million. Of the committed amount, $6.2 million is pending award within 
the next week and was delayed due to differences in contract 
negotiation. In addition to the committed amount, $1.1 million has been 
assigned to the Defense Travel System/Travel and will be fully 
obligated by September 30, 2008.
    Question: Are mental health professional being hired in a timely 
fashion?
    Answer: All the Services are reporting that hiring mental health 
providers is challenging. The Army had most of the contracts in place 
before receiving the funds and they are on their plan for hiring. 
However, the Navy and Air Force did not start the contract process 
until they received the funds, completing the contracting process is 
time consuming. Therefore, we expect the hiring process to be extended.
    Question: How has the money been obligated?
    Answer: As of March 5, 2008, $396,000 has been obligated to support 
training initiatives. Over 50 percent of the remaining unobligated 
funding is pending award of a contract to hire 97 mental health 
providers.
    Question: Has the funding been used for existing programs or new 
initiatives?
    Answer: Some of the funding was used for an existing Post Traumatic 
Stress Disorder clinician training program, which had previously been 
an unfunded requirement. Three psychological health (PH) initiatives 
were built as concepts/training programs, but were not funded until the 
red cell funding became available. The remaining PH and traumatic brain 
injury programs are new initiatives.
    Question: Of the TRICARE Management Agency's (TMA) 30%, most of the 
amount is for the Center of Excellence and for surveillance. The plan 
was to spend $36 million in November but little to none has been spent 
and nothing subsequently.
    Why has there been no obligation of these funds?
    Answer: TMA received a total of $139.16 million for Phase I and II 
requirements/initiatives, 33 percent ($45.88 million) designated for 
the Defense Center of Excellence (DCoE) and 13 percent ($17.94 million) 
designated for the Automated Behavioral Health Clinic (ABHC) Program 
Surveillance. It is projected that the majority of the funds will be 
disbursed during the last two quarters of Fiscal Year 2008, as the 
staff finalizes programmatic review of requirements. ABHC requirements 
are similarly underdeveloped due to lack of comprehensive programmatic 
review.
    Question: What new initiatives has TMA been looking at for 
enhancing care and treatment?
    Answer: The TMA has been working on two new initiatives:
    (1) A comprehensive, Service member centric post-deployment mental 
health website (afterdeployment.org) is scheduled to go live in the 
summer of 2008. When afterdeployment.org is complete, Service members 
can be referred by their primary care provider (PCP) to confidentially 
complete additional online self-assessments and review comprehensive 
information on Post Traumatic Stress Disorder (PTSD) and other mental 
health conditions. As a result, should the Service member wish to 
receive medical care for such conditions, the Service member can share 
their assessments as well as information related to the self-help 
activities available on the web portal to their PCP to assist with 
treatment planning.
    (2) TMA has been working with the Army to implement a primary care 
mental health program known as Reengineering Systems of Primary Care 
Treatment in the Military (RESPECT-Mil) that aims to improve the 
detection and treatment of PTSD and depression among Service members in 
Army primary care. The program routinely screens Service members for 
PTSD and depression at the same point in the primary care visit as when 
blood pressure and pulse are checked. Service members screening 
positive on this initial screening complete further tests, allowing the 
PCP to make rapid preliminary assessments for these disorders and 
initiate treatment for them, as appropriate.
    Preliminary results from the Army's RESPECT-Mil primary care mental 
health program shows that it is very effective at screening Service 
members for depression and PTSD in the primary care setting, and that, 
in 75 percent of visits where a Service member screened positive for 
either depression or PTSD, the Service member was either referred for 
mental health care or already engaged in mental health care.
    The program is coordinated through the Army Office of the Surgeon 
General and is currently in the process of being implemented at fifteen 
sites, comprising 51 clinics, in the Unites States and overseas. 
Evaluation of this program will be available in late 2008.

                               Spend Plan

    Question: Can you update this Committee on your spend plan?
    Answer: Attached is our spend plan, which includes budget execution 
data through the end of January 2008. We are in the process of 
reassessing our requirements and will share the updated spend plan with 
you once it is finalized.

[GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]

    Question: Does the Department and the Service have the internal 
capacity to obligate the funding provided? Please explain.
    Answer: The Department is following a detailed plan and executing a 
prudent and careful approach to assure we use the funds provided by 
Congress to maximize the benefit to our Service members. In the 
process, we have overloaded our contracting offices with hiring actions 
and other psychological health and traumatic brain injury initiatives, 
and it will take them some time to work through the backlog.
    Question: What issues exist that are hindering the Department in 
executing these funds?
    Answer: The Department is following a detailed plan and executing a 
prudent and careful approach to assure we use the funds provided by 
Congress to maximize the benefit to our Service members. We are moving 
quickly, while taking care not to move recklessly. In the process, we 
have overloaded our contracting offices with hiring actions and other 
psychological health and traumatic brain injury initiatives, and it 
will take them some time to work through the backlog.

    Hotline for Mental and Behavioral Health Services and Counseling

    Question: What is the number of service members and their family 
members, and especially Guard and Reservists that have used the 
Military One Source hotline for mental and behavioral health services 
and counseling?
    Answer: In Fiscal Year 2007, Military OneSource made almost 2,000 
warm-handoff referrals to TRICARE for mental health care. Further, 
Military OneSource arranged for a monthly average of 5,000 nonmedical, 
situational counseling sessions for Service members and their family 
members.
    Question: How many suicide calls have the Military One Source and 
the other services hotlines received? Please break down by component.
    Answer: In Fiscal Year 2007, Military OneSource received 126 calls 
in which the caller expressed a danger to self. Breakdown by component 
is difficult because when emergency systems are activated for acutely 
suicidal individuals, the goal is to keep the person on the phone and 
not ask them a series of questions regarding their affiliations (not 
all are Service members). While a record review may indicate the 
presence of a nearby military installation, it may not indicate the 
branch of Service of one who may happen to be a Service member.
    The Services refer suicide calls to the national suicide hotlines 
(same network):
    1-800-273-TALK
    1-800-SUICIDE
    The advantage of this system is that Joint Commission certified and 
American Association of Suicidology certified regional networks are 
established across the country to which these national telephone calls 
are directed automatically (Substance Abuse and Mental Health Services 
Administration facilitated). Therefore, local support affiliations are 
activated that are well known to the hotline system responding.
    The Department of Veterans Affairs Hotline has a veteran option. 
Three to ten Service members per week use it.
    Various Reserve and Active component Service hotlines exist for 
non-acute situations, in addition to those for various local community 
services or volunteer organizations.
    Question: What is the mechanism for followup with a service member 
or their family members following a call to Military OneSource?
    Answer: Military OneSource staff includes a dedicated team of 
consultants assigned to conduct follow-up calls with Service members 
and family members. Follow-up calls are conducted to ensure the client 
received the services or materials requested and to ensure satisfaction 
with the services received. With the client's permission, a minimum of 
two follow-up calls are conducted. The initial follow-up call is 
conducted within five business days and at a mutually agreed upon time 
of day. The second call is conducted prior to the 30-day mark from the 
date of the original call to Military OneSource. Subsequent follow-up 
calls are conducted as appropriate for the needs of the Service member/
family member.
    Question: How many mental health TRICARE claims have been submitted 
in the past 6 months?
    Answer: The summary of mental health claims submitted by Managed 
Care Support Contractors to TRICARE Management Activity in the last 
six-month period for mental health services was 1.54 million. This 
represents a 6.5 percent increase from the same six-month period one 
year ago.
    Question. You are forming partnerships with the Public Health 
Service to provide 200 uniformed public health service mental health 
providers of all disciplines.
    What is the time frame for contracting with the 200 health 
officials?
    Answer: Rather than a contract, we will have a Memorandum of 
Agreement (MOA) with the PHS. The Department has concurred on the MOA 
and PHS is completing a legal review before signing. An initial group 
of about 50 officers are awaiting assignment to key medical treatment 
facilities nationwide immediately following the signing of the MOA this 
spring. We will bring on and assign other PHS officers throughout the 
rest of this fiscal year and into next fiscal year.
    Question: How can Public Health Service commit to this number?
    Answer: The 200 PHS officers come to military medical treatment 
facilities (MTFs) through three distinct processes. One group will make 
permanent change of station moves from their current PHS assignments. 
At present, the number of these officers is limited by the ability of 
the losing agencies (e.g., Bureau of Prisons and Indian Health Service) 
to replace those officers in a timely manner. Over time, additional 
officers on active duty in the PHS boost these numbers. The second 
source of PHS officers will be those behavioral health providers who 
had previously announced their intention to separate from the military 
services. These officers have stated their preferences to remain within 
the military health system and have elected to move from their 
respective Service into the PHS. In some cases, those officers will 
remain in their military positions in PHS uniforms, where they will not 
be subject to deployment. The third source of PHS officers will be 
direct accessions. The PHS has a stated goal of augmenting 
significantly in the near-term, and will leverage Department of Defense 
money to enhance their recruiting program. The PHS will partner with 
the Army and Air Force to provide non-licensed, postdoctoral 
psychologists at MTFs where they can get the necessary supervision for 
licensure. In some locations, licensed PHS officers will augment Army 
and Air Force psychology internship training faculty.

                  Mental Health And Military Families

    Question: Information provided to the Committee through news 
reports and visits to military bases indicate that children of military 
members are increasingly suffering from behavioral and mental health 
problems. Declines in school performance and increases in disciplinary 
problems have surfaced at major bases throughout the country. For 
example, last year alone the Children's hospital here in D.C. had over 
1,000 visits from children of military service members, many of which 
were suffering from mental health problems. Getting information about 
the trends in children's illnesses related to the war would serve as an 
important basis for potential additional action by the Committee.
    Mr. Secretary, are there any notable trends in children's illnesses 
related to the war?
    Answer: The impact of military service, especially deployments, has 
repercussions upon their entire social network, especially their family 
members. However, we must be cautious not to over generalize the nature 
of military families who are often portrayed stereotypically, when in 
reality our families reflect great diversity. That being said, studies 
have shown that interpersonal conflict may increase in association with 
deployments and during reintegration upon returning home. It has been 
demonstrated that child maltreatment may increase in the absence of a 
Service member who is deployed, and upon reunion, should there be 
substance abuse or domestic violence.
    When parents are deployed, especially if both parents must leave 
home, children may be worried not only about their parents' safety, but 
also their own stability as they are tended to by other family members 
or caregivers. Thus, wartime stressors do not always involve those 
related to the traumatic stressors of combat itself.
    While much is anecdotal in this regard, there is increasing 
national interest among family and child mental health experts 
regarding these issues, and a general consensus that we must be 
prepared to deal with the consequences of war, addressing both the seen 
and unseen injuries among our Service members and their families.
    Question: If so, what initiatives have been funded by the 
Department and what are potential future programs that should be 
considered?
    Answer: In 2006, the Department established the United States 
Military Site of the National Child Traumatic Stress Network, based at 
the Uniformed Services University's Center for the Study of Traumatic 
Stress. This program is responsible for developing knowledge related to 
military childhood experiences, developing effective public education 
materials, and expanding and studying effective intervention 
strategies, all using a strength-based approach. The Center for the 
Study of Traumatic Stress conducts research, education, consultation, 
and training on preparing for and responding to psychological effects 
and consequences of traumatic events. Program scientists are recognized 
nationally for their expertise related to the health and wellbeing of 
military children and have published and presented extensively on the 
topic.
    Current research is focusing upon a comparison of the effects upon 
family members of a Service member who returns from deployment wounded 
versus those who were not injured. Congressionally mandated research 
funding has recently been provided for research on the effect of 
deployments upon children, to be characterized in the final report 
covering research grants made in recent months and to be completed in 
late March 2008. Research consortium centers for psychological health 
(PH), traumatic brain injury (TBI), and both PH and TBI, will be 
established in three locations in the United States. Each will be 
affiliated with local study sites at major medical centers across the 
country engaging the finest scientific minds to fill gaps in research, 
including research on families and children of Service members who 
deploy.
    Sustained funding for research will be necessary in order to more 
completely characterize the near- and long-term effects of sustained 
war efforts upon our families, as well as the effectiveness of enhanced 
preventive family support, and clinical interventions for those who 
experience severe distress and psychiatric disorders. Establishing 
baseline funding for the Military Child Traumatic Stress Network and 
sustaining the increased level of research initiated by generous 
congressional research funding in Fiscal Year 2007 will be necessary as 
long as repercussions of sustained deployments persist.
    Question: What does research tell us about the effects of PTSD on 
children of military members suffering from this disease?
    Answer: Research regarding Vietnam veterans described negative 
impact, including reduced family cohesion, interpersonal 
expressiveness, and ability to problem solve; and an increase in 
interpersonal conflict. Vietnam veterans have reported that the PTSD 
symptoms of avoidance, in affiliation with co-morbid anger and 
depression, negatively affected their family functioning, while their 
spouses identified anger as the most damaging. Thus, identifying and 
treating PTSD early may reduce the potential negative impact to 
families of struggling Service members and veterans.
    Question: Is there a correlation between child and spouse abuse and 
PTSD?
    Answer: Previous studies do not specifically quantify the effects 
of PTSD per se upon actual documented maltreatment/neglect.
    A robust study, underway now, will improve upon prior research by 
specifically:
          <bullet> Describing the characteristics of neglect for 
        substantiated Army child neglect cases during the period 2001-
        2006
          <bullet> Identifying child, parent and family-based risk, and 
        protective factors for child neglect cases
          <bullet> Identifying possible military community risk and 
        protective factors for child neglect cases
          <bullet> Identifying civilian community risk and protective 
        factors for child neglect cases
    It will also include, as family-based factors, Service member 
injuries (including PTSD). The technical feasibility of further 
quantifying the relative risks of particular Service member psychiatric 
diagnoses upon family maltreatment is being discussed.
    Question: Of the amounts appropriated for PTSD, could any of these 
funds be used to help children?
    Answer: Military families, including children of all ages, are 
specifically included in our planning for use of the Fiscal Year 2007 
Supplemental Appropriations. The following initiatives represent 
highlights of activities that are targeted specifically to the children 
of our military community.
    <bullet> For young children, we funded a new Sesame Street workshop 
that teaches children and their parents how to discuss changes, 
injuries, and illnesses, that a Service member may have experienced as 
a result of the combat deployment. It also helps children deal with 
multiple parental deployments. The first Sesame Street workshop was 
nominated for an Emmy and over 400,000 kits including Digital Versatile 
Discs (DVDs) and training materials were distributed to military 
families. This second workshop will include the DVD of the first along 
with the new training materials and will be available in DVD kits as 
well as on the Internet.
    <bullet> For older children, we expanded our Mental Health Self 
Assessment Program, ``Signs of Suicide,'' training curriculum for the 
Department of Defense (DoD) schools and for public schools with high 
concentrations of military children. This program provides education in 
mental health conditions as in signs and symptoms of self-injurious 
behaviors (to include potential suicide) for children, parents, and 
teachers. It is the only evidence-based prevention program available 
for this age group and has received rave reviews from DoD teachers and 
others in the field.
    <bullet> We initiated several demonstration programs, to include 
specific family assessment and counseling programs on high-deployment 
military installations. We also are increasing the presence of 
behavioral health providers in primary care settings, to include 
pediatric clinics. Three additional school-related projects have been 
implemented in Hawaii, Fort Campbell, Kentucky, and at a telehealth 
system at Walter Reed Army Medical Center serving the Fort Bragg, North 
Carolina school system. These programs bring mental health providers 
directly to the schools to identify and treat any emerging 
psychological conditions in military children.
    <bullet> An important part of the psychological health program is 
the research agenda. Family issues, including children's issues, were 
included in the funded research projects, including examining the 
impact of a parent's PTSD condition on the children.
    <bullet> The Defense Center of Excellence (DCoE) for Psychological 
Health and Traumatic Brain Injury is currently in the formative 
process. A key division of the DCoE is an outreach center and 
clearinghouse designed to collect, develop, and disseminate educational 
materials for families and to identify and make recommendations to fill 
any treatment gaps that are present in the military health system or 
family support system related to families and children. In addition, an 
important part of assisting children is assisting parents and the 
family as a whole to function effectively. To reach out to families in 
remote or hard-to-serve areas, we are expanding our tele-mental health 
system to bring mental health specialty care directly to those families 
in need, especially Guard and Reserve families.
    <bullet> Finally, we are implementing a Director of Psychological 
Health governance system. This system will be placed at every 
installation and at the National Guard Headquarters. Its function is to 
ensure that the needs of all members of the community are met and to 
bridge the gap between health care and family support functions and the 
line leadership.

              Demonstration Projects and Outside Entities

    Question: Psychological health is an overarching concept that 
covers the entire multi-dimensional continuum of psychological and 
social well being, prevention, treatment and health maintenance. An 
approach of this type would be more complete by using new and 
innovative companies and approaches.
    How many outside entities, companies and individuals have you met 
with outside the military that specialize in behavioral health 
programs?
    Answer: My staff and the service representatives who supported the 
development of our strategic plan from June to the present consulted 
many times with outside experts in more than 70 different companies, 
universities, and associations, including the following:
 4SC AG                                Dr. Reddy's Labs                      Mind Research Network
Advanced Liquid Logic                 Drexel University                     Mystic Pharmaceuticals
AFrame Digital, Inc                   Embera NeuroTherapeutics              Neuro Vision Technology (Australian)
Akers Biosciences                     Entegrion                             Neurolinguistic Programming
American Group Psychotherapy          FirstWatch                            Novo Nordsk
 Association
American Pain Foundation              Frontier Pharm, Inc.                  Nucleonics, Inc.
ANSER                                 Genocea Biosciences                   Paladin Data Systems
Arbor Vita Corp                       Halo Sciences Corp                    Penn State College of Medicine
ARES Co.                              Harvard University                    Perlegen
BioForce Nanosciences                 Healthy Functions LLC                 PhotoThera, Inc.
BioLargo Technologies                 IBIS Therapeutics                     PlasmAcute
BioWarn                               Industrial Municipal Equipment, Inc.  Project Hope
                                       (TechMark)
Biox/AlphaProTech                     Ingenious Technologies                Purdue University
Bone Coalition                        INRange Systems                       RG Medical Diagnostics
Cardio-Kinetics                       Intranasal Therapeutics               Rib-X Pharmaceuticals
Cepheid                               Kirk Strosabl Group Health            Spaltudaq Corporation
Ceridia                               Knopp Neurosciences                   Tissue Regeneration Technologies
Conquest International                Knowledge Networks                    Triosyn Corp
CytoGenix, Inc.                       Lovelace Respiratory Research         Uridynamics
                                       Institute
Dermal Research Lab                   Magellan Behavioral Health            Vanderbilt University
Dial Soap                             Medlmmune                             Vaxlnnate Corp
Diamond Healthcare                    Medinox                               World-AM
Downey Data                           Mentor Network                        Zassi Medical Evolutions
    Question: How many of these programs demonstrated capabilities that 
the Department currently does not have the ability to execute?
    Answer: Thirty demonstration projects featuring limited use of new 
or emerging clinical procedures, clinical management techniques, or 
assessment methodologies to fill gaps in the continuum of care. For 
psychological health (PH), the focus is on prevention and PH promotion, 
with emphasis on reducing stigma and identifying and strengthening 
resilience. For traumatic brain injury, the focus is on screening 
tools, cognitive assessment tools, and diagnostic techniques.
    Question: Can you provide a list of all mental health, behavioral 
health program, demonstration project, and pilot project Requests for 
Proposal (RFPs) that the Services or Force Health Protection have 
issued since the FY2007 supplemental was enacted?
    Answer: A list of initiatives planned for the FY 2007 Supplemental 
Appropriation funds follows:

----------------------------------------------------------------------------------------------------------------
              Service                         Type                 Initiative                  Program
----------------------------------------------------------------------------------------------------------------
Army...............................  Psychological Health..  Access to Care........  A102: Hire Staff.
Army...............................  Psychological Health..  Access to Care........  A204: Hire Staff to
                                                                                      Staffing Model.
Army...............................  Psychological Health..  Access to Care........  A205: Headquarters Mental
                                                                                      Health (MH) Management
                                                                                      Staff Office.
Army...............................  Psychological Health..  Access to Care........  A208: Telehealth--Care
                                                                                      Delivery.
Army...............................  Psychological Health..  Access to Care........  A313: Walter Reed Army
                                                                                      Medical Center (WRAMC)
                                                                                      School Program.
Army...............................  Psychological Health..  Access to Care........  A314: Tripler Army Medical
                                                                                      Center (TAMC) School
                                                                                      Program.
Army...............................  Psychological Health..  Access to Care........  A325: Staff (consolidated
                                                                                      311, 312, 317, 319, 322).
Army...............................  Psychological Health..  Access to Care........  A319: Out Patient Programs
                                                                                      (other than staff).
Army...............................  Psychological Health..  Quality...............  A202: Post Traumatic Stress
                                                                                      Disorder (PTSD)/Traumatic
                                                                                      Brain Injury (TBI)Training
                                                                                      Package.
Army...............................  Psychological Health..  Quality...............  A103: Virtual Reality
                                                                                      Equipment for PTSD
                                                                                      treatment.
Army...............................  Psychological Health..  Quality...............  A324: TAMC Psychology TBI &
                                                                                      PH Proposal.
Army...............................  Psychological Health..  Quality...............  A315: PTSD Training
                                                                                      program.
Army...............................  Psychological Health..  Resilience............  A101: Family Resilience
                                                                                      Building.
Army...............................  Psychological Health..  Resilience............  A203: Fort Campbell School
                                                                                      Program.
Army...............................  Psychological Health..  Resilience............  A323: Warrior Resiliency
                                                                                      Program (rework of 316).
Army...............................  Psychological Health..  Resilience............  A320: Reengineering Systems
                                                                                      of Primary Care Treatment
                                                                                      in the Military.
Army...............................  Psychological Health..  Resilience............  A318: Care Team.
Army...............................  Psychological Health..  Surveillance..........  A206: Soldier Assessment
                                                                                      Physical Health
                                                                                      Assessment.
Army...............................  Psychological Health..  Surveillance..........  A207: Suicide Risk
                                                                                      Management Office.
Army...............................  Psychological Health..  Surveillance..........  A225: Madigan Army Medical
                                                                                      Center Suicide Event
                                                                                      Report.
Army...............................  Psychological Health..  Transition............  A201: Case Management for
                                                                                      TBI and significant PH
                                                                                      needs.
Army...............................  Traumatic Brain Injury  Access to Care........  A104: Hire Staff.
Army...............................  Traumatic Brain Injury  Access to Care........  A215:Inpatient Care.
Army...............................  Traumatic Brain Injury  Access to Care........  A218a: Small Site Staffing
                                                                                      (previously known as
                                                                                      (Proponency office for
                                                                                      TBI).
Army...............................  Traumatic Brain Injury  Quality...............  218b: Regional Medical
                                                                                      Center Education Tools.
Army...............................  Traumatic Brain Injury  Quality...............  218c: Proponency Travel for
                                                                                      staff assistance visits.
Army...............................  Traumatic Brain Injury  Access to Care........  A221: Rehabilitation.
Army...............................  Traumatic Brain Injury  Access to Care........  A224: Surge Teams.
Army...............................  Traumatic Brain Injury  Access to Care........  A304: Telemental Health
                                                                                      Support for TBI Patients.
Army...............................  Traumatic Brain Injury  Quality...............  A105: TBI Training
                                                                                      Conference.
Army...............................  Traumatic Brain Injury  Quality...............  A209: Clinical Practice
                                                                                      Guidelines Development
                                                                                      Army Quality Management
                                                                                      Office.
Army...............................  Traumatic Brain Injury  Quality...............  A210: Custom helmets.
Army...............................  Traumatic Brain Injury  Quality...............  A211: Drug therapy
                                                                                      monitoring.
Army...............................  Traumatic Brain Injury  Quality...............  A212: Fabrication of
                                                                                      sunglasses.
Army...............................  Traumatic Brain Injury  Quality...............  A217: Occupational Therapy
                                                                                      (0T) Rehabilitation life
                                                                                      skills equipment pilot.
Army...............................  Traumatic Brain Injury  Quality...............  A219: Physical Therapy (PT)
                                                                                      and OT Rehabilitation
                                                                                      equipment.
Army...............................  Traumatic Brain Injury  Quality...............  A220: Radiology equipment.
Army...............................  Traumatic Brain Injury  Quality...............  A222: Rehabilitation
                                                                                      equipment.
Army...............................  Traumatic Brain Injury  Quality...............  A302: TBI Education
                                                                                      Programs.
Army...............................  Traumatic Brain Injury  Quality...............  A303: TBI On-Line Training
                                                                                      for all providers.
Army...............................  Traumatic Brain Injury  Quality...............  A301: Site Certification.
Army...............................  Traumatic Brain Injury  Surveillance..........  A223: Screening Teams for
                                                                                      TBI (Surge).
Army...............................  Traumatic Brain Injury  Resilience............  A306: Marketing strategy
                                                                                      development &
                                                                                      Implementation.
Army...............................  Traumatic Brain Injury  Surveillance..........  A213: Pure Edge Tool
                                                                                      (Formerly ICD-9 Coding
                                                                                      Implementation).
Army...............................  Traumatic Brain Injury  Surveillance..........  A214: Initial Treatment
                                                                                      Teams.
Army...............................  Traumatic Brain Injury  Surveillance..........  A216: Neuro-cognitive
                                                                                      assessment.
Army...............................  Traumatic Brain Injury  Transition............  A305: Personal tele-
                                                                                      recovery for TBI patients.
Navy...............................  Psychological Health..  Access to Care........  Hire Staff.
Navy...............................  Psychological Health..  Access to Care........  102: Headquarters MH
                                                                                      Management Staff Office.
Navy...............................  Psychological Health..  Access to Care........  101: License Training for
                                                                                      Substance Abuse Counselors
                                                                                      (Hazelden).
Navy...............................  Psychological Health..  Access to Care........  100: Telehealth.
Navy...............................  Psychological Health..  Quality...............  12: Neuro-cog combat stress
                                                                                      toolbox.
Navy...............................  Psychological Health..  Quality...............  94: Combat Stress First Aid
                                                                                      and Combat Loss.
Navy...............................  Psychological Health..  Quality...............  48: Combat/Operational
                                                                                      Stress Control (COSC)
                                                                                      Training for Non-mental
                                                                                      health medical Staff.
Navy...............................  Psychological Health..  Quality...............  7: PH Training for Shore
                                                                                      Primary Care Providers--
                                                                                      Phase I segment.
Navy...............................  Psychological Health..  Quality...............  63: Operational Stress,
                                                                                      Control and Readiness
                                                                                      Immediate Training.
Navy...............................  Psychological Health..  Quality...............  7: PTSD Training for
                                                                                      Primary Care Providers--
                                                                                      Phase II segment.
Navy...............................  Psychological Health..  Quality...............  3: United States Navy
                                                                                      Center for Study of Combat
                                                                                      Stress.
Navy...............................  Psychological Health..  Quality...............  6: COSC and Psych Health
                                                                                      1st aid for mental health
                                                                                      caregivers.
Navy...............................  Psychological Health..  Quality...............  48: COSC and Psych Health
                                                                                      1st aid for non-mental
                                                                                      health caregivers.
Navy...............................  Psychological Health..  Quality...............  98: Training for caregivers
                                                                                      in the areas of TBI,
                                                                                      Resilience, morale/Psych
                                                                                      injury, and Family Care.
Navy...............................  Psychological Health..  Resilience............  57: Family Resilience
                                                                                      Training (FOCUS).
Navy...............................  Psychological Health..  Resilience............  66: Promoting resilience in
                                                                                      the face of combat loss.
Navy...............................  Psychological Health..  Resilience............  67: Combat Stress First
                                                                                      Aid.
Navy...............................  Psychological Health..  Resilience............  11: Assessment of Family
                                                                                      Function.
Navy...............................  Psychological Health..  Resilience............  65: Promotion Recovery from
                                                                                      Combat Stress Injury for
                                                                                      Marines.
Navy...............................  Psychological Health..  Resilience............  93: SEAL Family Care.
Navy...............................  Psychological Health..  Resilience............  109: Training & Curricula
                                                                                      for Operational Stress
                                                                                      Control and Readiness.
Navy...............................  Psychological Health..  Resilience............  51: Caregiver Resiliency
                                                                                      Multimedia Production.
Navy...............................  Psychological Health..  Resilience............  64: Marine Corps Warrior
                                                                                      Transition Videos.
Navy...............................  Psychological Health..  Resilience............  11: Assessment & Treatment
                                                                                      of Wounded Warriors
                                                                                      Families.
Navy...............................  Psychological Health..  Resilience............  53: Caregiver Resiliency
                                                                                      Focus Group.
Navy...............................  Psychological Health..  Resilience............  91: Returning Warrior
                                                                                      Workshop.
Navy...............................  Psychological Health..  Surveillance..........  89: Navy/Marine Corps
                                                                                      Combat Trauma Registry
                                                                                      Deployment Health
                                                                                      Database.
Navy...............................  Psychological Health..  Transition............  95: Case Management for
                                                                                      Wounded Warrior
                                                                                      Battalions.
Navy...............................  Psychological Health..  Transition............  96: PH/TBI Coordination
                                                                                      Office Headquarters.
Navy...............................  Psychological Health..  Transition............  60: Wounded Warrior
                                                                                      Outreach Center.
Navy...............................  Psychological Health..  Transition............  90: Navy Reserves PH and
                                                                                      Department of Public
                                                                                      Health Coordinators.
Navy...............................  Psychological Health..  Transition............  31: Case Managers.
Navy...............................  Traumatic Brain Injury  Access to Care........  Hire Staff.
Navy...............................  Traumatic Brain Injury  Quality...............  76: TBI Training
                                                                                      Conference.
Navy...............................  Traumatic Brain Injury  Quality...............  119: Frame of Choice
                                                                                      (Glasses).
Navy...............................  Traumatic Brain Injury  Quality...............  85: Portable Computed
                                                                                      Tomography Scanner.
Navy...............................  Traumatic Brain Injury  Quality...............  84: TBI Training Digital
                                                                                      Versatile Disc (DVD).
Navy...............................  Traumatic Brain Injury  Quality...............  82: Clinical Pastoral Care
                                                                                      EBP for TBI/PTSD patients.
Navy...............................  Traumatic Brain Injury  Resilience............  49: Compassion Fatigue
                                                                                      Training.
Navy...............................  Traumatic Brain Injury  Surveillance..........  52: Surveillance of Naval
                                                                                      PH and TBI at Naval Health
                                                                                      Research Center.
Navy...............................  Traumatic Brain Injury  Surveillance..........  110: Naval Special Warfare
                                                                                      Special Operations Forces
                                                                                      Mild TBI Field Screen.
Navy...............................  Traumatic Brain Injury  Transition............  108: Headquarters United
                                                                                      States Marine Corps
                                                                                      Management Staff.
AF.................................  Psychological Health..  Access to Care........  AF204: Clinical care for
                                                                                      domestic violence.
AF.................................  Psychological Health..  Access to Care........  AF207: Hire Staff to
                                                                                      Staffing Model.
AF.................................  Psychological Health..  Access to Care........  AF208: Headquarters MH
                                                                                      Management Staff Office.
AF.................................  Psychological Health..  Access to Care........  AF212: Telehealth Care
                                                                                      Delivery.
AF.................................  Psychological Health..  Access to Care........  AF328: Air Force Reserve
                                                                                      Command Director of PH.
AF.................................  Psychological Health..  Quality...............  AF105: Virtual Reality
                                                                                      Equipment for PTSD
                                                                                      treatment.
AF.................................  Psychological Health..  Quality...............  AF209: PTSD Clinician
                                                                                      Training.
AF.................................  Psychological Health..  Quality...............  AF210: PTSD Training
                                                                                      Materials.
AF.................................  Psychological Health..  Quality...............  AF325: Seats at Center for
                                                                                      Deployment Psych.
AF.................................  Psychological Health..  Resilience............  AF101: Alcohol Abuse
                                                                                      Education & Training.
AF.................................  Psychological Health..  Resilience............  AF102: Community Resilience
                                                                                      Grants.
AF.................................  Psychological Health..  Resilience............  AF103: Culture of
                                                                                      Responsibility-Resilience
                                                                                      Training for Service
                                                                                      members.
AF.................................  Psychological Health..  Resilience............  AF104: Leaders Education on
                                                                                      PH and Pocket Guide.
AF.................................  Psychological Health..  Resilience............  AF205: Community Based
                                                                                      Support for Deployment.
AF.................................  Psychological Health..  Resilience............  AF206: Family Reintegration
                                                                                      Workshop.
AF.................................  Psychological Health..  Resilience............  Behavioral Health
                                                                                      Optimization in Primary
                                                                                      Care Program.
AF.................................  Psychological Health..  Resilience............  Motivational Interviewing
                                                                                      Training.
AF.................................  Psychological Health..  Surveillance..........  AF201: Cognitive Assessment
                                                                                      Devices.
AF.................................  Psychological Health..  Surveillance..........  AF202: Surveillance
                                                                                      Expertise.
AF.................................  Psychological Health..  Surveillance..........  AF203: Baseline
                                                                                      psychological testing for
                                                                                      recruits.
AF.................................  Psychological Health..  Surveillance..........  AF211: Substance Abuse
                                                                                      Training Tool.
AF.................................  Traumatic Brain Injury  Access to Care........  AF215: Telehealth Care
                                                                                      Delivery.
AF.................................  Traumatic Brain Injury  Quality...............  AF106: TBI Training
                                                                                      Conference.
AF.................................  Traumatic Brain Injury  Quality...............  AF214: Outpatient Neuro-cog
                                                                                      rehab training.
AF.................................  Traumatic Brain Injury  Surveillance..........  AF320: Web Based
                                                                                      Neurocognitive Screening.
AF.................................  Traumatic Brain Injury  Transition............  AF213: Case Management.
TMA................................  Psychological Health..  Access to Care........  D209: Center of Excellence--
                                                                                      Telehealth.
TMA................................  Psychological Health..  Access to Care........  D210: Public Health Service
                                                                                      Officers.
TMA................................  Psychological Health..  Access to Care........  D211: TRICARE Healthcare
                                                                                      Finder.
TMA................................  Psychological Health..  Joint Support.........  D201: Center of Excellence.
TMA................................  Psychological Health..  Joint Support.........  D204: Red Cell Support.
TMA................................  Psychological Health..  Quality...............  D205: Training for TRICARE
                                                                                      Providers.
TMA................................  Psychological Health..  Resilience............  D212: Sesame Street.
TMA................................  Psychological Health..  Resilience............  D306: Suicide Prevention
                                                                                      and Risk Reduction
                                                                                      Committee Conf and anti-
                                                                                      stigma.
TMA................................  Psychological Health..  Resilience............  D307: State Directors of
                                                                                      PH.
TMA................................  Psychological Health..  Surveillance..........  D202: Automated Behavioral
                                                                                      Health Clinic Program.
                                     Psychological Health..  Surveillance..........  D213: Study-Population
                                                                                      Based Staffing Model for
                                                                                      MH Services.
TMA................................  Psychological Health..  Surveillance..........  D305: TRICARE Management
                                                                                      Activity Patient
                                                                                      Satisfaction Survey for
                                                                                      Programs funded by Supp.
                                                                                      Funding.
TMA................................  Psychological Health..  Transition............  D301: TRICARE Regional
                                                                                      Office North: Recurring
                                                                                      town hall meetings.
TMA................................  Traumatic Brain Injury  Joint Support.........  D207: Red Cell Support.
TMA................................  Traumatic Brain Injury  Surveillance..........  D206: Integration of Neuro-
                                                                                      cog tool into Theater
                                                                                      Medical Information
                                                                                      Program.
TMA................................  Traumatic Brain Injury  Surveillance..........  D208: TBI Registry into
                                                                                      Center of Excellence.
TMA................................  Traumatic Brain Injury  Surveillance..........  A216: Neuro-cognitive
                                                                                      assessment.
----------------------------------------------------------------------------------------------------------------

    Question: Are you engaging the States to assist in closing gaps 
that exist?
    Answer: The Chief fo the National Guard Bureau identified a Public 
Health Service officer, Captain Joan Hunter, to serve as the ``Director 
of Psychological Health'' beginning in early March. Her 
responsibilities will be consistent with those recommended by the 
Mental Health Task Force. She will be instrumental in working with the 
States and in identifying gaps in services and coordinating resources 
and effecting policies to help close those gaps.
    In addition, the Defense Center of Excellence (DCoE) for 
Psychological Health and Traumatic Brain Injury has developed a 
strategy that includes interacting with the States through their 
Reserve component affiliates, medical and academic organizations, and 
State and local government stakeholder organizations. The Reserve 
components were actively involved in a recently conducted DCoE 
strategic planning conference, where the strategy for engaging State 
National Guard and Reserve units through telehealth was planned. As the 
DCoE expands its network of affiliates, both State and local 
governmental organizations will be invited to participate.

                            Wounded Warriors

    Question: As part of its efforts to improve Wounded Warrior care, 
the Army established 32 Warrior Transition Units to provide a unit in 
every medical treatment facility that has 35 or more eligible service 
members. Challenges have emerged in filling these 2,410 positions. As 
of September 13th, only 35% have been permanently assigned, 19% have 
been temporarily borrowed from other areas with in the Army and the 
remaining 47% remain unfilled.
    How is the remaining 47% being filled?
    Answer: To date, the Army has established 35 WTUs. On February 1, 
2008, senior commanders at all installations with WTUs reported that 
all 35 WTUs had attained full operational capability. The Army expects 
to have approximately 2,586 military and civilian personnel assigned or 
attached as cadre to these WTUs by mid-March. Of this number, 267 (10.3 
percent) represent borrowed military manpower (BMM). This compares to 
20.5 percent BMM as reported by the Government Accountability Office in 
its September 2007 testimony before the House Committee on Oversight 
and Government Reform Subcommittee on National Security and Foreign 
Affairs. Although combined authorized strength for all WTUs is 2,434, 
we have assigned an additional 152 personnel. These additional 
personnel demonstrate the Army's commitment to maintain established 
ratios of staff to warriors in transition to ensure provision of the 
best possible care.
    Question: What are your plans to accelerate the hiring of 
``fulltime'' people for these positions?
    Answer: Our 35 Warrior Transition Units (WTUs) will be staffed with 
2,586 personnel, which exceeds the authorized strength of 2,434 by 152 
personnel. These additional personnel demonstrate the Army's commitment 
to maintain established ratios of staff to warriors in transition to 
ensure provision of the best possible care. Only 267 positions (10.3 
percent) are being filled on a temporary basis by borrowed military 
manpower. All civil service positions not permanently filled are being 
actively recruited as preferred positions on the Office of Personnel 
Management's USAJOBS website. For health care professional positions, 
the enhanced hiring authority authorized by Congress in the National 
Defense Authorization Act for Fiscal Year 2008 provides the Army the 
opportunity to better compete for these critical positions. 
Additionally, the Assistant Secretary of the Army for Manpower and 
Reserve Affairs recently established a team to develop effective 
strategies for successfully recruiting and retaining WTU staff.
    Question: Is there any correlation to the soldiers ``falling 
through the cracks'' and the lack of fully assigning the 2,410 
positions?
    Answer: The Army currently has an additional 152 personnel assigned 
as Warrior Transition Unit (WTU) staff over the combined authorized 
strength for WTUs of 2,434. These additional personnel demonstrate the 
Army's commitment to maintain established ratios of staff to warriors 
in transition to ensure provision of the best possible care.
    Question: What issues are surfacing with establishment of the 
Warrior Transition Units?
    Answer: The most significant challenge in establishing WTUs is the 
recruitment, assignment, and development of a fully-trained and 
committed staff for all 35 WTUs. It has taken a great deal of effort 
over a short period of time to ensure that each member of the WTU staff 
understands the unique demands and challenges of caring for wounded, 
ill, and injured Service members requires, as well as possess the 
courage, commitment, compassion, and dedication required to meet these 
challenges. The Army remains committed to meeting these challenges by 
providing the resources, facilities, and training that WTU staff, 
warriors in transition (WT), and their family members require to 
recover, rehabilitate, and reintegrate to continue military service or, 
as veterans, prepare to be productive and successful citizens.
    Forecasting and managing the growth of the WT population has been 
challenging. The population of WTs has grown substantially over the 
past year. The current Table of Distribution and Allowances for the 
WTUs was based on a total population of 10,000 WTs. We forecast that 
the population could rise to 11,600 WTs within the next few months and 
are taking steps to meet the new demand. We will continue to pursue 
preferred hiring of civilian positions; and hope to leverage the hiring 
authorities established in the Fiscal Year 2008 National Defense 
Authorization Act. We are currently performing an in-depth manpower 
audit to determine WTU staffing requirements. This systematic approach 
will form the basis for future staffing determinations and will ensure 
optimum staff ratios based on actual patient acuity.
    In addition to the ongoing challenge of sustaining and improving 
this program, there remains a requirement to fund and complete 
necessary construction of accessible housing, adequate administrative 
facilities, and Soldier Family Assistance Centers, all developed in 
close proximity to each other and to the military treatment facility to 
create WT complexes. These complexes will provide WTs and their 
families ease of access to the care and support they require.

            Interview With Military Medicine/NBC Technology

    Question: Dr. Casscells, in your interview with Military Medicine/
NBC Technology (Jan/Feb 2008) you state ``in December 2007 the 
Department announced the enterprise-wide release of enhancements to the 
systems that allow DoD to share electronic health information with the 
VA, namely the Bidirectional Health Information Exchange and the 
Clinical Data Repository/Health Data Repository Interfaces.''
    Are you telling this Committee that since your appointment as 
Secretary in April 2007 you have only accomplished two initiatives?
    Answer: In the article, I mentioned a range of undertakings that 
military medicine has successfully accomplished since April 2007, from 
the ongoing gallant and often heroic efforts of health care providers 
in Iraq and Afghanistan to humanitarian medical missions in Bangladesh, 
South America, and the Caribbean region. Moreover, the progress in 
sharing a patient's medical information electronically between the VA 
and DoD since April 2007 can be gauged by the number of successful 
initiatives that have taken place since then. Of these initiatives, the 
Bidirectional Health Information Exchange and the Clinical Data 
Repository/Health Data Repository Interfaces are two. Other successful 
initiatives have been:
    Federal Health Information Exchange (FHIE)
          <bullet> The transfer of medical information to the FHIE 
        repository increased from over 3.6 million patients to over 3.9 
        million patients' medical information
    Deployment Health
          <bullet> Pre- and Post-deployment Health Assessments and 
        Post-deployment Health Reassessments (PDHRA) available to the 
        VA increased from more than 1.4 million to over 1.7 million 
        forms
          <bullet> Assessments increased from over 604,000 to over 
        706,000 individuals
          <bullet> Began PDHRA monthly data transmissions
          <bullet> Began PDHRA weekly transmissions for individuals to 
        be referred to VA for care or evaluation
          <bullet> New Capabilities
                  <bullet> PDHRA Implementation
          <bullet> DoD/VA Wounded Warrior Medical Image and Scanned/
        Electronic Document (ISDS) Sharing Initiative-Electronic 
        Transfer of Radiology Images and Scanned Medical Records from 
        Walter Reed Army Medical Center (WRAMC), National Naval Medical 
        Center Bethesda (NNMC), and Brooke Army Medical Center (BAMC) 
        to the VA Polytrauma Centers (Tampa, Richmond, Palo Alto, and 
        Minneapolis) in support of the most severely wounded and 
        injured Service members transferring to VA Polytrauma Centers 
        for care
          <bullet> DoD started sending radiology images and scanned 
        paper medical records electronically from WRAMC, NNMC, and BAMC 
        to the VA Polytrauma Centers
          <bullet> WRAMC, NNMC, and BAMC transferred images for 33 
        patients to VA Polytrauma Centers
          <bullet> WRAMC and Bethesda transferred 38 scanned medical 
        records to VA Polytrauma Centers
    Laboratory Data Sharing Initiative (LDSI)
          <bullet> LDSI operational sites increased from 7 sites to 9 
        sites
          <bullet> Anatomic Pathology and microbiology testing 
        completed at El Paso, San Antonio, and Pensacola
          <bullet> National Defense Authorization Act San Antonio 
        demonstration site became operational with Anatomic Pathology 
        and Microbiology
          <bullet> New Capabilities:
                  <bullet> Electronic order entry and results retrieval 
                of anatomic pathology and microbiology
    DoD/VA Joint Inpatient Electronic Health Record
          <bullet> A contract to perform a study for the Joint DoD/VA 
        Inpatient Electronic Health Record (EHR) Project was awarded to 
        Booz Allen Hamilton. The study will assess the new clinical and 
        business application in VA and DoD requirements inventory 
        relevant to the inpatient EHR for potential joint application. 
        Specifically, the study will assess VA and DoD business and 
        clinical processes, design features, and system constraints 
        relevant to the inpatient component of an EHR. An analysis of 
        alternatives will then be conducted to develop a recommendation 
        for the best technical approach. The results of this analysis 
        are due in June 2008.
    Other data sharing accomplishments included:
          <bullet> Development of high-level requirements and cost-
        estimates for 18 information technology requirements in support 
        of business Lines of Action
          <bullet> DoD made theater clinical care data accessible to VA 
        providers. The ability to view theater clinical data from both 
        outpatient encounters and inpatient stays further ensures 
        continuity of care for our wounded warriors
          <bullet> The capability became operational for Providers to 
        view ambulatory encounters/clinical notes, procedures, and 
        problem lists via the Bidirectional Health Information 
        Exchange. Increasing the number of shared patients with real-
        time, bidirectional information available to DoD and VA 
        providers enhances continuity of care for patients treated by 
        both Departments
          <bullet> Inpatient discharge summaries from Landstuhl 
        Regional Medical Center (inpatient mental health) became 
        available to VA providers for those patients transferred to VA
          <bullet> The capability enabling the exchange of computable 
        outpatient pharmacy and medication allergy data was made 
        available to all DoD sites. The exchange of computable 
        outpatient pharmacy and medication allergy data enables drug-
        drug interaction checking and drug-allergy checking using 
        consolidated pharmacy and allergy data from both Departments
          <bullet> DoD expanded available Veterans' Group Life 
        Insurance/Service Members' Group Life Insurance benefit 
        eligibility data to Reserve and Active members.
    Question: In the same interview you stated that the Department will 
spend $43 billion from the Defense budget on health care for our 
service members, family members and retirees.
    Is the $43 billion from the base bill?
    Answer: The $43 billion reflects the military health system's total 
Unified Medical Program. The specific amounts that comprise this number 
are included in the table below. The Defense Health Program (DHP) 
Appropriation includes operation and maintenance, research, 
development, test and evaluation, and procurement budget activities. 
The assumed savings, based on the Task Force on the Future of Military 
Health Care Benefit Reform recommendations, were included as a 
legislative proposal. Costs outside of the DHP include military 
construction, Medicare Eligible Retiree Health Care Fund Normal Cost 
Contributions, and salary for military personnel.

------------------------------------------------------------------------
                                                            Fiscal Year
                                                               2009
                      Appropriation                         President's
                                                              Budget
                                                            (millions)
------------------------------------------------------------------------
Operation and Maintenance...............................         $23,117
Procurement.............................................             304
Research, Development, Test and Evaluation..............             194
Military Construction...................................             514
Medicare Eligible Retiree Health Care Fund..............          10,351
Military Personnel......................................           7,100
Task Force Recommended Savings for Health Care Benefit             1,184
 Reform.................................................
                                                         ---------------
    Total Cost of Military Health Care..................          42,764
------------------------------------------------------------------------

    Question: What will the $43 billion provide?
    Answer: The funding will provide the capability for the military 
health system (MHS), which consists of the medical services of the 
Army, Navy (including health care support for both the Navy and the 
Marine Corps), and Air Force, the TRICARE Management Activity, and the 
Office of the Assistant Secretary of Defense for Health Affairs to 
perform its primary missions, which are: (1) deliver quality health 
care benefits to approximately 9.2 million eligible beneficiaries--
Active, Reserve and National Guard service members and their family 
members, plus military retirees (including those eligible for Medicare) 
and their family members; (2) protect the health of the Armed Forces; 
and (3) deploy a trained and ready medical capability for the full 
range of worldwide military operations. The MHS's commitment to be a 
world-class health care system is evident through measurable and 
sustained efforts of providing a fit and protected force; optimizing 
deployable medicine; ensuring wounded warriors are receiving the best 
care, treatment and support throughout recovery, rehabilitation, and 
reintegration; satisfying beneficiaries; and building healthy 
communities under a world-class health benefit. Details on the $43 
billion total Unified Medical Budget are included in the table below.

------------------------------------------------------------------------
                                                            Fiscal Year
                                                               2009
                      Appropriation                         President's
                                                              Budget
                                                            (millions)
------------------------------------------------------------------------
Operation and Maintenance...............................         $23,117
Procurement.............................................             304
Research, Development, Test and Evaluation..............             194
Military Construction...................................             514
Medicare Eligible Retiree Health Care Fund..............          10,351
Military Personnel......................................           7,100
Task Force Recommended Savings for Health Care Benefit             1,184
 Reform.................................................
                                                         ---------------
    Total Unified Medical Budget........................          42,764
------------------------------------------------------------------------

    Question:  You also state that the Department is hiring, training 
and empowering case managers and patient advocates.
    How many case workers and patient advocates have actually been 
hired?
    Answer: The military health system's (MHS) clinical case managers 
are registered nurses or social workers. The numbers available 
represent a mix of military, civilian, and contract case managers. 
Following are the number of MHS clinical case managers:
    Air Force: Number of available clinical case managers: 147 (for all 
types of beneficiaries)
    Army: Number of Warrior Transition Unit case managers: 470
    Navy: Number of available clinical case managers: 133 (for all 
types of beneficiaries)
    The Department of Defense (DoD) MHS case management (CM) 
initiatives reflect the DoD's commitment to providing the assistance 
and support required to meet the challenges that confront our severely 
injured and wounded Service members and their families. The goal of our 
CM effort is to improve the delivery of safe, high quality, and timely 
medical care to wounded, ill, and injured (WII) Service members through 
the seamless provision of CM services in both the DoD and Department of 
Veterans Affairs systems.
    The TRICARE Management Activity (TMA), Military Service-designated 
CM representatives, and Health Affairs developed DoD clinical CM policy 
for WII Service members (``Interim Policy for Implementation of 
Clinical Case Management,'' Draft 2008). Major policy elements include 
WII identification criteria, description of the Federal Recovery 
Coordination Program, data capture requirements, reporting, training, 
and CM documentation guidance.
    As part of the DoD CM policy, TMA and Service representatives have 
established medical expense and performance reporting System evaluation 
and management codes for clinical case managers across all three 
Services. This will allow for the identification and tracking of 
clinical case managers using the Management Analysis and Reporting 
Tool. Furthermore, this will ultimately capture the total number of 
case managers throughout the MHS, number of patients receiving 
facility-based case management care, and number of Active component 
personnel receiving case management care through Service-specific 
wounded warrior programs.
    Question: How many are physically located at installations helping 
soldiers transition?
    Answer: Presently, the TRICARE Management Activity and Health 
Affairs are gathering additional data on the distribution of clinical 
case managers from the military services. This information should be 
available mid-April 2008.

                        Questions From Statement

    Question: In your collective statement, you state that the 
Department has established a comprehensive plan of action based on a 
vision for the future and a strategic plan with five guiding 
principles.
    Can you outline this plan for the Committee?
    Answer: The Department of Defense's strategic plan for providing 
excellence in protection, prevention, diagnosis, treatment, recovery, 
and care transition for our Service members and their families who 
experience mental health conditions or traumatic brain injury as a 
result of the global war on terror is based on five guiding principles:
    1. Furnish strong, visible leadership and the resources necessary 
to provide for Service members who experience traumatic brain injury 
(TBI) or psychological health (PH) concerns and conditions;
    2. Create, disseminate, and maintain excellent standards of care 
across the Department;
    3. When best practices or evidence-based recommendations are not 
readily available, conduct pilot or demonstration projects to better 
inform quality standards;
    4. Monitor and revise the access, quality, and fidelity of program 
implementation to ensure standards are executed and quality is 
consistent; and
    5. With constant attention to the needs of our Service members and 
their families, construct a system in which each individual may expect 
and receive the same level of service and quality of service regardless 
of Service, Component, status, or geographic location.
    We developed seven major initiatives consistent with these guiding 
principles. The initiatives will turn strategy to action and include:
    1. Leadership and Advocacy--The health of the force and the 
community is a leadership responsibility. We are working first and 
foremost to build a strong culture of leadership and advocacy.
    2. Quality of Care--Quality care requires that we develop and 
ensure consistent standards and excellently trained clinicians both in 
our military treatment facilities and in the TRICARE provider network.
    3. Access to Care--Ensuring easy, timely access to the full 
continuum of care, regardless of location, calls for an increase in 
health care providers and expanded telehealth services for hard-to-
serve areas and populations. We have funded Service-specific telehealth 
initiatives and will coordinate standards and expand access through a 
centralized focus on telehealth and technology incorporated into the 
Defense Center of Excellence.
    4. Resilience Promotion--Our goal is to build strong minds and 
strong bodies. That requires solid prevention and protection, in 
addition to diagnosis and treatment. For this reason, we focus on PH, 
which includes the full continuum--removing or mitigating 
organizational risk factors, strengthening individual and family health 
and wellness, and traditional clinical diagnosis and treatment.
    5. Screening and Surveillance--Our objective is to ensure early 
identification for individual conditions and concerns to afford the 
earliest possible intervention; identify trends as they emerge in the 
community so population-based changes may be made; and provide a solid 
structure for information management.
    6. Transition and Coordination of Care--We are partnering with 
federal agencies, including the Department of Veterans Affairs and the 
Department of Health and Human Services, as well as our TRICARE managed 
care support contactors, to ensure there are no gaps in care as 
patients transition through various systems of care or transition to 
different duty stations or geographic locations.
    7. Research and Development--We have expanded the research 
opportunities for PH and TBI to establish a strong foundation of 
medical and cross-functional research. We will continuously improve as 
researchers report findings and new information that shapes and 
reshapes our vision of the future.
    Question: What has been accomplished to date?
    Answer: The following is a short list of the recent major 
accomplishments in the area of psychological health (PH), Post 
Traumatic Stress Disorder (PTSD) and traumatic brain injury (TBI):
    <bullet> Enhanced and coordinated leadership: The Department formed 
a Senior Oversight Committee, chaired by the Deputy Secretary of the 
Department of Defense and the Deputy Secretary of the Department of 
Veterans Affairs (VA). This high-level committee meets weekly and 
established Lines of Action items to develop and implement detailed 
plans to address TBI and PTSD. The committee continues to provide 
oversight to ensure success in execution.
    <bullet> In November 2007, the Department established the Defense 
Center of Excellence (DCoE), which commenced operations.
    <bullet> Planning for the National Intrepid Center of Excellence 
(anticipated completion in fall 2009), a building funded by the 
Intrepid Fallen Heroes Fund to house the DCoE that will be located on 
the Bethesda, Maryland campus adjacent to the new Walter Reed National 
Military Medical Center.
    <bullet> TBI training course attended by more than 800 providers, 
including VA providers.
    <bullet> Aggressive hiring efforts designed to increase staff by 
more than 750 mental health providers and about 95 support personnel 
across the Department. All funds for these providers have been 
distributed to the Services for their execution. They will be a mix of 
civil service and contract personnel. The military treatment facility 
commanders have direct hire authority and will be increasing their 
staff through local means to meet any unique demands in their 
community.
    <bullet> The managed care support contractors have added more than 
3,000 new mental health providers to the TRICARE network across the 
three regions.
    <bullet> Added questions to both the Post-deployment Health 
Assessment and Post-deployment Health Reassessment to facilitate TBI 
screening.
    <bullet> Deployment of initial identification teams at high-density 
deployment platforms to ensure screening is accomplished in a 
consistent manner and to further evaluate and treat those who screen 
positive.
    <bullet> The Marine Corps created a robust call center within its 
Wounded Warrior Regiment to follow up on Marines diagnosed with TBI and 
PH concerns to ensure they are successfully maneuvering the healthcare 
system until their full recovery or transition to the VA.
    <bullet> The Navy is hiring PH coordinators to work with their 
returning reservists, and the National Guard is hiring Directors of PH 
to put at each State headquarters to help coordinate the care of 
guardsmen who have TBI/PH injuries or illness related to their 
mobilization.
    <bullet> Completion of scientific peer review of all submitted 
proposals and programmatic review for several awards, including a 
recommended priority list for funding.
    Question: When will this plan and process been turned in to action 
and care for the soldiers and their families?
    Answer: We are already taking action on many fronts to implement 
our strategic plan. The following are a few highlights of recent 
accomplishments:
    The Defense Center of Excellence (DCoE) for Psychological Health 
(PH) and Traumatic Brain Injury (TBI) opened its doors in November 2007 
and is already:
    1. Mounting an anti-stigma campaign projected to begin this Spring 
through a national collaborative network that includes partnering with 
the Uniformed Services University for the Health Sciences, the National 
Institutes of Health (NIH), the Department of Veterans Affairs (VA), 
the Substance Abuse and Mental Health Services Agency, our coalition 
partners, and others in the public and private sectors;
    2. Establishing effective outreach and educational initiatives, 
including creating an information clearinghouse, public web site, a 
wide-reaching newsletter, and a 24/7 call center that will allow any 
Service member or family member who needs assistance in navigating the 
system of care to get help with a single phone call. The call center 
would equally serve clinicians across the Department with questions 
concerning clinical practices, training, or standards of care in the 
area of PH and TBI;
    3. Promulgating a telehealth network for clinical care, monitoring, 
support, and follow-up;
    4. Coordinating an overarching program of research that is relevant 
to the needs of the field, in coordination with other Department of 
Defense organizations, VA, NIH and other partners;
    5. Providing training programs aimed at providers, line leaders, 
families, and community leaders; and
    6. Designing and planning for the National Intrepid Center of 
Excellence (anticipated completion in Fall 2009), a building funded by 
the Intrepid Fallen Heroes Fund to house the DCoE that will be located 
on the Bethesda campus adjacent to the new Walter Reed National 
Military Medical Center.
    Our quality of care initiative is progressing as evidenced by the 
following activities. We funded a TBI training course attended by more 
than 800 providers, including VA providers. We will repeat this 
training in 2008 to provide a basic level of understanding of mild-TBI 
to as many health care providers as possible. Over the coming months, 
we will be consolidating and standardizing these training efforts under 
the DCoE umbrella. In 2008, we will be updating clinical practice 
guidelines, and enhancing screening, diagnosis, and recovery support 
for Service members and their families.
    Another key initiative, access to care, has received focused 
attention. In 2007, we issued new policy that reiterated that patients 
should be scheduled for initial primary appointments within seven days 
of request.
    In terms of civilian and contract providers, we are increasing our 
mental health staff by more than 750 mental health providers and about 
95 support personnel across the Department. All funds for these 
providers have been distributed to the Services for their execution. 
They will be a mix of civil service and contract personnel. The 
military treatment facility commanders have direct hire authority and 
will be increasing their staff through local means to meet any unique 
demands in their community.
    Within the past few months, the managed care support contractors 
have added more than 3,000 new mental health providers to the TRICARE 
network across the three regions.
    In an effort to identify all who need care the screening and 
surveillance initiative promotes the use of consistent and effective 
assessment practices along with accelerated development of electronic 
tracking, monitoring, and management of PH and TBI conditions and 
concerns.
    We added questions to both the Post-deployment Health Assessment 
and Post-deployment Health Reassessment to facilitate TBI screening. We 
also are supporting initial identification teams at high-density 
deployment platforms to ensure screening is accomplished in a 
consistent manner and to further evaluate and treat those who screen 
positive.
    We will move toward incorporating baseline neurocognitive 
assessments into our lifecycle health assessment procedures from access 
through retirement.
    Several key programs are supporting our transition and coordination 
of care initiative. The Marine Corps created a robust call center 
within its Wounded Warrior Regiment to follow up on Marines diagnosed 
with TBI and PH concerns to ensure they are successfully maneuvering 
the health care system until their full recovery or transition to the 
VA. The Navy is hiring PH coordinators to work with their returning 
reservists, and the National Guard is hiring Directors of PH to put at 
each State headquarters to help coordinate the care of Service members 
who have TBI/PH injuries or illness related to their mobilization.
    Information sharing is a critical part of care coordination. The 
DCoE is also tasked with implementing telehealth and technology systems 
that will assist in documentation and in sharing of information, as 
well as tracking and coordinating care for war-fighters and their 
families as they transition back to their hometowns.
    Our research and development initiative resulted in the Post 
Traumatic Stress Disorder (PTSD)/TBI Research Program, which challenged 
the scientific community to design innovative research that will foster 
new directions for, address neglected issues in, and bring new 
investigators into the fields of PTSD- and TBI-focused research.
    We recently completed scientific peer review of all submitted 
proposals and programmatic review for several awards, including a 
recommended priority list for funding. The Department is pleased that 
the response to this solicitation for research was very robust.
    The final programmatic review for the Clinical Consortium, Advanced 
Technology-Therapeutic Development and Multidisciplinary Research 
Consortium Award mechanisms will occur in early March 2008. This 
timeline for execution is on schedule with the time period briefed to 
Congress in September 2007.
    Question: You also discuss a Senior Oversight Committee headed by 
the Deputy Secretary of Defense and the Deputy Secretary of Veterans 
Affairs that meets weekly to plan and monitor the work being 
accomplished.
    What are they monitoring if nothing has been implemented and you 
have only spent $53 million?
    Answer: The Senior Oversight Committee oversees nine Lines of 
Action (LOAs) items, each addressing some of the recommendations of the 
various task forces, such as the ``The President's Commission on Care 
for America's Returning Wounded Warriors.'' It keeps apprised of the 
progress of all the initiatives in each LOA for wounded, ill, and 
injured Service members, not just issues related to psychological 
health and traumatic brain injury (Line of Action #2).
    The initial focus of this Committee was to make decisions on the 
approaches for integrating and accommodating the many recommendations 
received from the outside commissions and task forces on wounded 
warrior care. The current focus is to provide oversight on progress in 
implementing these decisions including evaluating and redirecting 
efforts to ensure compliance with the National Defense Authorization 
Act for Fiscal Year 2008 provisions for wounded warrior care.
    Question: Who does the Committee report to?
    Answer: The Secretary of the Department of Defense and the 
Secretary of the Department of Veterans Affairs.
    Question: How are their findings and changes implemented?
    Answer: The Department of Defense (DoD) will revise policy, 
prioritize projects, recommend changes in legislation, and align and 
coordinate efforts between the DoD and the Department of Veterans 
Affairs.
    Question. You have established a spend plan monitoring program and 
a monthly reporting requirement.
    What does this report provide and to whom?
    Answer: We provide to the House and Senate Appropriations Committee 
staff a monthly update of the spend plan for the supplemental 
appropriations funding we received for psychological health and 
traumatic brain injury. That spend plan includes a monthly plan for 
expenditure along with the amount actually obligated and disbursed. A 
copy of the most recent report follows:

[GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]

    Question: How does the planned rate of expenditure compare to 
actual expenditure?
    Answer: The actual expenditures are lower than planned.

    [Clerk's note.--End of questions submitted by Mr. Murtha.]


                            W I T N E S S E S 

                              ----------                              
                                                                   Page
Beardall, Charles................................................   147
Casscells, S. W..................................................   255
Corley, General J. D. W..........................................   215
Embrey, E. P.....................................................   255
Kicklighter, Lieutenant General C. M.............................   147
Moseley, General T. M............................................   215
Quinn, D. M......................................................     1
Robinson, Vice Admiral A. M......................................   291
Roudebush, Lieutenant General (Dr.) J. G.........................   291
Schoomaker, Lieutenant General E. B..............................   291
Thompson, Lieutenant General N. R................................     1
Ugone, Mary......................................................   147
Walker, D. M.....................................................    93

                                  <all>


</pre></body></html>
